APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Order and Judgment in
the United States District Court for
the Southern District of Ohio, Western
Division, Ohio A. Philip Randolph
Institute v. Householder, No.
1:18-cv-357
(S.D. Ohio May 3, 2019),
ECF No. 262 . . . . . . . . . . . . . . . . . App. 1
Appendix B Notice of Appeal in the United States
District Court for the Southern
District of Ohio, Western Division,
Ohio A. Philip Randolph Institute v.
Householder, No. 1:18-cv-357
(S.D. Ohio May 6, 2019),
ECF No. 267 . . . . . . . . . . . . . . . App. 409
Appendix C U.S. Const. art. I . . . . . . . . . . . . App. 412
Appendix D U.S. Const. amend. I. . . . . . . . . App. 413
Appendix E U.S. Const. amend. XIV . . . . . . App. 414

App. 1

APPENDIX A
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
No. 1:18-cv-357
[Filed May 3, 2019]
________________________________
OHIO A. PHILIP RANDOLPH
)
INSTITUTE et al.,
)
)
Plaintiffs,
)
)
v.
)
)
LARRY HOUSEHOLDER et al.,
)
)
Defendants.
)
________________________________ )
OPINION AND ORDER
Before: Moore, Circuit Judge; Black and Watson,
District Judges.
TABLE OF CONTENTS
I. BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
A. General Overview of the Facts . . . . . . . . . . . . 5
B. Procedural History . . . . . . . . . . . . . . . . . . . . . 28
II. SUMMARY OF THE EVIDENCE PRESENTED AT
TRIAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

App. 2
A. Plaintiffs’ Fact Witnesses . . . . . . . . . . . . . . .
B. Defendants’ Fact Witnesses. . . . . . . . . . . . . .
C. Plaintiffs’ Expert Witnesses . . . . . . . . . . . . .
D. Defendants’ and Intervenors’ Expert
Witnesses . . . . . . . . . . . . . . . . . . . . . . . . . . . .
III. STANDING . . . . . . . . . . . . . . . . . . . . . . . . . . .
A. Vote-Dilution Claims . . . . . . . . . . . . . . . . . .
B. First Amendment Associational Claim . . . .
C. Article I Claim . . . . . . . . . . . . . . . . . . . . . . .

30
45
55
93

114
115
134
139

IV. JUSTICIABILITY, THE POLITICAL QUESTION
DOCTRINE, AND THE ROLE OF THE FEDERAL
COURTS IN REDISTRICTING. . . . . . . . . . . . . . . 139
A. Justiciability and The Political Question
Doctrine . . . . . . . . . . . . . . . . . . . . . . . . . . . . 139
B. Evidentiary Metrics and Statistics . . . . . . . 149
C. Pragmatic and Historical Considerations . . 154
V. LEGAL STANDARDS AND APPLICATION . .
A. Equal Protection Vote-Dilution Claim . . . .
B. First Amendment Vote-Dilution Claim. . . .
C. First Amendment Associational Claim . . . .
D. Article I Claim . . . . . . . . . . . . . . . . . . . . . . .

166
167
262
263
284

VI. LACHES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 288
VII. REMEDY AND ORDER . . . . . . . . . . . . . . . . 293
APPENDICES OF MAPS
Plaintiffs have brought this action alleging that
H.B. 369, the redistricting plan enacted by the Ohio
General Assembly and signed into law by the Governor
in 2011, constitutes an unconstitutional partisan
gerrymander under the First and Fourteenth

App. 3
Amendments and exceeds the powers granted to the
states under Article I, § 4 of the United States
Constitution. As to the First and Fourteenth
Amendment district-specific claims, we find that
Districts 1–16 were intended to burden Plaintiffs’
constitutional rights, had that effect, and the effect is
not explained by other legitimate justifications.
Moreover, we find that that the plan as a whole
burdens Plaintiffs’ associational rights and that burden
is not outweighed by any other legitimate justification.
Finally, we find that the plan exceeds the State’s
powers under Article I. Therefore, H.B. 369 is an
unconstitutional partisan gerrymander. This opinion
constitutes our findings of fact and conclusions of law
pursuant to Federal Rule of Civil Procedure 52(a)(1).
Due to the length of this opinion, we provide the
reader with the following, more concise summary:
“Partisan gerrymandering” occurs when the
dominant party in government draws district lines to
entrench itself in power and to disadvantage the
disfavored party’s voters. Plaintiffs in this action are
individual Democratic voters from each of Ohio’s
sixteen congressional districts, two non-partisan prodemocracy organizations, and three Democratic-aligned
organizations. They challenge the constitutionality of
Ohio’s 2012 redistricting map. Defendants are Ohio
officials, and Intervenors are Ohio Republican
Congressmen; Defendants and Intervenors both argue
that the Plaintiffs’ claims are not properly before this
Court and defend the map’s constitutionality on the
merits.

App. 4
In 2011, when Ohio’s redistricting process began,
Republican dominance in the Ohio State government
meant that Republican state legislators could push
through a remarkably pro-Republican redistricting bill
without meaningful input from their Democratic
colleagues. Ohio Republicans took advantage of that
opportunity, and invidious partisan intent—the intent
to disadvantage Democratic voters and entrench
Republican representatives in power—dominated the
map-drawing process. They designed the 2012 map
using software that allowed them to predict the
partisan outcomes that would result from the lines they
drew based on various partisan indices that they
created from historical Ohio election data. The Ohio
map drawers did not work alone, but rather national
Republican operatives located in Washington, D.C.
collaborated with them throughout the process. These
national Republicans generated some of the key
strategic ideas for the map, maximizing its likely proRepublican performance, and had the authority to
approve changes to the map before their Ohio
counterparts implemented them. Throughout the
process, the Ohio and national map drawers made
decisions based on their likely partisan effects.
The map drawers focused on several key areas of
the Ohio map where careful map design could eke out
additional safe Republican seats. They split Hamilton
County and the City of Cincinnati in a strange,
squiggly, curving shape, dividing its Democratic voters
and preventing them from forming a coherent voting
bloc, which ensured the election of Republican
representatives in Districts 1 and 2. They drew a new
District 3 in Franklin County, efficiently concentrating

App. 5
Democratic voters together in an area sometimes
referred to as the “Franklin County Sinkhole.” This
strategy allowed them to secure healthy Republican
majorities in neighboring Districts 12 and 15. They
paired Democratic incumbent Representatives Kaptur
and Kucinich to create the infamous “Snake on the
Lake”—a bizarre, elongated sliver of a district that
severed numerous counties. They drew a District 11
that departed from its traditional territory to snatch up
additional African-American Democratic voters in
Summit County, allowing for the creation of a new
District 16 in which a Republican incumbent
representative could defeat a Democratic incumbent
representative. They designed these districts with one
overarching goal in mind—the creation of an Ohio
congressional map that would reliably elect twelve
Republican representatives and four Democratic
representatives.
Ohio Republican legislators enacted the first
iteration of the 2012 map, H.B. 319, in September
2011. Ohio voters then challenged the map, seeking to
subject it to a voter referendum, but their efforts failed.
As a result, Ohio Republicans passed a slightly
different version of the map, H.B. 369, in December
2011. The changes they made did not materially alter
the strong pro-Republican partisan leaning of the
map’s first iteration. Four cycles of congressional
elections have occurred under the map embodied in
H.B. 369. Each resulted in the election of twelve
Republican representatives and four Democratic
representatives. No district has been represented by
representatives from different parties during the life of
the map.

App. 6
During a two-week trial, experts testified to the
extremity of the gerrymander. They demonstrated that
levels of voter support for Democrats can and have
changed, but the map’s partisan output remains
stubbornly undisturbed. The experts used various
metrics and methodologies to measure their findings,
but several takeaways were universal: (1) the Ohio
map sacrifices respect for traditional districting
principles in order to maximize pro-Republican
partisan advantage, (2) the Ohio map’s pro-Republican
partisan bias is extreme, compared both to historical
plans across the United States and to other possible
configurations that could have been adopted in Ohio,
and (3) the Ohio map minimizes responsiveness and
competition, rendering one consistent result no matter
the particularities of the election cycle.
We join the other federal courts that have held
partisan gerrymandering unconstitutional and
developed substantially similar standards for
adjudicating such claims. We are convinced by the
evidence that this partisan gerrymander was
intentional and effective and that no legitimate
justification accounts for its extremity. Performing our
analysis district by district, we conclude that the 2012
map dilutes the votes of Democratic voters by packing
and cracking them into districts that are so skewed
toward one party that the electoral outcome is
predetermined. We conclude that the map
unconstitutionally burdens associational rights by
making it more difficult for voters and certain
organizations to advance their aims, be they proDemocratic or prodemocracy. We conclude that by
creating such a map, the State exceeded its powers

App. 7
under Article I of the Constitution. Accordingly, we
declare Ohio’s 2012 map an unconstitutional partisan
gerrymander, enjoin its use in the 2020 election, and
order the enactment of a constitutionally viable
replacement.
I. BACKGROUND
A. General Overview of the Facts
1. The redistricting process begins
Every ten years, the United States government
conducts a census. The census results dictate the size
of each state’s delegation to the United States House of
Representatives because House seats are based on
population. Following the release of the census results,
state legislatures redraw their United States
congressional districts in order to reflect population
changes. In Ohio, the 2010 census revealed that the
State’s comparative population stagnation required
reducing the State’s previous congressional delegation
from eighteen to sixteen.1 In that same year, Ohioans
elected a Republican Governor, elected a Republican
majority in the State Senate, and flipped the Ohio
House of Representatives to be majority Republican as
well.2 In the State of Ohio, the Ohio General Assembly
is responsible for enacting legislation that delineates

1

2

Trial Ex. P090 (Cooper Decl. at 10).

OHIO SEC’Y OF STATE, 2010 ELECTION RESULTS, https://www.sos.
state.oh.us/elections/election-results-and-data/2010-electionsresults/. The Court takes judicial notice of all the 2010 election
results. FED. R. EVID. 201.

App. 8
the federal congressional districts.3 Both the State
Senate and the State House of Representatives must
pass such a bill by a simple majority and the Governor
must then sign the bill into law.4 Therefore, when mapdrawing activities commenced in 2011, the Republican
Party had effective control of all bodies necessary to
pass a redistricting bill.
In Ohio, redistricting is facilitated by the Joint
Legislative Task Force on Redistricting,
Reapportionment, and Demographic Research (“Task
Force”). The Task Force is a six-person bipartisan
committee.5 The Task Force does not actually draw the
maps. Rather “it is the entity to which the state
legislature appropriates money” so that the Task Force
can then contract with other entities and individuals to
assist in the redistricting process.6 Prior to the 2011
redistricting, the Task Force requisitioned from
Cleveland State University (“CSU”) a dataset
containing demographic and political data that map
drawers of both parties could use in the redistricting
process.7 The practice of the Ohio General Assembly
has been to allow the Task Force to allocate separate

3

Dkt. 234 (Final Pretrial Order at App. A., 1) (Joint
Uncontroverted Facts).

4

Id.

5

Id. at App. A., 1–2.

6

Dkt. 243 (DiRossi Trial Test. at 147–49).

7

Dkt. 230-14 (Glassburn Dep. at 37); Dkt. 230-5 (Mann Dep. at
94–95, 103, 105).

App. 9
funds in equal amounts to the Ohio Democratic Caucus
and the Ohio Republican Caucus and to allow the
parties to conduct much of their redistricting work
separately.8 This is precisely what occurred during the
2011 map-drawing process.9 Eventually, maps are
produced that are then sent for the General Assembly
to enact in a bill, which is then sent to the Governor.
The Ohio Senate and House of Representatives also
established committees on redistricting, chaired by
Republicans State Senator Keith Faber and
Representative Matthew Huffman, respectively.
2. Logistics of the Republican map drawing
Republican map-drawing planning occurred at both
the State and federal levels, and the two levels worked
together, collaborated, and consulted one another
throughout the process.10 At the State level, Ray
DiRossi and Heather Mann11 served as the principal
on-the-ground map drawers.12 DiRossi had previously
been employed as a staffer for Republican members of
the General Assembly and as a fundraiser for the Ohio

8

Dkt. 243 (DiRossi Trial Test. at 148–50).

9

Id. at 149–50.

10

Dkt. 230–28 (Kincaid Dep. at 313).

11

Heather Mann is now Heather Blessing, but this opinion refers
to her by the last name “Mann” because that was her name at the
relevant time and to be consistent with how her name appears in
documents and emails.
12

Dkt. 230-5 (Mann Dep. at 48).

App. 10
Republican Senate Campaign Committee.13 He was
also deeply involved in the 2001 redistricting process
following the 2000 census.14 Mann had been working
for the Ohio House Republican Caucus since 2004,
most recently as Deputy Legal Counsel and
Redistricting Director, reporting to Speaker of the Ohio
House of Representatives William Batchelder
(“Speaker Batchelder”).15 It was decided that both
DiRossi and Mann should formally cease their
employment with the Ohio House Republican Caucus
and instead conduct their map-drawing work as
independent consultants.16 As a consultant, Mann
reported to Speaker Batchelder,17 and DiRossi reported
to State Senate President Tom Niehaus.18 Troy Judy,
Chief of Staff for Speaker Batchelder, was also deeply
involved in the map drawing.19
DiRossi secured a room at the DoubleTree Hotel in
Columbus beginning in July 2011 to serve as the base

13

Dkt. 243 (DiRossi Trial Test. at 206–07).

14

Id. at 147.

15

Dkt. 230-5 (Mann Dep. at 27–28).

16

Dkt 243 (DiRossi Trial Test. at 207–10); Dkt. 230-5 (Mann Dep.
at 28).
17

Dkt. 230-5 (Mann Dep. at 35, 39, 41, 53, 56).

18

Id. at 53; Dkt. 230–12 (DiRossi Dep. at 136, 138).

19

Dkt. 230-5 (Mann Dep. at 48).

App. 11
for the map-drawing operations.20 DiRossi had the
hotel move the usual furnishings out of the hotel room
and instead had desks and three computers installed.21
Various Republican legislators, staff members, and
operatives visited the DoubleTree room during the
map-drawing process. They included Mann, DiRossi,
Judy, Speaker Batchelder,22 President of the Ohio
Senate Tom Niehaus, Representative Matt Huffman,
State Senator Keith Faber, Chief of Staff in the Ohio
State Senate Mike Schuler, Chief Legal Counsel to the
majority in the Ohio House of Representatives Mike
Lenzo,23 map-drawing expert John Morgan,24 head of
Team Boehner Tom Whatman, and legal counsel Mark
Braden. No Democratic legislator or staffer ever
visited.25
Mann, DiRossi, and Judy each used a computer
equipped with a software package called “Maptitude.”26
Various types of demographic data as well as historical
election data and compilations of that data can be
20

Trial Ex. P109 (DoubleTree Invoice at LWVOH_00018254); Dkt.
230-12 (DiRossi Dep. at 144–45).
21

Dkt. 243 (DiRossi Trial Test. at 212–13).

22

Dkt. 230-5 (Mann Dep. at 63).

23

Id. at 33.

24

John Morgan instructed Mann, in person in Columbus, on how
to use Maptitude. Id. at 42, 58.

25

Dkt. 230-12 (DiRossi Dep. at 149).

26

Dkt. 230-5 (Mann Dep. at 41).

App. 12
uploaded into Maptitude. The software then allows
map drawers to draw district lines over a map of a
state. Map drawers can view and work on maps in very
fine detail—down to the census block unit.27 As the
map drawer draws or alters lines, the program will
calculate, recalculate, and display the corresponding
demographic and historical election data for the newly
drawn districts in real time.28 Map drawers can save
their draft maps both as visual depictions and as data
files that contain the assignments of each geographical
unit to a particular district.29 Maptitude will also
export into Excel spreadsheets the political data that
corresponds to the draft maps.
As mentioned above, much of the data that the map
drawers used had been furnished to them through a
contract that the Ohio General Assembly entered into
with CSU. CSU created and provided the Task Force
with the Ohio Common Unified Redistricting Database
(“Database” or “OCURD”).30 The Database included
many types of geographic, demographic, and historical
partisan election data for the State of Ohio, broken

27

Id. at 45–46.

28

Id. at 42–45.

29

A block equivalency or block assignment file “is a data set that
shows which census blocks are assigned to which districts in a
redistricting plan” and is “generated by Maptitude.” Id. at 64. A
shape file is another file that Maptitude generates. Id. at 64–65.
30

Id. at 46.

App. 13
down to the split census block level.31 The Task Force
provided this information to both the Democratic and
Republican Caucuses.32 Mark Braden, who was
retained by the Ohio Attorney General to represent and
advise the General Assembly during the 2011
redistricting process,33 hired Clark Bensen from the
company Polidata to do some additional work with the
data sets to make the data more workable and to
provide additional historical election data for the
Republican map drawers.34
Mann, DiRossi, and Judy were tasked by the
Republican Caucuses with drawing maps that were
favorable to Republicans. Many Republican leaders
indicated their preference for a 12-4 map.35 In order to
31

Dkt. 230-14 (Glassburn Dep. at 71–73).

32

Id. at 22–24, 38.

33

Dkt. 230-7 (Braden Dep. at 17).

34

Dkt. 230-5 (Mann Dep. at 46, 139–41).

35

Dkt. 230-3 (Batchelder Dep. at 71) (commenting that “Mann
would . . . be looking at past election results” because it was “her
assignment, to try to come to districts that were friendly”); id. at
130–31 (agreeing that “a map that would have given the
Democrats a shot at five districts wasn’t under consideration”); see
also Dkt. 230-46 (Stiver Dep. at 33) (discussing a “12 to 4
redistricting scenario that [Husted] said we would like”); Trial Ex.
P551 (Mar. 22, 2011 email at STIVERS_004042); Trial Ex. P407
(Sept. 9, 2011 email chain at LWVOH_00524131) (email from
Whatman to President Niehaus stating that the Republicans were
“trying to lock down 12 Republican seats”). Defendants object to
the admissibility of Trial Ex. P407 on hearsay grounds. This
objection is overruled. The Court finds that this statement falls

App. 14
gauge whether their draft maps would achieve this
goal, they used partisan indices, created by compiling
the historical partisan voting data from certain chosen
elections. The indices were then uploaded into
Maptitude so that the map drawers could predict how
their draft districts would likely perform politically in
future elections.
Various indices were used because individuals
involved in the map-drawing process preferred
different indices. At times they used an index that they
created and termed the “Unified Index.”36 The Unified
Index averaged the results of five races, overall
reflecting a partisan landscape more favorable to the
Democratic Party than an index that would have
included a fuller set of elections from the decade
preceding the redistricting.37 The map drawers also
used the “‘08 McCain Index,” which also reflected a
strong Democratic performance.38 The map drawers
used Maptitude to create spreadsheets by “output[ting]
the numbers to show what various indexes, as well as

under the hearsay exception for then-existing mental state because
it is a “statement of the declarant’s then-existing state of mind
(such as motive, intent, or plan).” See FED. R. EVID. 803(3).
36

Dkt. 230-5 (Mann Dep. at 44, 75, 88, 91, 119); Dkt. 230-12
(DiRossi Dep. at 113).
37

38

Dkt. 247 (Hood Trial Test. at 222–24).

Trial Ex. P127 (Sept. 12, 2011 email at LWVOH_00018320)
(relating partisan scores using the “08 Pres” index); Dkt. 230-12
(DiRossi Dep. at 243).

App. 15
other data, were for all the districts.”39 They sometimes
created comparison spreadsheets to allow them to
compare the political index scores of different draft
maps to one another. Individuals involved in the mapdrawing process also used the Partisan Voter Index
(“PVI”), which is used in the well-known Cook Political
Report. PVI scores classify districts as either
Republican leaning (R+) or Democratic leaning (D+).
These classifications are accompanied by a score
quantifying the strength of such a leaning.
Individuals not involved in the day-to-day map
drawing were sometimes shown the draft districts’
predicted partisan proclivities as assessed with various
indices.40 The map drawers would also print out
spreadsheets that contained the draft districts’
predicted partisan leanings using various indices and
share them with Republican Party leaders at
redistricting meetings.41 Judy regularly checked in on
DiRossi and Mann as they worked, received updates,
reviewed draft maps, and relayed information between

39

Dkt. 230-5 (Mann Dep. at 122).

40

Dkt. 230-3 (Batchelder Dep. at 22–25).

41

Dkt. 230-5 (Mann Dep. at 84) (“We created a lot of spreadsheets
with different data like set on population deviations, on absolute
population, on indexes, on racial data, on voting data.”); id. at 85
(stating that the map drawers’ principals “wanted to know what
the districts look like. They wanted to know how they changed
from the prior redistricting.”).

App. 16
Batchelder, DiRossi, and Mann.42 DiRossi and Mann
regularly reported developments to and received
feedback from Speaker Batchelder and President
Niehaus. They also kept Senator Faber and Republican
Chief of Staff in the Ohio State Senate Matt Schuler
informed as changes were made.
3. National Republican involvement
National Republican operatives supported the
State-level map drawers in their work from beginning
to end. This collaboration started prior to the map
drawing itself, when Ohio Republican staffers such as
DiRossi, Mann, Judy, Schuler, and Chief Legal Counsel
for the Ohio House Republican Caucus Michael Lenzo,
as well as Representative Huffman attended a
redistricting conference hosted by the National
Conference of State Legislatures (“NCSL”) in
Washington, D.C.43 Lenzo had also attended a
Redistricting and Election Law Seminar hosted by the
Republican National Committee (“RNC”) in
Washington, D.C., in Spring 2010. At these meetings,
the Ohio Republican staffers made contact with
national Republican operatives such as Mark Braden,
Tom Hofeller, and John Morgan, who later advised
them and collaborated with them during the mapdrawing process.

42

Id. at 49–51 (stating that Mann was in regular contact with Judy
about the maps and that she knew that Judy communicated her
updates to Speaker Batchelder).

43

Id. at 155–56.

App. 17
At the Spring 2010 seminar, Morgan gave a
presentation on map drawing, advising map drawers to
keep the process secret and to score the maps to
determine the likely partisan outcome.44 In 2011,
Morgan conducted a follow-up visit to Ohio, where he
presented on map-drawing tactics to DiRossi, Mann,
and Judy.45 Speaker Batchelder and President Niehaus
also attended a redistricting meeting in Washington,
D.C. in the spring of 2011 with Whatman and
Republican members of the U.S. congressional
delegation.46
At the time of the census and redistricting,
Congressman John Boehner of Ohio was the Speaker of
the United States House of Representatives. Ohio
Republicans understood that Speaker Boehner would
have considerable input in the 2012 map and were
committed to enacting a map that he supported.47
Batchelder spoke with Boehner about once each month
during the creation of the 2012 map and met with

44

Dkt. 230-34 (Morgan Dep. at 132); Trial Ex. P346 (Morgan 2010
Presentation at LENZO_0002550–75); Dkt. 230-29 (Lenzo Dep. at
99–106).

45

Dkt. 230-29 (Lenzo Dep. at 73, 76, 99).

46

Dkt. 230-52 (Whatman Dep. at 41–42).

47

Dkt. 230-12 (DiRossi Dep. at 271); Dkt. 230-52 (Whatman Dep.
at 131); Trial Ex. P584 (Sept. 11, 2011 “Redistricting ‘tweaks’”
email at LWVOH_00018297) (President Niehaus stating that he
was “still committed to ending up with a map that Speaker
Boehner fully supports, with or without votes from two members
of leadership”).

App. 18
Boehner twice.48 Boehner employed Tom Whatman as
the head of his “Team Boehner.” Boehner tasked
Whatman with liaising between Republican members
of the congressional delegation and the Ohio map
drawers;49 Whatman began working on the
redistricting process at the federal level in December
2010 or January 2011.50
Whatman employed Adam Kincaid, the
Redistricting Coordinator of the National Republican
Congressional Committee (“NRCC”), to assist in the
redistricting efforts. Kincaid drafted proposed maps
and district lines that incorporated Whatman’s
requests and sent them to DiRossi and Mann and, on
occasion, Braden.51 Kincaid also met repeatedly with
members of Ohio’s congressional delegation throughout
the redistricting process to hear their concerns and
keep them abreast of developments.52 As the districts

48

Dkt. 230-3 (Batchelder Dep. at 27, 46–47).

49

Dkt. 230–52 (Whatman Dep. at 29–30).

50

Id. at 31.

51

Id. at 30–31; Trial Ex. P128 (Sept. 12, 2011 email at
LWVOH_00018322) (Kincaid sending last-minute changes in the
map design to DiRossi, Mann, and Whatman); Dkt. 230-28
(Kincaid Dep. at 276–77).
52

Dkt. 230-28 (Kincaid Dep. at 273–74) (“As the redistricting
coordinator in 2010 and 2011, my job was to facilitate the
development of proposed maps with members of Congress,
specifically in Ohio, so that they would have a proposal that they
could bring back to the state legislators for their consideration.”);
Dkt. 230-27 (Kincaid Dep. at 89–92, 94–97, 103–05).

App. 19
were drawn, Kincaid updated Whatman and the
Republican congressmen about the political leanings of
their new districts based on the historical election data,
producing spreadsheets with partisan index
information for the various draft districts.53 In the final
days of the drafting, state and national Republicans
tweaked the map, mindful of the partisan consequences
of very minor tweaks.54 In some cases, it was clear that
national Republican operatives had the authority to

53

54

Dkt. 230-52 (Whatman Dep. at 55–56).

See Trial Ex. P124 (Sept. 10, 2011 email at LWVOH_00018310)
(DiRossi implementing a last-minute change requested by Senator
Faber, including its impact on partisan index scores, and stating
that “DC is increasingly pushing to put the lid on this”); Trial Ex.
P125 (Sept. 11, 2011 email at LWVOH_0001829) (Whatman
apologizing to DiRossi for having to deal with a last-minute
“tweak” request from Senators Faber and Widener); Trial Ex. P581
(Sept. 11, 2011 email at LWVOH_00018311) (DiRossi informing
Whatman of the partisan index impact of accommodating Senator
Widener’s requested changes to the map and Whatman asking
DiRossi if there was “some other change you guys wanted to run
by me” because he “[g]ot that impression from [M]att’s
[voicemail]”); Trial Ex. P126 (Sept. 12, 2011 emails at
LWVOH_00018298–301) (updating various map drawers of the
impact that changes to the map had on the partisan index score of
Representative Latta’s district and noting that “a good part of
Lucas [County] he is picking up is [R]epublican territory”); Trial
Ex. P127 (Sept. 12, 2011 email at LWVOH_00018320) (DiRossi
updating Whatman on the partisan impact of a map change on
Representative Stivers’s district as measured by two different
partisan indices); Trial Ex. P128 (Sept. 12, 2011 email at
LWVOH_00018322) (Kincaid sending last-minute changes in the
map design to DiRossi, Mann, and Whatman); Dkt. 243 (DiRossi
Trial Test. at 260).

App. 20
“sign off” on changes before they were implemented by
the State-level team.55
4. Major features of H.B. 319
Because of the stagnation in Ohio’s population
compared to other states, two districts had to be
eliminated. This meant that if all incumbents were to
run for office, at least two sets of incumbents would
have to be paired. The Republicans decided to pair two
Republican representatives and two Democratic
representatives.56 Whatman made the decision to pair
Republican Congressmen Turner and Austria; Speaker
Boehner approved the pairing.57 Whatman also spoke

55

Trial Ex. P126 (Sept. 12, 2011 email at LWVOH_00018298)
(Senate President Niehaus asking DiRossi: “Did Whatman sign
off?” after changes were proposed and DiRossi confirming that
Whatman signed off on them). Heather Mann testified that
Whatman “never needed to approve of any maps” that she had
drawn because “[h]e wasn’t [her] principal.” Dkt. 230-5 (Mann Dep.
at 59). However, the email correspondence between the Ohio map
drawers reveals that although Mann may not have technically
been required to secure Whatman’s approval of changes to the
map, such approval and input was regularly sought, particularly
when such changes involved hot spots on the map that were
especially important to the map’s partisan outcome. See also Trial
Ex. P581 (Sept. 11, 2011 email at LWVOH_00018311) (Whatman
asking DiRossi if there was “some other change you guys wanted
to run by me”).
56

Speaker Batchelder testified that that decision was made “early
on as we negotiated between the two caucuses.” Dkt. 246
(Batchelder Trial Test. at 47).
57

Dkt. 230-52 (Whatman Dep. at 35, 37–39).

App. 21
to both Austria and Turner about the decision.58
Speaker Batchelder was not involved in the decision to
pair those two Republican congressmen.59
As for the Democratic pairing, the map drawers
paired Representative Marcy Kaptur of former District
9 and Representative Dennis Kucinich of former
District 10; Kaptur won the Democratic primary that
ensued. Kaptur testified that she did not want to be
paired with Kucinich,60 but she was not consulted by

58

Id. at 35–36.

59

Dkt. 246 (Batchelder Trial Test. at 48–49).

60

Dkt. 249 (Kaptur Trial Test. at 76). DiRossi testified that
Representatives Kucinich and Kaptur were paired because “[t]here
was a lot of—a lot of conversations that were happening, but it was
very clear that the Democrats wanted Dennis Kucinich to be the
one that was out . . . I was getting feedback from a number of
mechanisms, a number of people that were having conversations
with the Democrats or with other party leaders. . . . I was talking
to a number of people. I was talking to Bob Bennett, the former
chairman of the Ohio Republican Party, who had been the
chairman twice and had some incredible relationships with former
Democratic chairs and also some of the county chairs and
individual members.” Dkt. 243 (DiRossi Trial Test. at 159–60).
DiRossi stated that Bob Bennett “then discuss[ed] these things
with [him] personally” and “Bennett’s conversations that he was
relaying to [DiRossi] impact[ed] how [DiRossi] drew the lines.” Id.
at 160. Plaintiffs object to DiRossi’s testimony regarding out-ofcourt statements, but the Court considers those statements only
for the effect DiRossi claims they had on his map-drawing
decisions and not for the purported truth of the assertions (i.e.,
which incumbents Democrats actually wanted paired).

App. 22
the Republican map drawers on the matter.61 She saw
the map embodied in H.B. 319 for the first time in
media reports around the time of the bill’s introduction.
Kaptur was “astonish[ed],” upset, and offended by the
map, which she understood to break up communities of
interest and involve unnatural groupings of
communities with diverging interests.62
The map drawers also paired Republican
Representative Jim Renacci of the former District 16
and Democratic Representative Betty Sutton of the
former District 13 to run against each other in the new
District 16. DiRossi testified that the third pairing was
necessitated by: drawing District 11 to include portions
of Akron, population loss in Northeast Ohio, “two
congresspeople who were living very close together,”
and the creation of the new District 3 in Franklin
County.63

61

Dkt. 249 (Kaptur Trial Test. at 69–70). Kincaid, however,
testified that “Ms. Kaptur and Mr. Kucinich who had been drawn
together in a district were interested in the makeup of their parts
of those districts, specifically the DMA’s which are the designated
market areas of Toledo and Cleveland and how much of each was
inside their districts—their district.” Dkt. 230-27 (Kincaid Dep. at
99). He testified that this information came from Congressman
LaTourette’s communications with Democratic representatives
during the map-drawing process. Id. at 98. Again, the Court
considers Kincaid’s testimony only for the effect that
Congresswoman Kaptur’s and Congressman Kucinich’s out-ofcourt statements had on the map drawers and not for the
purported truth of the assertions.
62

Dkt. 249 (Kaptur Trial Test. at 70–71).

63

Dkt. 243 (DiRossi Trial Test. at 176–77).

App. 23
The map drawers drew District 11 to include some
portions of the City of Cleveland in Cuyahoga County
and a thin strip dropping southward into Summit
County where it incorporated sections of the City of
Akron. Representative Marcia Fudge, who had
represented District 11 under the previous map prior
to the 2011 redistricting, was not consulted by
Republican map drawers and did not learn of District
11’s new boundaries until around the time that H.B.
319 was introduced in the legislature.64 She was
displeased with the new shape of the district,
particularly the extension of the district into Summit
County and Akron, areas with which she was not
familiar and that she had not previously represented.65
64

Dkt. 239 (Fudge Trial Test. at 83) (testifying that she “didn’t
have a role” in the 2011 redistricting). Kincaid testified, however,
that “I know Congresswoman Fudge was interested in the
precincts and communities that were included in her district . . . .
Ms. Fudge wanted a district that ran from Cleveland to Akron.”
Dkt. 230-27 (Kincaid Dep. at 99). Kincaid testified that his
“understanding [was] that [Fudge’s desire for such a district] was
communicated multiple ways through multiple avenues” both “to
the state legislature as well as to Mr. LaTourette.” Id. at 100. He
went on: “I recall that she probably stated she was thrilled by the
district that was passed out of the Ohio legislature. She may not
have used the word thrilled but that she was pleased with the
district that she was drawn into.” Id. at 100–01. Plaintiffs object
to this testimony of the ground that it is inadmissible hearsay.
Defendants contend that it is only being offered as evidence of
Kincaid’s understanding and belief. The Court sustains Plaintiffs’
objection and finds that this testimony is being offered for the
truth—to prove that Congresswoman Fudge was pleased with the
district—and therefore is inadmissible hearsay. See FED. R. EVID.
801(c)(2).
65

Dkt. 239 (Fudge Trial Test. at 84–85).

App. 24
District 11 had historically been a majority-minority
district that elected African-American congressional
representatives by large margins. Some map drawers
expressed that it “was a consideration for us in a
proposed map to make sure it remained a majorityminority district.”66
The map drawers created a new district, District 3,
in Franklin County, where the City of Columbus is
located. Columbus had been experiencing population
growth while metropolitan areas in northern Ohio had
been losing population.67 It is an urban center that is
the home of The Ohio State University, and it contains
many Democratic voters. Whatman and Kincaid had
the idea to create the new District 3 in Columbus that
would concentrate many of Columbus’s Democratic
voters into one district.68 One spreadsheet sent among
those involved in the map-drawing process referred to
the new District 3 as the “Franklin County Sinkhole,”
but it is unclear who exactly included that term.69 The
66

Dkt. 230-52 (Whatman Dep. at 62); see also Trial Ex. P394
(discussing BVAP goals for District 11).
67

Trial Ex. P090 (Cooper Decl. at 7, fig. 2).

68

Dkt. 230-52 (Whatman Dep. at 51); Dkt. 230-28 (Kincaid Dep. at
333–37).
69

Dkt. 230-28 (Kincaid Dep. at 121–22); id. at 420; Trial Ex. P077
(Ohio Changes Spreadsheet at BRADEN001387) (bearing the
legend “Franklin County Sinkhole”). Defendants object to the
admissibility of Trial Ex. P077 on authentication, foundation, and
hearsay grounds. Each objection is overruled. First, the exhibit
was produced by Braden in response to Plaintiffs’ document
subpoena, so it is presumptively authentic. Second, Plaintiffs have

App. 25
draft map creating the new District 3 allowed for safe
quantities of Columbus’s Democratic voter bloc to be
absorbed by the neighboring Districts 12 and 15 such
that those districts could maintain or achieve safe
Republican majorities.70
State-level and national Republican operatives
emailed back and forth sharing and consulting on plans

properly demonstrated foundation as Kincaid testified that he was
the author of the spreadsheet and explained the spreadsheet in
detail. Dkt. 230-27 (Kincaid Dep. at 153); see also Dkt. 230-28
(Kincaid Dep. at 363) (testifying that he “would have created the
original version” of the spreadsheet, but he was unsure whether he
had written the header reading “Franklin County Sinkhole”).
Metadata further confirms that Kincaid was the last person to
modify Trial Ex. P077. Third, the Court finds that Plaintiffs cite
this document to demonstrate the map drawers’ partisan intent,
not for the truth that Franklin County was a “sinkhole.” See FED.
R. EVID. 801(c)(2).
Kincaid sent the spreadsheet to DiRossi, Mann, and Whatman
on September 2, 2011. Dkt. 230-28 (Kincaid Dep. at 366–67); Trial
Ex. P119 (at LWVOH_00018302). Mann forwarded the spreadsheet
to Braden and Bensen on September 3, 2011. Trial Ex. P119 (at
LWVOH_00018308). On September 6, 2011, Braden sent the
spreadsheet to Hofeller in an email that stated: “please keep this
secret but would like your and Dale’s views.” Trial Ex. P393 at
REV_00023176–79. Dale Oldham worked as the redistricting
counsel for the RNC. Dkt. 230-27 (Kincaid Dep. at 55).
Kincaid testified that he had a memory of the term “Franklin
County Sinkhole” “being used in a conversation with Mr.
Whatman” prior to the introduction of H.B. 319, but he did not
recall who was present or who used the phrase. Dkt. 230-28
(Kincaid Dep. at 370–71).
70

Trial Ex. P499 (Ohio Changes Spreadsheet at REV_00023431)
(reflecting a changed PVI score in District 12 from D+1 to R+8);
Dkt. 230-28 (Kincaid Dep. at 353–54).

App. 26
for this new district. Kincaid created a proposed map
that included such a district, which scored as D+15
using his PVI metric, and shared the draft map with
DiRossi and Mann.71 Braden asked Hofeller to consult
on one draft of the map created by Kincaid, including
the new district. Hofeller approved it after removing
from District 15 some territory that Kincaid had
allocated to it. Hofeller noted that this “‘downtown’
area” was “‘dog meat’ voting territory” and “awful” in
explaining why it should not be included in the
Republican-assigned District 15.72 Kincaid followed up
with minor tweaks of the Columbus area division, but
the general contours, as tweaked by Hofeller, remained
the same. The 2012 map, which placed downtown
Columbus in District 3, uses irregular lines to divide
Franklin County and Columbus into three districts—3,
12, and 15. In every election under the 2012 map, the
Democratic candidate has won District 3 while
Districts 12 and 15 have elected Republican
representatives.73
71

Trial Ex. P313 (Ohio Changes Spreadsheet at NRCC000012)
(listing the newly created district termed “10-open” with a PVI of
D+15); Dkt. 230-27 (Kincaid Dep. at 135–36); id. at 145; Trial Ex.
P119 (Sept. 3, 2011 email at LWOV_00018302).
72

Trial Ex. P394 (Sept. 8, 2011 email at REV_00023234).
Defendants object to Trial Ex. P394 as containing inadmissible
hearsay. This objection is overruled. The Court finds that Plaintiffs
have offered this document to show the map drawers’ state of mind
and partisan intent, not for the truth that these territories were
“dog meat.” See FED. R. EVID. 801(c)(2).
73

O HIO S EC ’ Y OF S TATE , 2012 E LECTION R ESULTS ,
https://www.sos.state.oh.us/elections/election-results-anddata/2012-elections-results/ (Democratic Representative Beatty

App. 27
For a time, the Republicans considered drawing a
map that would include “13 ‘safe’ seats” for their party
rather than twelve.74 In order to accomplish this,
Franklin County and the City of Columbus would be
split into four different districts rather than the three
they were split into under the 2012 map.75 Kincaid
developed such a map and calculated the PVI scores of

winning District 3 with 68.29% of the vote and Republican
Representatives Tiberi and Stivers winning Districts 12 and 15
with 63.47% and 61.56% of the vote, respectively); OHIO SEC’Y OF
S TATE , 2014 E LECTION R ESULTS , https://www.sos.state.
oh.us/elections/election-results-and-data/2014-elections-results/
(Democratic Representative Beatty winning District 3 with 64.06%
of the vote and Republican Representatives Tiberi and Stivers
winning Districts 12 and 15 with 68.11% and 66.02% of the vote,
respectively); OHIO SEC’Y OF STATE, 2016 ELECTION RESULTS,
https://www.sos.state.oh.us/elections/election-results-anddata/2016-official-elections-results/ (Democratic Representative
Beatty winning District 3 with 68.57% of the vote and Republican
Representatives Tiberi and Stivers winning Districts 12 and 15
with 66.55% and 66.16% of the vote, respectively); OHIO SEC’Y OF
STATE, 2018 ELECTION RESULTS, https://www.sos.state.oh.us/
elections/election-results-and-data/2018-official-elections-results/
(Democratic Representative Beatty winning District 3 with 73.61%
of the vote and Republican Representatives Balderson and Stivers
winning Districts 12 and 15 with 51.42% and 58.33% of the vote,
respectively). The Court takes judicial notice of all the 2012-2018
election results. FED. R. EVID. 201.
74

Trial Ex. P385 (Congressional Redistricting Talking Points at
LWVOH_0052438) (“Given the fact that the overall index for the
State of Ohio is 49.5% on a measure of five recent races, it is a tall
order to draw 13 ‘safe’ seats. Speaker’s [sic] Boehner’s team
worked on several concepts but this map is the one they felt put
the most number of seats in the safety zone.”).
75

Dkt. 230-28 (Kincaid Dep. at 421).

App. 28
the resulting districts. Although such a map could have
secured the election of thirteen Republican
representatives, the map drawers believed that the
margins of victory would have been tighter, as
evidenced by lower R+ PVI scores.76 The Republicans
eventually opted for the map that promised one less
Republican seat, but in which those twelve Republican
seats were safer.
The map drawers sometimes rejected specific
requests from Republican members of the Ohio General
Assembly, instead prioritizing maintaining the
partisan balance of the draft map. For example, State
Senator Christopher Widener requested that the map
keep Clark County whole.77 DiRossi and the other map
76

Trial Ex. P078 (PVI Scores for the “4-Way Split as of September
6” map at OHCF0001438). Defendants object to the admissibility
of Trial Ex. P078 on authentication, foundation, and hearsay
grounds. Each objection is overruled. First, the exhibit was
produced by Braden in response to Plaintiffs’ document subpoena,
so it is presumptively authentic. Second, Plaintiffs have properly
demonstrated foundation as Kincaid testified that he likely
authored the spreadsheet and explained the spreadsheet, including
the meaning of “4-Way Split[,]” in detail. Dkt. 230-28 (Kincaid Dep.
at 381–82). Third, the Court finds that to the extent this evidence
is offered to prove the intent and beliefs of the map drawers, it is
not offered for the truth of the PVI scores. See FED. R. EVID.
801(c)(2). To the extent that it is offered to prove the truth of the
partisan leanings of the contemplated districts created by the fourway split, it is admissible as the admission of the agent of a partyopponent. See FED. R. EVID. 801(d)(2)(D).
77

Dkt. 243 (DiRossi Trial Test. at 246); Trial Ex. P581 (Sept. 11,
2011 email at LWVOH_00018311) (discussing the partisan
consequences of Senator Widener’s request); Dkt. 243 (DiRossi
Trial Test. at 244–45).

App. 29
drawers rejected Widener’s request in part because
unifying Clark County would have negative
consequences for the partisan scores of District
15—making the Republican seat there less secure.78
The resulting map featured twelve districts likely to
elect a Republican representative (Districts 1, 2, 4, 5, 6,
7, 8, 10, 12, 14, 15, and 16) and four districts likely to
elect a Democratic Representative (Districts 3, 9, 11,
and 13).
5. Secrecy surrounding the map
The Republican map drawers did not share plans
for the map with either the public or Democratic
legislators or staffers prior to introducing it in the Ohio
House of Representatives.79 Although the State
Senate’s and State House’s committees on redistricting,
chaired by Senator Faber and Representative Huffman,
respectively, held five public hearings in different
78

Trial Ex. P581 (Sept. 11, 2011 email at LWVOH_00018311); Dkt.
243 (DiRossi Trial Test. at 247–48).
79

Kincaid, however, testified that Republican Congressman
LaTourette “would meet with Democrat members of the Ohio
[congressional] delegation and get their input on the Ohio
congressional map and would communicate information back to
them as well.” Dkt. 230-27 (Kincaid Dep. at 98). Kincaid’s
testimony is unclear as to when Congressman LaTourette’s
discussions with Democratic members of Congress occurred.
Congresswoman Fudge testified that she spoke to Congressman
LaTourette about the shape of her district after the introduction
of H.B. 319 in the General Assembly. Dkt. 239 (Fudge Trial Test.
at 100). Moreover, to the extent it is offered for the truth of what
any particular Democrat wanted in the redistricting, it is based on
hearsay.

App. 30
locations across Ohio in July and August of 2011 while
the maps were being drafted, their members did not
share drafts of the maps or political indices at the
hearings.80 The Republican map drawers shared the
map with Representative Armond Budish, the
Democratic Minority Leader in the Ohio State House of
Representatives, only just immediately before the bill
was introduced.81 The map drawers even declined to
share information with other Republican members of
the Ohio General Assembly prior to the formal
introduction of the bill. For example, State Senator
Faber saw the map just shortly before its introduction
as a bill.82
6. Passage of H.B. 319
The Ohio Republicans first introduced a 2012
redistricting map in the form of H.B. 319 on September
13, 2011 in the House State Government and Elections
Committee. The Committee referred the bill to the
House, and it was debated on the floor of the House on

80

Dkt. 230-19 (Huffman Dep. at 33–34, 45–46); Dkt. 230-5 (Mann
Dep. at 159–60).
81

Dkt. 230-3 (Batchelder Dep. at 57); Dkt. 230-5 (Mann Dep. at
57).
82

Dkt. 230-13 (Faber Dep. at 57–58) (recalling seeing “the map for
the first time at the same time that everyone else did” and “right
before the weekend before we were going to vote it on the floor”);
id. at 175 (“We were given at the last minute a map that we were
being asked to support . . . You know, we haven’t had any input in
this process per se.”).

App. 31
September 15, 2011.83 Representative Huffman, the
sponsor of the bill, spoke on the House floor about the
map-drawing process and the factors that the map
drawers had considered in drawing the new district
lines.84 Democratic Minority Leader Budish spoke on
the floor of the House, criticizing the secrecy of the
map-drawing process and the Republicans’ failure to
take outside input into account.85 House Democrats
also complained that the bill was being rushed through
the General Assembly and that the accelerated
timeframe for its passage prevented serious scrutiny
and critique.86 The bill passed in the House of
Representatives that same day by a vote of fifty-six to
thirty-six.87
On September 19, 2011, H.B. 319 was introduced in
the Ohio State Senate. The Senate Committee on
Government Oversight and Reform, chaired by Senator

83

Dkt. 234 (Final Pretrial Order at App. A., 2) (Joint
Uncontroverted Facts).
84

See Trial Ex. J01 (Ohio House Session, Sept. 15, 2011 at 13–23)
(statement of Rep. Huffman); Dkt. 230-5 (Mann Dep. at 160–61).
85

Trial Ex. J01 (Ohio House Session, Sept. 15, 2011 at 67–68)
(statement of Rep. Budish).
86

Id. at 38–39 (statement of Rep. Gerberry); id. at 46 (statement
of Rep. Letson).
87

Trial Ex. J07 (Ohio House of Representatives Journal, Sept. 15,
2011 at 12–13).

App. 32
Faber, then held hearings on the bill.88 The Committee
amended the bill to include a $2.75 million
appropriation for local boards of elections in an attempt
to make the bill immediately effective and shield it
from a voter referendum.89 The Committee referred the
amended bill to the Ohio Senate.90 On the floor of the
Senate, some Democratic State Senators, including
Senator Nina Turner, a member of the Black Caucus,
opposed the bill and argued that it “lays out 12
Republican districts and four Democratic districts.”91
The bill passed in the Senate by a vote of twenty-four
to seven on the same day it was referred. The amended
H.B. 319 then returned to the House of Representatives
where it passed by a vote of sixty to thirty-five.92 It was
signed into law on September 26, 2011, by Republican
Governor John Kasich.

88

Trial Ex. J28 (Senate Government Oversight and Reform
Committee File at 1, 4).
89

Trial Ex. J28 (Senate Government Oversight and Reform
Committee File at 2); Trial Ex. J03 (Ohio Senate Session, Sept. 21,
2011 at 30–31) (statement of Sen. Faber).
90

Dkt. 234 (Final Pretrial Order at App. A., 2) (Joint
Uncontroverted Facts).
91

Trial Ex. J03 (Ohio Senate Session, Sept. 21, 2011 at 32–33)
(statement of Sen. Brown); id. at 53 (statement of Sen. Turner);
Dkt. 240 (Turner Trial Test. at 9, 16–17).
92

Dkt. 234 (Final Pretrial Order at App. A., 2) (Joint
Uncontroverted Facts).

App. 33
7. Referendum and negotiations
Despite the appropriation amendment intended to
insulate the map from a voter referendum, Ohio voters
sought to mount such a referendum. A group of Ohio
voters filed a petition for a writ of mandamus with the
Supreme Court of Ohio. They sought an order declaring
that H.B. 319 could indeed be subjected to a voter
referendum. State ex rel. Ohioans for Fair Dists. v.
Husted, 957 N.E.2d 277 (Ohio 2011). The Ohio
Supreme Court granted the writ of mandamus on
October 14, 2011; voters could seek a referendum and
the bill could not immediately go into effect. Id. In
order to put the referendum on the ballot, Ohio voters
would have to gather the signatures of 6% of state
electors in slightly over two months.93
This also meant that H.B. 319 would not take effect
until December 25, 2011, after the December 7, 2011
candidate filing deadline set for the March 2012
primaries.94 In response, Republican legislators passed
H.B. 318, which split the Ohio primaries. The local,
state, and U.S. Senate primaries would still occur in
March 2012, but the U.S. presidential and U.S. House
of Representatives primaries were pushed back to June

93

Dkt. 234 (Final Pretrial Order at App. A., 3) (Joint
Uncontroverted Facts).
94

See OHIO REV. CODE § 3513.05; Trial Ex. J03 (Ohio Senate
Session, Sept. 21, 2011 at 15–16) (statement of Sen. Faber).

App. 34
2012.95 This split primary would cost the State of Ohio
$15 million.96
In the shadow of the possible referendum and split
primaries, Ohio Republican and Democratic legislators
attempted to negotiate some alterations to H.B. 319
that could be enacted as a new bill—H.B. 369.97 This
openness to feedback from the Democrats had not been
present in the drawing of H.B. 319.98 Some Republican
map drawers testified that Bob Bennett, the chairman
of the Ohio Republican Party and a member of the

95

Dkt. 246 (Judy Trial Test. at 72–73); Trial Ex. J06 (Ohio House
Session, Dec. 14, 2011 at 5) (statement of Rep. Huffman); Trial Ex.
J05 (Ohio Senate Session, Dec. 14, 2011 at 7).
96

Trial Ex. J04 (Ohio House Session, Nov. 3, 2011 at 9–10)
(statement of Rep. Huffman); Trial Ex. J22 (Rep. Huffman Sponsor
Test. at 001).
97

Dkt. 230-3 (Batchelder Dep. at 120–21) (acknowledging that
“negotiations began around mid to late October” and that “the
referendum might have played some role in the negotiation about
the second map”); Dkt. 246 (Judy Trial Test. at 78, 82) (“There
were negotiations leading up to 369. This is after 319 was passed,
and, due to the referendum, the confusion . . . and the chaos and
pressure that came out of the signature collections, negotiations
began.”); Dkt. 230-31 (McCarthy Dep. at 74) (“[T]here was a threat
of a citizen’s referendum on 319 and that—that was the primary
reason [for H.B. 369].”); id. at 75–77.
98

Dkt. 230-12 (DiRossi Dep. at 185) (stating that the Democratic
feedback was “inherent in 369” because “the legislative Democrats
approached the leadership and said this is what it’s going to take
for us to provide votes to approve this map, and so that was all
post 319 and 369”).

App. 35
RNC,99 served as a go-between for the Republicans and
Democrats during this period, communicating
Democratic requests to the Republican map drawers.100
The Republicans, although making small concessions
and alterations to their original map to cater to
Democratic desires,101 refused to make changes that
would alter the likely partisan outcome of the map.102
Speaker Batchelder commented that the Democratic
legislators’ “theory was somehow or another that they
could overcome a majority of people who were in the
other party, and I don’t know how that would have
happened.”103
DiRossi, Mann, and Judy worked with Maptitude at
their office at the Ohio House of Representatives to
draw minor changes into the redistricting map in the
period between the passage of H.B. 319 and H.B.
99

Dkt. 230-52 (Whatman Dep. at 40) (identifying Bob Bennett’s
roles).
100

Dkt. 230-12 (DiRossi Dep. at 184). DiRossi testified that he
himself did not “have conversations directly with anyone who could
be termed a Democrat” during that period. Id. Rather, he “was
getting that information from other people.” Id. He further stated
that Bob Bennett “was an intermediary to Democrats and
Republicans all over the state.” Id. at 189.
101

Dkt. 246 (Judy Trial Test. at 78–79) (stating that Democratic
members of the Ohio House of Representatives had “a small list of
changes that they wanted to see” that were “given to the staffer or
consultants that we hired on our side to incorporate in”).
102

Dkt. 230-3 (Batchelder Dep. at 130–31); Dkt. 230-14 (Glassburn
Dep. at 203–04); Dkt. 230-41 (Routt Dep. at 193–95).
103

Dkt. 230-3 (Batchelder Dep. at 115–16).

App. 36
369.104 For example, DiRossi testified that he made
changes based on his belief that Representative Kaptur
and others had requested that additional territory in
Lucas County and Toledo be added and territory in
Cleveland be removed from District 9 so that Kaptur
would have a better chance of defeating Kucinich.105
The changes also included the unification of Clark
County.106
On November 3, 2011 Representative Huffman
introduced the new Republican redistricting bill, H.B.
369, in the House Rules and Reference Committee; he
gave sponsor testimony in the committee on November
9. H.B. 369 would eliminate the newly split primary.107
Republican State Representative Lou Blessing sought
to push H.B. 369 through the General Assembly by
suspending the normal rules mandating that bills be
considered by each legislative house on three separate

104

Dkt. 230-5 (Mann Dep. at 48–49, 92).

105

Dkt. 243 (DiRossi Trial Test. at 162). DiRossi testified that
Bennett (who has since died), Niehaus, and Batchelder all
informed him that such changes had to be made between the two
iterations of the map. Id. at 162–63.
106

Dkt. 243 (DiRossi Trial Test. at 246). Even though Clark County
was unified in the new map, the map drawers believed that they
were able to do so while maintaining District 15’s strong proRepublican lean. Kincaid believed H.B. 369’s PVI to be R+6. Trial
Ex. P498 (H.B. 369 Partisan Data Spreadsheet at REV_00023430).
He believed H.B. 319’s PVI to be R+7. Trial Ex. P590 (Ohio
Changes Spreadsheet).
107

Dkt. 234 (Final Pretrial Order at App. A., 3) (Joint
Uncontroverted Facts).

App. 37
days.108 Representative Blessing did not have sufficient
votes to achieve this result.109 Around this time it
became clear that the Ohio voter referendum
challenging H.B. 319 would not be successful; the
required votes would not be collected in time. This
meant that Democrats had a weaker bargaining
position in their efforts to convince Republicans to
make further changes to H.B. 369.
8. Passage of H.B. 369
On December 14, 2011, both the Ohio House of
Representatives and the Ohio Senate passed an
amended version of H.B. 369, over vigorous opposition
from some Democrats.110 The bill passed in the House
by a margin of seventy-seven to seventeen (including
twenty-one Democratic votes in favor) and in the
Senate by a margin of twenty-seven to six (including
four Democratic votes in favor).111 Not only was the
amended H.B. 369 nearly identical in terms of partisan

108

Trial Ex. J04 (Ohio House Session, Nov. 3, 2011 at 9) (statement
of Rep. Blessing).
109

Id.

110

See, e.g., Trial Ex. J06 (Ohio House Session, Dec. 14, 2011 at
22–24) (statement of Rep. Ramos); id. at 28–29 (statement of Rep.
Foley); id. at 33–35 (statement of Rep. Lundy); id. at 36–38
(statement of Rep. O’Brien).
111

Dkt. 234 (Final Pretrial Order at App. A., 3) (Joint
Uncontroverted Facts).

App. 38
leanings to H.B. 369 as it was first introduced,112 but it
was also highly similar to H.B. 319, the first
redistricting plan that the General Assembly had
passed.113 It was signed into law by Governor Kasich
the following day. Because the partisan metrics of the
map did not change, the new congressional districting
map passed as H.B. 369 was just as likely as H.B. 319
to result in the election of twelve Republican
representatives and four Democratic representatives.
Following the passage of H.B. 369, Kincaid created
a spreadsheet that documented his analysis of the
partisan outcomes of the newly enacted map.114 The

112

Trial Ex. P042 (Comparison Spreadsheet); Dkt. 230-5 (Mann
Dep. at 91–92); Dkt. 246 (Judy Trial Test. at 83) (stating that the
H.B. 369 as introduced and as passed “look substantially similar”).
Representative Huffman stated: “This House Bill 369 retains the
map that was presented to the Rules Committee six weeks ago,
with one very minor change.” Trial Ex. J06 (Ohio House Session,
Dec. 14, 2011 at 5) (statement of Rep. Huffman). The “very minor
change” appears to have been the accommodation of a request from
the Democratic leadership in the Ohio House to draw former
Democratic Representative Mary Jo Kilroy out of District 3 while
not decreasing the African-American voting population of that
district. Dkt. 230-5 (Mann Dep. at 171–72).
113

114

Dkt. 230-26 (Judy Dep. at 178).

Trial Ex. P498 (H.B. 369 Partisan Data Spreadsheet); Dkt. 23028 (Kincaid Dep. at 468–69). Defendants object to the admissibility
of Trial Ex. P498 as containing inadmissible hearsay. This
objection is overruled. The Court finds that the document is offered
to demonstrate the intent, mindset, and belief of the map drawers
and not being offered for the truth of the matter asserted—that
these changes in PVI had occurred or that the districts were
actually taken “out of play.”

App. 39
spreadsheet featured four D+ districts, with their
numerical scores ranging from D+12 to D+29. It also
featured twelve R+ districts, with all but one of their
numerical scores ranging from R+2 to R+9, and the
outlier measuring at R+14.115 Kincaid prepared a
presentation in which he showed how the redistricting
efforts had shored up Republican support in three
previously competitive districts—Districts 1, 12, and
15, rendering them safe for Republican Representatives
Chabot, Tiberi, and Stivers, thereby taking them “out
of play.”116 By Kincaid’s calculations, District 1 had
moved seven PVI points in favor of Republicans by
including Warren County and removing portions of
Democratic Hamilton County. District 12 had moved
nine PVI points in favor of Republicans because
portions of Democratic Columbus had been removed
from the district and into District 3. Similarly, District
15 had moved seven PVI points in favor of Republicans,
as the new District 3 now also contained many of
District 15’s former Democratic constituents. Kincaid’s
presentation also noted that Districts 6 and 16 were
“Competitive R Seats Improved” because their PVI
scores had become more pronouncedly pro-Republican
as a result of the redistricting, District 6 by three

115

116

Trial Ex. P498 (H.B. 369 Partisan Data Spreadsheet).

Trial Ex. P310 (NRCC Presentation at 5); Dkt. 230-27 (Kincaid
Dep. at 115–16). Defendants object to the admission of Trial Ex.
P310 on hearsay grounds. This objection is overruled. The Court
finds that the document is admissible to prove Kincaid’s intent,
belief, and state of mind, not for the truth of the matter
asserted—that the districts had actually been taken out of play.
See FED. R. EVID. 801(c)(2).

App. 40
points and District 16 by one point.117 Kincaid
continued to praise the results of his map-drawing
collaboration with the Ohio Republicans, representing
that the “new [Ohio] map should be a 12-4 map,” that
it “eliminat[ed] Ms. Sutton’s seat,” and that it “created
a new Democrat seat in Franklin County.”118 He stated
elsewhere that the Ohio “Republican map shored up
multiple seats for the decade.”119
U.S. Representative Stivers’s communications with
his staff reflected his similar belief that various
previously competitive districts had been made solidly
Republican as a result of the redistricting. For
example, he stated that “[t]he redistricting in Ohio did
shore up some of the toss-up districts” based on the
changes in the PVI scores for Districts 1, 6, and 15.120
He acknowledged that U.S. Representative Chabot of
District 1 “probably won’t have a close race for the next
decade” based on the changes the redistricting wrought
on that district’s PVI score and the fact that his district

117

Trial Ex. P310 (NRCC Presentation at 6).

118

Trial Ex. P414 (State-by-State Redistricting Summary at
REV_00000001); Dkt. 230-28 (Kincaid Dep. at 519). Defendants
object to the admission of Trial Ex. P414 on hearsay grounds. This
objection is overruled. The Court finds that the document is
admissible to prove Kincaid’s intent and state of mind. See FED. R.
EVID. 801(c)(2).
119

120

Dkt. 230-28 (Kincaid Dep. at 512–13).

Trial Ex. P556 (Stivers Email at STIVERS_007519); Dkt. 230-46
(Stivers Dep. at 77–78).

App. 41
contained many more Republican voters following the
redistricting.121
9. Congressional elections under the 2012 Map
As predicted by Kincaid, the same four Ohio
congressional districts (Districts 3, 9, 11, and 13) have
elected Democratic representatives, and the same
twelve districts (Districts 1, 2, 4, 5, 6, 7, 8, 10, 12, 14,
15, and 16) have elected Republican representatives in
every election since the enactment of the 2012 map.
B. Procedural History
Plaintiffs include seventeen individual Ohio
residents, who collectively reside and vote in each of
Ohio’s sixteen congressional districts, and five
organizations based in Ohio. The individual Plaintiffs
are: Linda Goldenhar, Douglas Burks, Sarah Inskeep,
Cynthia Libster, Kathryn Deitsch, LuAnn Boothe,
Mark John Griffiths, Lawrence Nadler, Chitra Walker,
Tristan Rader, Ria Megnin, Andrew Harris, Aaron
Dagres, Elizabeth Myer, Beth Hutton, Teresa
Thobaben, and Constance Rubin. The organizational
Plaintiffs, which include nonpartisan groups as well as
groups affiliated with the Democratic Party, are: the
Ohio A. Philip Randolph Institute (“APRI”), the League
of Women Voters of Ohio (“The League”), The Ohio
State University College Democrats (“OSU College
Democrats”), the Northeast Ohio Young Black
Democrats (“NEOYBD”), and the Hamilton County
Young Democrats (“HCYD”).

121

Trial Ex. P556 (Stivers Email at STIVERS_007519–20).

App. 42
Defendants are State Representative Larry
Householder, Speaker of the Ohio House of
Representatives; State Senator Larry Obhof, President
of the Ohio State Senate; and Ohio’s Secretary of State,
Frank LaRose. All Defendants are sued in their official
capacities.
Plaintiffs filed this lawsuit on May 23, 2018. Dkt. 1
(First Compl.). This three-judge panel was then
convened pursuant to 28 U.S.C. § 2284. See Dkt. 28.
Plaintiffs twice amended their complaint and, as
relevant here, filed their second amended complaint on
July 11, 2018, seeking declaratory and injunctive relief
and the enactment of a new congressional districting
plan. See Dkt. 37 (Second Am. Compl. at 50–52). On
August 15, 2018, we denied Defendants’ motion to
dismiss. See Ohio A. Philip Randolph Inst. v. Smith,
335 F. Supp. 3d 988 (S.D. Ohio 2018). After that, we
granted the Intervenors’ motion to intervene, and they
joined the litigation. See Dkt. 64.122
The case then proceeded through discovery, and on
January 8, 2019, Defendants moved for summary
judgment. See Dkt. 136 (Mot. for Summ. J.); Dkt. 140,
122

The Intervenors are the Republican Congressmen from Ohio,
the Republican Party of Cuyahoga County, the Franklin County
Republican Party, and four individuals. The four individuals are
Robert Bodi, Roy Palmer III, Charles Drake, and Nathan Aichele,
who live in District 16, District 9, District 11, and District 3,
respectively. None of the Intervenors testified live at trial. Only
Representatives Chabot, Johnson, Jordan, and Stivers testified via
deposition. See Dkt. 234 (Final Pretrial Order at App. P.). For the
purposes of this opinion, we generally refer to Defendants and
Intervenors collectively as “Defendants,” reflecting their
collaborative efforts in litigating the case.

App. 43
140-1 (Intervenors’ Suppl. Mot. for Summ. J. & Mem.).
After a round of briefing, we denied the motion for
summary judgment. See Ohio A. Philip Randolph Inst.
v. Householder, --- F. Supp. 3d ---, 2019 WL 652980
(S.D. Ohio Feb. 15, 2019).123 Trial commenced on March
4, 2019 and lasted eight days, concluding on March
13.124
Since the trial, the parties have filed post-trial
briefs with proposed conclusions of law, and separately,
proposed findings of fact. The parties have also
finalized their objections to the other side’s evidence,
responded to each other’s objections, and submitted
additional briefs on those objections.125 This briefing
schedule concluded on April 7, 2019.

123

Representative Householder became the Speaker of the Ohio
House of Representatives on January 7, 2019, and Mr. LaRose
became Ohio’s Secretary of State on January 12, 2019.
Householder was substituted for Ryan Smith as a Defendant, and
LaRose was substituted for Jon Husted as a Defendant. See FED.
R. CIV. P. 25(d); see also Dkt. 218.
124

The parties offer some of their witnesses’ testimony via their
depositions. See Dkt. 234 (Final Pretrial Order at 7, Apps. O. & P.).
125

The parties raised hundreds of objections to evidence in this
case. The Court has considered objections lodged against any piece
of evidence ultimately cited in this opinion. To the extent the Court
relies on any piece of evidence, objections against the same are
OVERRULED. The Court offers a more detailed explanation for
several particular evidentiary rulings throughout the opinion.

App. 44
II. SUMMARY OF THE EVIDENCE
PRESENTED AT TRIAL
A. Plaintiffs’ Fact Witnesses
1. Individual Plaintiffs
Individual Plaintiffs Douglas Burks, Mark Griffiths,
Aaron Dagres, and Elizabeth Myer testified at trial.
They live in District 2, District 7, District 12, and
District 13, respectively. The remainder of the
individual Plaintiffs, who reside in the rest of the
congressional districts, testified via deposition. All
individual Plaintiffs testified to their affiliation with
the Democratic Party and/or that they consistently vote
for Democratic candidates. See infra Sections
III.A.1.–16. In addition to being Democratic voters, the
individual Plaintiffs are politically active in supporting,
volunteering for, and working for Democratic
candidates and causes.126 Collectively, they have
engaged in a variety of activities, including door-to-door
canvassing, calling other voters to support candidates,
126

Plaintiffs collect the trial and deposition testimony to this effect
in their Proposed Findings of Fact (“PFOF”). In many instances,
Defendants at least acknowledge that the individual Plaintiffs are
politically active in support of the Democratic Party. See generally
Dkt. 251 (Pls.’ PFOF at ¶¶ 313–14, 324–27, 334–37, 350, 363, 373,
389–97, 419–20, 432–46, 459–66, 478, 489–90, 512–15, 529–30,
546–48. 550, 556–57, 570–72); Dkt. 253 (Defs.’ & Intervenors’
PFOF at ¶¶ 1139, 1149, 1152–53, 1170, 1174, 1230–37, 1267, 1289,
1292, 1302, 1305–08, 1329, 1380, 1382). To the extent that
Defendants contest the veracity of Plaintiffs’ support of the
Democratic Party and Democratic candidates, we find Plaintiffs’
testimony credible and that the overwhelming weight of the
evidence shows that the individual Plaintiffs consistently vote for
and politically support the Democratic Party.

App. 45
writing campaign postcards, fundraising for and
donating to candidates, writing letters to
representatives and opinion pieces, and protesting.
Several of the Plaintiffs have also worked on
Democratic campaigns and served on boards of groups
or political committees affiliated with the Democratic
Party. Finally, the individual Plaintiffs testified, based
on their direct lay experiences of engaging in political
activity, to the burdens that they themselves have
experienced in translating their Party’s political efforts
in the electorate into political power in the U.S. House
of Representatives.127 The individual Plaintiffs testified
that their efforts included candidate recruitment,
fundraising, and get-out-the-vote activities.
2. Organizational Plaintiffs
APRI, the League, and HCYD each testified at trial
through a representative, and some additional
members of the organizations supplemented the
testimony. Several themes ran throughout this

127

See Dkt. 230-15 (Goldenhar Dep. at 26–27); Dkt. 239 (Burks
Trial Test. at 231–32, 235); Dkt. 230-21 (Inskeep Dep. at 88–89);
Dkt. 230-30 (Libster Dep. at 39, 60, 62–63, 75–76); Dkt. 230-11
(Deitsch Dep. at 48, 90–91); Dkt. 230-6 (Boothe Dep. at 51–52, 88);
Dkt. 240 (Griffiths Trial Test. at 51–53); Dkt. 230-36 (Nadler Dep.
at 27–28, 91); Dkt. 230-40 (Rader Dep. at 121–23); Dkt. 230-50
(Walker Dep. at 45, 87, 91); Dkt. 230-32 (Megnin Dep. at, 88–89,
106); Dkt. 240 (Dagres Trial Test. at 97–98); Dkt. 240 (Myer Trial
Test. at 119–21); Dkt. 230-20 (Hutton Dep. at 46–47); Dkt. 230-48
(Thobaben Dep. at 46–47); Dkt. 230-42 (Rubin Dep. at 40–41, 78).
To clarify, nothing about H.B. 369 categorically prohibits
Plaintiffs from engaging in these activities. The point is simply
that Plaintiffs are, in fact, politically engaged individuals who
support the Democratic Party in its effort to elect candidates.

App. 46
testimony. First, the organizations actively engage in
politics by encouraging citizens to vote, registering and
educating voters, and in the case of HCYD, advocating
on behalf of Democratic candidates. Second, in their
experience, voter outreach and engagement work was
made more difficult by continuously encountering
significant voter apathy. They heard voters state their
beliefs that their votes did not matter; voters believed
that the outcome of any given election was preordained
and that the same Republican or Democrat would be
elected regardless of whether they voted. Third, the
organizational plaintiffs encountered voter confusion—
voters did not know to which district they belonged,
who represented them, or who was running for office in
their districts. Fourth, the organizational plaintiffs
testified that they were forced to divert resources from
their other work to address this voter apathy and
confusion. Individual members of the organizations
testified about their involvement with their
organizations and their own political work supporting
the elections of Democratic candidates. They testified
that in their experience, they found their Republican
congressional representatives unresponsive to them
and not engaged in their communities. They also
explained how their communities had been split into
different districts under the 2012 map.
Andre Washington, the president of APRI, testified
at trial on the organization’s behalf.128 Washington is a
Democrat who votes regularly and resides in District

128

Dkt. 239 (Washington Trial Test. at 44).

App. 47
12.129 Under Plaintiffs’ Proposed Remedial Plan,
Washington would reside in the reconfigured District
12.130 APRI is a nonpartisan organization but supports
civil rights and labor issues.131 Its activities center
around voter education, registration, and outreach.132
APRI has eight chapters across Ohio, seven of which
are currently active, and has between 150 and 200
members spread throughout nearly every congressional
district in Ohio.133 It is a volunteer-run organization,
funded by membership dues.134
Washington testified that he has personally
witnessed voter apathy—people feeling like their vote
does not matter—while attempting to engage voters in
his own district.135 He testified that because of the way
the lines are drawn, voters do not know where to vote
or who is running in their district.136 Washington
testified that APRI must deploy some of its limited

129

Id. at 55–56.

130

Id. at 54; Trial Ex. P090 (Cooper Decl.).

131

Dkt. 239 (Washington Trial Test. at 45).

132

Id. at 46, 52.

133

Id. at 48–50.

134

Id. at 48, 52.

135

Id. at 61–62.

136

Id. at 52.

App. 48
resources to combat voter apathy and confusion rather
than spending these resources on its other work.137
Stephanie White, the vice president of APRI’s Toledo
chapter, also testified at trial.138 White is a Democrat
who votes regularly and resides in District 5.139 White
believes that District 5 “is not part of the Lucas County
community,” but rather that “it’s part of the Fulton
County, Defiance, Williams County area, which is
predominantly Republican.”140 She is represented by
Republican Congressman Bob Latta.141 White testified
that she has spent time in her political work with ARPI
addressing Toledo voters’ confusion about their
assigned congressional districts.142 She also conducts
partisan political activities such as door-to-door
canvassing, phone banking, voter registration drives,
and get-out-the-vote (“GOTV”) work to help elect
Democratic candidates such as James Neu and John
Galbraith, who ran for Congress against
Representative Latta in the 2016 and 2018 elections,
respectively.143

137

Id. at 52–53.

138

Dkt. 239 (White Trial Test. at 111).

139

Id. at 109–10.

140

Id. at 115.

141

Id. at 112.

142

Id. at 119.

143

Id. at 116, 118

App. 49
Jennifer Miller, the Executive Director of the
League testified at trial on the organization’s behalf.144
The League is a nonpartisan organization that hosts
candidate forums, publishes voter education materials,
registers voters, and participates in GOTV activities.145
It has around 2,800 members across Ohio, living in all
of Ohio’s congressional districts.146 The League has a
long history of attempting to reform the districting
process and Ohio’s district lines.147 For example, it
commissioned and published a report criticizing the
process through which the 2012 map was drawn, and
in 2011 it hosted a competition in which members of
the public could submit redistricting map drafts that
comported with non-partisan traditional redistricting
principles.148
Miller testified that the League spends resources
combating voter apathy and confusion due to the 2012
map that it then cannot spend on its other initiatives
such as voter registration and education.149 For
example, during the 2018 special election in District 12,
the League had to divert significant resources to
fielding voters’ calls inquiring about their assigned

144

Dkt 239 (Miller Trial Test. at 129).

145

Id. at 130–31.

146

Id. at 133–34.

147

Id. at 138.

148

Id. at 154–55, 156–57.

149

Id. at 144.

App. 50
congressional districts. Miller has also observed
political candidates’ unresponsiveness to the League’s
attempts to plan candidate forums, particularly in
Republican-dominated areas. She testified that
Congressmen Jordan, Stivers, and Joyce have all been
unresponsive to the League’s requests that they
participate in candidate forums.150 The League cannot
hold a candidate forum in which only one party is
represented, and therefore must cancel the planned
forums if the candidate from one party declines to
participate.151
John Fitzpatrick, a member of the League and a
voter in District 14 also testified at trial.152 Fitzpatrick
lives in Stow, Ohio, which is a northern suburb located
about ten minutes from downtown Akron.153 Under
Plaintiffs’ Proposed Remedial Plan, Fitzpatrick would
live in the new District 16.154 He is a Democrat who
votes regularly, has informal conversations with
friends to encourage them to vote and vote for
particular candidates, has contributed financially to
Democratic candidate Betsy Rader’s congressional
campaign, and has canvassed and phone banked in

150

Id. at 148.

151

Id. at 147–49.

152

Dkt. 239 (Fitzpatrick Trial Test. at 196–97).

153

Id. at 197.

154

Trial Ex. P090 (Cooper Decl.).

App. 51
other elections.155 Fitzpatrick is currently represented
by Republican Congressman David Joyce.156 Fitzpatrick
considers himself a part of the Akron community
because he and his wife spend most of their time,
recreate, and are involved in the community there.157
He has been involved in League activities such as
planning candidate nights, voter education, and antigerrymandering activities such as working to get Ballot
Initiative 1 on the Ohio ballot.158 Fitzpatrick stated
that in the year and a half prior to the passage of
Initiative 1, 80% of his work with the League was
dedicated to anti-gerrymandering work.159
Fitzpatrick also testified about voters in the Akron
area being confused about the district in which they
live. He himself attempted to use a “congressional
house finder” tool to determine his congressional
district, but typing in his zip code produced two
possible districts.160 He stated that because Summit
County encompasses four different congressional
districts, “before [he] got super-involved in [his]
district, there [were] more than a few times when [he]

155

Dkt. 239 (Fitzpatrick Trial Test. at 201–03).

156

Id. at 197.

157

Id. at 198–99.

158

Id. at 200–01, 206–07.

159

Id. at 207.

160

Id. at 208.

App. 52
had to look it up because [he] had a hard time just
remembering exactly which district [he] was in.”161
Nathaniel Simon, the outgoing president of the
HCYD, testified on the organization’s behalf.162 Simon
lives and votes in District 2 and is represented by
Republican Congressman Brad Wenstrup.163 Under
Plaintiffs’ Proposed Remedial Plan, Simon would live
in the new District 1.164 HCYD is a volunteer
organization that educates and registers voters and
supports Democratic candidates by canvassing and
conducting GOTV efforts on their behalf.165 HCYD has
between 100 and 150 members who vote, identify as
Democrats, and live in Districts 1 and 2.166 Simon
testified that HCYD has to expend additional resources
fighting voter apathy and confusion.167 He testified that
he felt voters were apathetic because, while canvassing
for Democratic candidates Aftab Pureval and Jill
Schiller, he encountered voters who “refuse[d] to
engage in politics because they felt like there was no
point, just being that a Republican is always going to

161

Id. at 209.

162

Dkt. 240 (Simon Trial Test. at 64).

163

Id. at 63, 67.

164

Id. at 63; Trial Ex. P090 (Cooper Decl.).

165

Dkt. 240 (Simon Trial Test. at 64–66).

166

Id. at 65, 67.

167

Id. at 68, 73.

App. 53
win with the way the lines are drawn.”168 Simon
testified that the voter confusion in Hamilton County
was due in large part to the current map, in particular
the manner in which Districts 1 and 2 “wrap[] around
each other” and the splitting of the City of Cincinnati
itself into two districts.169 For example, Simon testified
that he worked at a polling place in Silverton and that:
many people who came out of the polling booth
asked why wasn’t Aftab Pureval on my ballot . . .
I had to explain to them that they are in the 2nd
Congressional District, but to the east and west
of Silverton is the 1st Congressional District.
Also, in my neighborhood, which is in the 2nd
Congressional District, there were Aftab Pureval
signs, and he is the candidate for the 1st
district.170
Simon also testified that the district lines have made it
more difficult for HCYD to attract and retain
members.171
NEOYBD and OSU College Democrats’ testimony
was introduced through designated depositions.
NEOYBD is a Democratic group that “looks to mentor,
empower and recruit the next generation of young
people of color who want to be involved in the political

168

Id. at 68.

169

Id. at 63, 68, 69–70.

170

Id. at 69–70.

171

Id. at 69–70.

App. 54
process.”172 It has around sixty Democratic members
who vote regularly and live in Districts 9, 11, 13, and
14.173 Gabrielle Jackson, the president of the
organization, was its Rule 30(b)(6) representative.174
The organization canvasses, runs phone banks,
educates people on “why [their] vote matters, why
[they] should be voting,” and “concrete issues that are
on the ballot,” and advocates on behalf of the
candidates that the organization supports.175 Jackson
testified that her group fundraises both for candidates
and for itself.176 She stated that “it’s been challenging
based on the way this map is currently drawn, because
folks have been feeling like, you know, [their] voices
aren’t being heard. So it’s causing us to use more of our
resources, when we have a hard time bringing in
resources.”177 Jackson testified that while canvassing
and phone-banking with her organization, she spoke
with people who expressed apathy about voting and
said that they did not believe that their votes
mattered.178

172

Dkt. 230-22 (Jackson Dep. at 8, 14).

173

Id. at 26, 40, 41.

174

Id. at 7.

175

Id. at 9, 13, 15–16, 18.

176

Id. at 23.

177

Id. at 23.

178

Id. at 69.

App. 55
Alexis Oberdorf is the President of the OSU College
Democrats and was the group’s Rule 30(b)(6)
representative.179 The OSU College Democrats
“advocate, educate, and engage people at OSU in
alignment with the Democratic Party’s platform.”180
The organization has around 55 members who
regularly attend meetings but hosts events throughout
the year that around 100 people attend.181 OSU College
Democrats canvasses and runs phone banks in support
of Democratic candidates and has held fundraisers for
Democratic candidates such as Danny O’Connor.182
Oberdorf testified that OSU students who live near
campus reside in Districts 3, 12, and 15 and that the
organization must therefore “spread[] [its] capital
among three different areas on campus.”183 The
majority of OSU College Democrats vote “on campus in
their district.”184 She testified that she worked a poll in
District 12 during an election and witnessed students
coming to vote in the incorrect district “because they
assumed seeing that they’re . . . in this campus area,
they are all going to vote in the same area. So that
creates confusion. And part of what we do as a club is

179

Dkt. 230-38 (Oberdorf Dep. at 7, 9).

180

Id. at 13.

181

Id. at 42.

182

Id. at 78–80, 87–89, 113–14.

183

Id. at 62.

184

Id. at 66.

App. 56
aim to educate people.”185 She also testified that her
organization has “done coordinated call campaigns for
bills that [it] oppose[s]” to representatives from those
districts and has found “it challenging especially to
contact or get . . . a response from those individuals.”186
3. Congresswoman Marcia Fudge
Congresswoman Marcia Fudge, representative to
the United States House of Representatives from
Ohio’s Congressional District 11, testified for Plaintiffs
at trial.187 She testified that District 11 has been
represented by three different representatives in
Congress: Lou Stokes, Stephanie Tubbs Jones, and
herself.188
Congresswoman Fudge described the historical
contours of District 11. When Congresswoman Fudge
took office in 2008, District 11 “was primarily a little
better than two-thirds of the city of Cleveland and most
of the southeast suburbs.”189 The district was entirely
contained within Cuyahoga County.190 When Stephanie
Tubbs Jones took office in 1999, District 11 included
“most of the city of Cleveland, the lower west side all

185

Id. at 63–64, 69.

186

Id. at 103.

187

Dkt. 239 (Fudge Trial Test. at 79).

188

Id. at 80.

189

Id.

190

Id.

App. 57
the way to the east and the southeast suburbs of
Cuyahoga County,” and was again entirely within
Cuyahoga County.191 The district that Congressman
Stokes represented was “pretty much the same,” again,
entirely within Cuyahoga County.192 Congresswoman
Fudge contrasted that historical District 11 with the
version of District 11 that she currently represents:
“[T]he first major difference is that [her district] go[es]
from Cuyahoga down to Summit County” via a “narrow
strip.”193
Congresswoman Fudge unequivocally stated that
she “didn’t have any role” in the drawing of the new
congressional map in 2011.194 She first learned that the
new District 11 would extend into Summit County and
include parts of Akron “around the time that the map
was made public.”195 Armond Budish, the Democratic
minority leader of the Ohio House of Representatives,
was the one to first show her the map “pretty much so
[she] wouldn’t get caught off guard.”196 She stated that
she was “surprise[d], obviously” by the new District 11
and had “no idea that [she] would ever go down into
191

Id. at 81; see also Pls.’ Demonstrative Ex. 19.

192

Dkt. 239 (Fudge Trial Test. at 81). For part of his time as a
congressman, the district that Stokes represented was called
District 21. Id. at 88.
193

Id. at 82.

194

Id. at 83.

195

Id.

196

Id.

App. 58
Summit County.”197 She was not “pleased” by the new
design, she “would not have chosen it,” and she “was
not happy about it.”198 Congresswoman Fudge stated
that she “didn’t know anything about Summit County”
at the time and that her lack of familiarity with the
new area made it “an uncomfortable place to be.”199 She
stated that due to Ohio’s losing two congressional seats
and the inevitable changes that that would necessitate,
she thought that the new District 11 would most likely
include the entire City of Cleveland and its southeast
suburbs.200
Congresswoman Fudge stated that after learning of
the new map, the only complaint that she voiced was
her belief that allocating “Summit County or that
portion of Akron” to the new District 11 “would make
it almost impossible” for Democratic Representative
Sutton to win an election in the new District 16.201
Congresswoman Fudge stated that she got together
with Congresswoman Sutton and Congresswoman
197

Id.

198

Id. at 84. On cross-examination, Congresswoman Fudge
admitted that in 2011 she was publicly quoted as saying that she
was “not upset about how [her] district had been drawn.” Id. at 98.
She explained that as an elected official, she would “never insult
the people that I’m going to represent by saying ‘I don’t want to
represent you.’” She also stated that she believed that she had
been misquoted. Id. at 98–99.
199

Id.

200

Id. at 85.

201

Id.

App. 59
Kaptur to contact Armond Budish to “ask him was
there any way to give Betty back Akron so she would
have a fighting chance at keeping her seat.”202 She
testified that she “may have” spoken with U.S. House
of Representatives Speaker Boehner in 2011 about the
redistricting “in passing” but recalls nothing about
such a conversation.203 She spoke to “[l]ots of people”
about the shape of her district in 2011, including
Republican Congressman Steve LaTourette, who she
believed was “kind of the point person for John
Boehner.”204 She also spoke to Representatives Sutton
and Kucinich, first attempting “to see if we could get
[the shape of the district] changed because we wanted
to try to see if we could help protect Betty [Sutton]. We
couldn’t.”205 She then “made sure they knew [she] was
not pleased.”206
Congresswoman Fudge admitted that she did not
tell any of the people that she spoke with in 2011 about
District 11 that she did not want District 11 to be a
majority-minority district.207 She did not advocate the
drawing of District 11 with less than 50% BVAP

202

Id. at 85–86.

203

Id. at 99.

204

Id. at 100.

205

Id.

206

Id.

207

Id. at 101.

App. 60
(“Black Voting Age Population”).208 She testified that in
2011 she did not view the new district as a violation of
the Voting Rights Act (“VRA”).209 Congresswoman
Fudge stated that she was not concerned about being
paired with another incumbent in the redistricting
because she “felt if they were to pair me with
somebody, I felt that I was strong enough to win.”210
She expressed no concern to anyone about being paired
with Congressman Kucinich.211 On cross-examination,
Congresswoman Fudge stated that since Stokes’s time
as the congressman for the district, it has been a
majority-minority district.212
4. State Senator Nina Turner
State Senator Nina Turner, a former Democratic
member of the Ohio State Senate, testified for
Plaintiffs as a fact witness. Senator Turner served
Ohio’s 25th State Senate District from 2008 to 2014. At
the time of the 2011 redistricting, Senator Turner
testified that the State Senate was comprised of ten
Democratic Senators, five of whom were African
American, and twenty-three Republican Senators.213 As
a result of being in the “deep minority,” Senator Turner
208

Id. at 102.

209

Id. at 102–03.

210

Id.

211

Id. at 102.

212

Id. at 89.

213

Dkt. 240 (Turner Trial Test. at 7–8).

App. 61
testified that she had no involvement in the drawing of
the current map and that the Democratic Caucus as a
whole “didn’t have the power to draw the map” because
“Republicans could hold business on the [Senate] floor
without really having Democrats there.”214 When she
first learned of the map presented in H.B. 319, Senator
Turner testified that she was “outraged” and that her
Caucus tried to “introduce a map that was a fairer
reflection of the will of the people.”215 As to H.B. 319,
Senator Turner stated that only two Democratic State
Senators voted for the bill and that she voted no.216
Senator Turner believed that the map presented in
H.B. 319 would be a 12-4 map.217
Senator Turner also gave a floor speech against
H.B. 319, in part addressing the justification that the
District 11 was drawn to comply with the VRA.218 At

214

Id. at 8–9.

215

See id. at 9–10.

216

Id. at 10–11.

217

See, e.g., id. at 16–17. Defendants object to Senator Turner’s
testimony as speculation that the Republicans “guaranteed” a 12-4
map. Plaintiffs contend that Senator Turner’s testimony goes to
the knowledge and belief of the Democratic members of Ohio’s
General Assembly regarding H.B. 319. Defendants’ objection is
overruled. This evidence is admissible to demonstrate Senator
Turner’s belief that it was a 12-4 map, which in turn supports why
she voted against H.B. 319 and made a floor speech opposing the
adoption of it.
218

See generally Trial Ex. J03 (Ohio Senate Session, Sept. 21, 2011
at 50–56) (statement of Sen. Turner).

App. 62
trial, Senator Turner explained her belief that the way
District 11 was drawn harmed the voters the VRA
sought to protect by “hurt[ing] the[ir] voting prowess”
and decreasing their “influence that they would have
through representative democracy by stripping or
combining portions of the 11th Congressional District
in ways that representatives could not focus purely on
Cleveland and/or Cuyahoga County.”219 Senator Turner
also noted that Congresswoman Marcia Fudge and
former Congressman Louis Stokes “never had a
problem winning elections in that district.”220 She
further testified that the way District 11 was drawn
harmed both the greater Cleveland and the greater
Akron communities because she believed that the two
communities have separate needs and “deserve to have
a representation that can really focus in on their
needs.”221
As recounted above, after H.B. 319 was enacted into
law, Democratic state legislators sought a referendum
to overturn the law, which required a certain number
of signatures.222 This referendum failed because not
enough signatures were collected, and Republican state
legislators then went forward with H.B. 369.223 Senator
Turner testified that she had no input on the map
219

Dkt. 240 (Turner Trial Test. at 13).

220

Id.

221

Id. at 14.

222

Id. at 17–18.

223

Id. at 18.

App. 63
presented in H.B. 369, that she believed that the map
was still 12-4 in favor of Republicans like H.B. 319, and
that she and a majority of the Democratic Caucus in
the State Senate (as well as a majority of the AfricanAmerican State Senators) voted against H.B. 369.224
Senator Turner spoke against H.B. 369 in a floor
speech similar to the one she made against H.B. 319. In
this floor speech, Senator Turner stated that “[t]o say
that this map is bipartisan is laughable” because, as
she stated at trial, she believed that “the mere fact that
some Democrats, for whatever reason, decided to vote
for the bill does not make it bipartisan.”225 At bottom,
Senator Turner maintained her belief that H.B. 369
had a clear partisan effect.226
Finally, on cross-examination, Senator Turner
admitted that she considered running against
Congresswoman Fudge in the 2012 Democratic
primary, but she dropped out because she believed that
the redistricting process was manipulated to guarantee
the reelection of incumbent politicians.227 Senator
Turner also acknowledged that it “might be possible”
that she received proposals from Democratic map
drawers that incorporated, among other things, a

224

Id. at 18–19, 23.

225

Id. at 20; see also Trial Ex. J05 (Ohio State Senate Session, Dec.
14, 2011 at 22–27) (statement of Sen. Turner).
226

Dkt. 240 (Turner Trial Test. at 20).

227

Id. at 25–26, 34; Dkt. 253 (Defs.’ & Intervenors’ PFOF at ¶ 214).

App. 64
majority African-American district in northeast Ohio.228
But such a district existed previously (with different
boundaries, limited to the greater Cleveland area), and
Senator Turner maintained that the enacted map did
not contain any of the Democratic suggestions.229
5. Congresswoman Marcy Kaptur
Plaintiffs called Congresswoman Marcy Kaptur, a
Democratic member of the U.S. House of
Representatives, as a rebuttal witness. Representative
Kaptur won election to Congress in 1982 and has
served Ohio’s Congressional District 9 since 1983. She
is the most senior member of Ohio’s congressional
delegation.230 Representative Kaptur testified that she
did not play any part in creating the map that was
submitted with H.B. 319, the initial redistricting bill,
and she first learned about the shape of the new
District 9 in the newspaper after H.B. 319 became
public.231 Representative Kaptur testified that, after
learning about the map presented in H.B. 319, she
called then-Governor John Kasich’s office to object to
the fact that her church and the cemetery where her

228

Dkt. 240 (Turner Trial Test. at 27–33).

229

See id. Moreover, we observe again that a majority of the
Democratic Caucus, including the African-American members,
voted against H.B. 369.
230

231

See Dkt. 249 (Kaptur Trial Test. at 69).

Id. at 69–70. Representative Kaptur’s office also had no
documents related to the 2011 redistricting process. Id. at 81.

App. 65
family is buried were cut out of District 9;232 moreover,
she had conversations with a Democratic state
legislator after the release of H.B. 319 to “try[] to piece
[Toledo] back together.”233 Representative Kaptur did
not want to be paired with then-Congressman
Kucinich, a Democratic colleague of Kaptur’s, because
he had “run for president” and she believed that the
proposed District 9 was drawn to favor Representative
Kucinich over her if they ran against each other.234 On
cross-examination, Representative Kaptur
acknowledged that, due to population loss, her district’s
geography would have to expand, but she stated that
she “hop[ed] it would be in the economic region that
[she] represented” such as Wood or Fulton Counties.235
B. Defendants’ Fact Witnesses
1. Raymond DiRossi
Raymond DiRossi testified at trial for Defendants as
a fact witness, and he was one of the principal map
drawers during the 2011 redistricting process. He also
played a role in the 2001 redistricting process.236
Starting in 2001, DiRossi became involved with the
Task Force and “was very involved in the creation of
[the] legislative districts and also the congressional
232

Id. at 73–74.

233

Id. at 81–82.

234

Id. at 76, 89.

235

Id. at 78–79.

236

Dkt. 243 (DiRossi Trial Test. at 146).

App. 66
districts . . . .”237 DiRossi testified that he worked out of
the DoubleTree hotel in Columbus during both the
2001 and 2011 redistricting processes.238
DiRossi testified that, in 2011, he was “very
prominent” in the congressional redistricting process
and that “basically, the process was the same” as in
2001.239 According to DiRossi, the main issues in the
2011 redistricting process were that Ohio lost two
congressional seats, the State had experienced
population shifts, District 11 was majority-minority in
the past and in 2011 “great care was . . . taken to . . .
make sure that [District 11] was going to be created in
a way that would be satisfactory,” and he also
understood that there was a “desire to make a new
district in Franklin County that would have the ability
to elect, for the first time ever,” a minority candidate to
Congress.240
To deal with the loss of two incumbents (because
Ohio lost two congressional seats), DiRossi testified
that “the decision was made to pair two Republicans
together and two Democrats together. So we would
have ended up with” twelve Republicans and four

237

Id. at 147.

238

Id. at 152.

239

Id. at 154.

240

Id. at 154–55.

App. 67
Democrats.241 In terms of how to handle which
Democratic incumbents to pair, he stated that it was
his belief that “nobody thought it was a good idea to
pair” Representative Fudge with another incumbent
because she represented a majority-minority district.242
In the end, Representatives Kaptur and Kucinich were
selected as the paired Democratic incumbents. DiRossi
testified that he drew the current District 9 the way it
is based on what various other Republican legislators
and political officials had said various Democrats
wanted (these other Republicans were purportedly in
conversation with the Democrats).243

241

Id. at 156. Going into the redistricting, Republicans held a 13-5
majority in Ohio’s congressional delegation. DiRossi, however, also
maintained that he was not simply trying to draw twelve
“Republican districts” in the map. Id. at 158.
242

Id. at 157. Plaintiffs object to this statement, and similar
statements made by DiRossi, as hearsay. The statement is
admissible, however, for the limited purpose to show the effect on
DiRossi, i.e., that he did not pair Representative Fudge against
another incumbent, but it cannot be used for the truth that various
persons in fact thought it was a bad idea to pair Representative
Fudge against another incumbent. See Biegas v. Quickway
Carriers, Inc., 573 F.3d 365, 379 (6th Cir. 2009) (“A statement that
is not offered to prove the truth of the matter asserted but to show
its effect on the listener is not hearsay.”); see also United States v.
Churn, 800 F.3d 768, 776 (6th Cir. 2015) (citing United States v.
Pugh, 273 F. App’x 449, 456 (6th Cir. 2008)) (“Such a statement
may be admitted to show why the listener acted as she did.”).
Moreover, DiRossi’s testimony on this point is unclear, specifically
to whom he is referring when he uses the term “nobody.”
243

See generally id. at 159–66. Plaintiffs again object to DiRossi’s
testimony as to what other political officials said as hearsay. For
the reasons explained in supra note 242, the statements are

App. 68
DiRossi further testified to changes made to various
other districts, purportedly at the request of
(occasionally unspecified) Democrats, and to the effects
those changes had on the map as a whole.244
admissible for the limited purpose of showing why DiRossi drew
the districts the way he did, but they cannot be used as evidence
for what Democrats actually did or did not want or what
Democrats said due to the multiple layers of hearsay. Again, this
line of testimony from DiRossi was often extremely vague and unclear.
DiRossi also testified to changes to District 9 between H.B. 319
and 369—specifically that there “was much more Toledo in [H.B.
369 than in H.B. 319] and . . . less Cleveland.” Id. at 166. We
observe that some portions of Lucas County were added to District
9 in H.B. 369, and the Cleveland side had small portions dropped
and added. See Trial Ex. I-072 (Changes from H.B. 319 to H.B. 369
at 11–14) (yellow represents geography in both plans, green
represents geography that was added in H.B. 369, and red
represents geography that was dropped in H.B. 369); Dkt. 243
(DiRossi Trial Test. at 187). Ultimately, this testimony is
inconsequential because there were no material geographic
changes between H.B. 319 to H.B. 369, see Trial Ex. I-072; see also
Dkt. 246 (Judy Trial Test. at 83), and any changes between H.B.
319 and H.B. 369 to the partisan makeup of District 9 (or any
district) were not material whatsoever. The Court also notes that
Plaintiffs object to the admissibility of Exhibit I-072 on the basis
that DiRossi lacked foundation to testify about the exhibit because
he did not create it. The Court summarily overrules that objection
because DiRossi, as one of the primary map drawers, was
intimately familiar with the changes from H.B. 319 to H.B. 369.
DiRossi provided sufficient testimony to establish his personal
knowledge of the changes and indicated that Exhibit I-072 was a
fair and accurate rendering of the changes. See e.g., Dkt 243
(DiRossi Trial Test. at 191). He does not need to create the exhibit
in order to lay the foundation for its admittance. See FED. R. EVID.
602.
244

See generally Dkt. 243 (DiRossi Trial Test. at 166–75, 177–79,
183–84). Plaintiffs’ hearsay objections to this line of testimony are

App. 69
Negotiations between state legislative Democrats and
state legislative Republicans began around the time of
the attempted petition drive (after H.B. 319).245 As to
District 11, for example, DiRossi asserted that he
“wanted to take great care to make sure the district
was drawn the way that the incumbent [Representative
Fudge] wanted it.”246 At trial, DiRossi did not mention
any concerns about VRA compliance, but at his
deposition, he stated that he was concerned about
majority-minority districts, including District 11,
because of the VRA.247 At his deposition, he further
stated that, in 2001, District 11 was drawn with more
than a 50% BVAP, so in 2011, “one of the first things
that [DiRossi] was looking at was . . . was it possible to
still draw a district that would be more than 50 percent
non-Hispanic voting age African American
population.”248 It was DiRossi’s “understanding that the
maps were going to make their way to Congresswoman

overruled in part for the same reasons already discussed. See
supra note 242. In any event, for the reasons we explain later in
the Opinion, we find, importantly, that, any changes did not alter
the partisan makeup of the map, and the geographic changes were
not very significant either. See, e.g., Trial Ex. I-072 (Changes from
H.B. 319 to H.B. 369). Furthermore, the overarching intent
remained partisan in that no changes would be made that would
put the 12-4 map in favor of Republicans at risk.
245

Dkt. 243 (DiRossi Trial Test. at 174–75).

246

Id. at 169; see also supra note 242.

247

Dkt. 230-12 (DiRossi Dep. at 193–94).

248

Id. at 194.

App. 70
Fudge,” but he clarified that, “obviously, [he] was not
present for that.”249
With respect to District 3, DiRossi similarly
testified that a “back and forth” occurred between Bob
Bennett, Republican legislative leaders, “some other
people,” and Joyce Beatty and her husband Otto.250 At
that time, now-Congresswoman Beatty was not yet a
Congresswoman and did not hold any position in
government, though DiRossi testified that “a number
of people, including myself who had worked with . . .
Joyce Beatty . . thought that she would be an ideal
candidate” for the new District 3.251
Some changes did, in fact, occur between H.B. 319
and H.B. 369. DiRossi testified to these changes and
explained an exhibit that illustrates them.252 And
again, he asserted at trial that many of these changes
were made in response to what he believed were

249

Dkt. 243 (DiRossi Trial Test. at 172).

250

Id. at 177–78. For the reasons explained previously, supra note
242, DiRossi’s testimony is admissible only as evidence for why he
drew District 3 a certain way. The statement is inadmissible for
the truth that certain Republicans wanted to create a district for
Joyce Beatty.
251

252

Id.

See Dkt. 243 (DiRossi Trial Test. at 187–98); Trial Ex. I-072
(Changes from H.B. 319 to H.B. 369). Again, in the exhibit, yellow
represents geography that stayed the same in both plans, green
represents geography that was added in H.B. 369, and red
represents geography that was dropped in H.B. 369. Dkt, 243
(DiRossi Trial Test. at 187).

App. 71
requests of various Democrats.253 For H.B. 319, he
worked out of the DoubleTree Hotel and did not work
with any Democrats; he also admitted that he received
requests from Tom Whatman (from Team Boehner).254
For H.B. 369, DiRossi stated that he worked out of the
State House, and, for that bill, he asserted that
Republicans “were working with the Democrats . . . .”255
As to the logistics of the actual map-drawing
process, DiRossi testified to that he used Maptitude
and the Unified Index that he created.256 Along with
the Unified Index that he created and additional
political indices that others wanted him to use, his
computer also displayed the population of each district,
the African-American voting-age population, the nonHispanic votingage population, and the Hispanic
voting-age population as he drew draft maps.257
“[W]henever [he] would make a change on the . . .
screen, all of that would automatically change . . . .”258

253

See Dkt. 243 (DiRossi Trial Test. at 188–93, 195) (referring
mainly to District 3 and purported requests related to District 9).
DiRossi further testified that no changes were made to District 11
between H.B. 319 and H.B. 369, and because there were no
requests from legislative Democrats related to District 11, he
“thought [the map drawers] got it right the first time.” Id. at 195.
254

See, e.g., Dkt. 243 (DiRossi Trial Test. at 184).

255

Id. at 219, 287.

256

Id. at 199.

257

Id. at 199–200

258

Id. at 200.

App. 72
The other political indices included presidential
election results, as well as the “D+1, D+2, R+1, R+2
system” (often referred to as the D+1, R+1, or PVI)
from “the D.C. folks.”259
DiRossi admitted that in 2011 he worked with
Adam Kincaid, from the RNC, and that Kincaid “was
one of a number of people that would send ideas or
[DiRossi] could bounce ideas off.”260 In a September 10,
2011 email exchange between DiRossi and State
Senator Faber, DiRossi wrote, “DC is increasingly
pushing to put the lid on this [i.e., the map].”261 DiRossi
259

Id. at 199–200, 229.

260

Id. at 224. DiRossi further admitted that Kincaid made at least
some changes to the maps, and DiRossi received the PVI from
Kincaid. See id. at 265, 278.
261

Trial Ex. P124 (Sept. 10, 2011 email); see Dkt. 243 (DiRossi
Trial Test. at 239). State Senator Niehaus also sent an email to
DiRossi and Whatman on September 11, 2011, which stated that
Senator Niehaus was “still committed to ending up with a map
that Speaker Boehner fully supports, with or without votes from
two members of leadership.” Trial Ex. P125 (Sept. 11, 2011 email);
Dkt. 243 (DiRossi Trial Test. at 240–43). One day later, Senator
Niehaus asked DiRossi via email titled “Proposed map for LSC
[Legislative Service Commission]”: “Did Whatman sign off?”
DiRossi confirmed that “Whatman signed off.” Trial Ex. P126
(Sept. 12, 2011 emails); Dkt. 243 (DiRossi Trial Test. at 255). LSC
puts the maps into final bill form. See Dkt. 243 (DiRossi Trial Test.
at 220). H.B. 319 ultimately went public on September 13, 2011.
Id. at 260. The individuals on the email chains leading up to this
time were using their personal (rather than State of Ohio) email
addresses. Id. at 270–71. Lastly, several of the emails entered into
evidence on cross-examination contained political data in the text
of the email but none of the other demographic data that DiRossi
mentioned he had in Maptitude.

App. 73
also admitted that the changes supposedly requested
by now-Congresswoman Beatty (who, again, was not
yet a Congresswoman) to draw a potential opponent
out of District 3 affected a fairly trivial number of
voters.262 Finally, DiRossi admitted that he did not
calculate compactness scores for the districts in either
H.B. 319 or H.B. 369.263
2. Speaker William Batchelder
Former Speaker of the Ohio House of
Representatives William Batchelder testified for
Defendants at trial, explaining how Districts 11 and 3
came to be.264
a. District 11
Speaker Batchelder testified that he knew George
Forbes, the former president of the city council of
Cleveland “very well” and would occasionally discuss
“matters that were coming before the house” with
Forbes.265 Speaker Batchelder stated that District 11
“had changed in its nature, which we knew from the
262

Dkt. 243 (DiRossi Trial Test. at 284); see also id. at 285 (DiRossi
further stating that “[i]t may have been slightly less than 800
people . . . .”).
263

Id. at 284.

264

This summary discusses only Speaker Batchelder’s trial
testimony from his direct examination as well as the portions of
the cross-examination that were within the scope of the direct
examination. See FED. R. EVID. 611(b). The Court also relies on the
properly designated sections of Speaker Batchelder’s deposition.
265

Dkt. 246 (Batchelder Trial Test. at 18–19).

App. 74
census, and [he and Forbes], therefore, were concerned
about its continuance as an African-American
district.”266 Therefore, Speaker Batchelder believed
“[t]here would have to be a change in the district so
that there would be a balance so that it would continue
as an African-American district.”267 Speaker Batchelder
testified that he had discussions with Forbes about
District 11 “extending down into Summit County”
because “we . . . did not have the makings, under the
census, of a district that would be African American”
and “there were sufficient African-Americans in
Summit County to undertake that alteration.”268
Speaker Batchelder testified that he “asked [Forbes]
what he thought of that, and he was amenable.”269
Speaker Batchelder “ultimately approve[d] a District
11 that started in Cuyahoga County and went down

266

Id. at 20. The Court considers this testimony as evidence that
Speaker Batchelder was concerned about District 11’s continuance
as an African-American district. To the extent that the testimony
is offered as evidence of Forbes’s concern, it is inadmissible
hearsay. The Court does not, therefore, consider the testimony for
the truth of whether Forbes was concerned about District 11 but
only for the ultimate purpose of showing what effect, if any,
Forbes’s statements had on Speaker Batchelder.
267

Id. Again, to the extent that Speaker Batchelder’s belief is based
on out-of-court statements by Forbes about Forbes’s concern, those
statements are considered for the effect they had on Speaker
Batchelder and not for their truth.
268

269

Id. at 22–23.

Id. at 24. Plaintiffs again object to any testimony about what
Mr. Forbes said as hearsay. For the reasons previously discussed,
the Court will consider such testimony only for a limited purpose.

App. 75
into Summit County.”270 He agreed that he did this “in
part, based on [his] understanding and belief of how
Mr. Forbes felt about that.”271
On cross-examination, Speaker Batchelder admitted
that he “never personally had communications with
Representative Fudge” about the composition of
District 11.272 Speaker Batchelder also stated that he
and Representative Stokes “did communicate, but not
on that issue.”273
b. District 3
Speaker Batchelder testified about the creation of
the new District 3 in the Columbus area. He stated
that he “first had consulted with the chairman of the
Republican Party there, and he indicated that there
was not going to be a viable candidate for his party.”274
Speaker Batchelder went on to explain that he was
close friends with Otto Beatty and had served in the
Ohio House of Representatives with his wife, Joyce
Beatty.275 Speaker Batchelder agreed that he

270

Id.

271

Id.

272

Id. at 50.

273

Id.

274

Id. at 25. Again, the Court does not consider this out-of-court
statement by the chairman for the truth of the matter asserted,
but rather only for its effect on Speaker Batchelder.
275

Id.

App. 76
“intend[ed] to draw a district that [Joyce Beatty] could
potentially win.”276 Speaker Batchelder stated that he
had never referred to the Franklin County district as a
“sinkhole” nor had he referred to voters as “dog
meat.”277
3. Troy Judy
Troy Judy had a long history of working for the
Ohio House of Representatives and served as the Chief
of Staff to Speaker of the Ohio House of
Representatives William Batchelder during the
redistricting process.278 He testified about the various
people who played a role in the redistricting.279 He also
testified about the map-drawing process, both before
and after the passage of H.B. 319, and offered reasons
that certain congressional districts in the 2012 map
were drawn as they are.280
Judy testified that “[a]fter [H.B.] 319 was passed,
the Democrats, of course, announced a referendum on
the bill and began collecting signatures. . . . And with
the overarching pressure of a referendum, it led us to
begin conversations with members of the Democratic

276

Id.

277

Id.

278

Dkt. 246 (Judy Trial Test. at 67–68).

279

Id. at 81.

280

Id. at 70–79.

App. 77
caucus.”281 Speaker Batchelder asked Judy and
Representative Huffman “to begin very quiet
conversations with the Democrats to see what changes
they would like to see in a map in order to garner
bipartisan support of a bill, a new bill.”282 Judy testified
that in this context he conversed directly with three
Democratic members of the Ohio House of
Representatives who communicated to him “some of
the changes [they] would like to see.”283 Some of these
changes were incorporated into new map drafts and
Judy and Keary McCarthy, the minority Democratic
Chief of Staff exchanged map files including such
changes.284 Judy stated that in the back-and-forth
between himself and McCarthy, McCarthy never
proposed a District 11 or District 3 “that was
materially different from the one proposed by the
Republicans.”285 Judy testified that at this stage, the
now-deceased Bob Bennett, “the outgoing chairman of
the state Republican party,” was involved in
communications between the Republican map drawers
and Democratic players.286

281

Id. at 72–73.

282

Id. at 73–74.

283

Id. at 74.

284

Id. at 75.

285

Id.

286

Id. at 74–75.

App. 78
Judy testified that District 3 had been a “priorit[y]”
of Speaker Batchelder’s.287 He testified that Speaker
Batchelder’s “relationship with Congresswoman Beatty
and her husband Otto Beatty led him to have a priority
to create a central district in Franklin County
encompassing Columbus and having representation
specifically for Congressman [sic] Beatty.”288 He also
testified that population shifts toward Franklin County
and Ohio’s loss of two congressional seats following the
2010 census were factors in the drawing of District 3.289
Judy testified that District 9 was drawn in response
to the Democratic leadership’s desire that
Representative Marcy Kaptur and Representative
Dennis Kucinich be the two Democratic incumbents
paired.290 Judy stated that Bob Bennett “was also in
contact with a Democratic leader from the Toledo

287

Id. at 70.

288

Id. at 71; see also id. at
“understanding and belief
location of Congressional
Batchelder’s relationships
Beattys”).

289

72 (Judy confirming that it was his
that the reason for the shape and
District 3 was based on Speaker
with and conversations with the

Id. at 70. Plaintiffs object to this testimony for lack of
foundation regarding demographic changes in Ohio and the effect
of those changes on the map-drawing process. The Court overrules
this objection and finds that Judy is providing his personal
knowledge of factors that accounted for the drawing of District 3,
including his understanding of demographic changes.

290

Id. at 77.

App. 79
region, Jim Ruvolo,291 who then communicated to us
about what the shape of the Kaptur district should look
like and what Democrats should be paired together,
actually.”292 Judy stated that he was “not sure who else
[Bennett] was speaking with.”293
Judy also testified about the contours of District 11.
He stated that Speaker Batchelder had relationships
with members of the African-American community in
Cleveland, including George Forbes, and has
“consulted” for many years with these individuals “with
respect to any issues that would affect the AfricanAmerican community.”294 This was the only testimony
that Judy related regarding the involvement of leaders
of Northeast Ohio’s African-American community in
the redistricting of District 11.
Judy testified that when the Republican map
drawers began negotiations with Democratic
individuals in an effort to pass the second iteration of
the map, Bob Bennett played a key role in these
communications, serving as a “back channel to
Congresswoman Fudge . . . to communicate with us

291

Judy later stated that he believed that Ruvolo was chairman of
the Democratic Party. Id. at 77.
292

Id. at 74; see also id. at 77 (stating that the Republicans
“configured the district . . . at the behest of the Democratic
leadership”).
293

Id. at 77.

294

Id. at 70.

App. 80
about the shape of [District 11].”295 Judy testified that
Bennett “communicated to [Judy] that he was in
contact with Representative Fudge” and that Fudge
“was pleased with the configuration [of District 11] that
was in 369” after the Republican map drawers had
“ma[d]e changes and incorporate[d] things that the
Democrats wanted to see.”296
On cross-examination, Judy admitted that despite
changes that were made to H.B. 369 prior to its
passage, it looked “substantially similar” to the initial
version of H.B. 369 introduced by the Republicans
members of the General Assembly.297
C. Plaintiffs’ Expert Witnesses
1. Dr. Christopher Warshaw
Dr. Christopher Warshaw testified at trial for
Plaintiffs as an expert witness. Dr. Warshaw is a
tenure-track assistant professor of political science at
the George Washington University, teaching courses on
political science, elections, public opinion, statistical
methodology, and political representation.298 His
research has been published extensively in prestigious
peer-reviewed publications and he has published

295

Id. at 74.

296

Id. at 76.

297

Id. at 83.

298

Dkt. 240 (Warshaw Trial Test. at 180).

App. 81
specifically on the topic of partisan gerrymandering.299
Dr. Warshaw has also served as an expert witness in
two other partisan-gerrymandering cases; no court has
ever failed to credit his testimony.300 The Court
qualified Dr. Warshaw as an expert in the fields of
elections, partisan gerrymandering, polarization, and
representation and found his testimony highly
credible.301
a. Partisan-bias metrics
Dr. Warshaw testified at length about four302
specific partisan-bias metrics that he used to evaluate
the 2012 map. He defines partisan bias broadly as “the
idea of trying to quantify whether one party or another
has an advantage in the translation of votes to
seats.”303 Successful partisan gerrymanders efficiently
translate votes for the favored party into seats for that
same party. “In practice, this entails drawing districts
in which the supporters of the advantaged party
constitute either a slim majority . . . or a small
minority.”304 Map designers accomplish the former by
299

Id. at 184, 187.

300

Id. at 190.

301

Id. at 190–91.

302

One of these metrics, partisan symmetry in the vote-seat curve,
can be measured in two ways. See Trial Ex. P571 (Warshaw Rep.
at 10–12).
303

Dkt. 240 (Warshaw Trial Test. at 195).

304

Trial Ex. P571 (Warshaw Rep. at 4).

App. 82
cracking voters from the opposition party into different
districts so that they are highly unlikely to break the
50% mark in a given district and are therefore unable
to elect the candidate of their choice. They accomplish
the latter by packing voters from the opposition party
into districts such that they have an unnecessarily
large margin of victory.
The concept of “wasted” votes underlies both of
these strategies.305 In cracked districts, the votes of the
losing disfavored party are all wasted because they
were allocated to a race that the disfavored party did
not win. The closer the margin of victory in cracked
districts, the more disfavored party votes are wasted.
In packed districts, many votes of the winning
disfavored party are wasted because there are many
excess votes beyond those needed for victory. A party
designing a partisan gerrymander will attempt to
waste few of its own supporters’ votes and waste many
of the opposing party’s supporters’ votes. Partisan bias,
an asymmetry or advantage in the efficiency of voteseat translation, results.

305

“Wasted” votes has a technical meaning in this context. Of
course, individual votes are counted; thus, individuals’ votes are
not “wasted” in that sense. Rather, in partisan-gerrymandering
cases, “wasted” votes capture a party’s efficiency (or inefficiency)
in translating the votes that it receives into legislative
seats—because “the goal of a partisan gerrymander is to win as
many seats as possible given a certain number of votes.” Nicholas
O. Stephanopoulos & Eric M. McGhee, Partisan Gerrymandering
and the Efficiency Gap, 82 U. CHI. L. REV. 831, 850 (2015).
Accordingly, wasted or “‘inefficient’ votes are those that do not
directly contribute to victory.” Id. at 850–51. That is, the party, not
the individual voter, “wasted” the vote.

App. 83
Dr. Warshaw used the efficiency gap, symmetry in
the vote-seat curve, the mean-median difference, and
the declination metric to measure partisan bias in the
2012 map.306
i. Efficiency Gap
The efficiency gap compares the wasted votes for
each party by calculating “the difference between the
parties’ respective wasted votes, divided by the total
number of votes cast in the election.”307 The efficiency
gap reflects “the extra seats one party wins over and
above what would be expected if neither party were
advantaged in the translation of votes to seats (i.e., if
they had the same number of wasted votes).”308
Dr. Warshaw surveyed historical efficiency gaps
across the country and found that they were generally
quite small. Around 75% were between -10% and 10%,
and only around 4% had an efficiency gap of greater
than 20% in either direction.309 He demonstrated that
Ohio’s 2012 efficiency gap of -22.4% was a historical
outlier—”more extreme than 98% of previous plans in
states with more than six seats over the past 45 years,
and . . . more Republican-leaning than 99% of previous
306

Dkt. 240 (Warshaw Trial Test. at 196–97).

307

Trial Ex. P571 (Warshaw Rep. at 6) (quoting Stephanopoulos &
McGhee, Partisan Gerrymandering and the Efficiency Gap, supra).
Dr. Warshaw used the version of the efficiency gap equation that
accounts for unequal turnouts across districts. See id. at 7–8.
308

Id. at 8.

309

Id.

App. 84
congressional redistricting plans.”310 It also reflected a
major increase from Ohio’s efficiency gap prior to the
2011 redistricting efforts.311 Ohio’s efficiency gaps in
2014 and 2016 were -9% and - 8.7%, respectively,
“imply[ing] that Republicans in Ohio won 1-4 more
seats in these elections than they would have won if
Ohio had no partisan bias in its efficiency gap.”312
Ohio’s efficiency gap in the 2018 election was -20%,
more extreme than 96% and more pro-Republican than
98% of previous comparable plans.313
ii. Partisan symmetry in the vote-seat curve
Symmetry in the vote-seat curve compares how both
parties’ seat shares change as their vote shares
increase or decrease.314 Dr. Warshaw explained that in
an unbiased districting scheme, if Democratic
candidates receive 52% of the votes and earn 60% of
the seats, then when Republican candidates receive
52% of the votes, they should also earn 60% of the
seats. One can measure symmetry by applying a
counterfactual uniform swing in vote shares from 45%
to 55% and measuring departures from parity in seat
share between the parties.315 One applies a uniform
310

Id. at 8, 19–20, 23.

311

Id. at 23.

312

Id.

313

Trial Ex. P476 (Warshaw 2018 Update at 3).

314

Trial Ex. P571 (Warshaw Rep. at 10).

315

Id.

App. 85
swing by increasing the vote share of a given party by
a fixed percentage across all districts.316 Symmetry can
also be measured simply by comparing the seat share
that each party achieves when it receives 50% of the
vote. Applying uniform swings, the level of partisan
asymmetry in Ohio’s 2012 election was “more extreme
than 96% of previous elections and more proRepublican than 97% of previous U.S. congressional
elections over the past 45 years.”317 The result was the
same when the symmetry analysis was conducted
using the method that compares seat shares when each
party earns 50% of the vote.318 With uniform swings,
the 2018 elections were more asymmetric than 92% of
previous elections and more pro-Republican than 94%
of the comparison group.319
iii. Mean-median gap
The mean-median gap reflects “the difference
between a party’s vote share in the median district and
their average vote share across all districts. If the party
wins more votes in the median district than in the
average district, they have an advantage in the

316

Dkt. 240 (Warshaw Trial Test. at 202).

317

Trial Ex. P571 (Warshaw Rep. at 27). Dr. Warshaw used the
same elections data to conduct his symmetry analysis as he did
with the other partisan-bias metrics. See id. at 6.
318

Id.

319

Trial Ex. P476 (Warshaw 2018 Update at 4).

App. 86
translation of votes to seats.”320 Dr. Warshaw found
that Ohio’s mean-median gap jumped from 1.7% in
2010 to 7.8% in 2012, following the redistricting.321 He
also found that the 2012 mean-median gap was more
extreme than that in 83% of prior elections and more
pro-Republican than that in 92% of prior elections.322
The 2018 mean-median gap was 5%, more extreme
than in 62% of previous elections and more proRepublican than in 81% of previous elections.323
iv.

Declination

Lastly, the declination metric involves graphically
plotting the districts in a plan from least Democratic to
most Democratic and then measuring and comparing
the angles formed by best-fit lines for each party’s seats
measured from the 50% Democratic vote share line.324
The calculations result in a score between -1 and 1,
which indicates the size and direction of the partisan

320

Trial Ex. P571 (Warshaw Rep. at 8) (citing Jonathan S. Krasno
et al., Can Gerrymanders be Detected? An Examination of
Wisconsin’s State Assembly, AM. POLITICS RES. (2018); Robin E.
Best et al., Considering the Prospects for Establishing a Packing
Gerrymandering Standard, ELECTION L.J. (2017); Samuel Wang,
Three Tests for Practical Evaluation of Partisan Gerrymandering,
68 STAN. L. REV. 1263 (2016)) (footnote omitted).
321

Id. at 24.

322

Id. at 25.

323

Trial Ex. P476 (Warshaw 2018 Update at 3).

324

See Trial Ex. 571 (Warshaw Rep. at 12–13) (explaining the exact
method for calculating the declination metric of a given map).

App. 87
bias of the map.325 Ohio’s 2012 declination score of -0.77
was “more extreme than 99% of previous elections and
more pro-Republican than any previous U.S.
congressional election over the past 45 years.”326 Ohio’s
2018 declination score of -0.69 “was more extreme than
98% of previous elections and more pro-Republican
than 99% of previous U.S. congressional elections.”327
v. Strengths and weaknesses of the metrics
Dr. Warshaw highlighted some of the strengths and
weaknesses of each partisan-bias metric. For example,
a strength of the efficiency gap is that it “can be
calculated directly from observed election returns even
when the parties’ statewide vote shares are not
equal.”328 However, the efficiency gap can also be a
more volatile metric than some of the others, and it is
not recommended for use in smaller states with
relatively few congressional districts.329 A strength of
the symmetry metric is that it is far less volatile over
time and has been widely used and accepted in
academic work on partisan gerrymandering.330 One
weakness of both symmetry metrics is that they involve
325

Id.

326

Trial Ex. P571 (Warshaw Rep. at 26).

327

Trial Ex. P476 (Warshaw 2018 Update at 3).

328

Trial Ex. P571 (Warshaw Rep. at 8).

329

Dr. Warshaw therefore included in his analysis only states with
more than six congressional seats. Id. at 19 n.22.
330

Id. at 12.

App. 88
the calculation of counterfactual elections.331 The meanmedian gap is easy to apply, but it is “sensitive to the
outcome in the median district.”332 For its part, the
declination measure “is somewhat unstable when a
party holds a very small number of seats in the
legislature.”333 Dr. Warshaw explained that all these
metrics are “closely related both theoretically and
empirically, but nonetheless, there’s small differences
between them . . . [and] looking at a suite of different
metrics in concert gives us greater confidence in any
conclusion that we . . . draw.”334 Looking across all the
metrics, Dr. Warshaw concluded that “Ohio’s recent
elections [under the 2012 plan] display a larger
partisan bias in favor of Republicans than most
previous plans in Ohio or in other states.”335
b. Requirements of a partisan gerrymander
Dr. Warshaw testified about how he determines in
his academic work whether a redistricting plan is a
partisan gerrymander. According to Dr. Warshaw, to
qualify as a partisan gerrymander, a districting plan
must satisfy four different elements. First, a single
331

See id. at 11–12.

332

Id. at 8–9.

333

Id. at 13.

334

Dkt. 240 (Warshaw Trial Test. at 197); see also Trial Ex. P571
(Warshaw Rep. at 14) (demonstrating high levels of correlation
between measures of partisan bias in states where the Democratic
vote share was 40-60%).
335

Trial Ex. P571 (Warshaw Rep. at 4).

App. 89
party must have controlled the redistricting
process—meaning that in a state with a bicameral
legislature, it must have had control of both houses and
the governorship—and that same party must be
favored by the map.336 Under Dr. Warshaw’s criteria,
whether members of the disfavored party cast roll-call
votes in support of the redistricting plan is meaningless
in determining whether the plan was a gerrymander.337
Second, all partisan-bias metrics that Dr. Warshaw
employs (efficiency gap, symmetry in the vote-seat
curve, mean-median gap, and declination) must
“indicate [that] the same party that controlled the
redistricting process was actually advantaged in the
translation of votes to seats.”338 Third, the map must be
an outlier in terms of its partisan-bias metrics when
compared to historical elections across the country in
the last forty-five years.339 Fourth, all four partisan-

336

Dkt. 240 (Warshaw Trial Test. at 191, 194). Warshaw discusses
how partisan control of the redistricting process results in
measurable changes in the efficiency gap in favor of the party in
control, both in Ohio and elsewhere. Trial Ex. P571 (Warshaw Rep.
at 17–18).
337

Dkt. 240 (Warshaw Trial Test. at 194). Dr. Warshaw testified
that his approach of not considering roll-call votes cast by the noncontrolling party is the accepted one in political science. Id.
338

339

Id. at 192.

Id. Dr. Warshaw examines the years since 1972 because all
states were in compliance with the one-person, one-vote principle
announced in Baker v. Carr, 369 U.S. 186 (1962) at that point. Id.
at 195, 198–99; Trial Ex. P571 (Warshaw Rep. at 6 n.3). This
dataset encompasses over 500 elections. Dkt. 240 (Warshaw Trial
Test. at 203).

App. 90
bias metrics measuring a given map must point in the
same direction.340
Dr. Warshaw found that under this rubric, the 2012
plan was a partisan gerrymander because: (1) the
Republican Party controlled the redistricting process
and the map favored the Republican Party; (2) all four
of his partisan metrics indicated that the Republicans
were actually advantaged in the translation of votes to
seats; (3) the map was an outlier when compared to the
dataset of hundreds of historical maps; and (4) all four
partisan metrics pointed in the same direction—toward
a pro-Republican bias.
c. Responsiveness,
durability

competitiveness,

and

Dr. Warshaw also evaluated the responsiveness and
competitiveness of the 2012 map. Responsiveness
measures “how insulated a plan is from changes in
voter preferences” or, conversely, “how likely the
election results are to change due to changes in voter
preferences.”341 A map is more responsive if it yields
different seat shares when there are swings in voter
preferences from year to year. Dr. Warshaw measures
responsiveness in two ways: (1) determining how many
districts with competitive seats exist and (2) applying
a uniform swing of vote shares between 45% and 55%

340

Dkt. 240 (Warshaw Trial Test. at 192).

341

Id. at 201.

App. 91
across all districts and measuring how the seat-share
outcome changes.342
Dr. Warshaw concluded that Ohio’s present map
“has led to historically uncompetitive elections.”343
First, in 2012, Ohio had only two competitive
congressional seats.344 In both 2014 and 2016, not a
single congressional district in Ohio saw a competitive
election.345 In 2018, Ohio again had only two
competitive seats.346 The uniform swings also
demonstrated that the 2012 map is highly
unresponsive.347 Applying uniform swings to the 2012
election results, he found that Democrats would win
the same 25% of the congressional seats if they won
anywhere from 30% to 52% of the statewide vote. To
advance to holding 37.5% of seat-share, they had to win

342

Id. at 202; Trial Ex. P571 (Warshaw Rep. at 15). Dr. Warshaw
termed a district competitive in this context if the winning party
received less than 55% of the two-party vote. Trial Ex. P571
(Warshaw Rep. at 15). He stated that “[i]n responsive systems, a
10% [change] in vote share from 45% to 55% will generally lead to
a change in seat share of around 20%. In a[n] unresponsive system,
there could be little or no change in seat share from a 10% change
in vote share.” Id. at 15.
343

Id. at 4.

344

Id. at 15.

345

Id. at 28.

346

Trial Ex. P476 (Warshaw 2018 Update at 11).

347

Trial Ex. P571 (Warshaw Rep. at 29).

App. 92
55% of the statewide vote.348 Dr. Warshaw determined
that 2018 was a more responsive year than earlier
years according to the uniform swing analysis.
However, “most of this responsiveness occurs at the
very upper end of the range of plausible statewide vote
shares for democrats”; Republicans would still win
“75% of the seats across most of the range of plausible
election swings,” even if 50% of the vote share was
Democratic.349
Dr. Warshaw also found that the effects of the 2012
map are durable throughout time.350 Although the
partisan-bias metrics generally became somewhat less
extreme as time went on, the level of partisan bias in
2012 under each metric was a “powerful and
statistically significant predictor” of the same metric’s
level in 2016 and 2018.351
d. Polarization, representation, and trust in
representatives
Dr. Warshaw testified about political polarization
and its impact on representation. He defined
polarization as “the distance between the average
preferences of members of the two parties.”352 He
concluded that due to increased ideological polarization
348

Id. at 15.

349

Trial Ex. P476 (Warshaw 2018 Update at 12–13).

350

Trial Ex. P571 (Warshaw Rep. at 4).

351

Id. at 31; Trial Ex. P476 (Warshaw 2018 Update at 10).

352

Dkt. 240 (Warshaw Trial Test. at 203).

App. 93
between Democratic and Republican members of
Congress, Ohio Democratic voters who are
disadvantaged by the districting scheme and
represented by Republican congressmen are unlikely to
have their views represented by their representatives
in Congress; gerrymandering therefore negatively
affects representation. He also found that “voters in
gerrymandered states . . . trust their representatives
less than voters in non-gerrymandered states.”353
e. Proposed Remedial Plan
Dr. Warshaw used the same data to analyze the
Proposed Remedial Plan as he did with the 2012 map
and found that the Proposed Remedial Plan had far
lower levels of partisan bias and higher levels of
responsiveness than the 2012 map; it “had no
substantial partisan bias.”354
2. Dr. Wendy K. Tam Cho
Dr. Wendy K. Tam Cho testified at trial for
Plaintiffs as an expert witness. Dr. Cho is a full
professor at the University of Illinois at UrbanaChampaign, and she holds appointments in several
departments, including political science, statistics, and
mathematics.355 Dr. Cho is also a Senior Research
Scientist at the National Center for Supercomputing

353

Trial Ex. P571 (Warshaw Rep. at 4–5, 33, 37).

354

Id. at 5, 32–33, 43; Trial Ex. P476 (Warshaw 2018 Update at
14–15).
355

Trial Ex. P086 (Cho CV).

App. 94
Applications at the University of Illinois.356 She has
studied redistricting for thirty years and written
extensively on the topic through the lens of multiple
academic disciplines.357 Dr. Cho previously testified as
an expert in a partisan-gerrymandering case on behalf
of defendants in Pennsylvania who were defending a
map enacted by the Republican legislature in the
Commonwealth; the court in that case qualified her as
an expert.358 This Court qualified Dr. Cho as an expert
in political science, political geography and
redistricting, statistics and applied statistics,
statistical modeling and sampling from unknown
distributions, and the design of algorithms.359
Dr. Cho testified about her analysis of the current
map and its partisan characteristics as compared to a
set of simulated maps that she generated. Dr. Cho used
an Evolutionary Markov Chain Monte Carlo
(“EMCMC”) algorithm360 to run a simulation on a

356

Id.

357

See id.; Dkt. 242 (Cho Trial Test. at 134–37).

358

Dkt. 242 (Cho Trial Test. at 138–39).

359

Id. at 140–41. We note that Dr. Cho’s reports and testimony are
subject to a Daubert motion, but Defendants have not objected to
Dr. Cho’s qualifications. See Dkt. 148, 148-1 (Intervenors’ Mot. to
Exclude Cho).
360

The algorithm was written in the coding language C++. Dkt.
242 (Cho Trial Test. at 155). Importantly, the code is separate and
distinct from the algorithm. The algorithm is important because it
represents the idea behind Dr. Cho’s analysis. The code
implements the algorithm. Id. at 156. Dr. Cho has developed this

App. 95
supercomputer, and the algorithm generated 3,037,645
simulated maps.361 These maps incorporated only
neutral redistricting criteria and no partisan data (she
analyzed partisanship after generating the maps).362
Through this analysis, Dr. Cho was “trying to
understand what would be a typical map that would
emerge from a non-partisan [map-drawing] process.”363
Specifically, her analysis sought to determine whether
neutral factors, primarily political geography, could
explain the 12-4 outcome of the current map.

algorithm and code over more than a decade. Id. at 156–57.
Defendants raise various objections related to both the algorithm
and code in this case.
The Court overrules any objections related to Dr. Cho’s code.
Although Intervenors complain that the code was not peer
reviewed or tested for accuracy, Dr. Cho testified that it is not
customary in the field of computer science to subject code itself, as
opposed to algorithms, to peer review. Dkt. 243 (Cho Trial Test. at
95–97, 99–100, 127). Intervenors provide no evidence to the
contrary. Moreover, Dr. Cho made her code available to
Defendants’ and Intervenors’ expert witnesses in read-only
form—and offered to make her code available in native format—to
allow them to verify the code. Dkt. 246 (Thornton Trial Test. at
137–41); Trial Ex. IM073 at 2. Intervenors apparently decided not
to have their experts verify the entirety of the read-only code. Nor
did Intervenors take advantage of Dr. Cho’s offer to produce the
native version of the code, and we therefore reject their complaint
that the code was not tested for accuracy.
361

Trial Ex. P087 (Cho Rep. at 10).

362

Id. at 8–10.

363

Dkt. 242 (Cho Trial Test. at 144).

App. 96
Dr. Cho’s simulations can be analogized to a coin
toss. For example, if you toss a coin 1,000 times, and
the coin lands on heads 582 times, that is one
datapoint. If you flip the coin another 1,000 times, and
the coin lands on heads 602 times, that is another
datapoint. Running through this process many times
(e.g., 3 million) provides a fuller picture of the typical
outcomes. With a fair coin, outcomes of around 500heads and 500-tails would be typical; 950-heads or even
1,000-heads out of 1,000 flips are also theoretically
possible, but such outcomes would be surprising if the
coin tosses were done with a fair coin. In this
redistricting context, Dr. Cho generated over 3-million
simulated maps and then analyzed the seat share
between the parties under each. This process allowed
her to compare how typical a 12-4 seat share between
Republicans and Democrats would be under a neutral
map-drawing process and, thus, to analyze whether it
is likely that the 12-4 seat share can be explained by
factors such as Ohio’s natural political geography.364 In
short, Dr. Cho’s simulated maps are meant to provide
a nonpartisan baseline against which to compare the
current map.
Dr. Cho’s methodology includes several key and
related components.365 Dr. Cho’s EMCMC algorithm,
364

365

See generally id. at 144–46.

Intervenors argue in their Daubert motion that Dr. Cho’s
methodology is flawed. They contend that her algorithm has not
been adequately peer reviewed, her results have not been tested or
verified, she fails to offer an error rate or confidence level for her
results, and her methodology has not been generally accepted by
the scientific community. The Court rejects these arguments.

App. 97

First, the algorithm has been sufficiently peer reviewed. The
algorithm was the subject of a paper titled “A Massively Parallel
Evolutionary Markov Chain Monte Carlo Algorithm for Sampling
Complicated Multimodal State Spaces,” which was published as
part of a peer-reviewed conference. Trial Ex. P086 (Cho CV at 2);
Dkt.242 (Cho Trial Test. at 154); Dkt. 243 (Cho Trial Test. at
86–87). The idea behind the algorithm was peer-reviewed, which
is the standard practice in computer science. Dkt. 243 (Cho Trial
Test. at 86–88, 96–98, 126–27). Second, the lack of an error rate or
confidence level is to be expected for an algorithm designed to draw
a random sample from a complex, multimodal, unknown
distribution. The entire point of the algorithm is to draw a sample
from an unknown distribution, and if the distribution is unknown,
logically, one cannot calculate an error rate or confidence level of
the randomness of the sample. See Dkt. 243 (Cho Trial Test. at
93–94). The same answer applies to the argument that the
algorithm is untested by other scientists in the community. It
appears that the algorithm’s accuracy could not be tested on
unknown distributions (the very type of distributions from which
it is meant to sample); the point is that the theory behind the
algorithm’s ability to sample from such distributions has passed
peer review. Nonetheless, Dr. Cho tested the algorithm on a nontrivial data set with a known distribution and confirmed that the
algorithm uniformly sampled that space (although she did not
provide the results of that test). Id. at 93–95, 101. She also
testified that other computer scientists could write their own code
to implement her algorithm to test it on a known distribution. Id.
at 96–97. Defendants offered no evidence that any of their experts
tested her algorithm against a known distribution and found it
flawed. Finally, there is no evidence that the pertinent scientific
community does not accept the use of algorithms to solve sampling
problems. Indeed, Dr. Cho’s innovative algorithm is meant to meld
two established types of algorithms—MCMCs and evolutionary
algorithms—to permit optimizations heuristics to guide the
movements of the Markov chains, resulting in a more efficient
draw of a random sample from a complex, multimodal, unknown
distribution. See id. at 55, 88, 151–52; Trial Ex. P087 (Cho Rep. at
6).
Finally, the reliability of Dr. Cho’s methodology is bolstered by

App. 98
which she used to generate the simulated maps, is
grounded in the Markov Chain Monte Carlo (“MCMC”)
theorem.366 MCMC algorithms are a commonly used
technique for sampling.367 In the redistricting context,
a Markov Chain randomly walks from one simulated
map to another, different simulated map.368 In Dr.
Cho’s EMCMC, each movement of the Markov Chain is
guided by optimization heuristics, which improve the
Markov Chain’s “efficiency and effectiveness in the

the fact that she developed this algorithm independently of her
work in this case. The fact that she developed the algorithm and
submitted it for peer review before tailoring it to and running it in
this case shows that she did not develop her methodology solely for
litigation purposes. Daubert v. Merrell Dow Pharm., Inc., 43 F.3d
1211, 1317 (9th Cir. 1995) (“That the testimony proffered by an
expert is based directly on legitimate, preexisting research
unrelated to the litigation provides the most persuasive basis for
concluding that the opinions [s]he expresses were ‘derived by the
scientific method.’”). Because Dr. Cho used the algorithm
developed in the course of her work in reaching her opinions in this
case, the Court is convinced that she “employ[ed] in the courtroom
the same level of intellectual rigor that characterizes the practice
of an expert in the relevant field.” Kumho Tire Co., Ltd. v.
Carmichael, 526 U.S. 137, 152 (1999).
For the reasons above, the Court rejects Intervenors’ general
challenges to the methodology underlying Dr. Cho’s analysis. The
Court discusses infra their more specific objection that Dr. Cho’s
conclusions are entitled to no weight because she erred in setting
the redistricting parameters for the algorithm in this particular
case.
366

Trial Ex. P087 (Cho Rep. at 6).

367

Dkt. 242 (Cho Trial Test. at 152).

368

Id. at 153; Trial Ex. P087 (Cho Rep. at 6).

App. 99
traversal of the search space.”369 The MCMC theorem,
meanwhile, ensures a representative sample of the
massive universe of possible maps.370 Lastly, Dr. Cho
ran the algorithm on the University of Illinois’s Blue
Waters supercomputer, which enabled the algorithm to
output the sample of over 3-million simulated maps
relatively quickly.371 All these components worked
together to allow for the drawing of “a random and
large sample of feasible electoral maps,” out of the
much larger universe of feasible alternative maps.372
Dr. Cho built in several constraints when she
produced her simulated maps, and those constraints
are what define a map as “feasible” in her simulation.
Dr. Cho testified that she arrived at the constraining
criteria by “look[ing] at the legislative record to see
what the legislature was applying.”373 Primarily, Dr.
Cho looked at State Representative Huffman’s
statements in support of H.B. 319.374 Representative
Huffman explained that the map considered
compliance with the VRA, equal population, and
“several other traditional redistricting principles”:
369

Trial Ex. P087 (Cho Rep. at 6–7).

370

Dkt. 242 (Cho Trial Test. at 152–53); Trial Ex. P087 (Cho Rep.
at 6–7).
371

Trial Ex. P087 (Cho Rep. at 5–7); Dkt. 242 (Cho Trial Test. at
151, 155); Dkt. 243 (Cho Trial Test. at 69).
372

See Trial Ex. P087 (Cho Rep. at 7).

373

Dkt. 242 (Cho Trial Test. at 158).

374

Id. at 160–61.

App. 100
“compactness, contiguity, preservation of political
subdivisions, preservation of communities of interest,
preservation of cores of prior districts, and protection
of incumbents.”375 In regards to incumbent protection,
Representative Huffman described that criterion as “a
subservient one to the other ones that [he] listed”376
and further explained that, “[n]obody has a district. . . .
There’s nobody that owns a piece of land in Congress.
People elect them.”377 From this record, Dr. Cho decided
to employ the following constraints: the creation of a
minority district,378 county and city preservation,379

375

See Trial Ex. J01 (Ohio House Session, Sept. 15, 2011 at 17–18)
(statement of Rep. Huffman).
376

Id. at 19.

377

Id. at 21.

378

Dr. Cho drew a district with a Black Voting Age Population
(“BVAP”) of at least 45% in the Cleveland area. This constraint is
based on the recommendation of Plaintiffs’ expert Dr. Lisa
Handley. See Trial Ex. P087 (Cho Rep. at 8). Intervenors lodge a
variety of objections to and arguments against this 45% figure. We
address these arguments in our discussion of Dr. Handley’s report
and testimony, see infra Section II.C.4., and in our analysis of the
purported VRA justification for District 11, see infra Sections
V.A.2.d.iii., V.C.2.b.ii. Dr. Cho did not include any “upper bound”
on the maximum BVAP for the minority district. Dkt. 242 (Cho
Trial Test. at 159–60).
379

The current map splits twenty-three counties and Dr. Cho’s
simulated maps split no more than twenty-three counties; the
current map preserves 96.78% of cities, and Dr. Cho’s simulated
maps preserve cities at least at the same rate. Id. at 162; Trial Ex.
P087 (Cho Rep. at 8– 9). We also note that “communities of
interest” may be an amorphous phrase, but one way to account for

App. 101
population equality,380 and compactness. Because she
concluded from State Representative Huffman’s
statement that incumbent protection was not a goal of
the legislature when drafting the enacted map, Dr. Cho
did not include as a constraint the avoidance of pairing
incumbents.381

this factor is preserving municipalities and counties. See, e.g.,
Graham v. Thornburgh, 207 F. Supp. 2d 1280, 1294–95 (D. Kan.
2002).
380

Dr. Cho’s simulated maps allow for a population deviation of up
to 1%, or about 7,000 people (not voters). Dkt. 242 (Cho Trial Test.
at 167); see also Dkt. 243 (Cho Trial Test. at 25). This deviation is
different from the current map, which achieves perfect equality
(plus or minus one person), because the simulated maps are
constructed at the precinct level—the lowest level for which
partisan data are available—to allow for a more accurate analysis
of partisan effect. Trial Ex. P087 (Cho Rep. at 9). To achieve
perfect equality, like the current map, would require splitting
precincts, which, in turn, would hinder the partisan-effect
analysis. Dkt. 242 (Cho Trial Test. at 165–66).
We find that Dr. Cho’s use of a 1% population deviation does
not undermine her analyses in any significant way, and we
overrule the objections on this point. Dr. Cho aimed, in part, to
measure partisan effects, and this assessment was best done with
the 1% deviation. For the simulated maps to achieve perfect
equality would require moving, at most, 3,500 people in any given
district, not all of whom would be voters; and even if all 3,500
people were voters, all of them would need to vote for the same
party in order to have any possibility of swinging an election. That
is unlikely. Dkt. 242 (Cho Trial Test. at 167–68). Accordingly, we
are not persuaded that the 1% deviation significantly undermines
any of Dr. Cho’s conclusions that the 12-4 split of the current map
cannot be explained by the equal-population requirement.
381

Dkt. 242 (Cho Trial Test. at 171–77). Defendants argue that
incumbent protection was one of the main pillars upon which the

App. 102
After generating the 3,037,645 simulated maps
based on only neutral criteria, Dr. Cho engaged in two
overarching analyses using partisan data. Again, this
use of partisan data came into play only after the
simulated maps were produced. First, she engaged in
a Plaintiff-specific analysis. Second, she examined the
partisan unfairness of the map as a whole by
comparing its partisan characteristics to the partisan
characteristics of the set of simulated maps.
a. Plaintiff-specific analysis
Dr. Cho was given the home addresses of each
individual Plaintiff, which allowed her to determine
where each Plaintiff would live in each simulated map
and to compare each Plaintiff’s current district with
each Plaintiff’s set of simulated districts. Dr. Cho
“compute[d] the average Democratic vote share for the
plaintiff’s current district by calculating the average
Democratic vote share in that district for congressional
races from 2012 to 2016 . . . .”382 For the simulated
maps, Dr. Cho “calculate[d] the average Democratic
vote share for the plaintiff’s [simulated] district . . .
with the 2008-2010 statewide election data.”383 These

2012 map was built. The Court, as factfinder, will address the
extent to which the General Assembly considered incumbent
protection, and how that conclusion impacts the weight given to
Dr. Cho’s analysis infra Section V.A.2.b. The Court will also assess
the validity of various types of incumbent protection infra Sections
V.A.2.d., V.C.2.b.i.
382

Trial Ex. P087 (Cho Rep. at 11).

383

Id.

App. 103
data included eight statewide races: the 2008
presidential race, the 2010 U.S. Senate race, the 2008
and 2010 Attorney General races, and the 2010
Governor, Auditor, Secretary of State, and Treasurer
races.384 Dr. Cho used statewide races to “avoid issues
with district-specific factors and provide[] greater
comparability across the state as a whole.”385 From
there, Dr. Cho compared the likelihood of electing a
Democratic candidate in each Plaintiff’s simulated
districts with the likelihood of electing a Democratic
candidate in their current district.386 We provide a
fuller discussion of these findings in Section III.A., but
we will provide two illustrative examples here. Some
Plaintiffs, such as Plaintiff Goldenhar, live in allegedly
cracked districts. Dr. Cho’s analysis showed that
“[a]mong the set of simulated maps, 95.68% of them
would have placed Plaintiff Goldenhar in a district that
would have provided a higher likelihood of electing a
Democrat.”387 That, is 95.68% of the simulated maps
placed Plaintiff Goldenhar in a district with a higher
average Democratic vote share. Other Plaintiffs, such
as Plaintiff Inskeep, live in allegedly packed districts.
Dr. Cho’s analysis showed that “none of [the simulated
maps] would have placed Plaintiff Inskeep in a district
384

Id. We address objections to Dr. Cho’s use of these data in our
discussion of Dr. Thornton’s rebuttal. See infra Section II.D.2.a.
385

Trial Ex. P087 (Cho Rep. at 11).

386

See id. at 13–30; see also Trial Ex. P426 (Cho Suppl. Rep. at 7,
fig. 4) (providing updated analysis based on 2018 election data, as
well as other election data).
387

Trial Ex. P087 (Cho Rep. at 13).

App. 104
that would have provided a higher likelihood of electing
a Democrat.”388 That is, 0% of the simulated maps
placed Plaintiff Inskeep in a district with a higher
average Democratic vote share.
b. Partisan unfairness analysis
In addition to her Plaintiff-specific analysis, Dr. Cho
examined the partisan outcomes of her simulated maps
as compared to the current map, which allowed her to
assess partisan effect. At a high-level, Dr. Cho assessed
competitiveness389 and partisan bias using multiple
metrics.390
i. Competitiveness
Dr. Cho “consider[ed] a district to be competitive if
the margin of victory, or the difference between the
Republican two-party vote share and the Democratic
two-party vote share, is 1) within 5 percentage points
and 2) within 10 percentage points.”391 Dr. Cho
concludes that “[a]t the 5% margin of victory, the
simulated maps generally have between 2–6
competitive seats,” and that “[f]or both parties,
388

Id. at 15.

389

State Senator Keith Faber, a Republican, speaking in support
of H.B. 319, stated that “competitiveness in and of itself is not an
end-all be-all. It is not one of the requirements that we have to
draw by. However, it is a factor.” Trial Ex. J03 (Ohio Senate
Session, Sept. 21, 2011 at 13) (statement of Sen. Faber).
390

Trial Ex. P087 (Cho Rep. at 31–32); Dkt. 242 (Cho Trial Test. at
186–87).
391

Trial Ex. P087 (Cho Rep. at 33).

App. 105
[winning] 1–3 seats with a margin of victory within 5%
[is] not unusual.”392 Meanwhile, the current map
produced three competitive elections within a 5%
margin of victory, one in 2012 (District 16) and two in
2018 (Districts 1 and 12), and the Republican won
each.393 Additionally, one other election in 2012
(District 6) was competitive at the 10% margin of
victory.394 Under the simulated maps, “often, 9 of the
seats are competitive at the 10% margin of victory”; the
next most common result was 8 competitive seats.395
Three or four of these competitive seats (at the 10%
margin of victory) generally favor Republicans, and
four to six generally favor Democrats.396 In her
supplemental report, Dr. Cho provides further analysis
of competitiveness based on the 10% margin of victory.
“For the 2012–2014 data, 2–3 of the competitive seats
were commonly Republican while 3–5 of the
competitive seats were commonly Democratic.”397 In
2018, that number remained the same for Republicans,
but competitive seats that leaned Democratic decreased
to three or four.398

392

Id. at 34–35.

393

See Trial Ex. P426 (Cho Suppl. Rep. at 5, tbl. 4).

394

Id.

395

Trial Ex. P087 (Cho Rep. at 34).

396

Id. at 35.

397

Trial Ex. P426 (Cho Suppl. Rep. at 4).

398

Id.

App. 106
Based on her analysis of competitiveness, Dr. Cho
concludes that “[t]he Republican margins across the
entire set of districts [in the current map] are large
enough that they are sufficiently insulating to produce
an enduring effect.”399 Moreover, she concludes that
because of “the difference in the competitiveness, via
several different measures,[ 400] of the simulated maps
versus the current map, it seems that competitiveness
was almost a non-existent factor if one at all in the
399

Id. at 6. She arrives at this conclusion, in part, after observing
that in the two competitive 2018 elections, the Democratic
challengers noticeably outspent their Republican-incumbent
opponents. Id. at 5–6, tbl. 5.
400

Dr. Cho also captures the total number of competitive seats
combined with how many of the competitive seats each party wins
in a single metric, which has been presented in two of her
publications. Dkt. 242 (Cho Trial Test. at 196–97); Trial Ex. P087
(Cho Rep. at 36). Dr. Cho employed this metric only after creating
the maps, i.e., competitiveness was not a factor in how the
simulated maps were drawn. Dkt. 242 (Cho Trial Test. at 196–98).
Under this metric, competitiveness scores range from zero to one,
and at zero, “competitiveness is maximized because 1) the number
of Republican votes and the number of Democratic votes is the
same and 2) the number of districts where Republicans dominate
and the number of districts where the Democrats dominate is
identical.” Trial Ex. P087 (Cho Rep. at 36). Figure 23 in Dr. Cho’s
initial report shows that the current map is less competitive
compared to the simulated maps; whereas most of the simulated
maps score between 0.09 and 0.11, the current map scores 0.16
under this competitiveness metric. See id. at 37, fig. 23. We
consider this specific metric only for Dr. Cho’s conclusion that
competitiveness was seemingly a “non-existent factor” in drawing
the current map. Dr. Cho’s other analyses of competitiveness,
however, go to that conclusion and her separate conclusion that
the lack of competitiveness across districts produces an enduring
partisan effect.

App. 107
construction of the enacted map since the current
districts lean so heavily toward one party.”401
ii. Responsiveness and bias
In her initial report, which utilized 2008-2010
election data, Dr. Cho assessed the responsiveness and
bias in the simulated maps compared to the current
map using two measures based on the seats-votes curve
(which shows how, as the proportion of votes a party
receives increases, so too should that party’s seat
share).402 When Dr. Cho measured responsiveness, she
produced her results in a histogram in which, as the
values along the x-axis increase (from left to right), the
responsiveness increases; thus, maps falling along the
right of the x-axis are more responsive than those on
the left.403 Dr. Cho concludes that the current map is
“less responsive than almost all of the simulated
maps.”404
Dr. Cho employed a symmetry measure to assess
biasedness. This measure is grounded in the concept
that “both parties should expect to receive the same
number of seats given the same vote proportion.”405 Dr.
Cho again produces her results in a histogram. “Here,
a value of zero [in the middle of the x-axis on the
401

Trial Ex. P087 (Cho Rep. at 37).

402

See id. at 37–40.

403

Id. at 39; Dkt. 242 (Cho Trial Test. at 199–200).

404

Trial Ex. P087 (Cho Rep. at 38).

405

Id. at 39.

App. 108
histogram] is unbiased.”406 Positive values to the right
of zero indicate a Republican bias, and negative values
to the left indicate a Democratic bias.407 Dr. Cho finds
that, although most of the simulated maps “have a
Republican tilt[,] . . . the tilt toward Republicans is
larger in the current map than it is for the simulated
maps.”408 Indeed, some of the simulated maps were
neutral and some even had a Democratic tilt; at any
rate, H.B. 369 is far to the right of the simulated maps’
Republican tilt as presented in figure 26.409
iii.

Seat share

Dr. Cho also compared the seat share between the
parties from the current map to the seat share in her
simulated maps. Based on the use of 2008 and 2010
election data, “none of the [simulated] maps in [Dr.
Cho’s] sample had the same 12-4 seat share as in the
challenged map.”410 Furthermore, figure 19 of Dr. Cho’s
initial report shows that the most common outcome in
the simulated maps was eight or nine Republican
seats, at about 1.3 million and 1.2 million
respectively.411 Just over 250,000 of the simulated maps

406

See id. at 39–40, fig. 26.

407

See id.

408

Id. at 39.

409

Id. at 40, fig. 26.

410

Id. at 40.

411

Id. at 33; Dkt. 242 (Cho Trial Test. at 188).

App. 109
produced a 10-6 seat share in favor of Republicans,412
and some of the simulated maps even produced six or
seven Republican seats.413 Very few of the simulated
maps produced an 11-5 seat share, but that outcome is
barely visible in figure 19.414
Dr. Cho performed the same analysis using 20122014 data and 2018 data in her supplemental report.
This analysis shows that over the decade, a 9-7 seat
share in favor of Republicans became the most common
partisan outcome in the simulated maps.415 An 8-8 seat
share is the second most common outcome, but by 2018,
the number of 8-8 outcomes was about equal to the
number of 10-6 outcomes.416 “Eleven [Republican] seats
occurred 0.12% of the time in the 2008-2010 analysis,
0.20% of the time in the 2012-2014 analysis, and 1.88%
of the time in the 2018 analysis.”417 Finally, using the
2018 data, “a small number of maps, 1,445 out of more

412

Trial Ex. P087 (Cho Rep. at 33); Dkt. 242 (Cho Trial Test. at
188).
413

Trial Ex. P087 (Cho Rep. at 33, fig. 19).

414

Id.; Dkt. 242 (Cho Trial Test. at 188).

415

See Trial Ex. P426 (Cho Suppl. Rep. at 3, fig. 1); Dkt. 242 (Cho
Trial Test. at 190–91).
416

See Trial Ex. P426 (Cho Suppl. Rep. at 3, fig. 1); Dkt. 242 (Cho
Trial Test. at 191).
417

Trial Ex. P426 (Cho Suppl. Rep. at 3).

App. 110
than 3 million total maps (0.046%) had, like the
current map, 12 Republican seats.”418
3. Dr. J. David Niven
Dr. J. David Niven testified at trial for Plaintiffs as
an expert witness. Dr. Niven is a tenured associate
professor of political science at the University of
Cincinnati, and he has a doctorate in political science
from The Ohio State University.419 He teaches a variety
of classes, including on the U.S. Congress and
congressional elections, government and politics in
Ohio, and political parties, among others.420 Dr. Niven’s
scholarship focuses on questions of congressional
representation and elections, public opinion, and voting
preferences, and he has published in peer-reviewed
journals and book chapters on these topics but not on
redistricting and gerrymandering specifically.421 Before
writing his reports in this case, Dr. Niven had never
used census tracts specifically, though he had “used a
variety of census data points in understanding the
makeup of districts as a whole.”422 Also before writing
his reports in this case, Dr. Niven had never tried to

418

Id.

419

Trial Ex. P525 (Niven CV).

420

See id.; Dkt. 242 (Niven Trial Test. at 5).

421

Trial Ex. P525 (Niven CV); Dkt. 242 (Niven Trial Test. at 6, 72).

422

Dkt. 242 (Niven Trial Test. at 72–73).

App. 111
identify boundaries for communities of interest.423 This
Court admitted Dr. Niven as an expert in political
science, subject to Defendants’ Daubert motion.424
Dr. Niven’s report and testimony assessed the
current map’s makeup and the degree to which the
districts divide communities of interest and reflect the
political preferences of local residents. He undertook
this examination by analyzing census tracts425 that
were either kept intact or split and by using the
423

Id. at 72. Again, “communities of interest” is an amorphous
term, but one way to account for this factor is preserving
municipalities and counties. See Graham, 207 F. Supp. 2d at
1294–95. As will be explained, Dr. Niven, in part, examined
municipal and county splits. Mr. Cooper agreed that counties and
municipal subdivisions are “a more objective way to identify a
community of interest.” See Dkt. 241 (Cooper Trial Test. at 148).
Moreover, the Intervenors’ expert, Dr. Brunell, agreed that “[t]here
is no clear definition of what constitutes a community of interest,
but cities and counties are generally characterized as such.” Trial
Ex. I-060 (Brunell Rep. at 16).

424

See id. at 9; see also Dkt. 154 (Defs.’ Mot. to Exclude Niven). We
deny Defendants’ motion, but as explained here and in our later
analysis, we give greater weight and credit to certain portions of
Dr. Niven’s report and testimony than others.
425

A census tract is a “small, relatively permanent statistical
subdivision of a county or equivalent entity . . . .” See U.S. CENSUS
BUREAU, GLOSSARY, at https://www.census.gov/programssurveys/geography/about/glossary.html#par_textimage_13
(“Census tract boundaries generally follow visible and identifiable
features. They may follow nonvisible legal boundaries, such as
minor civil division (MCD) or incorporated place boundaries in
some states and situations, to allow for census-tract-togovernmental-unit relationships where the governmental
boundaries tend to remain unchanged between censuses.”)

App. 112
election data contained in “the 2010 Ohio Common and
Unified Redistricting Database (‘OCURD’)” that was
available to the map drawers during the 2011
redistricting.426 Dr. Niven used census tracts as a basis
for his analysis because they represent “a compact
delineation of people who live in common geographic,
cultural, and economic circumstance.”427
Dr. Niven finds that between the 2002 redistricting
plan and the 2012 redistricting plan, the number of
census tracts split between multiple congressional
districts rose from 209 to 332 (out of approximately
3,000 census tracts).428 Dr. Niven further finds that
census tracts kept intact had an average Republican
composition of 52.14%, whereas split census tracts had
a higher composition of Democratic voters, with
Republicans averaging 49.25% in split census tracts.429
We note that Dr. Thornton reaches slightly different
results on the partisan makeup of these census tracts
and that there is a debate about the statistical
significance of these results. See infra Section II.D.2.b.
(discussing this issue). Nevertheless, both experts
agree that split census tracts lean Democratic and

426

Trial Ex. P524 (Niven Rep. at 1–2); see also Dkt. 242 (Niven
Trial Test. at 11–15).

427

Trial Ex. P524 (Niven Rep. at 5).

428

Id. at 5–6; Dkt. 242 (Niven Trial Test. at 18); see also Dkt. 242
(Niven Trial Test. at 77) (Dr. Niven stating on cross-examination
that he would not be surprised that 88.75% of all census tracts
were kept whole).
429

Trial Ex. P524 (Niven Rep. at 6).

App. 113
intact census tracts lean Republican, and both agree
that the number of census splits increased in the
current map from the prior one.
We credit Dr. Niven’s census-tract analysis to the
extent that it shows some differential treatment
between Republican and Democratic voters, and we
observe that this difference is consistent with the
nature of other splits (not involving census tracts)
present in the current map. We do not give any
significant weight to just the raw number of splits,
without any further context. For example, census tracts
could contain more than one municipality, so a split
census tract could nonetheless keep its component
municipalities intact.430
In his response to Dr. Thornton, Dr. Niven also
shows that, using a four-election index,431 9.4% of
Republican census tracts and 13.8% of Democratic
census tracts were split among multiple congressional
districts.432 Using an eight-election index,433 9.7% of

430

See Dkt. 242 (Niven Trial Test. at 105).

431

The four-election index includes the 2008 presidential election,
and the 2010 gubernatorial, attorney general, and auditor
elections. See Trial Ex. P526 (Niven Resp. at 1 n.3).
432

Id. at 2. A Republican census tract is one that scored 0.50 or
higher on the four-election index; a Democratic census tract is one
that scored 0.499 or lower. Id.
433

This index included those elections in the four-election index
and four additional elections: the 2008 attorney general election,
and the 2010 secretary of state, treasurer, and U.S. Senate
elections. Id. at 1–2 n.5.

App. 114
Republican census tracts and 13.5% of census tracts
were split.434 In sum, split census tracts leaned
Democratic, and census tracts with more Democratic
voters were also more likely to be split into multiple
congressional districts than census tracts with more
Republican voters.435
After his statewide analysis,436 Dr. Niven discussed
particular districts. His report focuses on Hamilton
County (Districts 1 and 2), District 9, Franklin County
(Districts 3, 12, and 15), and Summit County (Districts
11, 13, 14, and 16). Dr. Niven’s report also surveys
political science literature that shows that, when
neighborhoods are divided into different districts,
campaign efforts become “more complicated and less
efficient . . . .”437 Dr. Niven similarly testified at trial
that “the political science literature is very clear that
the more you subject a neighborhood to political
splitting, . . . it has a demobilizing effect. . . . It’s harder
for parties and other entities to go into a neighborhood
and activate voters when those voters live in separate

434

Id. at 2–3.

435

Dr. Niven elaborated on these findings at trial. See generally
Dkt. 242 (Niven Trial Test. at 20–23).
436

Dr. Niven’s analysis regarding the location of congressional
offices could benefit from further explanation. Trial Ex. P524
(Niven Rep. at 4). For example, there is no explanation as to
whether Democratic constituents were burdened more than
Republican constituents. Accordingly, we do not consider this
specific portion of Dr. Niven’s report and testimony.
437

Id. at 5.

App. 115
districts and, therefore, are responding to separate
candidates.”438
a. Hamilton County: Districts 1 and 2
Dr. Niven began his analysis of Hamilton County
with District 1. He notes that District 1 swung back
and forth between electing Republicans and Democrats
under the prior map and that one “academic analysis
deemed [District 1] a ‘textbook example of a marginal
district.’”439 After redistricting, that has not been the
case. Dr. Niven’s analysis shows, for example, that in
2008 President Obama won the old District 1 with
55.17% of the vote compared to Senator John McCain’s
44.83%. By contrast, the same election under the
current District 1, which splits Cincinnati and more of
Hamilton County than under the old District 1, results
in a 52.3% to 47.7% win for Senator McCain.440 The
new District 1 both split Hamilton County and added
the whole of Warren County, which votes heavily
Republican (and voted heavily for Senator McCain in
the 2008 presidential election).441 Using an index that
incorporates a wider array of elections (“Dr. Niven’s
index”),442 he found that Republican candidates
438

Dkt. 242 (Niven Trial Test. at 12); see also id. at 38.

439

Trial Ex. P524 (Niven Rep. at 6) (citation omitted).

440

Id. at 8.

441

See id. at 7; Dkt. 242 (Niven Trial Test. at 27, 30).

442

This index included the OCURD data and the 2008 presidential
election, and the 2010 gubernatorial, attorney general, and auditor
elections. Trial Ex. P524 (Niven Rep. at 2).

App. 116
averaged 42.07% of the vote in the old District 1, but
that index percentage increased to 51.89% in the new
District 1.443
Meanwhile, District 2 was and remains safely
Republican, but fourteen Cincinnati neighborhoods are
divided between Districts 1 and 2.444 Dr. Niven explains
that “Cincinnati is unusual in its commitment to
formally recognizing and building policy around the
city’s 52 neighborhoods. Indeed, the city’s economic
development strategy is built around the individual
needs and assets of individual neighborhoods . . . .”445
He notes that “while the rest of Hamilton County gave
52.19% of its vote” to President Obama in 2008, “the
Cincinnati neighborhoods divided between the 1st and
2nd districts gave 59.37% of their vote” to President
Obama in that election.446 Looking at those same
neighborhoods under Dr. Niven’s index, the “split
neighborhoods gave more than 75% of their vote to
Democratic candidates” and the percentage for the rest
of Hamilton County was about 45%.447 Dr. Niven
testified that “the 2nd District becomes something of a
donor district. It had more Republicans than was

443

Trial Ex. P524 (Niven Rep. at 8).

444

Id. at 12.

445

Id. at 11; see also Dkt. 242 (Niven Trial Test at 36)
(“[C]andidates campaign to and for those neighborhoods.”).

446

Trial Ex. P524 (Niven Rep. at 13).

447

Id.

App. 117
needed to ensure a safe district.”448 In short, Cincinnati
and these neighborhoods supported Democratic
candidates, and they are split between Districts 1 and
2; District 2 already contained a large Republican
majority, and thus it could take on those Democratic
voters without putting a Republican candidate at any
material risk of losing.
Throughout his report, Dr. Niven highlighted
certain district boundary lines in which the lines divide
census tracts populated by Democratic voters. In the
case of his example for Hamilton County, the split
census tract “is overwhelmingly populated by
Democrats” per Dr. Niven’s index.449
b. District 9
Dr. Niven emphasizes that “[o]ne of the defining
aspects of the 9th Congressional district is its
comprehensive propensity to divide communities.”450 In
fact, District 9 contains no whole counties and five
partial counties—Cuyahoga is split between District 9
and three other districts, Lorain is split between
District 9 and two other districts, and Erie, Lucas, and
Ottawa are split between District 9 and one other

448

Dkt. 242 (Niven Trial Test. at 33); see also id. at 34–35.

449

Trial Ex. P524 (Niven Rep. at 9–11). We give these particular
examples some weight, though they seem to be simply illustrative
of the overall trends, which are more important, found by Dr.
Niven.
450

Id. at 15.

App. 118
district.451 Dr. Niven further explains that “[i]n its
economic development efforts, the state of Ohio places
Cleveland and Toledo in separate regions,” and thus, in
combination with other cultural differences between
Cleveland and Toledo, District 9 “combines quite
disparate communities.”452 Dr. Niven’s illustrative
example of a suspect boundary for District 9 is in
Lorain County, and the boundary divides a census tract
that is heavily Democratic and more Democratic than
the rest of Lorain County.453 Moreover, each county in
District 9 voted Democratic in the 2008 presidential
election and leaned Democratic under Dr. Niven’s
index.454
c. Franklin County: Districts 3, 12, and 15
Dr. Niven finds that Franklin County both packs
(District 3) and cracks (Districts 12 and 15) Democratic
voters.455 Dr. Niven ultimately concludes that “what
was achieved in these rather odd-looking districts is
that a very Democratic County [Franklin County]
winds up with two Republican representatives . . . out
of its three members of Congress.”456 On crossexamination, Dr. Niven acknowledged that under the
451

Id.

452

Id. at 16–17; see also Dkt. 242 (Niven Trial Test. at 42–44).

453

Trial Ex. P524 (Niven Rep. at 16).

454

Id. at 19.

455

Id.; Dkt. 242 (Niven Trial Test. at 46).

456

Dkt. 242 (Niven Trial Test. at 46).

App. 119
prior map, Franklin County was split into three
districts and that Republican candidates for Congress
usually won, with some exceptions, the elections in
those districts.457 As will be discussed in more detail in
the analysis, although this redrawing seemingly adds
a Democratic district where there previously was not
one, it was part of an overall strategy to solidify
Republican districts and reduce the statewide number
of Democratic districts.
He begins his analysis with District 15, a District
which was competitive in 2006 and was won by a
Democratic candidate for Congress in 2008.458 Dr.
Niven’s analysis shows President Obama carried the
old District 15 by about 29,000 votes, but the same
election in the new District 15 would result in Senator
McCain winning by 21,000 votes; under Dr. Niven’s
index, the old District 15 was nearly evenly split
between Democratic and Republican supporters, with
a very slight Democratic lean, and the new District 15
leans Republican.459 Dr. Niven notes that nine out of
the ten counties added to District 15 in the 2011
redistricting process “were inclined to support
Republican candidates.”460 Additionally, the portions of
three of the four split counties within District 15
leaned heavily Republican in the prior decade, except
457

Id. at 100–01.

458

Trial Ex. P524 (Niven Rep. at 19); Dkt. 242 (Niven Trial Test.
at 47).
459

Trial Ex. P524 (Niven Rep. at 22).

460

Id.

App. 120
for the portion of Franklin County in District 15, which
voted 50.52% in favor of Senator McCain and scored a
0.5237 (leaning Republican) under Dr. Niven’s index.461
The portions of those same counties not within District
15, however, had: a less-strong Republican tilt (Fayette
County), were competitive (Ross County), or leaned
heavily Democratic (Franklin County).462 He also finds
that the new District 15 split seventy-two census tracts
(with fifty-eight in Franklin County), but the old
District 15 split forty-one (all in Franklin County).463 In
sum, Dr. Niven concludes that Democratic-leaning
areas were removed from the old District 15, while
Republican-leaning areas were added, together
resulting in a “net gain of more than 40,000 votes for
the Republicans.”464
District 12 under either the 2008 presidential
election results or Dr. Niven’s index went from a
leaning-Democratic district in the prior decade to a
strongly-Republican district under the current map.465
Dr. Niven’s analysis shows that Democratic-leaning
voters in Franklin County were removed from District
12 and Republican-leaning voters were added, resulting
in a new gain of 60,518 Republican voters (using the

461

Id. at 22, 24.

462

Id.

463

Id. at 20.

464

Id. at 24; see also id. at 24 n.57.

465

See id. at 25.

App. 121
2008 presidential election data).466 He further finds
that census tract splits increased from forty-eight to
sixty-one between the prior map and the current
map.467
District 3 is the final Franklin County district
addressed by Dr. Niven. He concludes that District 3
“is a classic packing example” because it received
Democratic voters from Districts 12 and 15.468 Dr.
Niven emphasizes the odd, jagged shape of District 3,
and he testified that he included specific, street-level
examples of odd lines in his report because “when we
look statewide, . . . it’s hard to appreciate in the most
granular detail the number of cuts necessary to achieve
these effects.”469 Overall, he found that “14 out of 16
cities in Franklin County are split between multiple
[congressional] districts.”470 In responding to
Intervenors’ expert Dr. Brunell’s view that “funny
shaped districts are inevitable,” see infra Section
II.D.3., Dr. Niven testified that, in this case, the “funny
shapes” were “a strategic choice” and that they are “an
466

Id.

467

Id.

468

Dkt. 242 (Niven Trial Test. at 54); see also Trial Ex. P524
(Niven Rep. at 26).
469

Dkt. 242 (Niven Trial Test. at 56); see also id. at 57 (“without
zooming in a little bit,” according to Dr. Niven, “you can’t
appreciate the degree to which . . . street by street, house by house,
people can be divided . . . .”); see also Trial Ex. P524 (Niven Rep. at
26–27).
470

Trial Ex. P524 (Niven Rep. at 28).

App. 122
illustration of division . . . imposed with a partisan
tinge such that democrats are far more likely to have
found themselves in the midst of these cuts and
divides.”471
Dr. Niven explained how gerrymandered district
lines can cause confusion. For example, Dr. Niven
found that in Franklin County, voters showed up to the
polls for the 2018 special election, only to find out that
they did not in fact live in District 12.472 As it turned
out, election officials had mis-assigned more than 2,000
people to the wrong congressional district, and the
Franklin County Board of Elections took more than
4,000 calls (and received hundreds of emails) from
confused voters who could not cast a ballot or whose
polling locations were closed.473
d. Summit County: Districts 11, 13, 14, and 16
Summit County’s population is small enough such
that it could be placed within a single congressional
district—yet Summit County is divided into four
congressional districts. (The prior map split Summit
County into three districts.) Using either the 2008
presidential election or Dr. Niven’s index, Dr. Niven’s
analysis shows that Summit County leaned
471

Dkt. 242 (Niven Trial Test. at 57–58); Trial Ex. P526 (Niven
Resp. at 3).
472

Trial Ex. P524 (Niven Rep. at 27–28 & nn.59, 61–63). Dr. Niven
relied on news coverage, as he typically does in his scholarship, for
this portion of his report and testimony. See Dkt. 242 (Niven Trial
Test. at 60); see also FED. R. EVID. 803(18).
473

See Trial Ex. P524 (Niven Rep. at 27–28 & nn.59, 61–63).

App. 123
Democratic.474 He also finds that census tract splits
increased from twenty-seven under the prior map to
fifty-five under the current map.475
As for the particular districts in Summit County,
Districts 11 and 13 have consistently elected
Democratic candidates to Congress under the current
map, whereas Districts 14 and 16 have consistently
elected Republican candidates. Consistent with these
results, using either 2008 presidential election data or
Dr. Niven’s index, Dr. Niven’s analysis shows that
voters placed into Districts 11 and 13 leaned heavily in
favor of Democratic candidates; meanwhile, voters
placed into Districts 14 and 16 were almost evenly
divided in the 2008 presidential election, and under Dr.
Niven’s index, the voters placed in these Districts
leaned Republican.476 Lastly, Dr. Niven finds that split
census tracts leaned more Democratic than census
tracts kept intact in Summit County, and he therefore
concludes that “Summit County residents were not
equally apt to have their neighborhoods divided
between districts – as more heavily Democratic areas
were more likely to be divided.”477

474

Trial Ex. P524 (Niven Rep. at 29) (noting that President Obama
won Summit County by about 41,000 votes in 2008 and that Dr.
Niven’s index scores Summit County as 0.4065, or, put differently,
only 40.65% Republican).

475

Id.

476

Id. at 31–32.

477

Id. at 32.

App. 124
4. Dr. Lisa Handley
Dr. Lisa Handley, an election consultant who works
on voting rights and redistricting, testified for
Plaintiffs as an expert witness.478 She has taught and
lectured on voting rights and redistricting and has
published articles and books on these subjects.479 She
has served as a redistricting consultant, aiding
jurisdictions to draw lines in compliance with the
VRA.480 She has also served as an expert witness
performing racial bloc voting analyses in cases in which
districting plans are challenged under Section 2 of the
VRA.481 She has been hired as an expert by the
Department of Justice in five cases and has provided
expert testimony in over twenty cases throughout her
career.482 The Court qualified Dr. Handley as an expert
in the VRA, including on racially polarized voting and
analysis of such voting patterns.483

478

Dkt. 240 (Handley Trial Test. at 132–33).

479

Id. at 133.

480

Id. at 134.

481

Id.

482

Id. at 135.

483

Id. at 135–136. Intervenors filed a Motion to Exclude the Expert
Report and Testimony of Dr. Handley prior to trial and maintained
their objections at trial. Dkt. 152-1 (Intervenors’ Mot. to Exclude
Handley); Dkt. 240 (Handley Trial Test. at 136). Intervenors
argued that Dr. Handley’s report and testimony were irrelevant
because the case at bar is a partisan-gerrymandering case, not a
VRA case. They also argued that her report and testimony were

App. 125

improper because they relied on data post-dating the drawing of
the 2012 plan and failed to include a confidence interval. Dkt. 1521 (Intervenors’ Mot. to Exclude Handley at 1–2). We address each
argument in turn.
First, we reject Intervenors’ argument that the Section 2
analysis is irrelevant. It is true that Plaintiffs have challenged the
2012 map as an unconstitutional partisan gerrymander, not as a
violation of Section 2 of the VRA. However, Defendants have made
Section 2’s requirements relevant to this case. They have argued
that District 11 was drawn in its present shape in part to ensure
that African-American voters were able to elect their preferred
candidate in that district. Plaintiffs therefore offer Dr. Handley’s
testimony to challenge that justification and demonstrate that
there was no need to extend District 11 south into Summit County
to pick up additional African-American voters to comply with the
VRA. We discuss the interaction of the VRA, Defendants’ minority
electoral opportunity justification, and Dr. Handley’s analysis
further in Sections V.A.2.d.iii., V.C.2.b.ii., where we scrutinize
each of Defendants’ proffered legitimate legislative justifications.
Second, while Dr. Handley’s report an analysis do rely in part
on data that post-dated the 2011 redistricting and therefore was
unavailable to the map drawers at the time, they also rely on data
that predates the redistricting. Dkt. 240 (Handley Trial Test. at
150). The pattern of District 11 electing Black-preferred candidates
by sizable margins does not differ between the pre-2011 and post2011 elections that Dr. Handley considered. Id. at 151. Any issues
that Dr. Handley’s reliance on data that was not available to the
map drawers in 2011 presents will go to the weight that we give
Dr. Handley’s testimony, not its admissibility.
Third, we conclude that Dr. Handley adequately explained why
she did not provide confidence intervals for her ecological-inference
analysis, and we overrule Intervenors’ objection on that basis. Dr.
Handley provided standard errors for each of her ecologicalinference estimates. Id. at 143. However, she explained that she
did not use the standard errors to produce confidence intervals
because that would require a normal distribution, and the
ecological-inference analysis does not produce a normal
distribution. Id. at 143–44. She testified that she “routinely”
submits expert reports involving ecological-inference estimates

App. 126
District 11 has consistently elected AfricanAmerican representatives to Congress since 1968,
when it was first drawn as a majority Black district.484
Handley’s report indicated that since 2002, the Blackpreferred congressional candidate (whether or not that
candidate was African American) has won District 11
by a considerable margin.485 This is true of elections
both before and after the 2011 redistricting.486 In fact,
the tightest congressional race since 2002 in District 11
was won by Stephanie Tubbs Jones in that year with
76.3% of the total vote.487 Prior to the 2011
redistricting, District 11 had a BVAP of 57.7%,
although it was originally drawn in 2001 with a BVAP
of 52.3%.488 After the redistricting, its BVAP was
52.4%.489
without confidence intervals, and that these reports have been
accepted. Id. at 144.
484

Trial Ex. P254 (Handley Rep. at 2 n.2). Representative Louis
Stokes was elected in 1968 and served as a congressman for 30
years. Representative Stephanie Tubbs Jones was then elected in
1998. She was succeeded by Congresswoman Marcia Fudge, who
has represented District 11 since 2008. Id.

485

Id. at 5.

486

Id.; Dkt. 240 (Handley Trial Test. at 141 (concluding that “prior
to the 2011 redistricting . . . Black-preferred candidates were
winning by overwhelmingly high percentages in all of the
statewide and federal contests”).
487

Trial Ex. P254 (Handley Rep. at 3).

488

Id. at 6 n.7.

489

Id.

App. 127
Dr. Handley conducted a “district-specific,
functional analysis of voting patterns by race to
ascertain the black voting age population necessary to
provide black voters with an opportunity to elect their
candidates of choice in the vicinity of the 11th
Congressional District of Ohio.”490 The analysis must be
district specific because the BVAP required to elect the
Black-preferred candidate differs from jurisdiction to
jurisdiction based on factors such as the type of election
(e.g., federal versus local), turnout and voting patterns
of African Americans and whites, the cohesiveness of
African-American voters in supporting particular
candidates, and “crossover” voting patterns of whites
who also support Black-preferred candidates.491 Dr.
Handley’s analysis estimated the vote share that
Black-preferred candidates would have received had
District 11 been configured as 55%, 50%, 45%, or 40%
Black.492 She conducted this analysis using data from
statewide and federal elections from 2008 through 2016
occurring within the vicinity of the current District 11.
Dr. Handley used three different statistical
techniques to complete this analysis: homogeneousprecinct analysis, ecological-regression analysis, and
ecological-inference analysis.493 Both homogenousprecinct analysis and ecological-regression analysis
were used in Thornburg v. Gingles, 478 U.S. 30 (1986),
490

Id. at 1.

491

Dkt. 240 (Handley Trial Test. at 137, 142)

492

Id. at 142.

493

Id.

App. 128
the Supreme Court’s seminal Section 2 case.494
Ecological-inference analysis developed later to address
a shortcoming of ecological-regression analysis but has
subsequently been widely accepted.495 All three
statistical techniques yielded similar results.496
Dr. Handley concluded that with a 45% BVAP in
District 11, African-American voters would have a
realistic opportunity to elect their candidate of choice
with a “comfortable margin.”497 In fact, even with a
BVAP as low as 40%, African-American voters would
have elected the Black-preferred candidate in the
elections studied.498 She concluded that there is no need
to draw a majority African-American District 11 in
order to allow African-American voters to elect their
candidate of choice there.499
5. Mr. William Cooper
William Cooper, a mapping consultant, testified as
an expert witness at trial.500 Over the course of his
career, Mr. Cooper has drawn plans for about 750
494

Id. at 142–43.

495

Id. at 143.

496

Id. at 150.

497

Trial Ex. P254 (Handley Rep. at 17); Dkt. 240 (Handley Trial
Test. at 149).
498

Dkt. 240 (Handley Trial Test. at 149).

499

Trial Ex. P254 (Handley Rep. at 1).

500

Dkt. 241 (Cooper Trial Test. at 136).

App. 129
jurisdictions, many of which were statewide plans and
around six of which were congressional districting
plans.501 Mr. Cooper has also previously drawn plans
specifically for partisan-gerrymandering cases.502 Mr.
Cooper generally submits illustrative or remedial
districting plans, and courts have implemented several
of his remedial plans.503 This Court qualified Mr.
Cooper as an expert in the fields of redistricting, map
drawing, and demography504 and found his testimony
and reports credible and reliable.
Mr. Cooper used census data and mapping software
“to reexamine the plan that was adopted in 2012 and
apply traditional redistricting principles to result in a
map that was a little more fair for Democratic voters
and at the same time visually more appealing” and also
“undid . . . [the] partisan gerrymander.”505 He used
501

Id. at 136–37.

502

Id. at 137–38.

503

Id. at 139.

504

Id. at 140.

505

Id. The data Mr. Cooper was given to create the Proposed
Remedial Plan featured in his first report included an error—an
incorrect address for Representative Jordan. Id. at 167. This error
resulted in the inadvertent pairing of incumbent Representatives
Jordan and Davidson in the original Proposed Remedial Plan. Id.
Upon learning of this error, Mr. Cooper drafted a corrected
Proposed Remedial Plan, which included slight changes at the
border of Districts 4 and 8. Trial Ex. P091 (Cooper Errata at 2).
This correction did not result in any changes to the compactness,
minority voting strengths, or county and municipal divides of the
earlier version. Dkt. 241 (Cooper Trial Test. at 168–69).

App. 130
Maptitude software, the same kind used by the map
drawers in 2011, to do this work.506 Mr. Cooper relied
upon traditional redistricting principles
(equipopulation, contiguity, compliance with the VRA,
and preserving communities of interest) to craft his
Proposed Remedial Plan and also made sure that it
would satisfy the requirements of Ballot Initiative 1.507
He “did not pair incumbents except when in direct
conflict with the other factors.”508 Mr. Cooper had the
CSU dataset used by the map drawers available to him
while he was drawing his Proposed Remedial Plan and
“occasionally glanced at it” although he “was not
constantly monitoring every little—every little
change.”509 The Proposed Remedial Plan that he
created was intended to be a forward-looking plan that
avoided the pairing of the current congressional
officeholders.510
Mr. Cooper explained the traditional redistricting
factors that drove his maps and the manner in which
those factors are measured. Equipopulation means that
a district is the exact population of the ideal district
506

Dkt. 241 (Cooper Trial Test. at 143).

507

Trial Ex. P090 (Cooper Decl. at 3); Dkt. 241 (Cooper Trial Test.
at 146). Ballot Initiative 1 requires that “any plan drawn in the
future, at least after the 2020 census at minimum, would have to
keep the city of Cincinnati in a single district and the city of
Cleveland in a single district.” Dkt. 241 (Cooper Trial Test. at 146).
508

Trial Ex. P090 (Cooper Decl. at 3).

509

Dkt. 241 (Cooper Trial Test. at 151–52).

510

Trial Ex. P092 (Cooper Suppl. Decl. at 1).

App. 131
size, plus or minus one.511 Contiguity means that a
district is entirely contiguous with itself; there are no
severed sections. Compactness can be measured with
an “eyeball test . . . just take a look at it and see if it
makes sense visually” or with mathematical tests such
as the Reock and Polsby-Popper measures, both of
which can be run using Maptitude.512 The PolsbyPopper and Reock metrics measure compactness on a
scale of zero through one; the closer to one, the more
compact the district. The “Polsby-Popper score is a
perimeter score over area of a district”—the ratio of the
perimeter and the area of a district generates the score.
A low score is “an indication that it’s not a very
compact district.”513 The Reock score is “a ratio of an
area for a circle drawn around the district.” Mr. Cooper
testified that “districts that start getting below .20 are
somewhat problematic, generally speaking.”514
Mr. Cooper defined a community of interest as “an
area or a region where there are certain cultural or
socioeconomic ties, historical ties.”515 He testified that
minority populations can be considered communities of
interest and that counties or municipal subdivisions
are “a more objective way to identify communities of

511

Dkt. 241 (Cooper Trial Test. at 147).

512

Id. at 147–48.

513

Id. at 157–58.

514

Id. at 158.

515

Id. at 148.

App. 132
interest.”516 Maptitude allows users to monitor how
many counties and metropolitan civil divisions are split
as a plan is drawn.517 He stated that, generally, maps
with fewer districts overall should contain fewer county
splits if traditional districting principles are being
applied.518
Mr. Cooper also compared the shapes of several
districts from the 2012 map to his Proposed Remedial
Plan, commenting on the 2012 districts’ irregular
shapes and frequent splits of county lines and
municipal boundaries.519 The Proposed Remedial Plan
splits fourteen counties and twenty-seven political
subdivisions.520 In contrast, the 2012 map splits
twenty-three counties and seventy-three political
subdivisions, fifty-five of which are populated.521 Mr.
Cooper also compared the compactness of the districts
in the 2012 map with those in his Proposed Remedial
Plan. The Proposed Remedial Plan “score[d]
significantly higher on Polsby-Popper in terms of

516

Id.

517

Id. at 150.

518

Id. at 151.

519

Id. at 153–56.

520

Id. at 150; Trial Ex. P091 (Cooper Errata at 3; Ex. Q); Trial Ex.
P454 (Cooper Decl. Apps. at Ex. F).
521

Dkt. 241 (Cooper Trial Test. at 158–59).

App. 133
minimums and maximums as well as the overall mean”
than the 2012 map.522
Mr. Cooper’s Proposed Remedial Plan was conscious
of advancing minority voting power in various districts.
First, it included a minority-opportunity district
contained entirely within Cuyahoga County with a 47%
BVAP, higher than the 45% that Dr. Handley
calculated was necessary to allow minorities in the
district to elect a candidate of their choice.523 Mr.
Cooper testified that simply by keeping the City of
Cleveland whole in District 11 and including “a couple
of suburbs,” achieving this 47% BVAP “just happened”
without “trying to max it out in any way.”524 Second,
Mr. Cooper’s Proposed Remedial Plan included a
District 1 with a higher percentage BVAP than the
2012 map’s District 1. The Proposed Remedial Plan’s
District 1 has a 26.74% BVAP; the 2012 map’s District
1 has a 21.30% BVAP.525 He testified that this increase
of over five percentage points resulted “because [he] left
522

Id. at 157; Trial Ex. P454 (Cooper Decl. Apps. at Ex. H). Mr.
Cooper also explained that the chart was somewhat misleading
because the Reock and Polsby-Popper scores for District 9 are
inflated “because of the way the Census Bureau has extended
water blocks that are part of these Counties along Lake Erie, out
into the middle of Lake Erie. And if you remove those water blocks,
then District 9 scores very low.” Dkt. 241 (Cooper Trial Test. at
157).
523

Dkt. 241 (Cooper Trial Test. at 159).

524

Id. at 160.

525

Trial Ex. P454 (Cooper Decl. Apps. at Ex. D-3; E-2); Dkt. 241
(Cooper Trial Test. at 160–61).

App. 134
Cincinnati in a single district rather than splitting it
into part of District 2 as well as District 1.”526 Third,
the District 3 included in his Proposed Remedial Plan
had roughly the same BVAP as was present in the 2012
map.527
Mr. Cooper also responded to the report of
Defendants’ expert Dr. Hood.528 Dr. Hood had
challenged the Proposed Remedial Plan, arguing that
it would not have been politically viable had it been
implemented in 2012 because it would have paired
many incumbents. Mr. Cooper maintained in his
response that the Proposed Remedial Plan was
“presented for future use, not solely as a point of
comparison to the 2012 plan.”529 He also drew and
demonstrated the feasibility of two hypothetical plans
that shared many features with his Proposed Remedial
Plan but could have been implemented in 2011 without
pairing more incumbents than the adopted 2012 map
did.530

526

Dkt. 241 (Cooper Trial Test. at 161).

527

Id.

528

Id. at 141.

529

Trial Ex. P093 (Cooper Second Suppl. Decl. at 2).

530

Id. at 4–19.

App. 135
D. Defendants’
Witnesses

and

Intervenors’

Expert

1. Dr. M.V. Hood III
Dr. M.V. Hood III, a tenured professor of political
science at the University of Georgia, testified as an
expert for Defendants at trial.531 Dr. Hood has taught
courses in Southern politics, American politics,
research methods, election administration, and the
legislative process.532 His work has appeared in peerreviewed journals between forty and fifty times and he
has published four articles “directly related to
redistricting in one way or another” in peer-reviewed
journals.533 Dr. Hood has testified as an expert witness
in several cases involving redistricting.534 We qualified
Dr. Hood as an expert in “American politics and policy,
quantitative political analysis and election
administration, including redistricting.”535 We,
however, can draw limited inferences from his

531

Dkt. 247 (Hood Trial Test. at 135).

532

Id. at 136–37.

533

Id. at 137.

534

Id. at 140.

535

Dkt. 274 (Hood Trial Test. at 141). Prior to trial, Plaintiffs filed
a Daubert motion to exclude the expert report and testimony of Dr.
Hood. Dkt. 150-1 (Pls.’ Mot. to Exclude Hood). We conclude that
none of Plaintiffs’ criticisms of Dr. Hood’s report and testimony are
sufficiently severe to preclude us from qualifying him as an expert.
Rather, where well-founded, they will impact the weight that we
will give his testimony and report.

App. 136
testimony and report due to some inapt comparisons,
unexplained and apparently meaningful exclusions of
certain elections in his partisan indices, and admitted
failures to account for certain confounding variables in
some of his analyses.536
a. Incumbent pairing, core retention,
compactness, and county and municipality
splits
Dr. Hood’s report stated that the 2012 map paired
three sets of incumbents.537 He also testified that the
2012 map’s core retention level, the “percentage of a
member’s constituents [who] were carried over from
their previous district,” was “55.7% across the 16
districts.”538 Dr. Hood concluded, based on the number
of incumbents who were paired and the core-retention
rate, “that at least some weight was given in the plan
to the . . . criteria protecting incumbents to the extent
possible.”539 Dr. Hood, however, agreed that “there is no
agreed-upon standard for what levels of core retention
indicates that the goal of a districting map is to protect
536

Courts in several other cases in which Dr. Hood has testified as
an expert witness have afforded Dr. Hood’s testimony little weight
for similar reasons. See, e.g., Ne. Ohio Coal. for the Homeless v.
Husted, No. 06-cv-896, 2016 WL 316651, at *23 (S.D. Ohio June 7,
2016); see also, e.g., Veasey v. Perry, 71 F. Supp. 3d 627, 663 (S.D.
Tex. 2014); Frank v. Walker, 17 F. Supp. 3d 837, 882 (E.D. Wis.
2014).
537

Dkt. 247 (Hood Trial Test. at 144–45).

538

Id. at 145.

539

Id. at 146.

App. 137
incumbents.”540 He also acknowledged that in a
previous academic article, he had concluded that “a
core retention level of 68.7 percent greatly altered the
relationship between representatives and
constituents.”541
Dr. Hood compared the 2012 map with the 2002
map. He testified that the 2012 map was “on par with
the 2002 plan in terms of compactness” measured with
both the Polsby-Popper and Reock tests.542 He stated
that the 2002 plan split twenty-one counties and the
2012 plan split twenty-three counties.543 He found that
the 2002 plan split 4.3% of Ohio’s municipalities while
the 2012 plan split 4.5% of Ohio’s municipalities. From
this data, he concluded that the 2012 map “is on par
with the 2002 benchmark plan” in terms of its
adherence to traditional redistricting criteria.544
Dr. Hood also compared the 2002 map to Plaintiffs’
Proposed Remedial Plan in terms of compactness and
splits of communities of interest, defined here as
counties and municipalities. He found that the
Proposed Remedial Plan had “slightly higher”
compactness scores than the 2002 map measured by
540

Id. at 193.

541

Id.

542

Id. at 144.

543

Id. at 147. In so testifying, Dr. Hood corrected an error in his
report, which had indicated that the 2002 map split 25 counties.
Id. at 146.
544

Id. at 147–48.

App. 138
both the Polsby-Popper and Reock tests. He also
testified that Mr. Cooper’s hypothetical plans, which
were designed as alternatives that could have been
enacted in 2012, also had higher compactness scores
than the adopted 2012 map.545 The Proposed Remedial
Plan splits fourteen counties while the 2002 map split
twenty-one.546 The Proposed Remedial Plan splits 1.7%
of Ohio’s municipalities while the 2002 map split 4.3%
of them.547 Mr. Cooper’s hypothetical plans also split
fewer counties and municipalities than the enacted
2012 map.548
Dr. Hood also demonstrated that, had Plaintiffs’
Proposed Remedial Plan been enacted in 2012, it would
have resulted in the pairing of six sets of incumbents,
the majority of which would have been Republican
pairings.549 Dr. Hood calculated that had the Proposed
Remedial Plan been enacted in 2012, its mean coreretention figure would have been 39.5%.550 As is

545

Id. at 148, 198; see also Trial Ex. D4 (Hood Rep. at 8, tbl. 7). Dr.
Hood did not calculate the compactness scores himself; he
requested that they be calculated and reproduced the reports. Dkt.
247 (Hood Trial Test. at 189).
546

Dkt. 247 (Hood Trial Test. at 148–49); see also Trial Ex. D4
(Hood Rep. at 8, tbl. 8).
547

Dkt. 247 (Hood Trial Test. at 149); see also Trial Ex. D4 (Hood
Rep. at 9, tbl. 9).
548

Dkt. 247 (Hood Trial Test. at 198–99).

549

Id. at 148; see also Trial Ex. D4 (Hood Rep. at 9, tbl. 10).

550

Dkt. 247 (Hood Trial Test. at 150).

App. 139
discussed in the summary of Mr. Cooper’s testimony,
the Proposed Remedial Plan was designed principally
as a forward-looking map to be implemented today,
using the 2012 map rather than the 2002 map as a
baseline. It designed its incumbent pairings based off
where current representatives live under the 2012
map. This makes it an inapt comparison to count
incumbent pairings that would have resulted had it
been implemented in 2012, when a different set of
representatives would have been the affected
incumbents. Similarly, the implementation of the 2012
map shifted the district lines and assigned constituents
to new districts. Therefore, it is odd to conduct coreretention analysis of the Proposed Remedial Plan
against the baseline of the 2002 district lines when it
was designed with the 2012 lines as its baselines. On
cross-examination, Dr. Hood acknowledged that Mr.
Cooper’s hypothetical plans, which were designed as
alternatives that could have been enacted in 2012, had
core retention rates that were “highly similar” to those
of the actually-enacted 2012 map.551
b. Political geography
Dr. Hood also discussed Ohio’s political
geography—“the spatial distribution of partisans in
Ohio.”552 He created a partisan vote index using fifteen
statewide contested elections from four election cycles
prior to the 2011 redistricting.553 He then used this
551

Id. at 197.

552

Id. at 151.

553

Id. at 153.

App. 140
partisan vote index to color code and plot areas of
Democratic, strong Democratic, Republican, and strong
Republican support on several maps of Ohio.554 Based
on these maps, Dr. Hood concluded that “there’s a
much larger Republican footprint outside of urban
areas. Much of the Democratic footprint during this
time is inside urban areas, like Cleveland and
Columbus, Cincinnati.”555 He calculated that “about
78.5% of Ohio’s land area” leans Republican, and 21.5%
of its land area leans Democratic.556
Dr. Hood then calculated a Moran’s I statistic to
determine that from 2004 to 2010 “Republican VTDs
tend[ed] to be located proximate to other Republican
VTDs, and Democratic VTDs tend[ed] to be located
proximate to other Democratic VTDs” in Ohio.557 Dr.
Hood acknowledged on cross-examination that this
analysis did not “indicate that Democrats are
differentially clustered than Republicans”—that they
cluster with other members of their own party at
higher rates than Republican voters do.558 His analysis
also demonstrated that “Democratic VTDs are more

554

Id.; see also Trial Ex. D4 (Hood Rep. at App., figs. 1–5).

555

Dkt. 247 (Hood Trial Test. at 154).

556

Id.

557

Id. at 155.

558

Id. at 199–200.

App. 141
likely to be located in urban areas” than Republican
VTDs.559
c. Partisan leanings
Dr. Hood then used his first partisan index to
analyze the partisan leaning of Ohio’s congressional
districts as drawn under the 2012 map.560 He
determined that six were safe Republican districts, five
were competitive, Republican-leaning districts, four
were safe Democratic districts, and one was a
competitive, Democratic-leaning district.561
Dr. Hood did the same analysis applying the
partisan index to the Plaintiff’s Proposed Remedial
Plan and found that the only differences between it and
the 2012 map were that under the Proposed Remedial
Plan there would be “on[e] less safe Republican district
and one additional competitive district leaning
Democratic.”562 On cross-examination, Dr. Hood
conceded that his “index state[s] a lower Republican
559

Id. at 156.

560

Plaintiffs argue that Dr. Hood cherry-picked the elections in his
partisan index to skew the results, particularly by omitting 2002
election data. See id. at 207–13.
561

Trial Ex. D4 (Hood Rep. at 15, tbl. 15). Hood termed a district
a safe Republican district if the partisan index indicated that it
would vote over 55% Republican. Competitive, Republican-leaning
districts would vote 50-55% Republican. Safe Democratic districts
would vote less than 45% Republican, and competitive,
Democratic-leaning districts would vote 45-50% Republican. Dkt.
247 (Hood Trial Test. at 157).
562

Dkt. 247 (Hood Trial Test. at 160).

App. 142
percentage as compared to [an index that includes] the
full set of elections based on the statewide contested
elections for the decade preceding the 2010
redistricting cycle, including 2002.”563 When the 2002
congressional election results are included in the index,
there are no competitive districts, rather than the six
competitive districts that Dr. Hood indicated.564 Such
an index predicts voting outcomes that more reliably
correspond to the actual electoral outcomes observed in
the elections since the 2012 redistricting.565
Dr. Hood created another partisan index using
elections from 2012, 2014, and 2016, and then used the
same process described earlier to color code the
partisan leanings of VTDs on a map of Ohio.566
Comparing that map to the color-coded map he
produced of Ohio using elections from the preceding
decade, he concluded that Ohio has become
increasingly Republican over time.567

563

Id. at 216–17.

564

Id. at 219.

565

Id. at 220–21.

566

Dr. Hood agreed that the races he included in creating this
index “were the two most Republican of the five statewide races in
2014,” and therefore the application of this index would make the
map look more Republican-leaning than the application of an index
that included the other races. Id. at 230.
567

Id. at 168–70; see also Trial Ex. D4 (Hood Rep. at App., figs. 78); Trial Ex. D5 (Hood Suppl. Rep. at 8, tbl. 6).

App. 143
Finally, Dr. Hood used this latter partisan index to
evaluate the partisan leanings of each individual
Plaintiff’s new district under the Proposed Remedial
Plan compared to the partisan leanings of their current
district under the 2012 map.568 He concluded, based on
this analysis, that two of the seventeen individual
Plaintiffs would have a better chance of electing a
Democratic representative under the Proposed
Remedial Plan versus under the current map—Plaintiff
Griffiths in District 7 and Plaintiff Hutton in District
14.569
d. Other influences on electoral success
Dr. Hood also testified about various factors that
“influence the outcome of congressional
races”—”[f]undraising, media attention, name
recognition, incumbency,” as well as “candidates and
campaigns.”570 He testified that there is a strong trend
of incumbents being reelected to office that is
recognized in the political science literature and was
observable in Ohio after the 2011 redistricting—all of
the unpaired incumbent congressional representatives
were reelected in 2012 and in every congressional
election in Ohio since then.571 Relatedly, Dr. Hood

568

Dkt. 247 (Hood Trial Test. at 171); see also Trial Ex. D4 (Hood
Rep. at 30).
569

Dkt. 247 (Hood Trial Test. at 172).

570

Id. at 160.

571

Id. at 161; see also Trial Ex. D4 (Hood Rep. at 18, tbl. 17); Trial
Ex. D5 (Hood Suppl. Rep. at 4, tbl. 2).

App. 144
testified about challenger quality, which he measures
by whether the challenger has held prior elective
office.572 He concluded that “[t]ypically, more often than
not, the challengers” of incumbents in Ohio from 2012
through 2018 were “political novices” without prior
elective officeholding experience.573 Dr. Hood admitted
on cross-examination that he did nothing “to assess
whether the district lines themselves prevented the
recruitment of experienced candidates” and that it was
possible that they had.574
Dr. Hood also examined “the amount of campaign
contributions that were collected by the Republican and
Democrat” in each election because fundraising is
helpful in winning elections.575 He concluded that, in
Ohio between 2012 and 2016, the incumbents had
“outraised challengers by about $1.2 million on
average.”576 On cross-examination, Dr. Hood admitted
that he did nothing “to determine that the district lines
themselves did not cause Democratic challengers to fail
to raise comparable funds” and admitted that it was

572

Dkt. 247 (Hood Trial Test. at 163).

573

Id.; see also Trial Ex. D4 (Hood Rep. at 19, tbl. 18); Trial Ex. D5
(Hood Suppl. Rep. at 5, tbl. 3).
574

Dkt. 249 (Hood Trial Test. at 9–10).

575

Dkt. 247 (Hood Trial Test. at 163–64).

576

Id. at 164; see also Trial Ex. D4 (Hood Rep. at 20, tbl. 19); Trial
Ex. D5 (Hood Suppl. Rep. at 5, tbl. 4) (reflecting the fundraising in
the 2018 congressional elections, in which three challengers
outraised the incumbents they faced).

App. 145
possible that the lines themselves affected challenger
fundraising abilities.577
e. Efficiency gap and seat-share relationship
Dr. Hood plotted the efficiency gap numbers for
Ohio from 1992 to 2016 against the seat share of the
congressional delegation.578 He concluded based on the
regression from this plot that the efficiency gap is
“closer to zero as the seat share is more evenly
balanced” between the parties and increases “as the
seat share tilts one way or another.”579
2. Dr. Janet Thornton
Dr. Janet Thornton testified at trial for Defendants
as an expert witness. Dr. Thornton is currently the
managing director and an economist and applied
statistician at Berkeley Research Group, LLC, a
consulting firm located in Florida.580 Dr. Thornton has
a doctorate and master’s degree in economics from
Florida State University, as well as a bachelor’s degree
in economics and political science from the University
of Central Florida.581 Dr. Thornton’s fields of
specialization in her academic background were labor

577

Dkt. 249 (Hood Trial Test. at 9).

578

Dkt. 247 (Hood Trial Test. at 166).

579

Id. at 167.

580

Trial Ex. D8 (Thornton CV).

581

Id.

App. 146
economics and applied statistics.582 Additionally, Dr.
Thornton has “been working with census data since the
early 1980s” and has also “work[ed] with data from the
1960 d[e]cennial census all the way up to the current
time period . . . .”583 Although Dr. Thornton has
prepared statistical analyses and served as an expert
in voting cases related to, for example, the effect of
voter-identification laws on voter-participation rates by
race and minority status, Dr. Thornton has never
served as an expert in a redistricting case.584 And
although Dr. Thornton has never been precluded from
testifying as an expert, at least one court found her
analysis “simplistic and not credible.” See Democratic
Nat’l Comm. v. Reagan, 329 F. Supp. 3d 824, 838 (D.
Ariz. 2018). Dr. Thornton has also not published any
articles related to voting.585 This Court qualified Dr.
Thornton as an expert in economic and statistical
analysis, subject to Plaintiffs’ Daubert motion.586

582

Dkt. 246 (Thornton Trial Test. at 86).

583

Id. at 87–88.

584

See Trial Ex. D8 (Thornton CV); Dkt. 246 (Thornton Trial Test.
at 90–91).
585

See Trial Ex. D8 (Thornton CV); Dkt. 246 (Thornton Trial Test.
at 125–27).
586

Dkt. 246 (Thornton Trial Test. at 92–93); see also Dkt. 155, 1551 (Pls.’ Mot. to Exclude Thornton). We deny Plaintiffs’ Daubert
motion, but we consider Dr. Thornton’s report and testimony for
limited purposes and do not credit portions of her analysis, as
explained herein.

App. 147
Dr. Thornton’s report and testimony are offered to
rebut Plaintiffs’ experts Dr. Cho and Dr. Niven. As to
Dr. Cho, Defendants presented Dr. Thornton’s report
and testimony to critique the underlying data and
assumptions in Dr. Cho’s report.587 As to Dr. Niven,
Defendants offered Dr. Thornton’s report and
testimony to rebut Dr. Niven’s conclusion that the
splitting of census tracts in the current plan is
correlated with the political composition of census
tracts.588 Before turning to Dr. Thornton’s critique of
each of these Plaintiffs’ experts, two preliminary
matters need to be addressed.
First, we give no weight to Dr. Thornton’s finding
that “Dr. Cho failed to provide all of the underlying
code and output sufficient to replicate all of her
findings.”589 This finding is entirely off base. Dr.
Thornton admitted that she is not an expert in C++
and that she cannot read it without the help of a
manual;590 and again, Plaintiffs offered to provide
Defendants with the code. See supra Section II.C.2.
More importantly, the code is not the algorithm; the
code simply implements the algorithm. Consequently,
nothing prohibited Dr. Thornton from critiquing the

587

Dkt. 246 (Thornton Trial Test. at 91).

588

See Trial Ex. D8 (Thornton Rep. at 24–27).

589

Id. at 4.

590

Dkt. 246 (Thornton Trial Test. at 133–35); see also Trial Ex. D8
(Thornton CV) (C and C++ are not included in the programming
languages listed as ones of which she has knowledge).

App. 148
MCMC algorithm used by Dr. Cho if she had been
qualified to do so.591
Second, Dr. Thornton is an expert in statistics
generally, not in political science or redistricting, and
she has never run an MCMC algorithm or, prior to this
case, reviewed, evaluated, or assessed an MCMC
algorithm.592 We consider her findings with that
backdrop. Ultimately, we give some weight to her
critiques of the underlying data that Dr. Cho used as a
basis for assessing her simulated maps, but several of
Dr. Thornton’s other critiques miss the mark and are
not credible.
a. Rebuttal to Dr. Cho
Dr. Thornton opines that “the manner in which [Dr.
Cho] generates new maps (i.e., simulations) is biased
towards selecting half of the districts in which the
Republican votes outnumber the Democratic votes and
half of the districts in which Democratic votes

591

This distinction between reviewing the algorithm and the code
is underscored by Dr. Cho’s testimony on behalf of the defendants
in a Pennsylvania gerrymandering case. As Dr. Cho explained in
her report in that case (which was read into the record on crossexamination at this trial): “[I]ndeed, the point is not whether I
would have been allowed some short amount of time to view the
code, but whether the algorithm has been sufficiently scrutinized
by the scientific community to allow others, including the Courts,
to have confidence in the process and the results.” See Dkt. 243
(Cho Trial Test. at 84). Nonetheless, the fact remains that
Plaintiffs offered to provide the full code to Defendants, who
apparently declined the offer.
592

Dkt. 246 (Thornton Trial Test. at 129).

App. 149
outnumber the Republican votes.”593 In other words,
Dr. Thornton’s opinion is that the process Dr. Cho used
to produce the simulated maps was biased toward
creating an 8-8 map. This is wrong. As explained
earlier, Dr. Cho analyzed the competitiveness and
partisan outcomes of the simulated maps only after the
simulated maps were generated. See supra Section
II.C.2.594 Dr. Thornton offered no evidence to rebut this
sequence of events.
In a similar manner, Dr. Thornton criticizes the
election data that Dr. Cho used to assess the
partisanship of the simulated maps as compared to the
current map. This criticism, however, is distinct in an
important way because it goes to Dr. Cho’s after-thefact assessment of partisanship and not the creation of
the simulated maps. The general thrust of Dr.
Thornton’s critique on this front is that the 2008-2010
data used by Dr. Cho contains higher Democratic vote
totals than in the 2012-2016 data.595 Further, Dr. Cho
never used the 2016 statewide Democratic vote share
593

Trial Ex. D8 (Thornton Rep. at 12).

594

We note, however, that Dr. Cho’s competitiveness metric (which
Dr. Cho used after generating the simulated maps) is based on
optimal competitiveness. As such, the closer a map is to an 8-8
partisan outcome, the more competitive the map will score, i.e., a
score closer to zero under Dr. Cho’s competitiveness metric. See
supra note 400. We consider this specific metric only for Dr. Cho’s
conclusion that competitiveness seems to have been “almost a nonexistent factor if one at all” in the drawing of H.B. 369. See supra
Section II.C.2.b.i. & note 400. Dr. Cho’s other competitiveness
analyses support that conclusion, too.
595

See Trial Ex. D8 (Thornton Rep. at 15–17 & fig. 1).

App. 150
for her analysis, which Dr. Thornton computed as
42.4% (lower than the other indices used by Dr. Cho).596
Dr. Thornton concludes that Dr. Cho’s selection and
use of election data “is faulty, misleading, and
unreliable.”597
We give some weight to this particular
conclusion—Dr. Cho’s omission of the 2016 election
data (which was less favorable to the Democratic
Party) and use of 2008-2010 data to assess the partisan
effect of the 2012 plan raises some concern. At the
same time, Dr. Thornton’s critique on this point does
not significantly undermine Dr. Cho’s conclusions.
After all, the 2008-2010 election data were part of the
data available to the map drawers, so that data is not
irrelevant to assessing whether different districts could
have been drawn. It is true, however, that the
Democratic vote shares have decreased in the present
decade as compared to the last, and this waning in
support is relevant to partisan effect. In response, Dr.
Cho provided an updated analysis in her supplemental
report that incorporated the 2012-2014 and 2018
election data; that analysis showed the most common
Republican vote share as nine seats, and eight and ten
Republican seats were also not uncommon. See supra
Section II.C.2. This cures at least part of Dr.
Thornton’s critique, specifically that using the 20082010 data misleadingly resulted in eight Republican
seats being most common. In any event, Dr. Cho’s
supplemental report further shows that incorporating
596

Id. at 16–17 & fig. 1.

597

Id. at 16.

App. 151
recent election data does not significantly alter her
conclusions on partisan effect—a 12-4 map is still a
highly unusual outlier under all her analyses. In sum,
although we give some weight to Dr. Thornton’s
critique on Dr. Cho’s selection and use of data, hence
rendering Dr. Cho’s findings less probative than they
otherwise could be, we do not find that Dr. Thornton
has significantly undermined Dr. Cho’s conclusions.
Dr. Thornton also performed her own analysis using
a binomial distribution, but we do not give any weight
to that analysis. Dr. Thornton’s analysis used the
Republican statewide vote share in congressional races
“to predict the number of Republican seats.”598 As an
example, in 2016, the Republican vote share was
58.2%, and Dr. Thornton multiplied that number by 16
(i.e., the number of seats) to arrive at 9.31 as the
expected number of seats (2.69 fewer seats than the
actual outcome of 12).599 Dr. Thornton then calculated
“the number of standard deviations associated with the
difference between the actual and predicted number of
Republican seats.”600 When the difference is less than
two standard deviations, whether positive or negative,
the difference is not considered statistically
significant.601 From this analysis, Dr. Thornton
concludes that for 2012, 2014, and 2016, “the difference
between the actual and predicted number of
598

Dkt. 246 (Thornton Trial Test. at 112).

599

Id.; Trial Ex. D8 (Thornton Rep. at 19–20, tbl. 3).

600

Trial Ex. D8 (Thornton Rep. at 19).

601

Id.; Dkt. 246 (Thornton Trial Test. at 112–13).

App. 152
Republican seats using the Republican vote share are
not statistically significant.”602
Several factual and legal problems are apparent in
Dr. Thornton’s analysis. Factually, under the binomial
distribution, the expected number of Republican seats
unquestionably reflects proportional representation—
Dr. Thornton multiplied the statewide vote share by
the number of seats. Legally, proportional
representation is not required. See infra Section IV.B.
For this reason, Dr. Cho does not assume proportional
representation.603 The analysis incorporates yet
another faulty assumption that each district has a 51%
chance of being won by a Republican because
Republicans won 51% of the congressional vote across
the State; this assumption does not comport with basic
understandings of congressional elections, i.e., that
although some districts may be competitive (a 51%
Republican to 49% Democrat district), other districts
lean heavily in favor of one party or the other. Finally,
Dr. Thornton’s analysis has nothing to do with whether
Republicans and Democrats are statistically treated
similarly or differently under the current map—she
assesses only whether the actual number of Republican
seats differs in a statistically significant way from the
expected number of Republican seats. This analysis,
without more, says nothing about how the current map

602

603

Dkt. 246 (Thornton Trial Test. at 113).

Trial Ex. P087 (Cho Rep. at 31) (“We do not have a system of
proportional representation . . . .”). In fact, Dr. Thornton is the only
expert in this case who incorporates an assumption of proportional
representation into her analysis.

App. 153
affects Democratic voters compared to Republican
voters. For all of these reasons, we give no weight to
her statistical significance analysis.
Additionally, Dr. Thornton applied a similar
analysis comparing the difference between the number
of Republican seats in 2010 and the number of
Republican seats in 2012.604 Again, she concluded that
this difference was not statistically significant.605 We
find that this analysis is simplistic and not particularly
helpful. To be sure, the Republicans flipped the
congressional delegation in 2010 from one that was a
Democratic majority to one that was a Republican
majority, and this Republican majority has been
maintained. But that simply shows part of the problem
with the 2012 map: Despite fluctuating vote shares, the
seat share has remained 12-4; under the prior plan, the
seat share fluctuated as did the vote share. Indeed, the
fact that a political party that controlled the
redistricting process maintained (or slightly improved)
their seat-share percentage from before redistricting to
after is not surprising if they have drawn an effective
partisan gerrymander.
Lastly, Dr. Thornton critiqued Dr. Cho for not
considering incumbency in her analysis, and Dr.
Thornton herself observed the success of incumbent
candidates under the current map.606 This critique
604

Trial Ex. D8 (Thornton Rep. at 21).

605

Id.; Dkt. 246 (Thornton Trial Test. at 114–15).

606

Trial Ex. D8 (Thornton Rep. at 21–24); Dkt. 246 (Thornton Trial
Test. at 115–16).

App. 154
holds some weight, but Dr. Cho’s analysis still permits
an inference, albeit less strong, on the partisan effect
of the current map. See infra Section V.A.2.d.
(addressing the problems with the incumbentprotection justification as applied to this case).
b. Rebuttal to Dr. Niven
Defendants also offered Dr. Thornton to rebut some
of Dr. Niven’s findings. According to Dr. Thornton, she
performed analyses similar to Dr. Niven’s but reached
different results.607 First, her “attempt to replicate Dr.
Niven’s finding [on the political orientation of census
tracts left intact versus those which were split]
result[ed] in an estimate that 50.48% of census tracts
left intact are Republican in contrast to 48.18% among
those that were split under the current plan” using the
same election data as Dr. Niven.608 The corresponding
numbers from Dr. Niven were 52.14% (or 0.5214) and
49.25% (or 0.4925).609 Dr. Thornton further critiques
Dr. Niven’s failure to perform the same calculations for
the prior plan, which according to Dr. Thornton shows
“a 0.4% increase in the percentage Republican among
census tracts left intact” between the 2002 plan and the
2012 plan “and a 2.4% decrease in the percentage
Republican among census tracts that were split

607

See Trial Ex. D8 (Thornton Rep. at 26–27); Dkt. 246 (Thornton
Trial Test. at 116–17).
608

Trial Ex. D8 (Thornton Rep. at 26).

609

See Trial Ex. P524 (Niven Rep. at 6).

App. 155
between the two plans . . . .”610 Second, Dr. Thornton
“prepared correlation statistics to determine if the
splitting of a census tract is correlated with the
percentage Republican” using the same election data as
Dr. Niven.611 She concludes that “split census tracts
are, statistically speaking, not correlated with the
percentage Republican in the census tract as measured
by Dr. Niven under either the prior plan or the current
plan.”612 At trial, Dr. Thornton further testified that
“there is no statistically significant difference in the
proportion Republican and whether or not a census
tract is split.”613
As an initial matter on this issue, we credit Dr.
Niven’s census tract analysis for a limited purpose. See
supra Section II.C.3. Debates about the strength of
various correlations aside, each expert’s calculations
are close to 50%, and both experts agree that split
census tracts lean slightly Democratic. Moreover, Dr.
Thornton’s analysis is not entirely clear—she measured
whether “the splitting of a census tract is correlated
with the percentage Republican . . . .”614 Dr. Niven, on
the other hand, seems to have tested the statistical

610

Trial Ex. D8 (Thornton Rep. at 26).

611

Id.

612

Id.; see also id. at 27 & n.38 (noting that the correlation
coefficient of the current plan is -0.02429, with a probability of
occurring by chance of 18.77%).
613

Dkt. 246 (Thornton Trial Test. at 116).

614

Trial Ex. D8 (Thornton Rep. at 26).

App. 156
significance of the difference between census tracts
that were left intact (which lean Republican) and those
that were split (which lean Democratic).615 An analysis
of this differential treatment between Republican and
Democratic voters seems to be absent from Dr.
Thornton’s report.
3. Dr. Thomas Brunell
Dr. Thomas Brunell testified at trial for the
Intervenors as an expert witness. Dr. Brunell is a
tenured professor of political science at the University
of Texas at Dallas.616 He received his bachelor’s,
master’s, and doctorate, all in political science, from
the University of California, Irvine.617 Dr. Brunell
teaches classes on Congress, political parties and
interest groups, campaigns and elections, redistricting,
and statistics, among others.618 He has published books
and articles in peer-reviewed journals on redistricting,
elections, issues of representation in government, and
party polarization.619 Dr. Brunell has served as an
expert witness in several other redistricting and VRA
cases.620 This Court qualified Dr. Brunell as an expert
615

See Trial Ex. P524 (Niven Rep. at 6).

616

Trial Ex. I-060 (Brunell CV).

617

Id.

618

Id.; Dkt. 246 (Brunell Trial Test. at 188–89).

619

Trial Ex. I-060 (Brunell CV); Dkt. 246 (Brunell Trial Test. at
189–91).
620

Dkt. 246 (Brunell Trial Test. at 192).

App. 157
in the fields of redistricting, elections, the VRA and
representation, and statistics.621
Dr. Brunell’s report and testimony is offered to
rebut Plaintiffs’ experts Dr. Cho, Dr. Warshaw, Dr.
Niven, Dr. Handley, and Mr. Cooper.
a. Rebuttal to Dr. Cho
Dr. Brunell questions whether Dr. Cho’s simulated
maps “serve as a good basis for comparison to the
actual map.”622 For various reasons, Dr. Brunell opines
that Dr. Cho’s maps cannot serve as a good comparison
to the current map. He asserts that “all of Professor
Cho’s maps would likely be tossed” because they do not
perfectly equalize population.623 For the reasons we
explained earlier, see supra Section II.C.2., we do not
find this critique persuasive. In brief, Dr. Cho’s 1%
population deviation does not alter or undermine her

621

Id. at 192–93. Plaintiffs filed a Daubert motion to exclude Dr.
Brunell. Plaintiffs argue his methodology renders his opinions
unreliable, but Plaintiffs do not object to his qualifications. See id.;
Dkt. 153, 153-1 (Pls.’ Mot. to Exclude Brunell). We deny Plaintiffs
motion, but at the same time, we do not give much weight to Dr.
Brunell’s report and testimony and find portions of it unhelpful, as
explained below. In brief, much of his report suffers from a scarcity
of explanation. The Court notes that Dr. Brunell offered a few new
and previously undisclosed expert opinions at trial. To the extent
that Dr. Brunell offered expert opinions on topics about which he
was previously made aware but failed to include in his report, we
exclude such testimony because it was neither substantially
justified nor harmless. See FED. R. CIV. P. 26(a)(2)(B)(i); 37(c)(1).
622

Dkt. 246 (Brunell Trial Test. at 194).

623

Trial Ex. I-060 (Brunell Rep. at 2).

App. 158
analysis of partisan outcomes. We further note this
criticism, along with others, offered by Dr. Brunell
seems to miss the point of Dr. Cho’s simulated maps.624
Dr. Cho’s simulated maps are not offered as examples
of maps that should be enacted by the State per se;
rather, the simulated maps provide a baseline to
compare the partisan outcomes between the current
map and maps that incorporate only neutral criteria.
Moreover, Dr. Brunell critiques Dr. Cho’s failure to
consider incumbent protection, and he testified that
protecting incumbents is “automatically going to make
all of her districts different from . . . one of the main
stated goals by the legislature here in Ohio.”625 We
address this point in the context of evaluating the proof
of partisan effect and considering Defendants’
justifications for the map, see infra Section V.A.2.d.
(addressing the problems with the incumbentprotection justification as applied to this case), and we
observe again that Representative Huffman described

624

For example, Dr. Brunell criticizes Dr. Cho for not turning over
any shape files that would visually display some of her maps. Id.
(“It is . . . highly unlikely that any of them would be considered by
the legislature.”); Dkt. 246 (Brunell Trial Test. at 197). Although
it is true that Dr. Cho did not turn over “shape files,” we credit Dr.
Cho’s report and testimony and find that her simulated maps serve
their purpose as maps that incorporate only neutral criteria in
order to assess expected partisan outcomes based on, for example,
political geography.
625

Dkt. 246 (Brunell Trial Test. at 196–97).

App. 159
incumbent protection as “subservient” to other criteria
in the process of creating H.B. 319.626
Dr. Brunell incorrectly reads Dr. Cho’s histograms
to “suggest[] that there are just a handful of different
maps in Prof. Cho’s exercises, each with hundreds of
thousands of repetitions.”627 Dr. Cho responds in her
rebuttal report that Dr. Brunell’s inference is
unsupported by the data provided: “none of these
histograms can suggest anything about how many
different maps are represented since two drastically
different maps can have the same metrics. . . . The
number of bars in the histograms has no relationship
with the similarity of the maps.”628 Accordingly, we
reject this critique by Dr. Brunell.

626

See Trial Ex. J01 (Ohio House Session, Sept. 15, 2011 at 19)
(statement of Rep. Huffman). Dr. Brunell also criticizes Dr. Cho for
failing to consider preserving the core of prior districts in her
simulated maps. Trial Ex. I-060 (Brunell Rep. at 11); Dkt. 246
(Brunell Trial Test. at 204). But he also testified that this criterion
is “part of protecting incumbents at one level,” and he agreed that
this criterion could appear as improperly partisan “since the
Republicans were advantaged ahead of time or they had more
seats before the last round of redistricting . . . then that would
carry through . . . to the next round of redistricting.” Dkt. 246
(Brunell Trial Test. at 205).
627

Trial Ex. I-060 (Brunell Rep. at 5); see also id. at 4 (lodging the
same critique at the fact that Dr. Cho’s simulated maps produced
three concentrated percentages of BVAPs, and concluding that “at
least for this variable, there are really slight variations on three
different districts”).
628

Trial Ex. P088 (Cho Rebuttal Rep. at 14–15).

App. 160
Next, Dr. Brunell disagrees with Dr. Cho’s
conclusion that the current map is not responsive to
voters. Instead, he “would characterize Prof. Cho [sic]
simulated maps as hyper-responsive.”629 He further
offered his normative view that responsiveness is not
necessarily a positive feature of a map because
“[m]assive volatility in the seat shares of the two
parties is probably not conducive to good public
policy.”630 As a basis for his conclusions on
responsiveness, Dr. Brunell partly relied on “an old
article by Edward Tufte, who was one of the first
people to . . . talk about these two metrics of swing
ratio and bias” (which are related to responsiveness).631
In fact, the article is from the early 1970s, and the data
provided are for Great Britain, New Zealand, the
United States generally, Michigan, New Jersey, and
New York.632 Importantly, much of the data precede the
one-person, one-vote cases decided in the early-to-mid1960s—an era in which districts were malapportioned.
Tufte also used a linear fit of the data, not a seats-votes
curve like Dr. Cho, which is a different model with
different underlying assumptions.633 Because Dr.
Brunell’s critique is based in on an inapt comparison,
we give it little to no weight.

629

Trial Ex. I-060 (Brunell Rep. at 7).

630

Id.

631

Dkt. 246 (Brunell Trial Test. at 218).

632

Trial Ex. I-060 (Brunell Rep. at 9, tbl. 1).

633

Trial Ex. P088 (Cho Rebuttal Rep. at 15).

App. 161
Lastly, Dr. Brunell misunderstands the point of Dr.
Cho’s individual Plaintiff-specific analyses. He takes
issue with the fact that, because some Plaintiffs end up
in the same district under Dr. Cho’s simulated maps,
“we cannot know what the partisanship of all 16 of the
districts looks like” in the simulated maps.634 As Dr.
Cho responds, this specific analysis “was never
intended for this purpose, and [she] never suggested
that the plaintiff data could be or should be used in this
way.”635 We agree. Dr. Cho’s Plaintiff-specific analysis
provides a comparison between each Plaintiff’s current
district and each Plaintiff’s set of simulated districts,
and this analysis is thus some evidence of whether
Plaintiffs currently live in a packed or cracked district.
The Plaintiff-specific analysis is just that, Plaintiffspecific; it does not compare the current map as a
whole to the set of simulated maps as a whole. Dr. Cho
has made such a comparison in a separate analysis.
b. Rebuttal to Dr. Warshaw
Dr. Brunell’s critique of Dr. Warshaw’s metrics
focuses only on the efficiency gap. First, Dr. Brunell
points out supposed issues with using actual
congressional elections to calculate the efficiency gap,
including uncontested elections and the variability of
candidates.636 Dr. Warshaw acknowledges some
drawbacks in his report, but he also explains that “[i]n
practice, . . . both legislative races and other statewide
634

Id. at 9; see also id. at 9–11.

635

Trial Ex. P088 (Cho Rebuttal Rep. at 5).

636

Trial Ex. I-060 (Brunell Rep. at 12–13).

App. 162
races produce similar efficiency gap results for modern
elections where voters are well sorted by party and
ideology.”637 We do not find unreasonable Dr.
Warshaw’s use of actual congressional election results
to calculate the efficiency gap in congressional
elections.638 Second, Dr. Brunell quibbles with the
efficiency gap’s definition of wasted votes, stating that
“[i]t is not clear why all votes for the winning candidate
greater than the total number of votes for the losing
candidate are not classified as wasted.”639 Dr.
Warshaw, however, explains in his rebuttal the logic
behind the definition of wasted votes, a term of art in
the context of the efficiency gap—only “50%+1 of the
total votes, rather than 1 more vote than the losing
candidate’s current vote tally, are needed to win a
counter-factual election” and therefore the efficiency
gaps considers wasted votes for the winning candidate
beyond that 50%+1.640 Dr. Brunell’s critique does not
thread the needle, telling us why the generallyaccepted definition of wasted votes from the efficiency
gap literature poses a problem for measuring the

637

Trial Ex. P571 (Warshaw Rep. at 6–7 n.5).

638

Indeed, as Dr. Warshaw testified at trial, although he used
congressional election results, other election results would “yield
very similar answers . . . [b]ecause the voters are cleanly sorted
into parties and they typically vote the same way for different
offices, the correlation between congressional election results and
presidential election results is about .9.” Dkt. 241 (Warshaw Trial
Test. at 34).
639

Trial Ex. I-060 (Brunell Rep. at 14).

640

Trial Ex. P572 (Warshaw Rebuttal Rep. at 5).

App. 163
extent of a partisan gerrymander. Accordingly, it does
not impact our view of the helpfulness of the efficiency
gap as a tool. Third, according to Dr. Brunell, “[i]t is
hard to say how much of a gap is too much. Is five too
much, or seven, or ten?”641 Furthermore, he criticizes
the metric’s variability across elections.642 While these
criticisms have some merit, they do not overcome Dr.
Warshaw’s use of other metrics and how Dr. Warshaw
holistically determines whether a map is a
gerrymander (e.g., a map must also be an outlier). See
supra Section II.C.1. Accordingly, we find that Dr.
Brunell does not undermine Dr. Warshaw’s conclusions
or the usefulness of the efficiency gap.
c. Rebuttal to Dr. Niven
The thrust of Dr. Brunell’s response to Dr. Niven is
that “when electoral boundaries are being drawn some
cities, counties, communities, neighborhoods have to be
divided” and “[t]he boundaries have to go somewhere
. . . .”643 Although that may be true as a general
proposition, it does not respond to Dr. Niven’s findings
that the divisions imposed by the current map are more
likely to be imposed on Democratic voters than
Republican voters. See supra Section II.C.3. Dr.
Brunell also comments on some conceptions of
communities of interest used by Dr. Niven, noting that
“[t]here is no clear definition of what constitutes a

641

Trial Ex. I-060 (Brunell Rep. at 14).

642

Id.

643

Id. at 16–17.

App. 164
community of interest, but cities and counties are
generally characterized as such[.]”644
d. Rebuttal to Dr. Handley
Dr. Brunell’s rebuttal to Dr. Handley does not
contain any criticisms. His report simply states: “It is
interesting to note that Dr. Handley recommended a
majority African American district of over 61 percent
BVAP in a recent lawsuit in Euclid, Ohio, which is in
Cuyahoga County . . . .”645 We find this statement
entirely unhelpful. That case addressed a non-partisan
election and required a different jurisdiction-specific
analysis, and Dr. Brunell agreed that to do a proper
assessment of racially polarized voting in this case
would require looking at partisan election outcomes.646
He also admitted that “[i]n the current District 11, [he]
think[s] that Dr. Handley’s advice of 45 percent [BVAP]
is correct . . . . That’s not for Cuyahoga County. That’s
for Congressional District 11.”647
e. Rebuttal to Mr. Cooper
Likewise, Dr. Brunell’s rebuttal to Mr. Cooper does
not contain any helpful critiques. He simply concludes
that “[i]t isn’t clear why the policy decisions of Mr.
Cooper are better for the citizens of Ohio than the

644

Id. at 16.

645

Id. at 18.

646

Dkt. 247 (Brunell Trial Test. at 94).

647

Id. at 95.

App. 165
combined policy preferences of the state legislature.”648
He also states that “[i]t is worth noting” that the
Proposed Remedial Plan pairs more incumbents.649 The
whole question in this case is not whether, in a
vacuum, Mr. Cooper’s maps are “better” than the 2012
map but whether the current map enacted by the State
in H.B. 369 is constitutional. If not, the Proposed
Remedial Plan is offered as a possible remedy to
replace an unconstitutional partisan gerrymander. We
therefore reject Dr. Brunell’s critiques of Mr. Cooper.
III. STANDING
Before turning to the merits of this case, we must
address two threshold issues. First, we address
Plaintiffs’ standing to bring these claims. That is, are
these the right Plaintiffs to bring these claims? Second,
in the next Part, we will turn to the justiciability of
partisan-gerrymandering claims. That is, are courts,
rather than another branch of government, the proper
forum to hear these claims?
To establish standing, Plaintiffs must show: (1) “an
injury in fact”; (2) “a causal connection between the
injury and the conduct complained of”; and (3) that it is
“likely . . . that the injury will be redressed by a
favorable decision.” Lujan v. Defs. of Wildlife, 504 U.S.
555, 560–61 (1992) (internal quotation marks omitted).
At least one “plaintiff must demonstrate standing for
each claim . . . press[ed] and for each form of relief that
is sought.” Davis v. Fed. Election Comm’n, 554 U.S.
648

Trial Ex. I-060 (Brunell Rep. at 19).

649

Id.

App. 166
724, 734 (2008); see also Town of Chester v. Laroe
Estates, Inc., 137 S. Ct. 1645, 1651 (2017). These
requirements ensure that plaintiffs who invoke a
federal court’s jurisdiction have “a personal stake in
the outcome of the controversy,” Baker v. Carr, 369
U.S. 186, 204 (1962), and that the federal court does
not become “a forum for generalized grievances . . . .”
Lance v. Coffman, 549 U.S. 437, 439 (2007).
For the reasons that follow, we conclude that each
individual Plaintiff and each organizational Plaintiff
has standing to bring their district-specific votedilution claims. We further conclude that the
individual Plaintiffs and organizational Plaintiffs have
standing to bring their statewide First Amendment
associational claim. Because Plaintiffs have standing
for their claims that H.B. 369 violates the First and
Fourteenth Amendments, they also have standing to
pursue their claim that H.B. 369 exceeds the State’s
powers under Article I. Before turning to these
standing analyses, we emphasize that just because
Plaintiffs have suffered an “injury in fact” for standing
purposes does not mean that they necessarily succeed
on the merits; in other words, showing “a personal
stake in the outcome of the controversy,” Baker, 369
U.S. at 204, does not guarantee an outcome in one’s
favor. Plaintiffs support with admissible evidence their
contentions that they have suffered an injury in fact;
for standing purposes, that is enough. We address fully
whether the evidence is sufficient to prove Plaintiffs’
claims in our discussion of the merits.

App. 167
A. Vote-Dilution Claims
To establish standing for their vote-dilution claims,
the individual Plaintiffs must each establish that they
live in an allegedly gerrymandered district just as in
the racial-gerrymandering context. See Gill v.
Whitford, 138 S. Ct. 1916, 1930 (2018) (“A plaintiff who
complains of gerrymandering, but who does not live in
a gerrymandered district, ‘assert[s] only a generalized
grievance against governmental conduct of which he or
she does not approve.’” (quoting United States v. Hays,
515 U.S. 737, 745 (1995))). In pursuing these claims,
we recognize that, as in other redistricting cases,
“[v]oters, of course, can present statewide evidence in
order to prove . . . gerrymandering in a particular
district.” Ala. Legislative Black Caucus v. Alabama,
135 S. Ct. 1257, 1265 (2015). Each individual Plaintiff
and district will be addressed in turn.
1. District 1: Linda Goldenhar
Linda Goldenhar has lived at her current address
and voted in District 1 for seventeen years.650
Goldenhar has voted in every congressional and
presidential election in Ohio since 1992, and in each of
these elections, she has voted for a Democratic
candidate.651 Representative Chabot, a Republican, has
represented District 1 since winning election in 1994,
except in 2008 when Representative Chabot lost to
Steve Driehaus; after that, Representative Chabot
defeated Representative Driehaus in 2010. Goldenhar
650

Dkt. 230-15 (Goldenhar Dep. at 7).

651

Id. at 11–13.

App. 168
thus lives in a district that allegedly cracks Democratic
voters, and she is a Democratic voter.
Admissible evidence supports Goldenhar’s
contention that District 1 is gerrymandered. Dr. Cho’s
analysis shows that “[a]mong the set of simulated
maps, 95.6% of them would have placed Plaintiff
Goldenhar in a district that would have provided a
higher likelihood of electing a Democrat.”652 Therefore,
Goldenhar’s district is more Republican than the vast
majority of the alternate, simulated, non-partisan
districts that she could live in, which indicates that her
district is cracked. Under the Proposed Remedial Plan,
Goldenhar would remain in District 1. The Proposed
Remedial Plan’s District 1 is more competitive than the
current District 1, and in 2018, a Democratic candidate
would have won District 1 with 57.2% of the vote.653
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Goldenhar
has standing for her vote-dilution claim.

652

653

Trial Ex. P087 (Cho Rep. at 13).

See Trial Ex. P598 (Cooper Third Suppl. Decl. at 4, fig. 2).
Figure 2 shows two competitive elections under the Proposed
Remedial Plan, both of which would be won by the Republican
candidate; one election in which a Democratic candidate would
receive 44.3% of the vote; and one election won by the Democratic
candidate with 57.2% of the vote. The 2012 plan, by contrast, has
one competitive election, in which the Democratic candidate
received 47.8% of the vote; the next closest election was in 2016, in
which the Democratic candidate received 40.7%.

App. 169
2. District 2: Douglas Burks
Douglas Burks has lived at his current address and
voted in District 2 since the enactment of the 2012
plan.654 Burks has voted in every election since the
enactment of the 2012 plan, and he has identified as a
Democrat since 1980.655 Representative Wenstrup, a
Republican, has represented District 2 since 2012.
Burks thus lives in a district that allegedly cracks
Democratic voters, and he is a Democratic voter.
Admissible evidence supports Burks’s contention
that District 2 is gerrymandered. Dr. Cho’s analysis
shows that “[a]mong the set of simulated maps, 99.87%
of them would have placed Plaintiff Burks in a district
that would have provided a higher likelihood of electing
a Democrat.”656 Therefore, Burks’s district is more
Republican than the vast majority of the alternate,
simulated, non-partisan districts that he could live in,
which indicates that his district is cracked. Under the
Proposed Remedial Plan, Burks would be placed in
District 1 (with Goldenhar, see supra), which is
considerably more competitive than the current
District 2.657

654

Dkt. 239 (Burks Trial Test. at 225).

655

See id.

656

Trial Ex. P087 (Cho Rep. at 14).

657

See Trial Ex. P598 (Cooper Third Suppl. Decl. at 4, fig. 2).

App. 170
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Burks has
standing for his vote-dilution claim.
3. District 3: Sarah Inskeep
Sarah Inskeep has lived at her current address and
voted in District 3 since 2016.658 Prior to that, Inskeep
lived in Cincinnati, where she grew up and attended
college.659 Inskeep is a Democratic voter.660
Representative Joyce Beatty, a Democratic
Congresswoman, has represented District 3 since 2012.
Inskeep thus lives in a district that allegedly packs
Democratic voters, and she is a Democratic voter.
Admissible evidence supports Inskeep’s contention
that District 3 is gerrymandered. Dr. Cho’s analysis
shows that “[a]mong the set of simulated maps, none of
them would have placed Plaintiff Inskeep in a district
that would have provided a higher likelihood of electing
a Democrat.”661 Therefore, Inskeep’s district is more
Democratic than all the alternate, simulated, nonpartisan districts that she could live in, which indicates
that her district is packed. Under the Proposed
Remedial Plan, Inskeep would remain in District 3.
The Proposed Remedial Plan’s District 3, though still
safely Democratic, produces a Democratic vote share

658

See Dkt. 230-21 (Inskeep Dep. at 6–7, 28–29).

659

Id. at 7–8.

660

Id. at 53–54.

661

Trial Ex. P087 (Cho Rep. at 15).

App. 171
ranging from 58.2% in 2014 to 68.3% in 2018, compared
to the 63.6% (2014) to 73.6% (2018) under the current
map.662
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Inskeep
has standing for her vote-dilution claim.
4. District 4: Cynthia Libster
Cynthia Libster has lived at her current address
and voted in District 4 for almost thirty years.663
Libster is a lifelong Democratic voter.664 Representative
Jordan, a Republican, has represented District 4 since
winning election in 2006. Libster thus lives in a district
that allegedly cracks Democratic voters, and she is a
Democratic voter.
Admissible evidence supports Libster’s contention
that District 4 is gerrymandered. Dr. Cho’s analysis
shows that “[a]mong the set of simulated maps, 98.25%
of them would have placed Plaintiff Libster in a district
that would have provided a higher likelihood of electing
a Democrat.”665 Therefore, Libster’s district is more
Republican than the vast majority of alternate,

662

Trial Ex. P598 (Cooper Third Suppl. Decl. at 4, fig. 2). Figure 2
shows that, under the current plan, the Democratic vote share
exceeds 70% in 2012 and 2018. Under the Proposed Remedial Plan,
these percentages are 66.9% for 2012 and 68.3% for 2018.
663

See Dkt. 230-30 (Libster Dep. at 9–10).

664

Id. at 54–55.

665

Trial Ex. P087 (Cho Rep. at 16).

App. 172
simulated, non-partisan districts that she could live in,
which indicates that her district is cracked.
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Libster has
standing for her vote-dilution claim.
5. District 5: Kathryn Deitsch
Kathryn Deitsch has lived in District 5 since
2013.666 Deitsch has affiliated with the Democratic
Party since she “was first able to vote.”667
Representative Latta, a Republican, has represented
District 5 since before the enactment of the current
plan. Deitsch thus lives in a district that allegedly
cracks Democratic voters, and she is a Democratic
voter.
Admissible evidence supports Deitsch’s contention
that District 5 is gerrymandered. Dr. Cho’s analysis
shows that “[a]mong the set of simulated maps, 95.45%
of them would have placed Plaintiff Deitsch in a
district that would have provided a higher likelihood of
electing a Democrat.”668 Therefore, Deitsch’s district is
more Republican than the vast majority of alternate,
simulated, non-partisan districts that she could live in,
which indicates that her district is cracked.

666

See Dkt. 230-11 (Deitsch Dep. at 14).

667

Id. at 19.

668

Trial Ex. P087 (Cho Rep. at 17).

App. 173
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Deitsch has
standing for her vote-dilution claim.
6. District 6: LuAnn Boothe
LuAnn Boothe has lived at her current address for
thirty-four years and voted in District 6 throughout the
entirety of the current plan.669 Boothe has always been
a Democratic voter.670 Representative Johnson, a
Republican, has represented District 6 since 2011, after
defeating then-incumbent Representative Wilson (a
Democratic Congressman) in 2010. Boothe thus lives in
a district that allegedly cracks Democratic voters, and
she is a Democratic voter.
Admissible evidence supports Boothe’s contention
that District 6 is gerrymandered. Dr. Cho’s analysis
shows that “[a]mong the set of simulated maps, 100%
of them would have placed Plaintiff Boothe in a district
that would have provided a higher likelihood of electing
a Democrat.”671 Therefore, Boothe’s district is more
Republican than all the alternate, simulated, nonpartisan districts that she could live in, which indicates
that her district is cracked.

669

Dkt. 230-6 (Boothe Dep. at 7–8).

670

Id. at 21. Boothe voted for a Republican once, but she “learned
her lesson” and doesn’t “think [she] would ever do it again. It
would have to be an extreme circumstance . . . .” Id. at 49, 90.
671

Trial Ex. P087 (Cho Rep. at 18).

App. 174
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Boothe has
standing for her vote-dilution claim.
7. District 7: Mark Griffiths
Mark Griffiths has lived at his current address for
almost sixteen years and has voted in District 7 since
the enactment of the 2012 plan.672 Griffiths is a
registered Democrat and has always voted for the
Democratic candidate for Congress.673 Representative
Gibbs, a Republican, began representing District 7
when the current plan was enacted.674 Griffiths was
previously represented by then-Congresswoman Betty
Sutton and, prior to that, then-Congressman Sherrod
Brown, both Democrats. Griffiths thus lives in a
district that allegedly cracks Democratic voters, and he
is a Democratic voter.
Admissible evidence supports Griffiths’s contention
that District 7 is gerrymandered. Dr. Cho’s analysis
shows that “[a]mong the set of simulated maps, 100%
of them would have placed Plaintiff Griffiths in a
district that would have provided a higher likelihood of

672

Dkt. 240 (Griffiths Trial Test. at 40).

673

Id. at 40–42. Griffiths voted Republican once, in the 2016
Senate race. Id. at 41–42.
674

Id. at 40. The Court takes judicial notice of the fact that
Representative Gibbs previously served in Congress for District 18,
which was eliminated due to Ohio losing two seats in Congress
after the 2010 census. FED. R. EVID. 201.

App. 175
electing a Democrat.”675 Therefore, Griffiths’s district is
more Republican than all the alternate, simulated,
non-partisan districts that he could live in, which
indicates that his district is cracked. Under the
Proposed Remedial Plan, Griffiths would be placed in
District 9, a competitive district that would have
elected a Democratic candidate in 2012 and 2018 and
a Republican candidate in 2014 and 2016.676
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Griffiths
has standing for his vote-dilution claim.
8. District 8: Lawrence Nadler
Lawrence Nadler has lived at his current address,
located in District 8, for twenty-six years.677 Nadler
affiliates with the Democratic Party and votes for
Democratic candidates.678 Representative Davidson, a
Republican, has represented District 8 since 2016 after
then-Speaker of the U.S. House of Representatives
John Boehner resigned his seat. Nadler thus lives in a
district that allegedly cracks Democratic voters, and he
is a Democratic voter.
Admissible evidence supports Nadler’s contention
that District 8 is gerrymandered. Dr. Cho’s analysis
shows that “[a]mong the set of simulated maps, 100%
675

Trial Ex. P087 (Cho Rep. at 19).

676

See Trial Ex. P598 (Cooper Third Suppl. Decl. at 4, fig. 2).

677

Dkt. 230-36 (Nadler Dep. at 6–7).

678

Id. at 8.

App. 176
of them would have placed Plaintiff Nadler in a district
that would have provided a higher likelihood of electing
a Democrat.”679 Therefore, Nadler’s district is more
Republican than all the alternate, simulated, nonpartisan districts that he could live in, which indicates
that his district is cracked.
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Nadler has
standing for his vote-dilution claim.
9. District 9: Tristan Rader and Chitra Walker
First, Tristan Rader has lived at his address since
October 2013 and, after moving to his current address,
has voted in District 9 in every election.680 Rader
generally votes for Democratic candidates and he has
been involved in several Democratic campaigns.681
Representative Kaptur, a Democratic Congresswoman,
has represented District 9 since the current plan was
enacted and she was first elected to Congress in 1982.
At the time of the 2012 plan’s enactment,
Representative Kaptur was Ohio’s longest-serving
member of Congress. Rader thus lives in a district that
allegedly packs Democratic voters, and he is a
Democratic voter.
Admissible evidence supports Rader’s contention
that District 9 is gerrymandered. Dr. Cho’s analysis

679

Trial Ex. P087 (Cho Rep. at 20).

680

Dkt. 230-40 (Rader Dep. at 8–9, 13)

681

Id. at 18; see also, e.g., id. at 29–30.

App. 177
shows that “[a]mong the set of simulated maps, 13.55%
of them would have placed Plaintiff Rader in a district
that would have provided a higher likelihood of electing
a Democrat.”682 Therefore, Rader’s district is more
Democratic than the vast majority of the alternate,
simulated, non-partisan districts that he could live in,
which indicates that his district is packed. Under the
Proposed Remedial Plan, Rader would be placed in the
new District 9 (with Griffiths, see supra).
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Rader has
standing for his vote-dilution claim.
Second, Chitra Walker also lives in District 9 and
has lived at a few addresses throughout the district
since 2008.683 Walker is a Democratic voter.684 Walker
thus lives in a district that allegedly packs Democratic
voters, and she is a Democratic voter.
Admissible evidence supports Walker’s contention
that District 9 is gerrymandered. Dr. Cho’s analysis
shows that “[a]mong the set of simulated maps, 15.91%
of them would have placed Plaintiff Walker in a district
that would have provided a higher likelihood of electing
a Democrat.”685 Therefore, Walker’s district is more
Democratic than the vast majority of the alternate,

682

Trial Ex. P087 (Cho Rep. at 22).

683

Dkt. 230-50 (Walker Dep. at 8–9).

684

Id. at 11, 28.

685

Trial Ex. P087 (Cho Rep. at 21).

App. 178
simulated, non-partisan districts that she could live in,
which indicates that her district is packed. Under the
Proposed Remedial Plan, Walker would also be placed
in the new District 9 (with Rader and Griffiths, see
supra).
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Walker has
standing for her vote-dilution claim.
10.

District 10: Ria Megnin

Ria Megnin has lived at her current address and
voted in District 10 since 2012.686 Megnin is affiliated
with the Democratic Party and votes for Democratic
candidates.687 Representative Turner, a Republican,
has represented District 10 since the enactment of the
current plan and has served in Congress for sixteen
years. Megnin thus lives in a district that allegedly
cracks Democratic voters, and she is a Democratic
voter.
Admissible evidence supports Megnin’s contention
that District 10 is gerrymandered. Dr. Cho’s analysis
shows that “[a]mong the set of simulated maps, 99.75%
of them would have placed Plaintiff Megnin in a
district that would have provided a higher likelihood of
electing a Democrat.”688 Therefore, Megnin’s district is
more Republican than almost all of the alternate,

686

Dkt. 230-32 (Megnin Dep. at 9, 13).

687

Id. at 68, 71–72.

688

Trial Ex. P087 (Cho Rep. at 23).

App. 179
simulated, non-partisan districts that she could live in,
which indicates that her district is cracked.
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Megnin has
standing for her vote-dilution claim.
11.

District 11: Andrew Harris

Andrew Harris has lived in what is now District 11
since 1997 and been voting since he turned eighteen
years old in 2008.689 Harris is a registered Democratic
voter and always votes for Democratic candidates.690
Representative Fudge, a Democratic Congresswoman,
represents District 11 and has served in Congress since
2008. Harris thus lives in a district that allegedly
packs Democratic voters, and he is a Democratic voter.
Admissible evidence supports Harris’s contention
that District 11 is gerrymandered. Dr. Cho’s analysis
shows that “[a]mong the set of simulated maps, none of
them would have placed Plaintiff Harris in a district
that would have provided a higher likelihood of electing
a Democrat.”691 Therefore, Harris’s district is more
Democratic than all of the alternate, simulated, nonpartisan districts that he could live in, which indicates
that his district is packed.

689

Dkt. 230-17 (Harris Dep. at 7–8, 10).

690

Id. at 10.

691

Trial Ex. P087 (Cho Rep. at 24).

App. 180
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Harris has
standing for his vote-dilution claim.
12.

District 12: Aaron Dagres

Aaron Dagres has lived at his current address and
voted in District 12 for about eight years.692 Dagres is
a registered Democratic voter and has always voted for
Democratic candidates, except in a 2012 presidential
primary that was not contested on the Democratic
side.693 Representative Balderson, a Republican, first
won election in a 2018 special election and then went
on to win the general election; Representative
Balderson replaced Representative Tiberi (also a
Republican), an incumbent at the time of the current
plan’s enactment. Dagres thus lives in a district that
allegedly cracks Democratic voters, and he is a
Democratic voter.
Admissible evidence supports Dagres’s contention
that District 12 is gerrymandered. Dr. Cho’s analysis
shows that “[a]mong the set of simulated maps, 100%
of them would have placed Plaintiff Dagres in a district
that would have provided a higher likelihood of electing
a Democrat.”694 Therefore, Dagres’s district is more
Republican than all the alternate, simulated, nonpartisan districts that he could live in, which indicates
that his district is cracked. Under the Proposed

692

Dkt. 240 (Dagres Trial Test. at 84–85).

693

Id. at 85.

694

Trial Ex. P087 (Cho Rep. at 25).

App. 181
Remedial Plan, Dagres would be placed in a new
District 12, which mostly remains a safe-Republican
district, but Democratic candidates would receive a
higher vote share.695 In 2018, the Democratic candidate
would have won remedial District 12.696
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Dagres has
standing for his vote-dilution claim.
13.

District 13: Elizabeth Myer

Elizabeth Myer has lived at her current address,
located in the current District 13, for over twenty
years.697 Myer is a registered Democratic voter and
votes for Democratic candidates.698 Representative
Ryan, a Democratic Congressman, has represented
District 13 since the current plan’s enactment and he
was an incumbent at that time. Myer thus lives in a
district that allegedly packs Democratic voters, and she
is a Democratic voter.
Admissible evidence supports Myer’s contention
that District 13 is gerrymandered. Dr. Cho’s analysis
shows that “[a]mong the set of simulated maps, none of
them would have placed Plaintiff Myer in a district
that would have provided a higher likelihood of electing

695

See Trial Ex. P598 (Cooper Third Suppl. Decl. at 4, fig. 2).

696

See id.

697

Dkt. 240 (Myer Trial Test. at 112–13).

698

Id. at 115.

App. 182
a Democrat.”699 Therefore, Myer’s district is more
Democratic than all the alternate, simulated, nonpartisan districts that she could live in, which indicates
that her district is packed. Under the Proposed
Remedial Plan, Myer would be placed in a new District
13, a Democratic-leaning but fairly competitive
district.700 The remedial District 13 would have
consistently elected a Democratic candidate from 2012
to 2018, but the Democratic vote share is lower, and
the 2016 (54.2% Democratic vote share) and 2018
(51.4% Democratic vote share) would have been
competitive.701
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Myer has
standing for her vote-dilution claim.
14.

District 14: Beth Hutton

Beth Hutton has lived at her current address,
located in District 14, for over thirty years.702 Hutton
has voted in almost every single U.S. congressional
race since 1972.703 She always votes in the Democratic
primaries and typically votes for Democratic
candidates at the federal level, with the exception of
699

Trial Ex. P087 (Cho Rep. at 26).

700

See Trial Ex. P598 (Cooper Third Suppl. Decl. at 4, fig. 2).

701

See id. No elections in this district under the current plan were
competitive.
702

Dkt. 230-20 (Hutton Dep. at 8–10).

703

Id. at 12.

App. 183
voting for Representative Steve LaTourette (a
Republican) the first time he ran.704 Representative
Joyce, a Republican, began representing District 14 in
2013 after Representative LaTourette retired. Hutton
thus lives in a district that allegedly cracks Democratic
voters, and she is a Democratic voter.
Admissible evidence supports Hutton’s contention
that District 14 is gerrymandered. Dr. Cho’s analysis
shows that “[a]mong the set of simulated maps, 100%
of them would have placed Plaintiff Hutton in a district
that would have provided a higher likelihood of electing
a Democrat.”705 Therefore, Hutton’s district is more
Republican than all the alternate, simulated, nonpartisan districts that she could live in, which indicates
that her district is packed. Under the Proposed
Remedial Plan, Hutton would be placed in District 13
(with Myer, see supra).
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Hutton has
standing for her vote-dilution claim.
15.

District 15: Theresa Thobaben

Teresa Thobaben has lived at her current address,
located in District 15, for thirty-seven years.706
Thobaben has voted in every congressional election

704

Id. at 12–16.

705

Trial Ex. P087 (Cho Rep. at 27).

706

Dkt. 220-48 (Thobaben Dep. at 8–9).

App. 184
that she can recall since her first election in 1972.707
Thobaben has always considered herself a Democrat
and consistently voted for Democratic candidates.708
Representative Stivers, a Republican, has represented
District 15 since 2010 after defeating then-incumbent
Democratic Representative Mary Jo Kilroy (in the
former District 15). Thobaben thus lives in a district
that allegedly cracks Democratic voters, and she is a
Democratic voter.
Admissible evidence supports Thobaben’s
contention that District 15 is gerrymandered. Dr. Cho’s
analysis shows that “[a]mong the set of simulated
maps, 79.28% of them would have placed Plaintiff
Thobaben in a district that would have provided a
higher likelihood of electing a Democrat.”709 Therefore,
Thobaben’s district is more Republican than the vast
majority of alternate, simulated, non-partisan districts
that she could live in, which indicates that her district
is packed.
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Thobaben
has standing for her vote-dilution claim.

707

Id. at 9–11.

708

Id. at 11.

709

Trial Ex. P087 (Cho Rep. at 28).

App. 185
16.

District 16: Constance Rubin

Constance Rubin has lived at and voted in District
16 for the past eight years.710 Rubin has been a
Democratic voter since at least 1984, though she
formerly voted Republican when she first registered to
vote in 1973.711 Now former-Representative Jim
Renacci, a Republican, had represented District 16
since 2011 after beating then-Democratic incumbent
Congressman John Boccieri in the 2010 election; in
January 2019, Representative Anthony Gonzalez, a
Republican, began serving as the Congressman for
District 16.712 Rubin thus lives in a district that
allegedly cracks Democratic voters, and she is a
Democratic voter.
Admissible evidence supports Rubin’s contention
that District 16 is gerrymandered. Dr. Cho’s analysis
shows that “[a]mong the set of simulated maps, 100%
of them would have placed Plaintiff Rubin in a district
that would have provided a higher likelihood of electing
a Democrat.”713 Therefore, Rubin’s district is more
Republican than all alternate, simulated, non-partisan

710

Dkt. 230-42 (Rubin Dep. at 7–8).

711

Id. at 16, 23–24. Rubin says that it is “[h]ighly doubtful” that
she would vote for a Republican again, id. at 24–25, and Rubin has
been a member of the Stark County Democratic Party since 1984
and served on its Central Committee from 2004 to 2010, id. at 16.
712

The Court takes judicial notice of this fact. FED. R. EVID. 201.

713

Trial Ex. P087 (Cho Rep. at 29).

App. 186
districts that she could live in, which indicates that her
district is packed.
For these reasons, and for the reasons below that
apply to all Plaintiffs, we find that Plaintiff Rubin has
standing for her vote-dilution claim.
17.

Statewide Evidence of Injury in Fact and
Causation

Statewide evidence bolsters each individual
Plaintiff’s contention that the current map was drawn
with the predominant purpose of packing or cracking
Democratic voters in each district and had that effect.
As explained above, Dr. Warshaw employed four
partisan-bias metrics to measure the partisan
advantage of the current plan: the efficiency gap, the
mean-median gap, two partisan symmetry metrics, and
declination.714 Based on his analysis of these measures,
Dr. Warshaw concluded that “Democratic voters in
Ohio are efficiently packed and cracked across
districts. . . . As a result, Ohio’s elections are
unresponsive to normal shifts in voters’ preferences
within the historical range of congressional election
results in Ohio.”715 Notably, these effects align with the
map drawers’ own statements that “it is a tall order to
draw 13 ‘safe’ seats,” and their thoughts that “this map
is the one [that] put the most number of seats in the
safety zone given the political geography of [Ohio]

714

See Trial Ex. P571 (Warshaw Rep. at 5–13).

715

Id. at 4.

App. 187
. . . .”716 That is, the map efficiently packs and cracks
each and every district in an effort to favor Republican
candidates to the fullest and most durable extent
possible.
The individual Plaintiffs present other evidence of
causation as well. Dr. Cho’s analysis shows that
although “a 12-4 seat share [the outcome of every
election under the 2012 plan] is possible, . . . it is
unusual given a map creation process that does not
consider partisanship.”717 In her initial report, Dr.
Cho’s maps were based on 2008 and 2010 election data,
which showed that “none of [her simulated maps] had
the same 12-4 seat share as in the challenged map.”718
In her supplemental report, in which Dr. Cho uses the
2018 election data, only 0.046% of the over 3-million
simulated maps (i.e., 1,445 out of 3,037,645) produce
the same 12-4 seat share.719 Moreover, Mr. Cooper’s
Proposed Remedial Plan splits fewer counties and
adheres to traditional redistricting principles (“oneperson-one-vote, incumbent non-pairing where
possible, compactness, contiguity, the non-dilution of
minority voting strength, and respect for communities

716

See Trial Ex. P385 (Congressional Redistricting Talking Points
at LWVOH_0052438).
717

Trial Ex. P087 (Cho Rep. at 40).

718

Id. (emphasis added); see also id. at 33–37 (analyzing
competitiveness and concluding that the simulated maps are more
competitive than the current map, thus providing evidence that
the current map packs and cracks voters).
719

Trial Ex. P426 (Cho Suppl. Rep. at 3).

App. 188
of interest”).720 Dr. Warshaw bolsters these findings by
comparing the partisan-bias metrics from elections
under the current plan to those under historical
elections and concluding that the current plan’s
partisan bias is extreme.721 The alternative maps (both
the simulations and Mr. Cooper’s maps) and Ohio’s
own historical maps thus provide baselines against
which to measure the extremity of this map’s partisan
bias; collectively, this evidence establishes causation
for standing purposes.
18.

Redressability

Plaintiffs request injunctive relief that prohibits the
State from conducting future elections under the
current map. They further request that a nongerrymandered map be implemented in its place.
Clearly, the Court can enjoin future use of the 2012
map. Further, it is possible to enact a nongerrymandered map for the upcoming election. The
Proposed Remedial Plan offers just one possible
example of such a non-gerrymandered map that could

720

See trial Ex. P090 (Cooper Decl. at 11, 14–18); see also Trial Ex.
P092 (Cooper Suppl. Decl.) (providing hypothetical maps that pair
the same number of incumbents and in the same configuration (a
Republican pairing, a Democratic pairing, and a Democratic
candidate versus a Republican candidate) as the 2012 plan but are
similar in demographic and partisan measures to the Proposed
Remedial Plan).

721

See Trial Ex. P571 (Warshaw Rep. at 21–27); Trial Ex. P476
(Warshaw 2018 Update at 6–8).

App. 189
replace the current map.722 Dr. Warshaw concludes
that, using the same partisan-bias metrics that he used
to analyze the current map, “the remedial plan . . .
displays very low levels of partisan bias and high levels
of responsiveness. Thus, [Dr. Warshaw] believe[s] that
the remedial plan would improve the representational
link between voters and Ohio’s members of
Congress.”723 In other words, the Proposed Remedial
Plan is one example of a map that unpacks and
uncracks Plaintiffs, permitting their votes to carry
more weight and thereby remedying the injury caused
by the 2012 map. See Gill, 138 S. Ct. at 1931. Dr. Cho’s
simulations also show that, for each individual
Plaintiff, many possible districts exist in which
Plaintiffs’ votes would carry more weight because the
districts are neither packed nor cracked.724 Thus,
Plaintiffs’ injuries are redressable.
19.

Organizational Plaintiffs

“An association has standing to bring suit on behalf
of its members when its members would otherwise
have standing to sue in their own right, the interests at
stake are germane to the organization’s purpose, and
neither the claim asserted nor the relief requested

722

See Trial Ex. P091 (Cooper Errata at 2, fig. 1).

723

Trial Ex. P571 (Warshaw Rep. at 43).

724

See generally Trial Ex. P087 (Cho Rep. at 13–29); see also Trial
Ex. P426 (Cho Suppl. Rep. at 3–4) (showing that, using data from
across election cycles, the simulated maps contain more
competitive districts and that H.B. 369 is an outlier compared to
the simulated maps in terms of how many seats Republicans win).

App. 190
requires the participation of individual members in the
lawsuit.” Common Cause v. Rucho, 318 F. Supp. 3d
777, 827 (M.D.N.C. 2018) (citing Friends of the Earth,
Inc. v. Laidlaw Envt’l Servs. (TOC), Inc., 528 U.S. 167,
181 (2000)).
As discussed in the summaries of their testimony,
Plaintiffs APRI and the League are both non-partisan
organizations. APRI and the League aim to encourage
voter engagement and effective and educated voting.
The League has also made significant efforts to study
and curb partisan gerrymandering, for example
commissioning a study on the creation of the 2012
map.725 APRI has put forth evidence that it has
Democratic-voting members who live at least in
Districts 5 (Stephanie White) and 12 (Andre
Washington). The discussion above in the individualPlaintiff sections shows that there is evidence,
sufficient for standing purposes, that both of those
districts dilute Democratic voters’ votes. See supra
Sections II.A.2., III.A.5., III.A.12. Similarly, the League
has put forth evidence that it has at least one
Democratic-voting member who lives in District 14
(John Fitzpatrick). The discussion above in the
individual-Plaintiff sections shows that there is
evidence, sufficient for standing purposes, that District
14 dilutes Democratic voters’ votes. See, e.g., supra
Sections II.A.2., III.A.14.
Plaintiffs NEOYBD, HCYD, and OSU College
Democrats are all partisan organizations composed of
members who vote for Democratic candidates. All three
725

Dkt. 239 (Miller Trial Test. at 154–55, 156–57).

App. 191
organizations work to educate and mobilize voters to
support Democratic candidates, among other things.
NEOYBD’s Democratic members live in Districts 9, 11,
13, and 14. HCYD’s Democratic members live in
Districts 1 and 2. OSU College Democrats’ members
live in Districts 3, 12, and 15. Evidence was presented
at trial supporting the conclusion that each of these
districts was intentionally gerrymandered for partisan
gain. See, e.g., supra Sections III.A.1–3, III.A.9,
III.A.11–15.
As previously discussed in the context of the
individual Plaintiffs, evidence of causation and
redressability pertaining to each of these districts was
also introduced at trial.
We therefore conclude that APRI, at minimum, has
associational standing to bring Fourteenth and First
Amendment vote-dilution claims on behalf of its
members to challenge Districts 5 and 12 as partisan
gerrymanders. We conclude that the League, at
minimum, has associational standing to bring
Fourteenth and First Amendment vote-dilution claims
on behalf of Fitzpatrick to challenge District 14 as a
partisan gerrymander. See Rucho, 318 F. Supp. 3d at
827 (finding that the League had standing to challenge
North Carolina’s District 9 because “League member
Klenz live[d] in that district and testified to and
provided evidence that her vote was diluted on the
basis of invidious partisanship”); see also League of
Women Voters of Mich. v. Benson, --- F. Supp. 3d ---,
2019 WL 1856625, at *47 (E.D. Mich. Apr. 25, 2019)
(concluding that the League had standing to challenge
gerrymandered districts on behalf of its members based

App. 192
on similar evidence). Similarly, we conclude that the
partisan organizational Plaintiffs have derivative
standing to challenge the districts in which their
members live. At minimum, we find that NEOYBD has
standing to challenge Districts 9, 11, 13, and 14, that
HCYD has standing to challenge Districts 1 and 2, and
that OSU College Democrats has standing to challenge
Districts 3, 12, and 15.
***
In sum, the individual Plaintiffs have presented
enough evidence to show that they each have a
personal stake in the case to satisfy standing
requirements. There is some evidence that individual
Plaintiffs actually live in packed or cracked districts
and, consequently, they have suffered injuries in fact
that are fairly traceable to the way in which the
current map was drawn. Furthermore, the individual
Plaintiffs have evidence of alternative maps, including
the Proposed Remedial Plan and Dr. Cho’s simulations,
that show other possible districts exist in which the
individual Plaintiffs’ votes would not be diluted. The
organizational Plaintiffs, for their part, represent
members who, like the individual Plaintiffs, live in
arguably packed and cracked districts. They have
derivative standing to represent the interests of their
members in a suit that is germane to their own
interests and may rely on the same evidence of injury,
causation, and redressability as do the individual
Plaintiffs. Whether this evidence, along with Plaintiffs’
other evidence, is enough to prove their claims on the
merits will be addressed in Part V.

App. 193
B. First Amendment Associational Claim
For Plaintiffs’ First Amendment associational claim,
statewide standing principles apply. To establish
standing on this claim, the individual Plaintiffs must
point to evidence of their membership in and activities
supporting the Democratic Party; to establish an injury
in fact, Plaintiffs must demonstrate that the
gerrymandered map weakened their Party’s ability to
carry out its core functions and purposes. Importantly,
the “[p]artisan-asymmetry metrics such as the
efficiency gap measure . . . the effect that a
gerrymander has on the fortunes of political parties.”
Gill, 138 S. Ct. at 1933. As such, “evidence of partisan
asymmetry well fits a suit alleging associational injury”
like this one. Id. at 1939 (Kagan, J., concurring). In
Gill, the plaintiffs failed to establish standing under
this theory because they “did not emphasize their
membership in [the Democratic] [P]arty, or their
activities supporting it.” Id. Put another way, the
concern for standing for this claim is whether the
individual Plaintiffs are the sort of people who are
politically engaged and actively work toward electing
candidates of their party. If so, they have “a personal
stake in the outcome of the controversy.” Baker, 369
U.S. at 204.
As a threshold matter, the individual Plaintiffs fit
this bill. See supra Section II.A.1. These Plaintiffs
engage in a variety of get-out-the-vote, partymobilization, fundraising, and other campaign and
political activities. See supra Section II.A.1. There is
also no serious dispute that nothing about the current
map categorically prohibits Plaintiffs from engaging in

App. 194
these activities. See Benson, 2019 WL 1856625, at *65
(reasoning that although the challenged map “does not
categorically prevent Plaintiffs from engaging in
political activity, . . . ‘constitutional violations may
arise from the deterrent, or ‘chilling,’ effect of
governmental [efforts] that fall short of a direct
prohibition against the exercise of First Amendment
rights.’”) (citation omitted) (alteration in original). The
issue, though, is whether these Plaintiffs are able “to
associate for the advancement of [their] political beliefs
. . . [and are able] to cast their votes effectively,”
Williams v. Rhodes, 393 U.S. 23, 30 (1968), or whether
the redistricting plan “has the purpose and effect of
burdening a group of voters’ representational rights.”
Vieth v. Jubelirer, 541 U.S. 267, 314 (2004) (Kennedy,
J., concurring in the judgment); see also Gill, 138 S. Ct.
at 1938 (Kagan, J., concurring); Norman v. Reed, 502
U.S. 279, 288 (1992) (noting the constitutional right
derived from the First and Fourteenth Amendments to
“advance[] the constitutional interest of like-minded
voters to gather in pursuit of common political ends,
thus enlarging the opportunities of all voters to express
their own political preferences.”) (collecting cases). So
long as the 2012 map weakened their Party’s ability to
carry out its core functions and purposes, Plaintiffs
have suffered an injury for their associational claim.
Here, Plaintiffs have presented evidence of partisan
asymmetry to establish both an injury in fact and
causation. Dr. Warshaw’s analysis of the partisan-bias
metrics concludes that “Ohio’s congressional districts
are unresponsive to changes in voters’ preferences” and
that this “pro-Republican advantage in congressional
elections in Ohio causes Democratic voters to be

App. 195
effectively shut out of the political process in
Congress.”726 Moreover, the partisan bias “has been
durable between the 2012 and 2018 elections.”727 Actual
election results also bear out an injury in fact. Despite
Democrats winning between 39% and 47% of the
statewide vote, Democratic candidates have won only
25% of Ohio’s congressional elections under the current
map; meanwhile, the Republican statewide vote share
has fluctuated between 51% and 59%, but Republican
candidates have won 75% of those elections. Part of Dr.
Cho’s analysis provides additional support, as she finds
that “[i]n each of the simulation analyses [using data
from the 2008-2018 election cycles], 9 Republican seats
is the common and expected outcome of a non-partisan
map creation process.”728 Together, this evidence helps
support, for standing purposes, the sort of long-lasting
and substantial injury about which the First
Amendment associational claim is concerned.
Lastly, as with their vote-dilution claims, the
individual Plaintiffs satisfy redressability as well. See
supra Section III.A.18. In particular, Mr. Cooper’s
comparison of election results between the current plan
and the Proposed Remedial Plan shows better
responsiveness and more competitive seats are possible
with a different map.
726

Trial Ex. P571 (Warshaw Rep. at 43).

727

Trial Ex. P476 (Warshaw 2018 Update at 1).

728

Trial Ex. P426 (Cho Suppl. Rep. at 3) (“In each of the simulation
analyses [using data from the 2008-2018 election cycles], 9
Republican seats is the common and expected outcome of a nonpartisan map creation process.”).

App. 196
“An organization suffers an injury in fact when its
mission is ‘perceptibly impaired’ by the challenged
action, which it may show through a ‘demonstrable
injury to the organization’s activities’ and a ‘consequent
drain on the organization’s resources.’” League of
Women Voters of Mich. v. Johnson, 352 F. Supp. 3d
777, 801 (E.D. Mich. 2018) (quoting Havens Realty
Corp. v. Coleman, 455 U.S. 363, 379 (1982)). Plaintiff
organizations APRI and the League engage in voter
education, registration, and get-out-the-vote efforts in
furtherance of their beliefs in the importance of voters’
participation in representational democracy. The
League also puts on candidate forums, creates voter
guides, answers voters’ questions, and runs various
other programs designed to encourage and facilitate
informed and effective voting. APRI and the League
presented evidence at trial supporting the conclusion
that the 2012 map hinders their ability to advance
their aims and “to associate for the advancement of
political beliefs.” Williams, 393 U.S. at 30. They offered
evidence suggesting that the jagged lines of the 2012
map and its propensity to split communities of interest
cause voter confusion, which saps their resources.
Their members’ testimony supported an inference that
uncompetitive and unresponsive districts cause voter
apathy in Ohio, making it more difficult for APRI and
the League to register voters and get out the vote.
Evidence was presented suggesting that
noncompetitive districts may result in candidates
declining to participate in candidate forums put on by
the League. See Rucho, 318 F. Supp. 3d at 831. Finally,
Dr. Warshaw and Mr. Cooper’s evidence, discussed
above, applies uniformly here to support causation and
redressability.

App. 197
We conclude that APRI and the League have
provided competent evidence to establish at least
independent associational standing for their First
Amendment associational claim based on the 2012
map’s negative impact on their ability effectively to
associate to advance their belief in active and informed
voter participation in the democratic process. See
Benson, 2019 WL 1856625, at *66 (concluding, after
reviewing similar evidence, and that the challenged
plan “injured the League by engendering voter apathy
that hampers the League’s voter engagement, voter
education, and get out the vote efforts; preventing the
League from making progress on voting rights issues
through legislative reforms; and making it difficult for
the League to secure Republican candidates’
participation in candidate forums and voter education
guides.”).
With regard to the partisan organizational
Plaintiffs, “[a]s Justice Kagan recognized in Gill, ‘what
is true for party members may be doubly true for party
officials and triply true for the party itself (or for
related organizations).’” Rucho, 318 F. Supp. 3d at 830
(quoting Gill, 138 S. Ct. at 1938 (Kagan, J.,
concurring)). Plaintiffs NEOYBD, HCYD, and OSU
College Democrats presented evidence at trial showing
that their organizational abilities are hindered by the
2012 map. They have had difficulty recruiting and
retaining members due to the lack of competitive races
and have had to dedicate limited resources to
combatting voter apathy and confusion, which one
could infer are worsened by uncompetitive and
unresponsive districts. They have had difficulty
fundraising, mobilizing voters, recruiting candidates,

App. 198
and winning elections. Dr. Warshaw’s testimony,
discussed above, demonstrates that the current map is
highly uncompetitive and unresponsive. Mr. Cooper’s
testimony demonstrates that a non-gerrymandered
map would result in more competitive elections, in
which the Democratic organizations would be more
able to mobilize and compete. We conclude that the
partisan organizational Plaintiffs have standing to
pursue their First Amendment associational claim.
C. Article I Claim
As we explained previously, a state necessarily
exceeds its powers under Article I if it runs afoul of the
First and Fourteenth Amendments. Plaintiffs have
standing to pursue their First Amendment and
Fourteenth Amendment claims. That is enough to
establish that Plaintiffs have standing for their claim
that the State has exceeded its powers under Article I.
IV. JUSTICIABILITY, THE POLITICAL
QUESTION DOCTRINE, AND THE ROLE OF
THE FEDERAL COURTS IN REDISTRICTING
A. Justiciability and The Political Question
Doctrine
The Supreme Court has recognized that partisan
gerrymandering is incompatible with democratic
principles. Ariz. State Legislature v. Ariz. Indep.
Redistricting Comm’n, 135 S. Ct. 2652, 2658 (2015);
Vieth, 541 U.S. at 292 (plurality); id. at 316 (Kennedy,
J., concurring in the judgment); see also id. at 331
(Stevens, J., dissenting) (“The problem, simply put, is
that the will of the cartographers rather than the will
of the people will govern.”); id. at 345–46 (Souter, J.,

App. 199
dissenting) (“[T]he increasing efficiency of partisan
redistricting has damaged the democratic process to a
degree that our predecessors only began to imagine.”)
(collecting sources); id. at 355 (Breyer, J., dissenting)
(“Sometimes purely political ‘gerrymandering’ will fail
to advance any plausible democratic objective while
simultaneously threatening serious democratic harm.”).
As the Supreme Court has stated, “the core principle of
republican government [is] that the voters should
choose their representatives, not the other way
around.” Ariz. State Legislature, 135 S. Ct. at 2677
(quoting Mitchell Berman, Managing Gerrymandering,
83 TEX. L. REV. 781 (2005)); see also Powell v.
McCormack, 395 U.S. 486, 547 (1969) (“A fundamental
principle of our representative democracy is, in
Hamilton’s words, ‘that the people should choose whom
they please to govern them.’”) (citation omitted).
Partisan gerrymandering goes against these
foundational principles. But do courts have a role in
adjudicating challenges to alleged partisan
gerrymanders—that is, are such challenges justiciable?
The Supreme Court has held that partisan
gerrymandering claims are justiciable. Davis v.
Bandemer, 478 U.S. 109, 125 (1986). In Bandemer, the
Supreme Court considered an allegation that “Indiana
Republicans had gerrymandered Indiana’s legislative
districts ‘to favor Republican incumbents and
candidates and to disadvantage Democratic voters’
through what the plaintiffs called the ‘stacking’
(packing) and ‘splitting’ (cracking) of Democrats.” See
Gill, 138 S. Ct. at 1927. Drawing on racial
gerrymandering doctrine as well as one-person, onevote equal-protection cases, the Bandemer majority

App. 200
held that the partisan-gerrymandering case before it
did not present a nonjusticiable political question.
Bandemer, 478 U.S. at 122–25. The Supreme Court,
importantly, has not overturned Bandemer’s central
holding. See Gill, 138 S. Ct. at 1927–29 (reviewing postBandemer cases).
In Bandemer, however, the Supreme Court did not
“settle on a standard for what constitutes an
unconstitutional partisan gerrymander.” See Gill, 138
S. Ct. at 1927. Indeed, a majority of the Supreme Court
has not yet settled on an appropriate standard for
these claims, though various plaintiffs and amici have
pressed for several theories at the Court in the years
since Bandemer. See id. at 1926–29 (discussing
partisan-gerrymandering precedent); see also Samuel
Issacharoff & Pamela Karlan, Where to Draw the Line?:
Judicial Review of Political Gerrymanders, 153 U. PA.
L. REV. 541, 541–43 (2004). While Bandemer is
partisan gerrymandering’s Baker v. Carr, 369 U.S. at
209 (holding that malapportionment claims are
justiciable), such claims do not yet have their Reynolds
v. Sims, 377 U.S. 533, 568 (1964) (articulating what is
now known as the one-person, one-vote principle for
state legislative apportionment); see also Wesberry v.
Sanders, 376 U.S. 1, 7–8 (1964) (same for congressional
apportionment).
In Baker v. Carr, the Supreme Court laid out six
factors for determining whether an issue is a
nonjusticiable a political question. See Baker, 369 U.S.
at 217. The Supreme Court explained that:
Prominent on the surface of any case held to
involve a political question is found a textually

App. 201
demonstrable constitutional commitment of the
issue to a coordinate political department; or a
lack of judicially discoverable and manageable
standards for resolving it; or the impossibility of
deciding without an initial policy determination
of a kind clearly for nonjudicial discretion; or the
impossibility of a court’s undertaking
independent resolution without expressing lack
of the respect due coordinate branches of
government; or an unusual need for
unquestioning adherence to a political decision
already made; or the potentiality of
embarrassment from multifarious
pronouncements by various departments on one
question.
Id. Baker v. Carr thus saw the political question
doctrine as primarily concerned with the separation of
powers. Id. at 210. The first two factors are the most
important: (1) a textual commitment of an issue to one
of the political branches and (2) an absence of judicially
manageable standards. See Vieth, 541 U.S. at 277–78
(plurality). If an issue qualifies as a political question,
the issue is nonjusticiable, and, consequently, the
federal courts have no role in adjudicating it.
Defendants make arguments on each factor. See
Dkt. 252 (Defs.’ & Intervenors’ Post-Trial Br. at 44–52).
All the arguments go to essentially three points:
(1) The states have authority over elections and
redistricting, and courts should not second guess the
states’ political judgment; (2) To the extent problems
exist, plaintiffs should seek a remedy from Congress (or
the states); and (3) Judicially manageable standards

App. 202
are lacking. As a threshold matter, we observe that
federalism concerns and respect for state sovereignty
are conspicuously absent from Baker v. Carr’s list of
justiciability considerations and, again, the political
question doctrine is centered on separation of powers
between the judiciary and the federal political
branches, Congress and the President. See Baker, 369
U.S. at 210. But throughout this opinion, we respond to
all these points, and we further conclude that workable
standards, which contain limiting principles, exist so
that courts can adjudicate these types of
gerrymandering claims just as they have adjudicated
other types of gerrymandering claims.
Turning to Baker v. Carr’s first factor—a textual
commitment of an issue to a political branch—we find
this factor does not weigh against justiciability. Though
the Vieth plurality did not rely on this factor in
discussing whether partisan-gerrymandering claims
are justiciable, see Vieth, 541 U.S. at 277–81 (plurality),
the plurality still noted that “[i]t is significant that the
Framers provided a remedy for [gerrymandering] in
the Constitution.” See Vieth, 541 U.S. at 275 (plurality).
Article I, § 4 of the United States Constitution
provides: “The Times, Places and Manner of holding
Elections for Senators and Representatives, shall be
prescribed in each State by the Legislature thereof; but
the Congress may at any time by Law make or alter
such Regulations . . . .” One could argue, as Justice
Frankfurter once did, that this language means “that
the Constitution has conferred upon Congress exclusive
authority to secure fair representation” and protect the
right to vote against gerrymandering. See Colegrove v.
Green, 328 U.S. 549, 554 (1946) (plurality). Defendants

App. 203
echo this argument. See Dkt. 252 (Defs.’ & Intervenors’
Post-Trial Br. at 45) (“[T]o seize supervisory authority
over elections is to seize congressional power, an
invasion of authority allocated to ‘a coordinate political
department.’”).
Simply put, the Supreme Court explicitly rejected
that argument in Wesberry, 376 U.S. at 6–7. “The right
to vote is too important in our free society to be
stripped of judicial protection by such an interpretation
of Article I.” Id. at 7. That statement applies with equal
force in the partisan-gerrymandering context, in which
the core concern is that those in power are
manipulating district lines in order to choose their
voters and thereby render election results a foregone
conclusion. Indeed, the Supreme Court’s “willingness to
enter the political thicket of the apportionment process
with respect to one-person, one-vote claims makes it
particularly difficult to justify a categorical refusal to
entertain claims against this other type of
gerrymandering.” See Vieth, 541 U.S. at 310 (Kennedy,
J., concurring in the judgment). The Supreme Court
“made it clear in Baker that nothing in the language of
[Article I] gives support to a construction that would
immunize state congressional apportionment laws . . .
from the power of courts to protect the constitutional
rights of individuals from legislative destruction . . . .”
Wesberry, 376 U.S. at 6. In other electionlaw contexts,
the Supreme Court has held that “[t]he power to
regulate the time, place, and manner of elections does
not justify, without more, the abridgment of
fundamental rights, such as the right to vote, or . . . the
freedom of political association.” Tashjian v.
Republican Party of Conn., 479 U.S. 208, 217 (1986)

App. 204
(citing Wesberry, 376 U.S. at 6–7); see also U.S. Term
Limits, Inc. v. Thornton, 514 U.S. 779, 833–34 (1995).
Here, the allegation is similarly that a state
redistricting law targets a disfavored party’s and its
voters’ rights to vote and to associate. In short, the
argument that the Constitution designates Congress as
the sole branch to fix gerrymandering, and that the
states have the principal responsibility over election
laws, was also present in other cases, and similar
concerns that led the Supreme Court to reject the
argument are present here. To accept fully Defendants’
arguments against justiciability and their
interpretation of Article I would erase decades of
constitutional law. We decline to do so.
Moreover, as explained, evidence in this case shows
that congressional staffers and the political arm of the
Republican Party in Congress had a hand in drawing
the challenged map. See supra Section I.A.3. In other
words, not only is Congress unlikely to fix partisan
gerrymandering, but evidence shows that Members of
Congress, and their colleagues on congressional
campaign committees, are part of the problem. See
supra Section I.A.3.; see also SAMUEL ISSACHAROFF ET
AL., THE LAW OF DEMOCRACY: LEGAL STRUCTURE OF THE
POLITICAL PROCESS 682 (5th ed. 2016) (noting that “in
the 2000 redistricting, several courts . . . found that
national party leaders in the United States House of
Representatives played a central role in the
redistricting process. . . . If Congress was originally
envisioned as a detached, neutral umpire that might
stand above partisan conflicts in the states, Congress
is now a self-interested player in the partisan struggles
over districting.”). Accordingly, both parties in

App. 205
Congress benefit from partisan gerrymandering and
appear to participate in the practice of partisan
gerrymandering. Cf. ISSACHAROFF ET AL., THE LAW OF
DEMOCRACY, supra at 682 (“[T]he fates of national
political parties and state parties have, over time,
become closely bound together . . . . Indeed . . . some
states were prompted to engage in re-redistricting in
the middle of the [2000] decade, precisely because
national party leaders in the United States House
pressed for this.”); Dkt. 252 (Defs.’ & Intervenors’ PostTrial Br. at 43) (stating that the map-drawing “process
was also aided significantly by John Boehner, thenSpeaker of the U.S. House”). The courts are the logical
branch to turn to in the face of such legislative selfdealing, and in this case, judicially manageable
standards also exist to adjudicate the issue
presented.729
As the four-justice plurality in Vieth saw it, the
political question doctrine’s second factor (an absence
of judicially manageable standards) was at issue for
partisan gerrymandering. See Vieth, 541 U.S. at 278
(plurality). The plurality found it problematic that in
the years after Bandemer, lower courts did not shape a
partisan-gerrymandering standard and, with one
unique exception, did not provide relief for such claims.
729

Of course, a legislature’s failure to act is insufficient alone to
warrant the Court’s intervention. See Gill, 138 S. Ct. at 1929
(“‘Failure of political will does not justify unconstitutional
remedies.’ Our power as judges to ‘say what the law is,’ rests not
on the default of politically accountable officers, but is instead
grounded in and limited by the necessity of resolving, according to
legal principles, a plaintiff’s particular claim of legal right.”)
(citations omitted).

App. 206
Id. at 279–80 & 280 n.6. Ultimately, the plurality
stated that “[l]acking [judicially discernible and
manageable standards], we must conclude that political
gerrymandering claims are nonjusticiable . . . .” Id. at
281. This view did not command a majority of the
Supreme Court at the time, and in the intervening
years since Vieth, lower courts have shaped standards
and found that plaintiffs have satisfied those
standards.
As another district court recently observed, “a
majority of the Supreme Court never has found that a
claim raised a nonjusticiable political question solely
due to the alleged absence of a judicially manageable
standard for adjudicating the claim.” See Rucho, 318 F.
Supp. 3d at 842 n.19. Indeed, in Nixon v. United States,
the Supreme Court stated that its reasoning:
makes clear[] [that] the concept of a textual
commitment to a coordinate political department
is not completely separate from the concept of a
lack of judicially discoverable and manageable
standards for resolving it; the lack of judicially
manageable standards may strengthen the
conclusion that there is a textually demonstrable
commitment to a coordinate branch.
Nixon v. United States, 506 U.S. 224, 228–29 (1993); see
also id. at 238 (holding that challenges to procedures
used in Senate impeachment proceedings are
nonjusticiable); Gilligan v. Morgan, 413 U.S. 1, 10
(1973) (“The ultimate responsibility for these decisions
[about the composition, training, equipping, and control
of a military force] is appropriately vested in branches
of the government which are periodically subject to

App. 207
electoral accountability.”); Pac. States Telephone &
Telegraph Co. v. Oregon, 223 U.S. 118, 141–43 (1912)
(claims arising under the Guaranty Clause of Article
IV, § 4 are nonjusticiable and issues arising under that
Clause are committed to Congress). Vieth, therefore,
would have been an unprecedented step if the Court
had held partisan-gerrymandering claims
nonjusticiable solely due to an alleged lack of a
manageable standard.
There are good reasons why the Supreme Court has
not taken such an unprecedented step. As Justice
Kennedy explained, “[r]elying on the distinction
between a claim having or not having a workable
standard of that sort involves . . . proof of a categorical
negative. . . . This is a difficult proposition to establish,
for proving a negative is a challenge in any context.”
Vieth, 541 U.S. at 311 (Kennedy, J., concurring in the
judgment). Justice Kennedy thus concluded that just
because no judicially manageable standard “has
emerged in this case should not be taken to prove that
none will emerge in the future.” Id. He then gave one
illustrative example of an easy case: “If a State passed
an enactment that declared ‘All future apportionment
shall be drawn so as most to burden Party X’s rights to
fair and effective representation, though still in accord
with one-person, one-vote principles,’ we would surely
conclude the Constitution had been violated.” Id. at
312. Such a law would, of course, be simple
discrimination and unconstitutional. But “the
Constitution forbids sophisticated as well as simpleminded modes of discrimination.” Reynolds, 377 U.S. at
563 (citations and internal quotation marks omitted).
Additionally, if courts were to rely solely on the lack of

App. 208
a judicially manageable standard to conclude that an
issue qualifies as a political question, then courts
would be opining on the manageability of standards not
involved in the case at hand. That would be imprudent
because a court can dispose of only the matters in a
case currently before it; to be sure, however, the
reasoning of a court’s decision could spell trouble for a
future potential standard if the future standard
suffered from the same defects as that which was
previously held nonjusticiable. Accordingly, even if
there were a lack of a judicially manageable standard
in this case (though we conclude that manageable
standards exist), we would not conclude that all future
partisan-gerrymandering claims are nonjusticiable.
Although the Supreme Court’s precedent leaves
“few clear landmarks for addressing” partisan
gerrymandering, we can find some rough guidance in
the summary provided in Gill. See 138 S. Ct. at 1926.
In Bandemer itself, the plurality would have required
the plaintiffs “to ‘prove both intentional discrimination
against an identifiable political group and an actual
discriminatory effect on that group,’” id. at 1927
(quoting Bandemer, 478 U.S. at 127 (plurality)), but the
Bandemer plurality also concluded that “the plaintiffs
had failed to make a sufficient showing on [actual
discriminatory effect] because their evidence of
unfavorable election results for Democrats was limited
to a single election cycle.” Gill, 138 S. Ct. at 1927
(citing Bandemer, 478 U.S. at 135 (plurality)). Then in
Vieth, the four-justice plurality, “would have held that
the plaintiffs’ claims were nonjusticiable because there
was no ‘judicially discernible and manageable standard’
by which to decide them.” Id. at 1927–28 (quoting

App. 209
Vieth, 541 U.S. at 306 (plurality)). The plurality in
Vieth thus necessarily rejected the proposed standard
that a majority of voters should be able to elect a
majority of a congressional delegation (proportional
representation). Justice Kennedy also rejected that
standard. See Gill, 138 S. Ct. at 1928 (citing Vieth, 541
U.S. at 308 (Kennedy, J., concurring in the judgment)).
Justice Kennedy, however, left the door open in Vieth
for a partisan-gerrymandering standard in future
cases. Just two years after Vieth, the Supreme Court
returned to the question of partisan gerrymandering in
League of United Latin American Citizens v. Perry
(“LULAC”), 548 U.S. 399 (2006). In Gill, as in the case
before us, the relevant portion of LULAC was the
discussion of the partisan symmetry standard proposed
by an amicus. See Gill, 138 S. Ct. at 1928. That
particular version of the symmetry standard
“‘measure[d] partisan bias’ by comparing how the two
major political parties ‘would fare hypothetically if they
each . . . received a given percentage of the vote.’” Id.
(quoting LULAC, 548 U.S. at 419 (opinion of Kennedy,
J.)). Although Justice Kennedy expressed concern
about adopting the proposed symmetry standard
because it was “based on unfair results that would
occur in a hypothetical state of affairs,” and because it
faced the problem of not “providing a standard for
deciding how much partisan dominance is too much,”
LULAC, 548 U.S. at 420, Justice Kennedy ultimately
stated, “[w]ithout altogether discounting its utility in
redistricting planning and litigation, I would conclude
asymmetry alone is not a reliable measure of
unconstitutional partisanship.” Id. (emphasis added).
The Gill Court further noted that Justices Stevens,
Souter, and Ginsburg expressed some support, or at

App. 210
least did not discount the usefulness of, asymmetry.
See Gill, 138 S. Ct. at 1928–29 (citing Justice Stevens’s
partial dissent and Justice Souter’s partial dissent,
joined by Justice Ginsburg). In sum, although partisan
symmetry as a stand-alone measure has not garnered
support from a majority of the Supreme Court, of all
the proposed standards, partisan symmetry has
received perhaps the most support.
In the absence of clear direction from the Supreme
Court, three-judge federal district court panels730 have
established justiciable standards. See Benson, 2019 WL
1856625, at *27–28; Rucho, 318 F. Supp. 3d at 860–68,
929, appeal docketed No. 18-422, 139 S. Ct. 782 (Jan. 4,
2019); Whitford v. Gill, 218 F. Supp. 3d 837, 884 (W.D.
Wis. 2016), vacated and remanded on other grounds,
138 S. Ct. 1916 (2018); Shapiro v. McManus, 203 F.
Supp. 3d 579, 596–97 (D. Md. 2016). Generally, the
prevailing difficulty in partisan-gerrymandering cases
seems to be evaluating partisan effect, or, in Justice
Kennedy’s words, “how much partisan dominance is too
much.” LULAC, 548 U.S. at 420 (opinion of Kennedy,
J.); see also Vieth, 541 U.S. at 344 (Souter, J.,
dissenting). The federal courts that have recently
adjudicated partisan-gerrymandering claims have
converged considerably on common ground both in
730

State Supreme Courts, too, have established judicially
manageable standards by which to evaluate compliance with their
own state constitutions. See League of Women Voters v.
Commonwealth, 178 A.3d 737 (Pa. 2018); see also id. at 816 (noting
that the standards articulated “also comport with the minimum
requirements for congressional districts guaranteed by the United
States Constitution, as interpreted by the United States Supreme
Court.”) (citing Wesberry, 376 U.S. at 18).

App. 211
establishing standards for assessing a redistricting
plan’s constitutionality and for evaluating partisan
effect. See infra Part V. For now, we observe that
district courts have found partisan symmetry to be a
useful partisan-effect standard, in combination with
actual election results, analyses of simulated maps,
and analyses that show redistricting plans are extreme
or are historical outliers in their partisan effect. See,
e.g., Benson, 2019 WL 1856625, at *12–24, 28; Rucho,
318 F. Supp. 3d at 884; Whitford, 218 F. Supp. 3d at
898, 905 (but not using analyses of simulated maps). As
we will explain, the standards and analyses in these
cases, and proposed in the case before us, shore up the
deficiencies identified by the Supreme Court in prior
cases. See infra Part V.
B. Evidentiary Metrics and Statistics
Plaintiffs utilize several evidentiary metrics and Dr.
Cho’s computer-simulated maps, among other things,
to help the Court decide the merits of the partisangerrymandering claims. Defendants argue that none of
those evidentiary metrics offers an answer to when a
map is unconstitutionally gerrymandered and that no
expert has offered an opinion on that subject. This
critique falls flat, and it is important to clarify and
emphasize that the judicially manageable standards
about which we are concerned for justiciability are
legal standards. We set forth those legal standards in
Part V of this opinion. The evidentiary metrics and
simulated maps, however, are offered by a party to
show that the legal standard is met. We apply these
metrics, simulated maps, and other evidence to the
justiciable legal standards, and we find that they prove

App. 212
the elements of the underlying claims. See infra
Sections V.A.2., V.B., V.C.2. This practice is nothing
new. Courts routinely utilize statistical analyses in
other contexts, including the similar context of racial
vote-dilution cases under the VRA. See, e.g., Rural W.
Tenn. African-Am. Affairs Council v. Sundquist, 209
F.3d 835, 844 (6th Cir. 2000) (affirming the district
court and explaining that the district court “ably
considered a complex body of statistical and anecdotal
evidence to determine that [a state house
reapportionment plan] unlawfully dilutes
African–American voting strength in rural west
Tennessee.”); United States v. City of Euclid, 580 F.
Supp. 2d 584, 596 (N.D. Ohio 2008) (“Statistical
evidence of racial bloc voting may be established by
three analytical models: homogenous precinct analysis
(‘HPA’), bivariate ecological regression analysis
(‘BERA’), and King’s ecological inference method
(‘King’s EI method’).”).
We find Rucho’s reasoning on this point persuasive
and adopt it here. In Rucho, the three-judge district
court ably surveyed caselaw in which the Supreme
Court, as well as district courts, have “relied on
statistical and social science analyses as evidence that
a defendant violated a standard set forth in the
Constitution or federal law.” See 318 F. Supp. 3d at
853; see also id. at 852–58 (providing an overview of
caselaw and noting that the Supreme Court has
embraced empirical analyses and statistical measures
in apportionment, antitrust, Confrontation Clause,
equal-protection, redistricting, and voting cases). We
agree that “when a variety of different pieces of
evidence, empirical or otherwise, all point to the same

App. 213
conclusion—as is the case here—courts have greater
confidence in the correctness of the conclusion because
even if one piece of evidence is subsequently found
infirm other probative evidence remains.” See id. at
858. Although it is true, as Dr. Warshaw himself
acknowledged at trial, that each of the four statistical
metrics that he analyzed has pros and cons,731 it is
equally true that all the metrics point strongly in one
direction. What’s more, as will be explained, the
metrics and other evidence strongly suggest that the
2012 plan is an outlier, and that fact raises further
concern about the plan’s constitutionality.
Courts should not simply accept or give the greatest
amount of weight possible to social-science measures or
theories. Of course, we still have the obligation to
ensure that an expert’s “testimony is based on
sufficient facts or data,” is “the product of reliable
principles and methods,” and that “the expert has
reliably applied the principles and methods to the facts
of the case.” See FED. R. EVID. 702; see also Daubert v.
Merrell Dow Pharm., Inc., 509 U.S. 579, 589–95 (1993).
When judges are the factfinders, “the court must
carefully weigh empirical evidence[ ] and discount such
evidence’s probative value if it fails to address the
relevant question, lacks rigor, is contradicted by more
reliable and compelling evidence, or is otherwise
unworthy of substantial weight.” Rucho, 318 F. Supp.
3d at 855.

731

See, e.g., Dkt. 240 (Warshaw Trial Test. at 210–11) (efficiency
gap); id. at 223 (mean-median difference); id. at 229–30
(declination); id. at 238 (the two asymmetry measures).

App. 214
After the benefit of hearing trial testimony from
Plaintiffs’ and Defendants’ experts and Defendants’
cross-examination, we find that Plaintiffs’ evidence and
experts are more persuasive. As detailed later, we find
some evidence quite probative and other evidence less
so, but, overall, the evidentiary metrics utilized by
Plaintiffs provide strong support for their legal claims.
In other words, the evidentiary metrics are strong
evidence that voters were packed and cracked across
the 2012 map. Dr. Warshaw also gave illustrative
examples of when the metrics would be less probative
of a partisan gerrymander, and therefore, he would not
conclude that a plan was a partisan gerrymander.732
The evidentiary metrics, therefore, are workable in
their own right and would not lead to every plan in the
country being struck down as unconstitutional. Courts,
in turn, would apply the legal standards and utilize the
various metrics to determine on a case-by-case basis
whether certain maps pass constitutional muster.
Courts can apply these metrics to the legal standards
in such a way that limits exist.
To be sure, metrics based on a theory of
proportional representation would not be legally
relevant. See Vieth, 541 U.S. at 288 (plurality) (“[T]he
Constitution contains no such principle [of proportional
representation].”); id. at 338 (Stevens, J., dissenting)
(“The Constitution does not, of course, require
proportional representation . . . .”); see also LULAC,
548 U.S. at 419 (opinion of Kennedy, J.) (“To be sure,
there is no constitutional requirement of proportional
representation . . . .”). None of the proffered metrics in
732

See Dkt. 240 (Warshaw Trial Test. at 191–92, 246–48).

App. 215
this case, however, are based on proportional
representation.733 For example, the metrics analyzed by
Dr. Warshaw measure asymmetry, a distinct concept.
On the one hand, proportional representation means
that the number of seats in the legislature that a party
receives is equal to the percentage of votes that the
party receives in an election. For example, if Party X
receives 40% of the popular vote and there are 100
seats in the legislature, then Party X would receive 40
seats under a proportional-representation scheme. On
the other hand, partisan symmetry is based on the
principle that a particular vote share should translate
into a particular number of seats, regardless of which
party receives that vote share. For example, if Party X
receives 53% of the vote and wins 60 out of 100 seats,
then when Party Y receives 53% of the vote, Party Y
should also have a real chance to win about 60 out of
100 seats. A difference between the parties’ abilities to
translate the same vote share into seats demonstrates
an asymmetry.
In other areas of election law, several metrics
comfortably coexist. See Nicholas Stephanopoulos &
Eric McGhee, The Measure of a Metric: The Debate over
Quantifying Partisan Gerrymandering, 70 STAN. L.
REV. 1503, 1551–54 (2018). First, in malapportionment
cases, the Supreme Court has cited a handful of
measures (and sometimes multiple measures in the
same case) for population deviation. See, e.g., Karcher

733

One critique of the efficiency gap is that it is not equivalent to
proportional representation. See Benjamin Plener Cover,
Quantifying Partisan Gerrymandering: An Evaluation of the
Efficiency Gap Proposal, 70 STAN. L. REV. 1131, 1213 (2018).

App. 216
v. Daggett, 462 U.S. 725, 728 (1983) (noting the total
deviation between the most and least populous districts
and the average deviation, i.e., the average difference
between each district’s population and the population
required for perfect equality); Gaffney v. Cummings,
412 U.S. 735, 737 & nn.1–2 (1973) (using the two
measures in Karcher and also citing the ratio of the
largest district population to the smallest district
population); Mahan v. Howell, 410 U.S. 315, 319 (1973)
(using the same three measures as Gaffney, in addition
to noting the proportion of the population that could
elect a majority of the state house); Swann v. Adams,
385 U.S. 440, 442–43 (1967) (using all these measures).
Next, in the context of Section 2 of the VRA, courts
have utilized three metrics to measure racial
polarization in voting—HPA, BERA, and King’s EI
method, mentioned above. See, e.g., City of Euclid, 580
F. Supp. 2d at 596; see also Thornburg v. Gingles, 478
U.S. 30, 52–53, 53 n.20 (1986) (citing only HPA (or
“extreme case analysis”) and BERA, and noting that
“[t]he District Court found both methods standard in
the literature for the analysis of racially polarized
voting.”). And finally, the compactness of a district can
be quantified in dozens of ways. See Stephanopoulos &
McGhee, The Measure of a Metric, supra at 1553 & nn.
178–83. Compactness, which is one assessment of a
district’s shape, can be relevant in racial vote-dilution
cases as well as VRA § 2 cases. See, e.g., Miller v.
Johnson, 515 U.S. 900, 913 (1995) (“Shape is relevant
not because bizarreness is a necessary element of the
constitutional wrong . . ., but because it may be
persuasive circumstantial evidence that race for its
own sake, and not other districting principles, was the
legislature’s dominant and controlling rationale in

App. 217
drawing its district lines.”); Gingles, 478 U.S. at 50
(“[T]he minority group must be able to demonstrate
that it is sufficiently large and geographically compact
to constitute a majority in a single-member district.”).
So too can several metrics be used in partisangerrymandering cases.
The brunt of Defendants’ argument against socialscience measures seems focused on the efficiency gap.
Dkt. 253 (Defs.’ & Intervenors’ PFOF at 106–13). But
Plaintiffs do not offer the efficiency gap as the ultimate
Rosetta Stone to decipher what is or is not an
unconstitutional partisan gerrymander. Rather, the
efficiency gap is just one tool in the evidentiary toolbox.
When it comes to malapportionment, racially polarized
voting, and compactness, courts have not limited their
toolbox, and we see no reason to limit it for partisan
gerrymandering. To the contrary, that all the measures
strongly point in the same direction gives us greater
confidence in reaching a conclusion in this case. See
Rucho, 318 F. Supp. 3d at 858.
C. Pragmatic and Historical Considerations
We now turn to other relevant considerations for
whether the federal courts ought to intervene to
address partisan gerrymandering. Importantly, these
considerations are absent from the list of
considerations for determining whether an issue
presents a nonjusticiable political question. Instead,
these points are pragmatic or historical in nature, and
they are worthy of response.

App. 218
1. Courts are not picking political winners
and losers
One concern about allowing courts to adjudicate
partisan-gerrymandering claims is that the courts
would be dictating political winners. Dkt. 136 (Defs.’
Mot. for Summ. J. at 18). But, as mentioned, the core
concern about partisan gerrymandering is that
representatives choose their voters and not viceversa—that is, when partisan gerrymandering
amounts to a constitutional violation, the winners and
losers are often already predetermined by those in
power. Rather than dictating outcomes in these cases,
courts are only fixing the process by which voters enact
political change. See JOHN HART ELY, DEMOCRACY AND
DISTRUST 102–03 (1980) (explaining that in our system
of government “[m]alfunction occurs when . . . the ins
are choking off the channels of political change to
ensure that they will stay in and the outs will stay
out,” and that judges “are conspicuously well situated”
to correct such malfunction). If courts find a
constitutional violation and fix it, then the voters pick
the winners and losers in districts that adhere to the
Constitution.
As we will explain further, the evidence in this
record shows that, in fact, the party in power sought to
lock in a 12-4 map, and, despite receiving a fluctuating
percentage of the statewide vote, they were successful.
Experience has shown that legislators are unlikely to
act as neutral umpires in this context. Judges,
however, play precisely that role. Rather than decide
who wins an election in these cases, the courts’ role is
to ensure an even playing field, just as courts have

App. 219
done with other forms of gerrymandering. See Vieth,
541 U.S. at 310 (Kennedy, J., concurring in the
judgment).
Furthermore, this non-intervention argument has
its roots in reasoning from Colegrove. See 328 U.S. at
553 (plurality) (“Nothing is clearer than that this
controversy concerns matters that bring courts into
immediate and active relations with party contests.”).
As Justice Frankfurter put it, “Courts ought not enter
this political thicket.” Id. at 556.
Given courts’ now well-established involvement in
redistricting, as well as other voting and elections
matters, history has shown that Colegrove’s concerns
have not carried the day. In Baker v. Carr, the
Supreme Court relied not on political judgment, but on
the “well developed and familiar” “standards under the
Equal Protection Clause . . . to determine . . . that a
discrimination reflects no policy, but simply arbitrary
and capricious action.” See Baker, 369 U.S. at 226. In
fact, the Supreme Court arguably first entered the socalled “political thicket” a few years earlier, in
Gomillion v. Lightfoot, 364 U.S. 339 (1960). Gomillion,
not Baker v. Carr, was the first time that the Supreme
Court found a constitutional violation because of how
a state drew district lines. In Gomillion, the district at
issue was changed from a square shape “into a
strangely irregular twenty-eight-sided figure. . . . The
essential inevitable effect of this redefinition of [the
City of] Tuskegee’s boundaries is to remove from the
city all save only four or five of its 400 Negro voters
while not removing a single white voter or resident.”
Id. at 341. The Court held that the plaintiffs stated a

App. 220
claim that the redrawing of the boundaries around
Tuskegee violated the Fifteenth Amendment. Id. at
345–47. Justice Whittaker took a different approach;
he noted the fact that those removed from Tuskegee
were not actually deprived of the right to vote under
the Fifteenth Amendment; indeed, they could still cast
a vote, just not in Tuskegee. See id. at 349 (Whittaker,
J., concurring). Instead, Justice Whittaker concluded
that the State violated the Equal Protection Clause of
the Fourteenth Amendment by fencing out black voters
from one political subdivision and placing them into
another. Id. (Whittaker, J., concurring). Years later,
the Supreme Court conclusively adopted this view in
its racial-gerrymandering jurisprudence. See Shaw v.
Reno, 509 U.S. 630, 644–45 (1993) (“This Court’s
subsequent reliance on Gomillion in other Fourteenth
Amendment cases suggests the correctness of Justice
Whittaker’s view.”).
The upshot is that, although the federal courts’ role
in redistricting may be an “unwelcome obligation,”
Connor v. Finch, 431 U.S. 407, 415 (1977), it is an
obligation nonetheless—and for good reason. As the
Supreme Court has recognized, the right to vote “is
preservative of other basic civil and political rights,”
and therefore, “any alleged infringement of the right of
citizens to vote must be carefully and meticulously
scrutinized.” Reynolds, 377 U.S. at 562. Critically, “the
right of suffrage can be denied by a debasement or
dilution of the weight of a citizen’s vote just as
effectively as by wholly prohibiting the free exercise of
the franchise.” Id. at 555. Contrary to the Colegrove
plurality’s concerns, courts have not been involving
themselves in politics or picking winners and losers;

App. 221
rather, courts have protected the right to vote from
infringement by political actors who, history has
shown, attempt to manipulate elections laws to their
advantage and to disadvantage a disfavored group.
Sometimes, courts must level the playing field.
2. Partisan gerrymandering is not a selflimiting enterprise
Experience has proven that the view that “political
gerrymandering is a self-limiting enterprise” is
incorrect. See Bandemer, 478 U.S. at 152 (O’Connor, J.,
concurring in the judgment). The reasoning under this
position went as follows:
In order to gerrymander, the legislative majority
must weaken some of its safe seats, thus
exposing its own incumbents to greater risks of
defeat—risks they may refuse to accept past a
certain point. Similarly, an overambitious
gerrymander can lead to disaster for the
legislative majority: because it has created more
seats in which it hopes to win relatively narrow
victories, the same swing in overall voting
strength will tend to cost the legislative majority
more and more seats as the gerrymander
becomes more ambitious.
Id. (citations omitted). But this view did not
contemplate two factors: advances in (1) technology and
(2) methods for collecting data on voters, whose party
affiliation is stable and whose behavior is increasingly
predictable.
First, “technology makes today’s gerrymandering
altogether different from the crude linedrawing of the

App. 222
past. New redistricting software enables pinpoint
precision in designing districts.” Gill, 138 S. Ct. at 1941
(Kagan, J., concurring). Consequently, “[g]errymanders
have . . . become ever more extreme and durable,
insulating officeholders against all but the most titanic
shifts in the political tides.” Id. That is, increasingly
sophisticated technology and mapdrawing methods
have allowed the parties to maximize the number of
seats, while minimizing the risks mentioned above.
Evidence in the record shows that this is what
happened during the Ohio 2010 redistricting cycle. See
Trial Ex. P385 (Congressional Redistricting Talking
Points at LWVOH_0052438) (“Given [Ohio’s political
geography], it is a tall order to draw 13 ‘safe’ seats.
Speaker[] Boehner’s team worked on several concepts,
but this map is the one they felt put the most number
of seats in the safety zone given the political geography
of the state, our media markets, and how to best
allocate caucus resources.”). And the actual election
results—with Republicans winning the same twelve
seats and Democrats winning the same four seats in
each election—confirm that the map drawers were
successful. “The technology will only get better, so the
2020 cycle will only get worse.” Gill, 138 S. Ct. at 1941
(Kagan, J., concurring).
Second, as technology has advanced, so too have
methods for collecting data on voters. See David W.
Nickerson & Todd Rogers, Political Campaigns and Big
Data, 28 J. ECON. PERSP. 51 (2014) (“The techniques
used as recently as a decade or two ago by political
campaigns to predict the tendencies of citizens appear
extremely rudimentary by current standards.”). The
improved efficiency of data collection and predictive

App. 223
methods “has led the political parties to engage in an
arms race to leverage ever-growing volumes of data to
create votes.” Id. at 51. For example, political
campaigns utilize state voter-registration databases
that are supplemented with a variety of consumer data
from commercial data brokers, and the need to store,
manage, and analyze all this data has created “a new
breed of political consulting firms . . . .” Ira S.
Rubenstein, Voter Privacy in the Age of Big Data, 2014
WIS. L. REV. 861, 867–77 (2014). And “[i]n the 2012
election cycle, an emerging trend for these firms was
the formation of new partnerships with online
advertising firms that specialized in tracking people on
the web.” Id. at 877. Moreover, although a voter’s
partisanship is not immutable per se, research has
shown that, in fact, political affiliation is stable and
predictable. See, e.g., Corwin D. Smidt, Polarization
and the Decline of the American Floating Voter, 61 AM.
J. POL. SCI. 365 (2017) (“Greater clarity of party
differences . . . makes Americans less open to a change
in their behavior and ultimately more reliable in which
party they support across time.”); DONALD GREEN ET
AL., PARTISAN HEARTS AND MINDS 3, 11 (2002) (finding
that, often, “sharp partisan differences eclipse
corresponding sex, class, or religion effects” and that
“partisanship tends to be stable among adults”). Voters,
of course, think for themselves—the point is simply
that, once voters adopt a particular political affiliation,
their choice is fairly solidified and highly predictive of
voting behavior. Accordingly, modern political parties
and their map drawers utilize increasingly vast
amounts of increasingly precise voter data.

App. 224
These developments have allowed the political
parties to achieve the maximum number of safe seats
through a gerrymander, while simultaneously
minimizing the risks of creating an “overambitious
gerrymander.” See Bandemer, 478 U.S. at 152
(O’Connor, J., concurring in the judgment). The result
is that, even more so than in the 2000 redistricting
cycle, “the increasing efficiency of partisan redistricting
has damaged the democratic process to a degree that
our predecessors only began to imagine.” See Vieth, 541
U.S. at 345 (Souter, J., dissenting). The courts ought
not leave disfavored voters at the mercy of advancing
technology when a party in power exploits that
technology to draw district lines with “the purpose and
effect of imposing burdens on a disfavored party and its
voters,” see id. at 315 (Kennedy, J., concurring in the
judgment), and “to dictate electoral outcomes,” see
Thornton, 514 U.S. at 833–34.
3. Gerrymandering’s long history734
It is true that “[p]olitical gerrymanders are not new
to the American scene,” Vieth, 541 U.S. at 274
(plurality), but a deeper dive into its long history
demonstrates that it has not simply been accepted
throughout our political past. Furthermore, “our
inquiry is sharpened rather than blunted by the fact
that” partisan gerrymandering has been frequent and

734

For additional background information, see Brief for Historians
as Amicus Curiae Supporting Appellees, Gill v. Whitford, 138 S.
Ct. 1916 (2018) (No. 16-1161). We utilize some of the historical
material referenced therein.

App. 225
become increasingly efficient. See I.N.S. v. Chadha, 462
U.S. 919, 944 (1983).
At the outset, we note that gerrymandering’s
history during the Founding is somewhat distinct from
the specific context of partisan gerrymandering, which,
of course, requires parties. That is because “[t]he idea
of political parties . . . was famously anathema to the
Framers, as it had long been in Western political
thought.” Daryl J. Levinson & Richard H. Pildes,
Separation of Parties, Not Powers, 119 HARV. L. REV.
2312, 2320 (2006). Yet even though “the Framers had
attempted to design a ‘Constitution Against Parties,’”
they almost immediately organized into two coalitions.
Id. (citation omitted). “Political affiliations initially
were much more informal and localized, and did not
evolve into the more organized form we commonly
associate with parties until the Jacksonian Era in the
1830s.” James Thomas Tucker, Redefining American
Democracy: Do Alternative Voting Systems Capture the
True Meaning of “Representation”?, 7 MICH. J. RACE &
L. 357, 427 (2002). But even though political parties
are not mentioned in the Constitution, the Supreme
Court has stepped in to protect the parties and their
supporters against state laws that infringe on their
constitutional rights. See, e.g., Calif. Democratic Party
v. Jones, 530 U.S. 567 (2000) (striking down
California’s blanket primary law because it violated the
parties’ First Amendment right of association);
Tashjian, 479 U.S. 208 (striking down Connecticut’s
closed primary law for the same reason). In any event,
once parties began to take shape, they were both
victims of gerrymandering (i.e., the disfavored party’s

App. 226
voters in the electorate) and participants
gerrymandering (i.e., the party in government).

in

Although gerrymandering may have a long history
in the United States, those close to the Founding
strongly denounced the practice. After an 1812
Democratic-Republican gerrymander in Massachusetts,
for example, the citizens in one county petitioned the
legislature “to ‘alter’ the [redistricting] law which they
characterized as ‘unconstitutional, unequal, and
unjust.’” ELMER C. GRIFFITH, THE RISE AND
DEVELOPMENT OF THE GERRYMANDER 71 (1907)
(citation omitted). The Federalists viewed the
gerrymander as “a blow at the constitution and a
travesty upon the Bill of Rights when it allowed the
minority to govern.” Id. As for the district that spawned
the “portmanteau” of “gerrymander,”735 the newspaper
that published the now famous political cartoon of the
“Gerry-Mander” stated that “This Law inflicted a
grievous wound on the Constitution . . . .” The GerryMander, or Essex South District Formed into a
Monster!, SALEM GAZETTE, Apr. 2, 1813. On the other
side of the aisle, the Federalists also engaged in
gerrymandering. In New Jersey, Republicans saw an
1812 redistricting law as “a ‘deadly poisoned arrow,
levelled with certain aim at the inestimable right of
suffrage.’” ROSEMARIE ZAGARRI, THE POLITICS OF SIZE:

735

See Ariz. State Legislature, 135 S. Ct. at 2658 n.1 (“The term
‘gerrymander’ is a portmanteau of the last name of Elbridge Gerry,
the eighth Governor of Massachusetts, and the shape of the
electoral map he famously contorted for partisan gain, which
included one district shaped like a salamander.”) (citing GRIFFITH,
supra at 16–19).

App. 227
REPRESENTATION IN THE UNITED STATES, 1776–1850, at
117 (1987) (citation omitted). Thus, despite both sides
condemning the practice as unconstitutional, the
parties continued to engage in a retaliatory tit-for-tat.
Criticism of gerrymandering persisted into the late1800s. James Garfield, then a member of the U.S.
House of Representatives, admitted that he benefitted
from gerrymandering in Ohio. Then-Representative
Garfield stated:
[N]o man, whatever his politics, can justly
defend a system that may in theory, and
frequently does in practice, produce results such
as these. . . . There are about ten thousand
Democratic voters in my district, and they have
been voting there . . . without any more hope of
having a Representative on this floor than of
having one in the Commons of Great Britain. . . .
I think they ought to have more hope. The
Democratic voters in the nineteenth district of
Ohio ought not by any system to be absolutely
and permanently disenfranchised.
41 CONG. GLOBE, 41st Cong., 2d Sess., 4737 (June 23,
1870) (statement of Rep. James A. Garfield). President
Benjamin Harrison similarly criticized
gerrymandering. In his Third Annual Message,
President Harrison recognized that “the primary intent
and effect of this form of political robbery have relation
to the selection of members of the House of

App. 228
Representatives.” President Benjamin Harrison, Third
Annual Message (Dec. 9 1891).736 He explained:
If I were called upon to declare wherein our chief
national danger lies, I should say without
hesitation in the overthrow of majority control
by the suppression or perversion of the popular
suffrage. That there is a real danger here all
must agree; but the energies of those who see it
have been chiefly expended in trying to fix
responsibility upon the opposite party rather
than in efforts to make such practices impossible
by either party.
Id. Gerrymandering thus raised concerns about the
disfavored party’s (often the minority party’s)
representational rights and the right to vote.
Significantly, in the late-nineteenth century, State
Supreme Courts did not close their courthouse doors to
challenges to gerrymandered maps. In Wisconsin, the
State Supreme Court declared that the challenged
“apportionment act violates and destroys one of the
highest and most sacred rights and privileges of the
people of this state, guarantied to them by the
ordinance of 1787 and the constitution, and that is
‘equal representation in the legislature.’” See State ex
rel. Att’y Gen. v. Cunningham, 51 N.W. 724, 729 (Wis.
1892). The court further explained that:
If the remedy for these great public wrongs
cannot be found in this court, it exists nowhere.
736

Available at: https://millercenter.org/the-presidency/
presidential-speeches/december-9-1891-third-annual-message-0.

App. 229
It would be idle and useless to recommit such an
apportionment to the voluntary action of the
body that made it. But it is sufficient that these
questions are judicial and not legislative. The
legislature that passed the act is not assailed by
this proceeding, nor is the constitutional
province of that equal and co–ordinate
department of the government invaded. The law
itself is the only object of judicial inquiry, and its
constitutionality is the only question to be
decided.
Id. at 730. The same year, the Indiana Supreme Court
also struck down its State’s legislative redistricting
law. See Parker v. State ex rel. Powell, 32 N.E. 836, 843
(Ind. 1892). These cases further bolster the ahistorical
nature of the claim that gerrymandering has been an
accepted practice in American history.
Early gerrymanders often shared a notable
attribute—the party in power drew maps in its favor
with malapportioned districts. See, e.g., GRIFFITH,
supra at 8 (“A gerrymander is intended to disfranchise
the majority or to secure [the majority] an influence
disproportionate to its size.”); see also id. at 72–73;
ZAGARRI, supra at 115–16 (“No longer able to count on
a statewide majority, [Federalists] supported a vastly
inequitable districting plan designed to elect as many
Federalists as possible. The first district, for example,
was to contain approximately 30 percent more people
than the third district and over 20 percent more than
the second and fourth districts.”). Of course, voters
could not even challenge such districting schemes in
federal court until the Supreme Court decided

App. 230
Gomillion and Baker v. Carr. And after the one-person,
one-vote cases, legislatures’ focus on gerrymandering
shifted from malapportionment to other contexts, such
as gerrymandering based solely on political affiliation.
Accordingly, given that gerrymandering’s
constitutionality has been questioned essentially since
its inception and that the federal courts have played a
role in overseeing redistricting since Gomillion and
Baker v. Carr, we do not give great weight to the fact
that “[p]olitical gerrymanders are not new to the
American scene.” See Vieth, 541 U.S. at 274 (plurality).
Gerrymandering’s history, however, provides
greater clarity to the current problem. Historical
examples of gerrymanders often involved “crude
linedrawing.” See Gill, 138 S. Ct. at 1941 (Kagan, J.,
concurring). Today, the practice is far more efficient
and precise, which has resulted in gerrymanders that
are more extreme and durable. See supra Section
IV.C.2. Indeed, evidence in this case shows just that.
See infra Sections V.A.2., V.C.2. If historically partisan
gerrymandering was a self-limiting enterprise, that is
increasingly not the case today. Moreover, because
gerrymandering has persisted over time, comparative
analyses can be done that show the gerrymanders of
today are generally historical outliers and can
withstand fluctuating statewide votes. Again, the
evidence here shows that this applies to Ohio. See
supra Section II.C.1.; infra Sections V.A.2.b., V.C.2.a.
In sum, the long history of gerrymandering does not
show that the practice has been “accepted,” and, in fact,
history allows courts to compare today’s gerrymanders
to past ones and thus better to understand the scope
and gravity of the problem.

App. 231
4. Alternative state remedies
At one time, the Supreme Court “long resisted any
role in overseeing the process by which States draw
legislative districts. ‘The remedy for unfairness in
districting,’ the Court once held, ‘is to secure State
legislatures that will apportion properly, or to invoke
the ample powers of Congress.’” Evenwel v. Abbott, 136
S. Ct. 1120, 1123 (2016) (quoting Colegrove, 328 U.S. at
556 (plurality)) (emphasis added). Defendants seek to
revive this argument that remedies in the states
foreclose judicial intervention. See Dkt. 252 (Defs.’ &
Intervenors’ Post-Trial Br. at 41–42, 45). After Baker v.
Carr, however, the Supreme Court essentially rejected
this reasoning and “confronted [the] ingrained
structural inequality [of malapportionment] . . . .” See
Evenwel, 136 S. Ct. at 1123.
Today, we recognize that some states have adopted
various approaches to attempt to curtail partisan
gerrymandering. See, e.g., Ariz. State Legislature, 135
S. Ct. at 2662 & nn. 6–9 (surveying state constitutional
provisions and state statutes);737 MICH. CONST. art. 4,
§ 6; COLO. CONST. art. 5, § 44; OHIO CONST. art. 19,
§§ 1–2; UTAH CODE ANN. § 20A-19-103. State Supreme
Courts have stepped in, too. See, e.g., League of Women
Voters v. Commonwealth, 178 A.3d 737 (Pa. 2018); cf.
737

We observe that Arizona State Legislature cited Ohio as an
example. See OHIO REV. CODE § 103.51 (creating a legislative task
force on redistricting). But this statute did not remove the political
parties from the redistricting process (nor did it foster a truly
bipartisan map-drawing process). The facts of this case clearly
show that the political parties and the legislators still draw the
maps.

App. 232
People ex rel. Salazar v. Davidson, 79 P.3d 1221 (Colo.
2003) (holding that reredistricting mid-decade was
unconstitutional under the State Constitution, thus
adopting a principle similar to that which the Supreme
Court rejected in LULAC). But rather than militating
against judicial intervention, the movement in the
states on the issue of partisan gerrymandering, in
addition to decisions by other three-judge panels, can
help inform our consideration of the underlying
principles involved in this case. Cf. Obergefell v.
Hodges, 135 S. Ct. 2584, 2596–97 & Apps. A–B (2015)
(collecting state and federal judicial decisions and state
statutes that “help[ed] to explain and formulate the
underlying principles” that the Supreme Court
considered in that case). Simply put, the fact that some
specific states are addressing this issue does not
preclude the federal courts from performing their “role
in overseeing the process by which States draw
legislative districts” or from performing their role in
vindicating federal rights. See Evenwel, 136 S. Ct. at
1123. Further, to state the obvious, if the allegation is
that the State has perpetrated a constitutional
violation, then it would be absurd to decline to
adjudicate the claims on the basis that plaintiffs must
seek a remedy with the entity that committed the
alleged violation in the first place. The recently passed
state measures that allow for independent or truly
bipartisan redistricting, however, might potentially
limit the necessity of federal court intervention in the
next redistricting cycle.
***

App. 233
Finally, many of the same arguments that were
lodged against judicial intervention in other forms of
gerrymandering over fifty years ago are the same as
those presented to us today:
We are told that the matter of apportioning
representation in a state legislature is a complex
and many-faceted one. We are advised that
States can rationally consider factors other than
population in apportioning legislative
representation. We are admonished not to
restrict the power of the States to impose
differing views as to political philosophy on their
citizens. We are cautioned about the dangers of
entering into political thickets and
mathematical quagmires.
Reynolds, 377 U.S. at 566. At bottom, we borrow our
answer from the Supreme Court. “When a State
exercises power wholly within the domain of state
interest, it is insulated from federal judicial review.
But such insulation is not carried over when state
power is used as an instrument for circumventing a
federally protected right.” Id. (quoting Gomilion, 364
U.S at 347).
As stated previously, in Vieth, four justices
nonetheless thought that the Supreme Court’s and the
lower courts’ inability to shape a substantive standard
counseled against the justiciability of partisangerrymandering claims. Vieth, 541 U.S. at 278–79
(plurality). In the years since Vieth, federal district
courts have shaped such standards. We now turn to
those governing legal principles.

App. 234
V. LEGAL STANDARDS AND APPLICATION
As a threshold matter, we conclude that the legal
and evidentiary standards below shore up various
deficiencies found by the Supreme Court in prior
partisan-gerrymandering cases. First, our analysis is
based on results across several election cycles, which
shows that the current map’s partisan effects are
durable and largely impervious to fluctuations in voter
preferences. See Gill, 138 S. Ct. at 1927 (citing
Bandemer, 478 U.S. at 135 (plurality)). Second, this
analysis is not based solely on hypothetical election
results. See Gill, 138 S. Ct. at 1928 (citing LULAC, 548
U.S. at 419 (opinion of Kennedy, J.)). Apart from the
measures of asymmetry in the vote-seat curve, every
other metric utilized by Dr. Warshaw is grounded in
actual election results, and these metrics illuminate
the extent of partisan bias that occurs in the current
(not hypothetical) state of affairs. Third, we do not view
the analysis adopted here and by other three-judge
panels as leading inexorably to striking down every
map in the country. Although we do not explicitly adopt
Dr. Warshaw’s requirements that must be present to
classify a map a partisan gerrymander, we find them
instructive. Under that rubric, a map is a partisan
gerrymander only if there is one-party control of
redistricting, the party in control party is favored by
the map, the partisan-bias metrics all point in the
same direction and point toward an advantage for the
party that controlled the redistricting, and the
redistricting plan is an historical outlier in its partisan
effects. Courts determining how the evidence in any
given case applies to the test that we elaborate and
employ today may also consider these factors, which we

App. 235
find important in our ultimate determination.
Acknowledging that the partisan-bias metrics offer a
range of results, then, is not to say that use of those
metrics will necessarily result in courts striking down
every challenged map.
A. Equal Protection Vote-Dilution Claim
1. Legal standard
A state’s partisan gerrymander violates the Equal
Protection Clause of the Fourteenth Amendment when
it “den[ies] to any person within [the State’s]
jurisdiction the equal protection of the laws.” U.S.
CONST. amend. XIV. Partisan gerrymanders violate
equal protection by electorally disadvantaging the
supporters of the party that lacked control of the
districting process because of their support of that
party. See Rucho, 318 F. Supp. 3d at 860.
We adopt the three-part test to prove a violation of
the Fourteenth Amendment’s Equal Protection Clause
in a partisan-gerrymandering claim. Plaintiffs must
prove (1) a discriminatory partisan intent in the
drawing of each challenged district and (2) a
discriminatory partisan effect on those allegedly
gerrymandered districts’ voters. Bandemer, 478 U.S. at
127 (plurality op.); id. at 161 (Powell, J., concurring
and dissenting). Then, (3) the State has an opportunity
to justify each district on other, legitimate legislative
grounds. See Rucho, 318 F. Supp. 3d at 861 (citing
Bandemer, 478 U.S. at 141–42) (plurality op.));
Whitford, 218 F. Supp. 3d at 910–27.

App. 236
a. Intent
To prove the first prong, Plaintiffs must
demonstrate that those in charge of the redistricting
“acted with an intent to ‘subordinate adherents of one
political party and entrench a rival party in power.”
Rucho, 318 F. Supp. 3d at 862 (quoting Ariz. State
Legislature, 135 S. Ct. at 2658). It is not enough for
Plaintiffs to show merely that the map drawers
“rel[ied] on political data or [took] into account political
or partisan considerations,” id., because the Supreme
Court has acknowledged that political considerations
may sometimes have a place in districting, Karcher,
462 U.S. at 739 (“We have never denied that
apportionment is a political process, or that state
legislatures could pursue legitimate secondary
objectives as long as those objectives were consistent
with a good-faith effort to achieve population equality
at the same time.”). For example, map drawers may
design maps in a nondiscriminatory manner to avoid
pairing incumbents, Karcher, 462 U.S. at 740, to
“achieve a rough approximation of the statewide
political strengths of the Democratic and Republican
parties,” Gaffney, 412 U.S. at 752, or to keep intact
political subdivisions, Abrams v. Johnson, 521 U.S. 74,
100 (1997). But these approved uses of political or
partisan data differ enormously from employing
historical partisan data to expertly vivisect a state’s
voter population to extract the most partisan
advantage possible. See Gaffney, 412 U.S. at 754
(noting potential constitutional infirmities “if racial or
political groups have been fenced out of the political
process and their voting strength invidiously
minimized”).

App. 237
Plaintiffs argue that they must demonstrate only
that partisan intent was a motivating factor for the
redistricting scheme, not that it predominated over all
other aims. See Dkt. 251 (Pls.’ Post-Trial Br. at 31 n.8).
Defendants do not engage in the debate on the proper
level of intent. They disavow any accusation of partisan
intent and claim that their main motivations in
drawing the 2012 map were the protection of
incumbents and a desire “to preserve and advance
minority electoral prospects.” See Dkt. 252 (Defs.’ &
Intervenors’ Post-Trial Br. at 4–27).
The Supreme Court has given conflicting indications
of which level of intent plaintiffs must show in such a
claim. Some cases suggest that partisan intent as a
mere motivating factor is enough. For example, in
Bandemer, the Court required political-gerrymandering
plaintiffs to show “intentional discrimination against
an identifiable political group,” and did not specify that
intentional discrimination must predominate over
other aims. Bandemer, 478 U.S. at 127 (plurality op.).
In Vieth, the Supreme Court criticized the proposed
predominant-purpose standard in the politicalgerrymandering context. 541 U.S. at 284–86 (plurality
op.); id. at 308 (Kennedy, J., concurring). Village of
Arlington Heights v. Metropolitan Housing
Development Corp. and its progeny require only that
the discriminatory purpose be “a motivating factor in
the decision.” 429 U.S. 252, 265–66 (1977).
Other Supreme Court cases suggest that partisan
intent must predominate over other goals in the
redistricting. For example, Shaw racialgerrymandering claims alleging violations of the

App. 238
Fourteenth Amendment require proof that “race was
the predominant factor motivating the legislature’s
decision to place a significant number of voters within
or without a particular district.” Miller, 515 U.S. at 916
(emphasis added). Yet, “the Supreme Court expressly
has characterized Shaw-type racial-gerrymandering
claims as ‘”analytically distinct” from a vote dilution
claim’” of the type that Plaintiffs here bring. Rucho,
318 F. Supp. 3d at 863 (quoting Miller, 515 U.S. at
911). Shaw racial-gerrymandering claims do not
require plaintiffs to prove that the disparate electoral
treatment was invidious, only that it existed. See
Miller, 515 U.S. at 904. In other cases, in which the
plaintiff claims that a state enacted a voting scheme to
“invidiously discriminate on the basis of race,” the
Supreme Court has not required a showing that the
invidious discrimination was the predominant purpose
of the scheme. Rucho, 318 F. Supp. 3d at 846 (citing
Miller, 515 U.S. at 911; Mobile v. Bolden, 446 U.S. 55,
66 (1980) (plurality op.)). In partisan-gerrymandering
claims, the disparate treatment must be invidious.
Ariz. State Legislature, 135 S. Ct. at 2658. “That a
partisan gerrymandering plaintiff must meet the
heightened burden of showing invidiousness weighs
heavily against extending the predominance
requirement for Shaw-type racial gerrymandering
claims to partisan gerrymandering claims.” Rucho, 318
F. Supp. 3d at 864.
We observe that district courts have not uniformly
adopted either the “motivating factor” or “predominant
purpose” standard for intent in partisangerrymandering cases. Compare Benson, 2019 WL
1856625, at *27 & n.33 (predominant-purpose test),

App. 239
and Rucho, 318 F. Supp. 3d at 860–68 (same), with
Whitford, 218 F. Supp. 3d at 887 (motivating-factor
test). In Rucho, the district court reasoned that the
Supreme Court relied heavily on Shaw racialgerrymandering claims in its most recent partisangerrymandering case, Gill, and therefore adopted
Shaw’s predominance requirement. 318 F. Supp. 3d at
864. In Benson, the district court similarly chose the
predominant-purpose standard due to Gill’s reliance on
racial-gerrymandering cases that employ the standard.
Benson, 2019 WL 1856625, at *27 & n.33. The district
court in Whitford, however, distinguished the Shaw
racial-gerrymandering cases. 218 F. Supp. 3d at 887
n.171. It relied on Arlington Heights in requiring only
that plaintiffs demonstrate that partisan intent was a
motivating factor in the line drawing, not the “‘sole[]’
intent or even ‘the “dominant” or “primary” one.’” Id. at
887–88 (quoting Arlington Heights, 429 U.S. at 265).
The district court in Gill reasoned that “it rarely can
‘be said that a legislature or administrative body
operating under a broad mandate made a decision
motivated by a single concern,’” and acknowledged that
a plethora of factors animate decisions in the major
undertaking of redistricting. Id. at 888 (quoting
Arlington Heights, 429 U.S. at 265).
In the absence of clear guidance from the Supreme
Court and given the connections the Court has recently
drawn in Gill between partisan- and racialgerrymandering cases, we follow Benson and Rucho in
electing the predominant-purpose standard. We note,
however, that if Plaintiffs meet the predominantpurpose standard, they necessarily satisfy the
motivating-factor standard as well.

App. 240
Moreover, although courts have acknowledged that
some partisan considerations are possible in the
redistricting process, courts have recognized that
partisan considerations are not included in the
traditional redistricting principles. For example,
excessive partisan considerations cannot serve as a
justification for population deviations for state
legislative redistricting plans, even when the
population deviations are within the 10% safe harbor.
See Larios v. Cox, 300 F. Supp. 2d 1320, 1347–53 (N.D.
Ga.), aff’d mem., 542 U.S. 947 (2004) (concluding that
a state legislative plan violated one-person, one-vote,
relying on the fact that the plan protected only
Democratic incumbents and pitted many Republican
incumbents against each other and that “the defendant
ha[d] not attempted to justify the population deviations
because of compactness, contiguity, respecting the
boundaries of political subdivisions, or preserving the
cores of prior districts.”); Hulme v. Madison County,
188 F. Supp. 2d 1041, 1047–52 (S.D. Ill. 2001)
(concluding that a plan violated one-person, one-vote,
similarly relying on evidence of excessive partisanship
as the reason for a deviation of 9.3% and on the State’s
failure to offer another justification). Larios and Hulme
thus represent examples of courts developing “a
‘second-order’ judicial check on partisan
gerrymandering through the one person, one vote
doctrine.” Michael Kang, Gerrymandering and the
Constitutional Norm Against Government Partisanship,
116 MICH. L. REV. 351, 384 (2017). These cases, and
others post-Vieth, demonstrate that when partisanship
predominates, partisanship is not a legitimate
districting criterion. Id. at 384–90; see also Harris v.
Ariz. Indep. Redistricting Comm’n, 136 S. Ct. 1301,

App. 241
1307 (2016) (“Appellants’ basic claim is that deviations
in their apportionment plan from absolute equality of
population reflect the Commission’s political efforts to
help the Democratic Party. We believe that appellants
failed to prove this claim because, as the district court
concluded, the deviations predominantly reflected
Commission efforts to achieve compliance with the
federal Voting Rights Act, not to secure political
advantage for one party. Appellants failed to show to
the contrary.”); Raleigh Wake Citizens Ass’n v. Wake
Cty. Bd. of Elections, 827 F.3d 333, 345 (4th Cir. 2016)
(“Plaintiffs have proven that it is more probable than
not that the population deviations at issue here reflect
the predominance of a[n] illegitimate reapportionment
factor—namely an intentional effort to create a
significant . . . partisan advantage.”) (internal
quotations and citations omitted).
Plaintiffs may prove discriminatory partisan intent
using a combination of direct and indirect evidence
because “invidious discriminatory purpose may often be
inferred from the totality of the relevant facts.” Rucho,
318 F. Supp. 3d at 862 (quoting Washington, 426 U.S.
at 241); see also Arlington Heights, 429 U.S. at 266. We
scrutinize the map-drawing process to understand
what goals motivated the map’s architects. Direct
evidence of intent may include correspondence between
those responsible for the map drawing, floor speeches
discussing the redistricting legislation and other
contemporaneous statements, and testimony
explaining “[t]he historical background of the decision,”
including the “specific sequence of events leading up to
the challenged decisions.” Arlington Heights, 429 U.S.
at 266. Indirect evidence “that improper purposes are

App. 242
playing a role” in map-drawing decisions may include
“[d]epartures from the normal procedural sequence.”
Id.
Indirect evidence also includes statistical evidence
that demonstrates “a clear pattern” of partisan bias
that would be unlikely to occur without partisan intent
or evidence that the supporters of one political party
were consistently treated differently than the
supporters of another. See id. at 266. Suspect and
irregular splitting of coherent communities of the
disfavored party (cracking) and grouping of members of
the disfavored group (packing) also support an
inference of partisan intent. See North Carolina v.
Covington, 138 S. Ct. 2548, 2553 (2018) (“[A] plaintiff
can rely upon either ‘circumstantial evidence of a
district’s shape and demographics or more direct
evidence going to legislative purpose’ in proving a
racial gerrymandering claim.” (quoting Miller, 515 U.S.
at 913)). “That is particularly true when demographic
evidence reveals that a district’s bizarre lines coincide
with the historical voting patterns of the precincts
included in, or excluded from, the district.” Rucho, 318
F. Supp. 3d at 900. Such irregularities can be also
quantified by low compactness scores and
unnecessarily high numbers of county and municipality
splits. Even though “compactness or attractiveness has
never been held to constitute an independent federal
constitutional requirement for state legislative
districts,” Gaffney, 412 U.S. at 752 n.18, a lack of
compactness or highly irregular district shapes support
an inference that partisan intent motivated the line
drawing, Rucho, 318 F. Supp. 3d at 900.

App. 243
b. Effect
To prove the second prong, discriminatory effect,
Plaintiffs must demonstrate that the plan had the
effect of diluting the votes of members of the disfavored
party by either packing or cracking voters into
congressional districts. In Gill, the Supreme Court
noted that the harm of vote dilution “arises from the
particular composition of the voter’s own district, which
causes his vote—having been packed or cracked—to
carry less weight than it would carry in another,
hypothetical district.” 138 S. Ct. at 1931. A plan
“packs” voters by creating districts that contain far
more supporters of the disfavored party than would be
necessary to elect a candidate from that party, causing
many votes to be “wasted.” See id. at 1924. A plan
“cracks” voters by creating districts that include
carved-off sections of supporters of the disfavored
party, dividing them into separate districts in which
they do not have sufficient numbers to elect their
preferred candidate. Id.; see also Benisek v. Lamone,
348 F. Supp. 3d 493, 514 (2018) (“[A State] can . . .
contract the value of a citizen’s vote by placing the
citizen in a district where the citizen’s political party
makes up a smaller share of the electorate, thereby
reducing the citizen’s chance to help elect a candidate
of choice.”). Packing and cracking can be evaluated
using partisan-bias metrics, which reveal if, and by
how much, the map benefits one party over another by
facilitating the more efficient translation of that party’s
votes into seats.
Plaintiffs may prove discriminatory effect by
offering various types of evidence of packing and

App. 244
cracking. Statewide comparisons that demonstrate that
the challenged map is an historical outlier in its
extreme partisan bias, as measured through the
efficiency gap and other related metrics, are indirect
proof of packing and cracking. See Gill, 138 S. Ct. at
1924 (describing the efficiency gap). Multiple partisanbias metrics should be used, and consistency of results
across metrics and across data sets is key in evaluating
this type of evidence. Plaintiffs should also offer
comparisons between districts in the enacted plan and
the same districts in more competitive hypothetical
plans that did not take into account partisan concerns.
See id. at 1931 (noting that packing and cracking can
be demonstrated through a comparison to “another,
hypothetical district”); id. at 1936 (Kagan, J.,
concurring) (“Among other ways of proving packing or
cracking, a plaintiff could produce an alternative map
(or set of alternative maps)—comparably consistent
with traditional districting principles—under which
her vote would carry more weight.”). Such comparisons
may support the inference that the partisan bias
observed in the enacted map resulted from partisan
intent rather than underlying political geography.
Proof of discriminatory effect is bolstered by
evidence showing that the partisan bias that the plan
engendered was durable—the plan entrenched the
favored party in power. See Ariz. State Legislature, 135
S. Ct. at 2658 (defining partisan gerrymandering as
“the drawing of legislative district lines to subordinate
adherents of one political party and entrench a rival in
power”). An entrenched district is impervious to “the
potential fluidity of American political life.” Jenness v.
Fortson, 403 U.S. 431, 439 (1971); cf. Johnson v. De

App. 245
Grandy, 512 U.S. 997, 1017 (1994) (explaining that, in
the VRA context, “[o]ne may suspect vote dilution from
political famine”). Entrenchment makes it potentially
impossible to “throw the rascals out” and freezes the
status quo, see, e.g., Vieth, 541 U.S. at 356 (Breyer, J.,
dissenting), further diluting the votes of individual
voters. Plaintiffs may show entrenchment by
demonstrating that the partisan bias of the enacted
plan persisted over time. Evidence that a map is
extremely unresponsive or noncompetitive—that voting
patterns can change but the electoral result does
not—helps to prove durability of the partisan effects
and therefore supports an inference of entrenchment.
c. Justification
Next, if Plaintiffs prove these first two prongs
(discriminatory intent and discriminatory effect (i.e.,
packing and cracking)), then the burden switches to
Defendants to present evidence that legitimate
legislative grounds provide a basis for the way in which
each challenged district was drawn. Rucho, 318 F.
Supp. 3d at 867–68; see also Karcher, 462 U.S. at 739,
741 (requiring the State to justify its districting
decisions “with particularity”). This type of evidence
takes aim at Plaintiffs’ intent prong. Defendants may
assert that it was not partisan intent that motivated
the map drawers’ district delineations, but rather a
desire to serve other aims. These legitimate
justifications may include serving traditional
redistricting principles, for example, “making districts
compact, respecting municipal boundaries, preserving
the cores of prior districts, and avoiding contests
between incumbent Representatives[,]” and, “[a]s long

App. 246
as the criteria are nondiscriminatory, these are all
legitimate objectives that on a proper showing could
justify” the drawing of each district. See Karcher, 462
U.S. at 740 (1983) (internal citation omitted). Other
legitimate justifications include “preserving the
integrity of political subdivisions, maintaining
communities of interest,” Evenwel, 136 S. Ct. at 1124,
and compliance with the VRA, see Bethune-Hill v. Va.
State Bd. of Elections, 137 S. Ct. 788, 801 (2017) (“As in
previous cases, . . . the Court assumes, without
deciding, that the State’s interest in complying with
the Voting Rights Act [is] compelling.”); Ala. Legislative
Black Caucus, 135 S. Ct. at 1273–74 (holding that,
when a state invokes the VRA to justify the use of race
in the districting process, the state must have a “strong
basis in evidence” for the position that the state would
otherwise be violating the VRA if it failed to take race
into account as it did).
Defendants may also argue that some other nonpartisan factor caused the map’s partisan effects.
Rucho, 318 F. Supp. 3d at 867. For example,
Defendants may argue that natural political
geography—the patterns in which Democratic and
Republican voters are distributed throughout the
State—explains why a map favors one party or
another. Defendants may also attack the
discriminatory effect prong by using evidentiary
metrics to show that the challenged map does not
actually crack or pack a particular party’s voters in a
manner that is unusual given non-partisan
considerations. For example, Defendants could attempt
to show that the challenged map is not an historical
outlier or that its partisan effects are in line with the

App. 247
partisan effects of non-partisan simulated or
hypothetical maps. Vacillating election outcomes from
election cycle to election cycle under the challenged
map would also be evidence weighing against a finding
of cracking and packing.
We then determine whether the State’s proffered
legitimate justifications or neutral explanations are
credible based on the evidence presented at trial. See
Rucho, 318 F. Supp. 3d at 879 (examining the record
and concluding that it did not support Defendants’
claim that the General Assembly implicitly relied on
certain criteria in making line-drawing decisions); id.
at 897–98 (rejecting the proffered justification of
incumbent protection); see also Benisek, 348 F. Supp.
3d at 514 (finding one justification incongruent with
the “massive shifts of population and the specific
targeting of Republicans”); id. (rejecting the State’s
claim that a district was drawn due to “an expressed
interest in grouping residents along the Interstate 270
corridor” because “there is no evidence that the
presence of an interstate highway . . . was the reason
for the reconfiguration of both the Sixth and Eighth
districts, as distinct from a post-hoc rationalization”).
In deciding whether to credit Defendants’ justifications,
we assess “the consistency with which the plan as a
whole reflects [the asserted] interests, and the
availability [and embrace] of alternatives that might
substantially vindicate those interests.” See Karcher,
462 U.S. at 740–41. We also weigh the evidence to
determine whether any neutral explanation for
partisan effect accounts for the partisan effects
observed. See Rucho, at 896–97 (rejecting the proffered

App. 248
justification of “natural packing” in North Carolina’s
political geography).
2. Application
Plaintiffs have demonstrated predominant partisan
intent and partisan effect to support their First and
Fourteenth Amendment vote-dilution claims. We first
discuss evidence that applies broadly across all
districts and then delve into the particularities of each
district. We next analyze the justifications that
Defendants have offered addressing both the intent
behind the map and its partisan effects. We conclude
that the proffered justifications either are inconsistent
with the evidence, simply not credible, or do not
meaningfully explain the design or effects of the 2012
map.
a. Statewide evidence of intent
Several different types of evidence come together to
tell a cohesive story of a map-drawing process
dominated by partisan intent—the invidious desire to
disadvantage Democratic voters and advantage
Republican voters to achieve a map that was nearly
certain consistently to elect twelve Republican
Representatives and four Democratic Representatives.
See Washington v. Davis, 426 U.S. 229, 242 (1976)
(“[I]nvidious discriminatory purpose may often be
inferred from the totality of the relevant facts.”). We
examine evidence of the timeline and logistics of the
map-drawing process, the map drawers’ heavy use of
partisan data, contemporaneous statements made by
the map drawers about their efforts, the characteristics
of the map itself (including the irregular shape of the

App. 249
districts, their lack of compactness, and the high
number of county and municipality splits), and finally,
the outlier partisan effects that the map has produced
since its enactment. When assembled, this evidence
paints a convincing picture that partisan intent
predominated in the creation of the 2012 congressional
map.
i. Map-drawing process
“Departures from the normal procedural sequence”
may serve as proof “that improper purposes are playing
a role” in the map drawers’ work. Arlington Heights,
429 U.S. at 267. We conclude that the map-drawing
process was rife with procedural irregularities and
suspect behavior on the part of the map drawers, all of
which support an inference of predominant partisan
intent.
There was a severe disconnect between the outward
face of the map-drawing process and its true inner
workings. Publicly, the House and Senate
Subcommittees on Redistricting held regional hearings
across Ohio ostensibly to solicit the input of Ohioans on
the 2012 map. Yet, no draft maps were presented to the
public at these meetings, and the public therefore could
not even react to or comment on the drafts. In fact,
State Senator Faber, the co-chairman of the Select
Committee on Redistricting, testified that “the Select
Committee on Redistricting didn’t do much with regard
to the actual redistricting. . . . I’m not even sure we
issued a report.”738 See Rucho, 318 F. Supp. 3d at 869

738

Dkt. 230-13 (Faber Dep. at 21–22).

App. 250
(finding a procedural irregularity in the fact that
“notwithstanding that the Committee held public
hearings and received public input, [the expert who
drew the map] never received, much less considered,
any of that input in drawing the 2016 plan” and finding
that procedural irregularity probative of intent).
At the same time, in a room at the DoubleTree
Hotel in Columbus, Republican map drawers worked
on the map but declined to share drafts of it with the
public, Democratic legislators, and most members of
their own Party. They finally shared the map with
other state legislators immediately prior to its
introduction in the House. This late notice was in part
necessitated by the fact that national Republicans such
as Tom Whatman were requesting changes to the map
as late as 9:28 PM on Monday, September 12, 2011, the
evening before the bill was introduced.739 It was also
the result of the map drawers’ strategic decision to
“[h]old it ‘in the can’” until the legislature returned in
September.740
The deep involvement of national Republican
operatives in the map-drawing process is an additional
irregularity that serves as evidence of partisan intent.
Ohio Republicans were in contact with national
Republican Party operatives well before the mapdrawing process began. National Republicans
instructed the Ohio map drawers to maintain the

739

740

Trial Ex. P128 (Sept. 12, 2011 email at LWVOH_00018322).

Trial Ex. P112 (Congressional redistricting timeline at
DIROSSI_0000140).

App. 251
plan’s secrecy, taught the Ohio map drawers how to use
Maptitude, and provided them with additional partisan
data and assistance in working with the data they were
provided. National Republican operatives repeatedly
met with Judy, Mann, and DiRossi, and were in
regular communication with them during the mapdrawing process.
Importantly, the national Republican operatives did
not merely play a supporting role in the map drawing.
Rather, they generated foundational strategies that
played key roles in the map. For example, it was Tom
Whatman’s and Adam Kincaid’s idea to create a new
Democratic district in the Columbus area (District 3) in
order to solidify Republican seats in Districts 12 and
15. Whatman also made the decision that the
Republican incumbents to be paired were Congressmen
Turner and Austria because that was “the right thing
for Republicans for the next decade.”741 The Ohio
Republican map drawers displayed deference to their
national Republican counterparts in their email
correspondence. Mann and DiRossi cleared changes to
the map with Whatman prior to implementing them.
Whatman requested changes to the map on the eve of
its introduction, and the Ohio map drawers
accommodated his request. The evidence suggests that
many of the big ideas for the 2012 map scheme were
generated in Washington, D.C., and then
communicated to the Republican consultants in the
DoubleTree in Columbus. We conclude that the level of
control asserted by national Republican operatives in
a redistricting delegated to the State of Ohio’s General
741

Trial Ex. P407 (Sept. 7, 2011 email at LWVOH_0052432).

App. 252
Assembly raises the inference that pro-Republican
partisan intent dominated the process.
ii. Heavy use of partisan data
Plaintiffs introduced testimonial evidence that the
map drawers relied heavily on partisan data as they
drew the 2012 map. We find the evidence of the heavy
reliance on partisan data in the map-drawing process
highly persuasive. See Benisek, 348 F. Supp. 3d at
517–18 (finding partisan intent, noting that “[r]eliance
on the [Democratic Performance Index] in finalizing a
map was essential to achieving the specific intent to
flip the Sixth District from safely Republican to likely
Democratic”); Rucho, 318 F. Supp. 3d at 869–70
(finding the map drawers’ creation of a partisan index
and use of it in drawing the districts indicative of
partisan intent).
First, partisan data, along with other demographic
data, was constantly displayed on the map drawers’
computer screens as they did their work on Maptitude.
As they drew and altered congressional district lines,
the partisan leanings of the resulting districts would
automatically update in real time.
Second, the Republican map drawers created
various partisan indices through which they could
measure the likely partisan outcomes of their draft
maps, and the compositions of the indices are
themselves proof of the map drawers’ partisan intent.
The Unified Index, upon which they relied heavily,
averaged the results of five races, overall reflecting a
partisan landscape more favorable to the Democratic
Party than an index that would have included a fuller

App. 253
set of elections from the decade preceding the
redistricting.742 The 2008 McCain Index similarly
reflected an election in which Democrats had
performed very well. Using these indices to predict
partisan outcomes of draft maps therefore allowed the
map drawers a margin of error—if Republican victories
were predicted using the Unified Index and the 2008
McCain Index’s Democrat-friendly numbers, they
would be likely to withstand Democratic wave years
and be sure to elect Republicans in average years.
These indices had the added benefit of making draft
maps look more competitive than they actually were to
the untrained eye. In fact, in public statements
defending the competitiveness of the map,
Representative Huffman stated that “11 of the 16 races
are competitive if you use the 2008 Presidential Race
as a guide.”743
Third, communications between the Ohio map
drawers and their national Republican counterparts
demonstrate that partisan outcomes were undoubtedly
foremost in their minds when making line-drawing
decisions. See Rucho, 318 F. Supp. 3d at 870 (finding
the fact that one map drawer’s “appraisal of the various
draft plans provided by [the map-drawing expert]
focused on such plans’ likely partisan performance”
probative of partisan intent). For example, DiRossi
updated President Niehaus, Senator Faber, and Matt
Schuler on his work on the map only days before the
introduction of H.B. 319, informing them that the
742

Dkt. 247 (Hood Trial Test. at 222–24).

743

Trial Ex. J22 (Rep. Huffman Sponsor Test. at 001).

App. 254
“Index for Latta fell two one hundreds [sic] of a point to
51.33” and the “Index for Jordan rose three one
hundredth of a point to 53.26.”744 Later that morning,
DiRossi followed up, stating that due to the change he
had earlier implemented “a good part of Lucas [County]
[Latta] is picking up is [R]epublican territory.”745
DiRossi responded again with more partisan
information later the same morning, breaking down the
partisan leanings of the people in specific sections of
Lucas County that DiRossi had just assigned to Latta’s
new district—”123,289 from Lucas County suburbs
(49.13% 08 pres index) and 110,786 from Toledo wards
(36.11% 08 pres index).”746 This series of emails
demonstrates the Republican map drawers’ acute
awareness of and concern about small impacts that line
changes had on the map’s partisan score as they tried
to finesse the lines to ensure Republican voter
majorities for Republican Congressmen Jordan and
Latta. They thought it was important to know, for
example, that the voters allotted to Latta from the
Lucas County suburbs were more Republican leaning,
as measured by the 2008 McCain Index than the voters
allotted to Latta from the Toledo wards. A related
email including “talking points” sent by Whatman to
President Niehaus further exemplifies the use of this
partisan data in decision making. Whatman explained
that one incumbent pairing was chosen over another in
part because the rejected pairing “makes it impossible
744

Trial Ex. P126 (Sept. 12, 2011 emails at LVOH_00018298).

745

Id.

746

Id.

App. 255
to draw Latta w/ a good index because you can’t get
enough good to off set [sic] the bad he takes from Lucas
County.”747 See Benisek, 348 F. Supp. 3d at 517 (finding
partisan intent where the consultant hired to draw the
map “prepared district maps using [a political
consulting firm’s] proprietary [Democratic Performance
Index] metric to assess the likelihood that a district
would elect a Democratic candidate”).
In the days leading up to the introduction of H.B.
319, DiRossi also sent Whatman an update about the
effect that changes he had made to Congressman
Stivers’s district had on partisan scores. He sent
Whatman an email in which the entirety of the
message read: “Stivers 08 Pres goes from 52.64 to
53.32; Stivers unified index goes from 55.02 to 55.72;
Schmidt 08 Pres goes from 54.62 to 53.99; [Schmidt]
unified index goes from 57.64 to 56.96; I can send
equivalency file if necessary.”748 The presence of entire
emails communicating such minute shifts in partisan
index scores in the days leading up to the map’s
introduction supports the conclusion that partisan
outcomes were the predominant concern of those
behind the map.
The correspondence between these map drawers is
also littered with references to “good” and “bad”
territory as well as “improve[ments]” that can be made
to certain districts. For example, Whatman wrote to
Kincaid, DiRossi, and Mann that one set of changes

747

Trial Ex. P407 (Sept. 7, 2011 email at LVOH_0052431).

748

Trial Ex. P127 (Sept. 12, 2011 email at LWVOH_00018320).

App. 256
“looks good on the surface” but highlighted that the
“[k]ey is whether we can improve CD1 and CD 14 at
the block level.”749 In another email criticizing changes
that Kincaid had made to a map, Tom Hofeller wrote
that “[t]he area Adam has on his version included . . .
some of the more ‘downtown’ area, which I took out of
the map I sent—as it was ‘dog meat’ voting territory.”
He later referred to the area he had removed as “awfulvoting territory in the 15th.”750 “Good” territory clearly
meant Republican-leaning territory, “bad” or “awful”
territory meant Democratic-leaning territory, and
“improv[ing]” a district meant manipulating
boundaries, sometimes “at the block level,” to make it
more likely to elect a Republican representative. The
map drawers defined these basic classifications of
geographic areas based on their partisan leanings and
the partisan impact that they would have on the map.
The fact that mapmakers considered an area “good” or
“bad” based on its partisan composition demonstrates
the absolute centrality of partisanship to their mapdrawing efforts.
The Republican map drawers repeatedly
emphasized in their testimony that partisan index data
was only one category of the many types of
demographic data that was displayed in Maptitude as
they worked. However, while there is ample evidence
that the map drawers were acutely aware of how their
mapmaking decisions impacted the partisan leanings
of their draft districts, no such evidence suggests that
749

Trial Ex. P119 (Sept. 3, 2011 email at LVOH_00018302).

750

Trial Ex. P394 (Sept. 8, 2011 email at REV_00023234).

App. 257
they were nearly as focused on any other type of
demographic data. Further, the correspondence
includes very little discussion of how contemplated
changes would impact core preservation, affect
compactness, or minimize county or municipality splits.
iii.

Contemporaneous statements

Statements made by the map drawers during and
immediately after the map-drawing process also reflect
their intent to produce a 2012 map with specific
partisan results. See Benisek, 348 F. Supp. 3d at 518
(considering notes prepared for the Senate President’s
“remarks to the State House and Senate Democratic
Caucuses about the redistricting plan” as evidence
establishing intent). For example, Whatman explained
to President Niehaus why certain decisions had to be
made about the map: “In losing two seats and trying to
lock down 12 Republican seats it is unrealistic to think
that southwest Ohio can remain the way it is.”751 This
is a direct expression of the Republican map drawers’
intent to draw a map that guarantees the election of
twelve Republicans by minimizing the competitiveness
and responsiveness of the districts. The same email
explained that pairing senior rather than freshman
Republican incumbents was necessary to avoid “an
overall worse map for republicans in the state” which
was “not the right thing to do.”752 Rather, in Whatman’s
view, a “tough decision” had to be made that was “the

751

Trial Ex. P407 (Sept. 7, 2011 email at LWVOH_0052431)
(emphasis added).
752

Id. at LWVOH_0052432.

App. 258
right thing for Republicans for the next
decade”—choosing the incumbents to be paired based
on which would allow for a more pro-Republican
map.753 This statement, made days before the
introduction of H.B. 319 by a chief architect of the 2012
map, is more direct evidence that the map drawers
knowingly prioritized partisan impact over other
redistricting concerns, such as incumbent protection,
and that they understood and intended the mapdrawing decisions they were making to affect the
electoral outcomes “for the next decade.” They could be
sure that the impacts would remain for years to come
because they relied on carefully chosen indices to
predict partisan scores and monitored changes to those
partisan scores down to the second decimal place. See
Rucho, 318 F. Supp. 3d at 870 (finding evidence of
partisan intent in the map drawers’ understandings
that the map design would dictate partisan outcomes
“in every subsequent election”).
Kincaid’s statements about the Ohio redistricting
process following the passage of H.B. 369 provide
further proof of the map drawers’ partisan intent. In a
presentation to the NRCC, he stated his belief that
Districts 1, 12, and 15 had been taken “out of
play”—they were safe Republican seats that had been
designed with sufficient partisan insulation from a
Democratic challenge.754 Kincaid provided the PVI
numbers to demonstrate significant pro-Republican

753

754

Id.

Trial Ex. P310 (NRCC Presentation at 5); Dkt. 230-27 (Kincaid
Dep. at 115–16).

App. 259
partisan shifts that the 2012 map had achieved. This is
evidence that Republican map drawers relied heavily
on and frequently discussed partisan indices because
they were understood as the means of monitoring their
goal of designing reliably Republican districts. Kincaid
also stated his belief that Districts 6 and 16 were
“Competitive R Seats Improved”—their designs had
been altered to shore up Republican advantage.755
Kincaid’s discussion of the map’s achievements
emphasized that it should reliably deliver a 12-4
partisan composition, “eliminat[ed] [Representative]
Sutton’s seat,” and “created a new Democratic seat in
Franklin County”—all commentary focused on the
issue that mattered most to the map drawers: partisan
outcomes.756
iv.

Irregular shape of the districts, lack of
compactness, high number of splits

A map that fails to include compact districts that
follow preexisting county and municipal lines raises
questions of intent. The choice to split counties and
municipalities and to draw noncompact districts must
have been motivated by some other intent that was
more important to the map drawers than honoring
these traditional districting principles. Where no other
motivation is offered, or the motivation offered is
unconvincing, and other evidence demonstrates that
partisan intent was present, irregularly shaped,

755

756

Trial Ex. P310 (NRCC Presentation at 6).

Trial Ex. P414 (State-by-State Redistricting Summary at
REV_00000001); Dkt. 230-28 (Kincaid Dep. at 519).

App. 260
noncompact districts and seemingly unnecessary
county and municipality splits can support an inference
of partisan intent.
Comparing the 2012 map to Mr. Cooper’s
hypothetical maps (which dealt with the same
incumbent-pairing situation as the map drawers in
2011 did) provides some proof of partisan intent. The
2012 map splits two counties four ways, five counties
three ways, and sixteen counties two ways.757 Mr.
Cooper’s hypothetical maps, in contrast, split no
counties four ways, only two counties three ways, and
twelve counties in two ways.758 Mr. Cooper’s
hypothetical maps also have higher Polsby-Popper and
Reock scores than the 2012 map, meaning that their
districts are more compact.759 The hypothetical maps
also have core retention rates on par with that of the
2012 map.760 The fact that Mr. Cooper was able to draw
two hypothetical maps that comport with traditional
redistricting principles as well or better than the 2012
map, pair the same configuration of incumbents, and
result in more favorable partisan outcomes for
Democratic voters suggests that the 2012 map was
selected in order to engineer less favorable partisan
outcomes for Democratic voters.

757

Trial Ex. P090 (Cooper Decl. at 12, fig. 5).

758

Trial Ex. P093 (Cooper Second Suppl. Decl. at 9, 16).

759

Id. at 8, 15.

760

Id. at 6, 13.

App. 261
Further, it does not take an expert or scientific
analysis to see that the 2012 map is littered with oddlyshaped districts. It is true that district lines must be
drawn somewhere, but even a cursory glance at the
2012 map shows how non-compact some districts are.
When coupled with all of the other evidence regarding
intent, we find that the irregularity of the boundaries
is further evidence that the districts’ boundaries were
drawn with a predominantly partisan intent. See
Rucho, 318 F. Supp. 3d at 883 (finding that the
challenged map’s “‘bizarre’ and ‘irregular’ shapes”
which were “explicable only by the partisan make-up of
the precincts the mapdrawers elected to place within
and without the districts” supported a finding of
predominant partisan intent).
v. Partisan effects as
evidentiary metrics

measured

by

Plaintiffs argue that the extremity of the partisan
effects themselves are strong proof of partisan intent.
We find the inference of partisan intent well supported
by Dr. Warshaw’s analysis demonstrating the 2012
map’s extreme levels of partisan bias across multiple
metrics and data sets and when compared to a large
array of historical elections.761 See Rucho, 318 F. Supp.
3d at 862 (“In determining whether an ‘invidious
discriminatory purpose was a motivating factor’ behind
the challenged action, evidence that the impact of the
challenged action falls ‘more heavily’ on one group than
another ‘may provide an important starting point.’”
(quoting Arlington Heights, 429 U.S. at 266)); id. at
761

Trial Ex. P571 (Warshaw Rep. at 4).

App. 262
870–76 (concluding that mathematical analyses
indicating that the challenged map was an extreme
statistical outlier in terms of its partisan effects were
proof of partisan intent). Dr. Warshaw’s analysis of
elections under the 2012 map compared to historical
elections in comparable states showed that it is
extremely partisan and extremely pro-Republican. All
four partisan-bias metrics he employed supported this
conclusion, which held true across different elections
that have occurred under the 2012 plan. We conclude
that such strong and consistent pro-Republican
partisan bias would be highly unlikely to occur without
intentional manipulation of the district lines to achieve
that result.
b. Statewide evidence of effect
For their vote-dilution claims, Plaintiffs offer, in
part, statewide evidence to prove partisan effect. As in
other gerrymandering cases, “[v]oters, of course, can
present statewide evidence in order to prove . . .
gerrymandering in a particular district.” See Ala.
Legislative Black Caucus, 135 S. Ct. at 1265. This
evidence complements and strengthens other districtspecific evidence.762 The actual election results and the
analyses of Dr. Warshaw and Dr. Cho are particularly
relevant here.
Before turning to this evidence, it is worth
explaining that the reliance on statewide evidence in a
partisan-gerrymandering case is slightly distinct from
Shaw racial-gerrymandering cases. Of course, a Shaw
762

Plaintiffs’ First Amendment associational claim rests on
statewide evidence, and we discuss this further in Section V.C.

App. 263
claim does not have effect as an element. Rather, the
harm under a Shaw claim is an “expressive” harm. See
Richard H. Pildes & Richard H. Niemi, Expressive
Harms, “Bizarre Districts,” and Voting Rights:
Evaluating Election-District Appearances After Shaw
v. Reno, 92 MICH. L. REV. 483, 506–07 (1993) (“An
expressive harm is one that results from the ideas or
attitudes expressed through a governmental action,
rather than from the more tangible or material
consequences the action brings about.”). As the
Supreme Court recognized in Miller:
Shaw recognized a claim “analytically distinct”
from a vote dilution claim. Whereas a vote
dilution claim alleges that the State has enacted
a particular voting scheme as a purposeful
device “to minimize or cancel out the voting
potential of racial or ethnic minorities,” an
action disadvantaging voters of a particular
race, the essence of the equal protection claim
recognized in Shaw is that the State has used
race as a basis for separating voters into
districts.
Miller, 515 U.S. at 911 (citations omitted) (emphasis
added). Accordingly, “a plaintiff alleging racial
gerrymandering bears the burden ‘to show . . . that race
was the predominant factor motivating the legislature’s
decision to place a significant number of voters within
or without a particular district.’” See Bethune-Hill, 137
S. Ct. at 797. In partisan-gerrymandering cases,
however, the harm includes partisan effect, and
consequently Plaintiffs may rely on statewide evidence
to prove that harm. In this case, a predominant

App. 264
partisan intent drove how the entire map was drawn,
so it is logical that Plaintiffs should be able to rely on
statewide evidence of effect, as well as district-bydistrict evidence. Just as a predominant partisan
intent infected the whole map, the partisan-effect
evidence discussed here shows efficient packing and
cracking of Democratic voters across the whole map.
Lastly, the evidence discussed in this section could
also be used to prove intent. See infra Section V.C.1.b.
In future cases, one would expect map drawers not to
express clearly their pure partisan intentions, and
there likely would be less clear direct evidence of
partisan intent. The social-science metrics and
simulated maps would then become even more
important considerations, for evidence of sufficiently
extreme partisan gerrymanders would support the
contention that a state was predominantly motivated
by partisanship. See infra Section V.C.1.b.
Turning now to the evidence, the actual election
results show a durable partisan effect across the map
and support an inference of packing and cracking
districts across the State. Every election has resulted
in the election of twelve Republican representatives
and four Democratic representatives. Even more
alarming is the fact that the Republican candidates
have consistently won the exact same districts:
Districts 1, 2, 4, 5, 6, 7, 8, 10, 12, 14, 15, and 16; and
the Democratic candidates have consistently won the
exact same districts: Districts 3, 9, 11, and 13. Thus, in
each of these elections, 75% of the representatives
elected in the State of Ohio were Republicans—despite
fluctuations in the Republican statewide vote share. In

App. 265
the 2012 election, Republicans won only 51% of the
statewide vote. In 2014, they won only 59% of the
statewide vote. In 2016, they won only 57% of the
statewide vote. In 2018, they won only 52% of the
statewide vote. From a statewide perspective, then, at
least 2012 and 2018 were quite competitive. At the
individual district level, however, only four
congressional elections—two in 2012 and two in
2018—have been competitive (within a 10% margin of
victory, or within 55% to 45%) across the entire decade.
Each of those competitive elections was won by
Republican candidates; meanwhile, the lowest
percentage of the vote that a winning Democratic
candidate for Congress received in any election was
61%. Because the scientific evidence shows that such
clustering is not the result of natural packing, this
strongly suggests that Democratic voters were
intentionally packed in large numbers into these four
districts. Under the 2002 map, there were several
districts that bounced between electing Democratic and
Republican representatives—particularly Districts 6,
15, 16, and 18.763 In short, the actual statewide vote

763

O HIO S EC ’ Y OF S TATE , 2002 E LECTION R ESULTS ,
https://www.sos.state.oh.us/elections/election-results-anddata/2002-elections-results/; OHIO SEC’Y OF STATE, 2004 ELECTION
RESULTS, https://www.sos.state.oh.us/elections/election-resultsand-data/2004-elections-results/; OHIO SEC’Y OF STATE, 2006
ELECTION RESULTS, https://www.sos.state.oh.us/elections/electionresults-and-data/2006-elections-results/; OHIO SEC’Y OF STATE,
2008 E LECTION R ESULTS , https://www.sos.state.oh.us/
elections/election-results-and-data/2008-election-results/; OHIO
SEC’Y OF STATE, 2010 ELECTION RESULTS, https://www.sos.state.
oh.us/elections/election-results-and-data/2010-elections-results/.
The Court takes judicial notice of the 2002-2010 election results.

App. 266
share in congressional elections does not suggest that
Democratic voters should have expected to suffer from
such a “political famine,” or such a “political feast” in
the four districts that they have won, and,
consequently, this raises suspicions of vote dilution. Cf.
De Grandy, 512 U.S. at 1017 (“One may suspect vote
dilution from political famine”).
Further, an array of social-science metrics
demonstrates that the 2012 map’s significant partisan
bias in favor of Republicans in that the Republicans
possess a major advantage in the translation of votes to
seats compared to Democrats. This partisan bias is
durable across the decade. In the 2012 and 2018
elections, the efficiency gap, declination, and partisan
symmetry metrics were each more extreme and more
pro-Republican than over 90% of previous elections. See
supra Section II.C.1. The mean-median difference also
displays significant partisan bias, though less so than
the other three metrics: in 2012, the mean-median
difference was more extreme than “in 83% of previous
elections and more pro-Republican than . . . in 92% of
previous elections.”764 For 2018, the corresponding
percentages were 62% and 81%.765 Although not as
strong, we still give weight to the fact that the meanmedian difference jumped from 1.7% in 2010 (a
successful Republican year) to 7.8% in 2012 and

FED. R. EVID. 201.
764

Trial Ex. P571 (Warshaw Rep. at 25).

765

Trial Ex. P476 (Warshaw 2018 Update at 3).

App. 267
remained much higher, at 5%, in 2018.766 In 2014 and
2016, these four metrics do not indicate quite as much
partisan bias; however, that makes sense given that
Republicans performed better in those years. In fact,
that just proves the point—when the statewide
congressional vote was nearly split between the two
parties, the same results were achieved as when
Republicans did markedly better.
The lack of competitive elections compared to what
one would expect based on Ohio’s natural political
geography also indicates that Democratic voters have
been packed and cracked.767 Dr. Cho’s analysis showed
that under the simulated maps, one would expect at
least a handful of competitive elections across the State
in each election, with Democratic candidates winning
some of those elections and Republican candidates
winning others. See supra Section II.C.2.b.i. Again, the
current map had only two competitive elections in the
2012 cycle, and only two competitive elections in the
2018 cycle—all favoring Republicans. The evidence of
packing is perhaps the strongest, as every Democratic
candidate who has won an election under the current
map has garnered over 60% of the vote—a stark
contrast in comparison to the simulated maps in which
Democratic candidates are projected to run in several
competitive elections. Given the continued dearth of
competitive elections for both parties, we credit Dr.

766

Trial Ex. P571 (Warshaw Rep. at 24); Trial Ex. P476 (Warshaw
2018 Update at 3).
767

We further discuss individual districts, as well as their election
results and lack of competition, infra.

App. 268
Cho’s conclusion that the margins of victory “are
sufficiently insulating to produce an enduring effect” in
favor of Republicans.768
Moreover, we conclude that the districts are
effectively entrenched to favor Republican candidates
overall. We thus credit Dr. Warshaw’s conclusion that
“Democratic voters in Ohio are efficiently packed and
cracked across districts.”769 This conclusion is
supported, in part, by the evidence outlined above.
Additionally, Dr. Warshaw’s first uniform swing
analysis shows that “Democrats would win only 37.5%
of the seats in Ohio’s congressional districts [or 6 out of
16 seats] even if they won 55% of the statewide vote.”770
Incorporating the 2018 election results produced only
a slight difference, with Democrats winning half the
seats when they achieve 55% of the vote.771 The swing
analysis demonstrates entrenchment because it shows
that the 2012 map’s design is such that the overall
Republican advantage will be maintained, absent a
rather seismic shift in the statewide vote share in favor
of Democratic candidates. This evidence of
entrenchment adds more weight to Plaintiffs’ votedilution claims and strongly shows that the districts
are impervious to “the potential fluidity of American
political life.” Jenness, 403 U.S. at 439.

768

Trial Ex. P426 (Cho Suppl. Rep. at 6).

769

Trial Ex. P571 (Warshaw Rep. at 43).

770

Id. at 15.

771

Trial Ex. P476 (Warshaw 2018 Update at 12–13).

App. 269
Critically, the evidence shows that the map enacted
in H.B. 369 is an outlier in terms of its partisan effects.
Dr. Warshaw’s findings on the pro-Republican tilt and
extreme nature of the partisan-bias metrics provide
considerable weight for this conclusion. Dr. Cho’s seatshare analysis bolsters the fact that H.B. 369 is an
outlier. In her initial analysis, none of the simulated
maps produced the same 12-4 seat share as the current
map; using updated data, only 0.046% of the simulated
maps (1,445 out of over 3 million) produced the same
12-4 seat share. See supra Section II.C.2.b.iii. In this
case, we are not confronted with a difficult question
about the margins of what constitutes an outlier. By
almost every measure, H.B. 369 has produced partisan
effects that are more extreme than over 90% of prior
elections, and several of the measures show that this
map is over 95% more extreme.
Defendants contest the usefulness and
appropriateness of Dr. Cho’s simulated maps as a
comparison to the current map because the simulated
maps do not factor in incumbent protection. We find
these arguments largely unpersuasive. To begin, the
simulated maps incorporate only neutral districting
criteria, and thus, they serve as useful non-partisan
baselines against which to compare the current map’s
partisanship. In this case, these non-partisan baselines
demonstrate the typical type of maps one would expect
based on the State’s natural political geography.
Second, to the extent that the General Assembly
legitimately sought to avoid the pairing of incumbents,
we find that Dr. Cho’s failure to account for this factor
partially reduces the strength of her conclusion that
the 12-4 map cannot be explained by legitimate

App. 270
redistricting criteria. Even so, we still find Dr. Cho’s
simulated maps to support an inference of partisan
effect and intent due to the overbreadth of Defendants’
incumbent-protection explanation, its shaky
evidentiary foundation, and the sheer extremity of the
pro-Republican or pro-Democratic leanings of the
current districts, as demonstrated by Dr. Cho’s
comparison analysis. We fully address the incumbentprotection justification for H.B. 369 later in this
opinion. As will be explained, we find that Defendants
have stretched the incumbent-protection justification
too far in this case, and, in some respects, the
justification simply does not hold up based on the facts.
We observe that Representative Huffman clearly
described incumbent protection as “subservient” to
other criteria. See Trial Ex. J01 (Ohio House Session,
Sept. 15, 2011 at 19) (statement of Rep. Huffman).
Moreover, Dr. Cho’s findings on her simulated maps’
partisan outcomes so starkly contrast with the current
map that, to the extent incumbent protection explains
some of the current map’s partisan effect, Dr. Cho’s
analyses provide support, along with other evidence in
this case, that this justification cannot explain the
consistent 12-4 seat share of the current map.
We now turn to an analysis of each individual
district.
c. District-by-District analysis
In this section, we complement the statewide
evidence of intent and effect with evidence specific to
each district. We show that each district was drawn
with a predominant intent to dilute the votes of
Democrats and that each district actually dilutes the

App. 271
votes of Democrats by either packing or cracking
Democrats into the district. In doing so, we address
and reject herein some of the particular partisanneutral explanations that Defendants offer for certain
districts. In the next section, we explore more fully
some of the overarching justifications that Defendants
advance.
i. District 1
District 1 encompasses all of Warren County and
irregularly shaped and disjointed portions of Hamilton
County, including western portions of the City of
Cincinnati. The district wraps strangely around the
eastern portion of Cincinnati, surrounding it on three
sides.772

772

Trial Ex. P090 (Cooper Decl. at 12, fig. 5; App. D-3); Dkt. 241
(Cooper Trial Test. at 145).

App. 272
As Dr. Niven described, rather than leaving intact
the City of Cincinnati, an obvious community of
interest that leans Democratic, the map drawers made
a deliberate choice to split the city in half in an
irregular shape. One half was paired with heavily
Republican Warren County to make a Republican
District 1. The other half was paired with Republican
rural southern Ohio counties to make a Republican
District 2.773 Dr. Niven’s report demonstrated that the
Cincinnati neighborhoods that were split were
particularly likely to be Democratic strongholds.774
Thus, the “demographic evidence reveals that [the]
district’s bizarre lines coincide with the historical
voting patterns of the precincts included in, or excluded
from, the district.” Rucho, 318 F. Supp. 3d at 900. We
therefore conclude that District 1’s bizarre lines
(wrapping around portions of the City of Cincinnati on
three sides) and the fact that it vivisects an obvious
community of interest, which together split a
Democratic city to create two solidly Republican
districts, is evidence that partisan intent dominated
the drawing of District 1. See Covington, 138 S. Ct. at
2553 (considering “circumstantial evidence of [the]
district’s shape and demographics” as evidence of racial
gerrymandering).
It is true that Hamilton County has a population
larger than the ideal equipopulous district and
therefore cannot be entirely contained within a single

773

Trial Ex. P524 (Niven Rep. at 7).

774

Id. at 13.

App. 273
district; the county must be divided to some extent.775
However, we reject the argument that the need to split
Hamilton County is a neutral explanation for District
1 being drawn as was. Even though Hamilton County
needed to be split between two congressional districts,
it did not have to be split in such an irregular shape
and need not have divided the City of Cincinnati, a
clear community of interest, in such a dramatic
fashion. For example, Mr. Cooper’s hypothetical maps,
which were designed as viable alternatives that could
have been enacted in 2011, and which match or better
the enacted map in terms of their compliance with
traditional redistricting principles, maintain the City
of Cincinnati intact to a far greater degree than the
2012 map.776
We can discern no legitimate reason behind the
division of the City of Cincinnati other than the desire
to crack its Democratic voters, disabling a cohesive
center that would likely have elected a Democratic
representative and instead facilitating the creation of
another Republican district. DiRossi testified that
“[t]he intention [in 2011] was to try to have one whole
county in [District 1] somehow.”777 DiRossi testified
that Warren County was selected to be the whole
county, and portions of Hamilton County would be
drawn in to reach the ideal population.778 He stated
775

Dkt. 241 (Cooper Trial Test. at 153).

776

Trial Ex. P093 (Cooper Second Suppl. Decl. at 4, 12).

777

Dkt. 243 (DiRossi Dep. at 186).

778

Id.

App. 274
that the decision to include Warren County “impact[ed]
the shape of the district in Hamilton County . . .
[b]ecause in order to have most of the west side and
Cincinnati in the district, but also connect to Warren
County . . . you had to come across the northern area of
places like Evendale and some of the other Springfield
Township northern places to connect them.”779
We find this explanation for District 1’s shape and
the division of the City of Cincinnati entirely
unconvincing, false, and indicative of partisan intent.
In fact, DiRossi’s explanation of the contours of District
1 provokes more questions than it answers. Why was
Warren County, rather than Butler County or
Clermont County selected as the county to pair with
Hamilton County? Why was the intention to try to have
one whole county in District 1? This did not appear to
be a pressing concern elsewhere—Districts 13 and 9
are composed entirely of partial counties. Why did the
map drawers want to have the west side of Hamilton
County in the district, requiring them “to come across
the northern area”? What was wrong with the east
side? Most importantly, DiRossi’s explanation of the
shape of the district fails to explain why the City of
Cincinnati was split as it is and why keeping Warren
County whole was more important than preserving the
obvious community of interest embodied in the City of
Cincinnati. See Arlington Heights, 429 U.S. at 267
(“Substantive departures [from normal procedure] may
be relevant, particularly if the factors usually
considered important by the decisionmaker strongly
favor a decision contrary to the one reached.”). We
779

Id. at 186–87.

App. 275
reject this justification and conclude that it was merely
an attempt to obfuscate. See Benisek, 348 F. Supp. 3d
at 520 (rejecting a proffered post hoc rationalization for
a district’s design as unsupported by the evidence).
Rather, given the substantial evidence of partisan
intent discussed above, we conclude that the more
plausible explanation for District 1’s configuration was
the predominant desire to crack Democratic voters in
Cincinnati, a cohesive center that would likely have
elected a Democratic representative. Instead, the
design of District 1 facilitated the dilution of these
Cincinnati Democrats’ votes by splitting them between
two majority-Republican districts—Districts 1 and 2.
Further, we conclude that the 2012 map did crack
Democratic voters in Hamilton County in District 1.
We first note that District 1 has elected Republican
representatives in every election that followed the
redistricting. This durability in and of itself is some
evidence of cracking in District 1. See id. at 519–20
(finding proof of partisan effect in “the fact that the
Democratic candidate was elected in the three elections
following the 2011 redistricting”).
Second, the partisan effects of District 1 were
durable because the district was drawn in a way to
ensure the election of a Republican representative.
Evidence proves that entrenchment resulted in this
case. In 2012, Republican Representative Steve Chabot
was elected with 57.73% of the vote. In 2014, he won
with 63.22% of the vote. In 2016, he won with 59.19%
of the vote. In 2018, he won with 51.32% of the vote.
Thus, only one of these elections was competitive—the
last, which occurred during a significant Democratic

App. 276
swing election year. Democratic candidate Aftab
Pureval challenged Representative Chabot in District
1 in 2018. Pureval spent $4,059,690.53 on his campaign
while Representative Chabot only spent
$2,991,573.88.780 Even under those conditions, however,
the composition of the district allowed Representative
Chabot to hold off his Democratic challenger. District
1’s election results under the 2012 map are evidence of
its lack of competitiveness and responsiveness (i.e.,
entrenchment), achieved through cracking. Indeed,
Kincaid stated that he understood District 1 would
result in entrenchment. Immediately after the
redistricting, Kincaid expressed his belief that District
1 had moved seven PVI points in favor of Republicans
and had thus been taken “out of play.”781 Mapmaking
that takes a district “out of play” certainly has partisan
effects—it converts a district that could previously be
won by a candidate from either party into one that will
consistently elect a member of the favored party. See
Benisek, 348 F. Supp. 3d at 519 (finding partisan effect
where the design of the district resulted in a large
swing in PVI).
District 1’s consistent election of a Republican
Congressman under the 2012 plan stands in stark
contrast to former District 1’s status as a swing district
under the 2002 plan. In 2006, District 1 elected
Republican Representative Chabot, who won with
52.25% of the vote. In 2008, District 1 elected

780

781

Trial Ex. P426 (Cho Suppl. Rep. at 5–6).

Trial Ex. P310 (NRCC presentation at 5); Dkt. 230-27 (Kincaid
Dep. at 115–16).

App. 277
Democratic Representative Steve Driehaus with
52.47% of the vote. In 2010, District 1 flipped back to
elect Republican Representative Chabot, this time
winning by an even narrower margin with 51.49% of
the vote. The 2012 map redrew District 1 in a fashion
that diluted Democratic support by cracking the
Democratic City of Cincinnati and paired those
portions of Cincinnati with rural Republican
strongholds, thereby eliminating the threat that
District 1 would flip Democratic. See Benisek, 348 F.
Supp. 3d at 519 (finding partisan effect where
“Republican voters in the new Sixth District were, in
relative terms, much less likely to elect their preferred
candidate than before the 2011 redistricting, and, in
absolute terms, they had no real chance of doing so”).
District 1’s consistent election of a Republican
representative under the 2012 map is evidence of the
durability of its partisan bias and its facilitation of
Republican entrenchment.
Dr. Niven’s report provides further proof of the
cracking of District 1. It demonstrates the pronounced
partisan divergence between Democratic Cincinnati
and Republican Warren County, which combined with
the cracked part of Cincinnati to form the new District
1.782 Niven also demonstrated that the pre-2012 version
of District 1 elected President Barack Obama in 2008
with 55.17% of the vote, but predicted that had that
election been held with District 1 composed as it is
under the current map, Obama would have lost the

782

Trial Ex. P524 (Niven Rep. at 7).

App. 278
district, securing only 47.7% of the vote.783 This
evidence is highly suggestive of the effect that the
design of the new District 1 had on Democratic voters’
ability to elect Democratic representatives in the
District.
Finally, Dr. Cho’s report also serves as proof of a
partisan effect of cracking in District 1. In 95.68% of
Dr. Cho’s simulated maps Plaintiff Linda Goldenhar,
currently a voter in District 1, would reside in a district
where she would have a better chance of electing a
Democrat.784 We find that the divergence between the
partisan leaning of the current District 1 and the vast
majority of the non-partisan simulated districts
supports the conclusion that the 2012 map cracked
Democratic voters in District 1.
ii. District 2
District 2 encompasses part of Hamilton County,
including highly irregularly shaped portions of the City
of Cincinnati,785 as well as all of Clermont, Brown,
Adams, Highland, and Pike Counties and portions of
Scioto and Ross Counties.786 District 2 was drawn as
the complement of District 1—it took on the other half
of the City of Cincinnati to enable the cracking of its
Democratic voting power. Therefore, much of the same

783

Id. at 8.

784

Trial Ex. P087 (Cho Rep. at 13).

785

Dkt. 241 (Cooper Trial Test. at 145).

786

Trial Ex. P090 (Cooper Decl. at 12, fig. 5).

App. 279
partisan-intent analysis that corresponds to District 1
also applies to District 2. See Benson, 2019 WL
1856625, at *57 n.39 (explaining that “[t]he Court will
evaluate several of the Senate and House Districts in
groups. . . . The way that each district in a group was
drawn had profound consequences on the partisanship
of the other districts in that same group. One cannot
fully grasp the partisan implications of the design of an
individual district in each group without
simultaneously evaluating the partisanship of the
other districts in that group.”). We conclude that the
unnecessary and irregular splitting of Hamilton
County and the Democratic City of Cincinnati provides
ample proof of a predominant partisan intent to crack
District 2. This evidence is supplemented by the
general evidence of partisan intent in crafting the 2012
map, discussed above.

We also conclude that the 2012 map had the effect
of cracking Democratic voters from the Cincinnati area

App. 280
in District 2. The historical election results are
evidence of this cracking. See Benisek, 348 F. Supp. 3d
at 519–20 (finding proof of partisan effect in “the fact
that the Democratic candidate was elected in the three
elections following the 2011 redistricting”). In 2012,
Republican Representative Brad Wenstrup was elected
to Congress with 58.63% of the vote. In 2014, he won
with 65.96% of the vote. In 2016, he won with 65.00%
of the vote. In 2018, he won with 57.55% of the vote.
None of these elections was competitive because the
design of District 2 tempered Democratic support from
the Cincinnati area with sufficient Republican territory
to ensure a Republican victory. The consistent election
of a Republican representative by “safe” margins is
evidence of cracking in District 2. It also supports the
conclusion that the 2012 map’s partisan effects were
durable and facilitated Republican entrenchment in
District 2.
Dr. Niven’s report provides additional evidence that
District 2 cracked voters from Hamilton County. Under
the pre-2012 map, District 2 had been solidly
Republican, with only 40.60% of voters supporting
President Obama in the 2008 election. Had the same
election occurred with District 2 as it is currently
composed, 44.98% of voters would have supported
President Obama.787 This evidence demonstrates that
the redistricting decreased the district’s considerable
partisan margin as Democratic voters from the
Cincinnati area were absorbed by the new District 2.
Yet the map maintained a sufficiently pro-Republican
partisan makeup to allow District 2 to elect Republican
787

Trial Ex. P524 (Niven Rep. at 9).

App. 281
representatives consistently after the redistricting.
This is an example of efficient cracking at work.
Dr. Cho’s simulated maps provide additional
evidence of the cracking effect in District 2. 99.87% of
Dr. Cho’s non-partisan maps would have placed
Plaintiff Burks, who lives in current District 2, in a
district that would have had a better chance of electing
a Democrat.788 This evidence further suggests that the
design of District 2 under the 2012 map is at least
partially responsible for Democratic voters’ difficulty
electing a Democratic representative in that district.
iii.

District 3

District 3 encompasses an irregularly shaped
portion of Franklin County, including portions of the
City of Columbus.789 It is involved in the three-way
split of Franklin County and the City of Columbus.790
We conclude that the map drawers’ predominant intent
in the creation of District 3 was to pack Democratic
voters in the Columbus area, allowing them to shore up
Republican support in the surrounding Districts 12 and
15. See Benson, 2019 WL 1856625, at *57 n.39.

788

Trial Ex. P087 (Cho Rep. at 14).

789

Dkt. 241 (Cooper Trial Test. at 146).

790

Trial Ex. P090 (Cooper Decl. at 12, fig. 5).

App. 282

First, the irregular shape of District 3 supports an
inference of partisan intent. Mr. Cooper testified that
the shape of the “[p]resent day District 3 is a mess,”
and we too find that the bizarre shape of the district is
evidence of partisan intent.791 Mr. Cooper’s
hypothetical maps, while also drawing districts in the
Columbus area, managed to draw those districts with
far more regular boundaries.792 Second, evidence in the
record referring to the newly created district as the
“Franklin County Sinkhole” supports our finding that
the map drawers created District 3 as a vehicle to pack
Democratic voters. Related evidence demonstrates that
national Republican consultants used descriptors such
as “awful” or “dog meat” voting territory to describe
“downtown” areas that they wanted carved out of

791

Dkt. 241 (Cooper Trial Test. at 154).

792

Trial Ex. P093 (Cooper Second Suppl. Decl. at 4, 12).

App. 283
District 15 and placed into District 3, which further
supports our finding that partisan intent predominated
in the design of District 3. See Benisek, 348 F. Supp. 3d
at 518–19 (finding invidious partisan intent where “the
State intentionally moved Republican voters out of the
Sixth District en masse, based on precinct-level data”).
Third, national Republicans Whatman and Kincaid
testified that they conceived of the idea to create the
new, Democratic District 3. Their primary role in its
creation is further proof that the predominant reason
for the district’s design was to facilitate Republican
advantage. Fourth, since the 2012 map was enacted,
District 3 has consistently elected the Democratic
candidate by large margins—64.06–73.61% of the vote.
Meanwhile, adjacent Districts 12 and 15 have
consistently elected Republican representatives,
despite Democratic swing years such as 2018. The
consistency and durability of the partisan results in
this constellation of districts and the lack of
competitiveness in District 3 are strong evidence that
District 3 was designed to pack Democrats and waste
significant numbers of Democratic votes.
We evaluate other explanations of the district put
forth by Defendants and conclude that while each of
these considerations may have played a role in the
shaping of District 3, none was the primary force
behind its creation. Rather, all other considerations
were secondary to the predominant aim of packing
Democratic voters into a highly saturated new
Democratic district, thus allowing map drawers to
shore up Republican advantage in Districts 12 and 15.

App. 284
Defendants argue first that they created the new
District 3 because of Columbus’s growing population. It
is true that Ohio’s population was shifting and that the
Columbus area was one of the few areas in the State
that was experiencing population growth. On the one
hand, without more, there is nothing inherently
suspect or partisan about creating a new congressional
district to encompass a coherent community of interest
(the City of Columbus) in a growing population center.
On the other hand, population growth in a
metropolitan area does not necessitate the drawing of
a new district around that area. We conclude, based on
the evidence discussed above, that the reason the
Republican map drawers chose to allocate Columbus’s
growing population to the new District 3 was because
of the partisan advantage that strategy conferred to
them.
Defendants next argue that District 3 “was drawn
the way it was” because Speaker Batchelder’s
“relationship with Congresswoman Beatty and her
husband Otto Beatty led him to have a priority to
create a central district in Franklin County
encompassing Columbus and having representation
specifically for Congressman [sic] Joyce Beatty.”793 We
conclude that although Republican map drawers drew
District 3 with Joyce Beatty (a former member of the
Ohio House of Representatives who had never served
in Congress at the time of the map drawing) in mind,
supporting her prospects as a candidate was only a
secondary consideration. Once Kincaid and Whatman
decided to draw a new Democratic seat to pack
793

Dkt. 246 (Judy Trial Test. at 71).

App. 285
Democratic votes in Franklin County, that Democratic
seat would have to be filled.794 The fact that
Batchelder’s relationship with the Beattys eventually
led Republican map drawers to draw District 3 with
Joyce Beatty in mind does not disturb our finding that
partisan intent predominated in its creation.
Defendants also argue that District 3 was drawn to
create a minority-opportunity district, but we do not
find that this aim played a significant role in the
creation of District 3. The Republican map drawers
were simultaneously seriously considering an
alternative plan to split Franklin County and
Columbus into four congressional districts. Had
Franklin County been split in four ways, the AfricanAmerican voter population would have been split
rather than included in a coherent minorityopportunity district. Despite now professing the
creation of a minority-opportunity district as a
motivation behind District 3’s design, the evidence
shows that the map drawers seriously considered
adopting an alternative plan which would have

794

Speaker Batchelder explained that the decision to draw District
3 with Beatty in mind arose because “[w]e had a situation here in
Franklin County where the Republican Party didn’t have a
candidate.” Dkt. 230-3 (Batchelder Dep. at 50). He went on: “I
wasn’t out campaigning for a Democrat for Congress, but I had
known her and her husband. My first problem was figuring out if
they lived in the district, but it was—of course, she has emerged as
a leader in the Federal House.” Id. at 50–51 (emphasis added).
That Speaker Batchelder’s “first problem was figuring out if they
lived in the district” suggests that District 3 was first created as
Whatman and Kincaid’s partisan brainchild, and later tweaked to
support Beatty’s candidacy.

App. 286
undermined that very goal. We accordingly question
the sincerity and veracity of this proffered justification.
We further analyze this justification in conjunction
with a similar justification offered for District 11 below,
after considering each individual district. See infra
Section V.A.2.d.iii. We note now, however, that a
district could still have been drawn with a nearly
identical BVAP,795 but with a more regular shape,
fewer county splits,796 and a considerably less severe
partisan bias.797 It was not, and we infer from the fact
that the chosen design contributes to the partisan bias
of the map that its creators intended it to do so.
Defendants argue that national Republicans
advanced the idea for the four-way split of Columbus
and that Ohio Republicans, who had different goals
and intentions, firmly rejected that idea. That
portrayal contradicts the evidence of the collaborative
relationship between the national and state-level
Republicans as well as the content of specific
communications discussing the reason the four-way
split, which would have resulted in 13-3 map, was
rejected. It was the desire to “put the most number of
seats in the safety zone given the political geography of
the state, our media markets, and how best to allocate
caucus resources” that led to the rejection of the four-

795

Dkt. 241(Cooper Trial Test. at 161).

796

Trial Ex. P090 (Cooper Decl. at 14, 17).

797

Trial Ex. P476 (Warshaw 2018 Update at 14–15).

App. 287
way split idea.798 We therefore conclude that the fourway split was rejected not because it conflicted with
state-level Republicans’ goals for the map, but rather
because the Republican seat advantage that it would
have conferred would have been too tenuous. The
reasons for the rejection of the proposed four-way split
of Franklin County is additional proof supporting our
conclusion that partisan intent was the predominant
factor in drawing District 3.
In sum, even accepting all of Defendants’ proffered
justifications for drawing District 3, we conclude that
they were secondary to the map drawers’ predominant
intent: conferring Republican advantage by packing
District 3 and facilitating the cracking of Districts 12
and 15.
We also conclude that District 3 actually packed
Democratic voters. The historical election results
provide proof of the packing effect—a Democratic
candidate has won every election under the 2012 map.
See Benisek, 348 F. Supp. 3d at 519–20 (finding proof
of partisan effect in “the fact that the Democratic
candidate was elected in the three elections following
the 2011 redistricting”).
The margin by which that candidate has won shows
that Democratic voters are packed into the district in
a way that renders the district noncompetitive. In
2012, Democratic candidate Joyce Beatty was elected
to Congress with 68.29% of the vote. In 2014, she won
with 64.06% of the vote. In 2016, she won with 68.57%
798

Trial Ex. P385 (Congressional Redistricting Talking Points at
LWVOH_0052438).

App. 288
of the vote. In 2018, she won with 73.61% of the vote.
None of these elections were even close to competitive;
they were all landslide victories for Beatty. Beatty’s
consistent election also demonstrates the durability of
the 2012 map’s partisan effect in District 3.
Dr. Niven also demonstrated a stark difference in
the political leanings of voters within Franklin County
who were placed in District 3 and voters within
Franklin County who were placed in Districts 12 and
15. Franklin County voters within District 3 had proDemocratic partisan index score of .3268. Meanwhile,
Franklin County voters within Districts 12 and 15 had
pro-Republican partisan index scores of 0.5105 and
0.5237, respectively.799 This demonstrates both the
intent to pack voters and the effect of concentrating the
most Democratic sections of Franklin County within
District 3 while allotting the less Democratic sections
to Districts 12 and 15 to facilitate their overall
Republican compositions.
Finally, Dr. Cho’s simulated maps also provide proof
of the packing effect in District 3. Zero percent of Dr.
Cho’s simulated maps would place Plaintiff Inskeep, a
current resident of District 3, in a district where she
would have a better chance of electing a Democratic
representative.800 The map drawers managed to draw
a map that maximized the concentration of Democratic
voters in Plaintiff Inskeep’s area—a highly efficient
packing job.

799

Trial Ex. P524 (Niven Rep. at 27).

800

Trial Ex. P087 (Cho Rep. at 15).

App. 289
iv.

District 4

District 4 encompasses all of Allen, Auglaize,
Shelby, Logan, Union, Champaign, Crawford, Seneca,
and Sandusky Counties. It makes a small intrusion
into Mercer County that is a part of a three-way split
of Mercer County. Additionally, it is involved in the
three-way split of Lorain County.801 It also includes
parts of Marion, Huron, and Erie Counties.

The statewide evidence of partisan intent in the
map-drawing process, discussed above, supports a
finding of predominant partisan intent to crack District
4. We also conclude that the 2012 map actually cracked
Democratic voters in District 4. First, historical
election results support this finding as District 4 has
been won by a Republican in every election under the
2012 map. See Benisek, 348 F. Supp. 3d at 519–20

801

Trial Ex. P090 (Cooper Decl. at 12, fig. 5).

App. 290
(finding proof of partisan effect in “the fact that the
Democratic candidate was elected in the three elections
following the 2011 redistricting”). Second, the wide
margins by which the Republican candidate won each
election under the 2012 map show its entrenchment
effect, a biproduct of efficient cracking. The map
entrenched Republicans in power by drawing District
4 as a “safe” Republican seat. None of these elections
that have occurred in District 4 since the enactment of
the 2012 map have been competitive. In 2012,
Republican Representative Jim Jordan was elected to
Congress with 58.35% of the vote. In 2014 he won with
67.67% of the vote. In 2016 he won with 67.99% of the
vote. In 2018 he won with 65.26% of the vote.
Finally, Dr. Cho’s simulated maps provide further
evidence that District 4 was cracked. In 98.25% of Dr.
Cho’s simulated non-partisan maps Plaintiff Libster,
who lives in current District 4, would have had a better
chance of electing a Democratic representative.802 This
evidence supports the inference that the proRepublican design of the 2012 map had an impact on
Democratic voters such as Plaintiff Libster.
v. District 5
District 5 encompasses all of Williams, Fulton,
Defiance, Henry, Paulding, Putnam, Hancock, Van
Wert, Hardin, Wyandot, and Wood Counties. It also
contains the northern half of Mercer County, the
western half of Ottawa County, and the western half of

802

Trial Ex. P087 (Cho Rep. at 16).

App. 291
Lucas County. It is involved in the three-way split of
Mercer County.

The statewide evidence of partisan intent in the
map-drawing process, discussed above, supports a
finding of predominant partisan intent to crack District
5.
Additionally, we conclude that the 2012 map had a
partisan effect on District 5 by cracking Democratic
voters there. Historical election results provide support
for this finding. See Benisek, 348 F. Supp. 3d at 519–20
(finding proof of partisan effect in “the fact that the
Democratic candidate was elected in the three elections
following the 2011 redistricting”). In 2012, Republican
Representative Bob Latta was elected to Congress with
57.27% of the vote. In 2014, he won with 66.46% of the
vote. In 2016, he won with 70.90% of the vote. In 2018,
he won with 62.26% of the vote. None of these elections

App. 292
was competitive because District 5 was designed such
that Democratic voters would be outnumbered by
Republican voters by sufficient margins to ensure that
a Republican candidate would be elected consistently.
The election results are thus evidence of the durability
of the 2012 map’s partisan effects in District 5 and its
tendency to entrench the favored party in power.
Finally, Dr. Cho’s simulated maps provide further
proof of the cracking of District 5. In 95.47% of Dr.
Cho’s simulated non-partisan maps, Plaintiff Deitsch,
who lives in current District 5, would have a better
chance of electing a Democratic representative. That
evidence supports an inference that the partisan
manner in which District 5 was drawn had a negative
effect on the ability of voters within the district such as
Plaintiff Deitsch to elect Democratic representatives.
vi.

District 6

District 6 includes territory along the southeastern
border of Ohio. It encompasses all of Columbiana,
Carroll, Jefferson, Harrison, Guernsey, Belmont,
Monroe, Noble, Washington, Meigs, Gallia, Jackson,
and Lawrence Counties. It also includes an irregularly
shaped eastern half of Scioto County, the northern half
of Muskingum County, the southern half of
Tuscarawas County, the southern half of Mahoning
County, and the southeast corner of Athens County.803

803

Trial Ex. P090 (Cooper Decl. at 12, fig. 5).

App. 293

The statewide evidence of partisan intent in the
map-drawing process, discussed above, supports a
finding of predominant partisan intent to crack District
6.
We also conclude that the 2012 map cracked voters
in District 6. The historical electoral results since the
enactment of the 2012 map provide support for this
conclusion. See Benisek, 348 F. Supp. 3d at 519–20
(finding proof of partisan effect in “the fact that the
Democratic candidate was elected in the three elections
following the 2011 redistricting”). In 2012, Republican
Representative Bill Johnson was elected to Congress
with 53.25% of the vote. In 2014, he won with 58.23%
of the vote. In 2016, he won with 70.68% of the vote. In
2018, he won with 69.25% of the vote. Only the first of
these elections was competitive, likely because

App. 294
Representative Johnson’s opponent in that election,
Democratic Representative Charlie Wilson, had
previously served as Congressman for District 6 prior
to Representative Johnson’s first congressional win in
2010. Wilson did not run again after losing the 2012
race, after which Representative Johnson faced less
competitive Democratic challengers and won with
considerable margins. The lack of competition in most
of these elections as well as the consistent Republican
wins are evidence of the durability of the 2012 map’s
pro-Republican effect and its tendency to entrench
Republicans in power.
Finally, Dr. Cho’s simulated maps provide further
proof of cracking in District 6. In 100% of Dr. Cho’s
simulated maps, Plaintiff Boothe, a voter in current
District 6, would have a better chance of electing a
Democratic representative.804 This evidence supports
the conclusion that the partisan design of the 2012 map
had the effect of minimizing Democratic voters’ chances
of electing Democratic representatives in District 6.
vii.

District 7

District 7 encompasses all of Knox, Coshocton,
Holmes, and Ashland Counties. It also includes the
northern portion of Tuscarawas County, an irregularly
shaped portion of Stark County, an irregularly shaped
portion of Richland County, the southern portion of
Huron County, and irregularly shaped portions of

804

Trial Ex. P087 (Cho Rep. at 18).

App. 295
Lorain and Medina Counties. It is involved in the
three-way splits of Stark County and Lorain County.805

The statewide evidence of partisan intent in the
map-drawing process, discussed above, supports a
finding of predominant partisan intent to crack District
7.
Additionally, we conclude that the 2012 map
cracked Democratic voters in District 7. The historical
election results provide some evidence of the cracking.
See Benisek, 348 F. Supp. 3d at 519–20 (finding proof
of partisan effect in “the fact that the Democratic
candidate was elected in the three elections following
the 2011 redistricting”). In 2012, Republican

805

Trial Ex. P090 (Cooper Decl. at 12, fig. 5).

App. 296
Representative Bob Gibbs was elected to Congress with
56.40% of the vote. In 2014, he won with 100% of the
vote. In 2016, he won with 64.03% of the vote. In 2018,
he won with 58.74% of the vote. The lack of competition
in these elections and the Republican candidate’s
victory in each are also evidence of the durability of the
partisan effects of the 2012 map on District 7 and the
map’s tendency to entrench Republican representatives
in office.
Finally, Dr. Cho’s simulated non-partisan maps
provide further evidence of the cracking of voters in
District 7. In 100% of Dr. Cho’s simulated maps
Plaintiff Griffiths, who lives in current District 7,
would have had a better chance of electing a
Democratic representative.806 This evidence supports
the conclusion that the partisan design of the 2012 map
diminished Democratic voters’ opportunity of electing
a Democratic representative in that district.
viii.

District 8

District 8 rests along the southwestern border of
Ohio, with a portion jutting into the heart of the State.
It includes the entireties of Darke, Miami, Clark,
Preble, and Butler Counties and includes the southern
half of Mercer County. It is involved in the three-way
split of Mercer County.807

806

Trial Ex. P087 (Cho Rep. at 19).

807

Trial Ex. P090 (Cooper Decl. at 12, fig. 5).

App. 297

The statewide evidence of partisan intent in the
map-drawing process, discussed above, supports a
finding of predominant partisan intent to crack District
8.
We also conclude that the 2012 map cracked
Democratic voters in District 8. Historical election
results under the 2012 map provide some proof of this
cracking. See Benisek, 348 F. Supp. 3d at 519–20
(finding proof of partisan effect in “the fact that the
Democratic candidate was elected in the three elections
following the 2011 redistricting”). In 2012, Republican
Representative John Boehner was elected to Congress
with 99.88% of the vote. In 2014, he won with 67.19%
of the vote. In 2016, Republican Warren Davidson
succeeded Representative Boehner as the Republican

App. 298
congressional candidate in District 8. He won the
election with 68.76% of the vote. In 2018,
Representative Davidson won with 66.58% of the vote.
None of these elections were even close to competitive.
We find the lack of competition and the consistent
election of Republican candidates to be evidence of the
durability of the 2012 map’s partisan effects in this
district and the map’s tendency to entrench Republican
representatives in office by constructing “safe” districts.
Finally, Dr. Cho’s simulated non-partisan maps
provide further evidence of the cracking of Democratic
voters in District 8. In 100% of Dr. Cho’s simulated
maps, Plaintiff Nadler, who resides in the current
District 8, would have had a better opportunity to elect
a Democratic representative.808 This supports the
conclusion that the partisan design of the 2012 map
impacted the ability of Democratic voters in District 8
to elect their candidate of choice.
ix.

District 9

District 9 is a thin strip along the southern coast of
Lake Erie, stretching from Toledo in Lucas County in
the west to Cleveland in Cuyahoga County in the east.
Its narrow, long footprint has earned it the nickname
“the Snake on the Lake.”809 The district includes
portions of Lucas, Ottawa, Erie, Lorain, and Cuyahoga
Counties; it does not include a single county in its
entirety. It is involved in the four-way split of

808

Trial Ex. P087 (Cho Rep. at 20).

809

Dkt. 241 (Cooper Trial Test. at 145–46).

App. 299
Cuyahoga County and the three-way split of Lorain
County.810

We conclude that the map drawers intentionally
packed Democratic voters into District 9, splitting up
communities of interest along the way. We agree with
Mr. Cooper’s analysis that District 9 severed
communities of interest.811 Despite all the territory in
District 9 being adjacent to Lake Erie, in order to
create District 9 “you’ve got to split about five counties
which in and of themselves are communities of
interest.”812 Mr. Cooper’s hypothetical maps
demonstrate that it is possible to draw a far more
coherent District 9 that respects county boundaries
while still complying with all traditional redistricting
principles and pairing the same amount of incumbents
from the same political parties as the 2012 map did.813
The presence of such an alternative and the map
810

Trial Ex. P090 (Cooper Decl. at 12, fig. 5).

811

Dkt. 241 (Cooper Trial Test. at 149).

812

Id.

813

Trial Ex. P093 (Cooper Second Suppl. Decl. at 4–19).

App. 300
drawers’ decision instead to split counties and draw a
bizarrely shaped district support our conclusion that
partisan intent predominated in drawing of District 9.
In concluding that the predominant intent behind
the design of District 9 was partisan packing of
Democratic voters, we reject Defendants’ argument
that bipartisan incumbent protection efforts and
Democratic desires dictated its shape. There is no
admissible record evidence suggesting that Democratic
leaders desired the pairing of Representatives Kaptur
and Kucinich. Representative Kaptur testified that she
did not discover that she was being paired with
Representative Kucinich until very close to the
legislative introduction of the bill. She learned of the
map’s design from a newspaper and was “astonished”
by the shape of her new district.814 She did not request
to be paired with Representative Kucinich and, in fact,
was outraged at the prospect because she believed that
the new district “hack[ed] towns apart” and showed “no
respect for counties” and “no respect for
communities.”815 Kaptur’s involvement in shaping the
district began only after the Ohio General Assembly
passed the initial H.B. 319. She then attempted to
negotiate so that the Republican map drawers would
make some alterations to the district in which she was
paired with Kucinich. The heart of the plan for District
9, however, remained the same. Representative
Kaptur’s ability to secure minor concessions following
the passage of H.B. 319 does not amount to her
814

Dkt. 249 (Kaptur Trial Test. at 70).

815

Id. at 71–72.

App. 301
designing the district and does not overcome the
partisan intent that motivated the drawing of District
9 in the first place. We therefore reject as unsupported
by admissible evidence the Defendants’ contention that
District 9 was the result of the Democratic desire that
Representatives Kaptur and Kucinich be paired.
To the extent that Defendants claim that the shape
of District 9 was preordained by the cluster of
Democratic incumbent residences in northern Ohio,
their argument is undermined by the evidence. Mr.
Cooper, a redistricting expert, stated that “it made no
sense to create a Snake on the Lake just to pair
[Kaptur and Kucinich]. It just baffles me as to why that
was done.”816 Mr. Cooper demonstrated that this
pairing was unnecessary by drawing two hypothetical
maps that could have been drawn in 2011 that avoided
drawing the elongated District 9 either by pairing
Representatives Kucinich and Fudge or pairing
Kucinich and Sutton, all while honoring the other
traditional districting principles.817 Both of these
hypothetical maps would actually have facilitated the
avoidance of one incumbent pairing because they leave
a version of District 10 in western Cuyahoga County
and Lorain County with no Democratic
incumbent—Representative Kucinich could have
avoided his pairing with either Representative Sutton
or Representative Fudge by running in that district

816

Dkt. 241 (Cooper Trial Test. at 176).

817

Trial Ex. P093 (Cooper Second Suppl. Decl. at 4–18).

App. 302
instead.818 This argument therefore does not disturb
our conclusion that the predominant intent was
securing Republican partisan advantage in the creation
of the long, snaking District 9.
We also conclude that the 2012 map had the effect
of packing Democratic voters in District 9. Historical
election results support this conclusion. See Benisek,
348 F. Supp. 3d at 519–20 (finding proof of partisan
effect in “the fact that the Democratic candidate was
elected in the three elections following the 2011
redistricting”). In 2012, Democratic Representative
Marcy Kaptur was elected to Congress with 73.04% of
the vote. In 2014, she won with 67.74% of the vote. In
2016, she won with 68.69% of the vote. In 2018, she
won with 67.79% of the vote. None of these elections
were even close to competitive; Representative Kaptur
consistently won with 15–20% of the vote more than
necessary to carry the district. The extreme lack of
competition and the consistent election of a Democratic
representative in District 9 by large margins are
evidence of the durability of the 2012 map’s partisan
effects.
Finally, Dr. Cho’s simulated non-partisan maps are
further proof of this packing in District 9. Only 15.91%
of the simulated maps would have given Plaintiff
Walker a better chance of electing a Democratic
representative. In 13.55% of the simulated maps,
Plaintiff Rader would have had a better opportunity to

818

Id. at 5–6, 13.

App. 303
elect a Democratic representative.819 Although these
figures are not quite as extreme as those in other
districts, they are still proof that the partisan design of
the 2012 map packed Democratic voters into District 9,
targeting them because of their political preferences
and artificially diluting the power of their votes.
x. District 10
District 10 includes all of Montgomery and Greene
Counties and the northern half of Fayette County.820

The overall evidence of partisan intent in the mapdrawing process, discussed above, supports a finding of
predominant partisan intent to crack District 10.
We also conclude that the 2012 map cracked
Democratic voters in District 10. Historical election
819

Trial Ex. P087 (Cho Rep. at 21–22).

820

Trial Ex. P090 (Cooper Decl. at 12, fig. 5).

App. 304
results provide some proof of this cracking. See
Benisek, 348 F. Supp. 3d at 519–20 (finding proof of
partisan effect in “the fact that the Democratic
candidate was elected in the three elections following
the 2011 redistricting”). In 2012, Republican
Representative Mike Turner was elected to Congress
with 59.54% of the vote. In 2014, he won with 65.18%
of the vote. In 2016, he won with 64.09% of the vote. In
2018, he won with 55.92% of the vote. None of these
elections, even that occurring during the 2018
Democratic swing year, were competitive. We consider
the consistent election of the Republican candidate by
large margins to be evidence of the durability of the
2012 map’s partisan effects in District 10. It is also
evidence that the map entrenches a Republican
representative in office by creating a “safe” Republican
District 10.
Finally, Dr. Cho’s simulated non-partisan maps
provide further proof of the cracking in District 10. In
99.75% of Dr. Cho’s simulated maps, Plaintiff Megnin,
who lives in current District 10, would have had a
better opportunity of electing a Democratic
representative.821 This figure supports the conclusion
that the partisan design of District 10 negatively
impacted Megnin’s ability to elect a Democratic
representative.
xi.

District 11

District 11 includes highly irregularly shaped
portions of Cuyahoga County and Summit County. It is

821

Trial Ex. P087 (Cho Rep. at 23).

App. 305
involved in the four-way split of Summit County and
the four-way split of Cuyahoga County.822

We conclude that District 11 was intentionally
drawn both to pack voters into the district and to
siphon Democratic voters off from the new District 16,
in which Republican incumbent Representative Renacci
and Democratic incumbent Representative Sutton were
paired. District 11 was designed to absorb Democratic
voters who were formerly Representative Sutton’s
constituents so that the new District 16 could be
weighted to produce the victory of Republican
Representative Renacci. See Benson, 2019 WL 1856625,
at *57 n.39.

822

Trial Ex. P090 (Cooper Decl. at 12, fig. 5).

App. 306
The decision to depart from District 11’s historical
territory and to drop down into Summit County and
pick up additional Democratic voters from the City of
Akron under the 2012 map is strong proof of the intent
to pack District 11 and facilitate the cracking of
District 16.823 The historical boundaries of District 11,
contained entirely within Cuyahoga County, make the
decision to extend the district into Summit County
suspect. Mr. Cooper’s hypothetical plans contain
District 11 entirely within Cuyahoga, in line with its
historical location, while respecting other traditional
redistricting concerns.824 The fact that it was possible
to draw District 11 fully within Cuyahoga is some
evidence that the jaunt downward into Summit County
was drawn for partisan reasons. We conclude that the
predominant reason that District 11 ventured for the
first time out of Cuyahoga County in the 2012 map was
as a result of the map drawers’ partisan intent to pack
voters in District 11 and crack voters in District 16.
The historical election results in the years that
followed the redistricting are proof of the map drawers’
intent. Representative Fudge in the packed District 11
has won each election by huge margins. Her lowest
portion of the vote in an election since the redistricting
has been 79.45%. Meanwhile, in District 16, incumbent
Republican Representative Renacci narrowly defeated
incumbent Democratic Representative Sutton in 2012.
Once he had vanquished the opposing incumbent,
Renacci proceeded to win his successive elections by
823

Dkt. 241 (Cooper Trial Test. at 155).

824

Trial Ex. P093 (Cooper Second Suppl. Decl. at 4, 12).

App. 307
large margins. See infra Section V.A.2.c.xvi. (discussing
District 16). It was no coincidence that District 16 went
Republican; the packing of District 11 facilitated the
result. The day after the introduction of H.B. 319 in
committee, Mann sent an email to Renacci informing
him that, under the proposed bill, 16.98% of
Representative Sutton’s former district would be
included within the new District 11, while only 25.79%
of her former district would carry over into the new
District 16, in which she was expected to run.825 This
evidence supports our conclusion that partisan intent
predominated in the drawing of District 11.
In concluding the intent to pack District 11 to dilute
Democratic voting power predominated in crafting
District 11, we reject or find secondary several
alternative explanations for its shape. First,
Defendants claim that District 11 was drawn by
Republican map drawers with the intention of creating
a majority-minority district. They argue that even if
their implementation of this goal was flawed, so long as
the map drawers honestly believed that the way in
which they drew the district would aid minority
electoral opportunity, they cannot be found at fault. See
Dkt. 252 (Defs.’ & Intervenors’ Post-Trial Br. at 21–22)
(citing employment discrimination cases). There was no
proof that such an extension of the District was made
for any legitimate reason, and we reject Defendants’
assertion that uninformed guesswork about VRA
compliance is sufficient to justify the packing of
African-American voters into a Democratic district. See

825

Trial Ex. P130 (Sept. 14, 2011 email at LWVOH_00018321).

App. 308
infra Section V.A.2.d.iii. (discussing compliance with
the VRA).
Second, no admissible evidence supports
Defendants’ assertion that Democratic leaders in the
African-American community approved of and desired
District 11’s current shape. Defendants offered Judy,
DiRossi, and Speaker Batchelder’s testimony about
conversations that allegedly occurred with AfricanAmerican Democratic leaders solely for the effect that
those conversations purportedly had on the map
drawers. However, in the next breath, they offer the
testimony about those conversations for their truth—to
prove their assertion that the design of District 11 and
its concentration of African-American voters and
Democratic voters was a shared bipartisan goal. But
this assertion relies on the truth of out-of-court
statements of since deceased Democrats from Northern
Ohio. The hearsay rules prevent us from taking Judy,
DiRossi, and Speaker Batchelder’s word for what those
individuals actually wanted.
Third, we conclude that any input that
Representative Fudge herself had on the shape of her
district occurred well after the unveiling and passage
of H.B. 319, in the scramble to secure Democratic
support for a new bill that occurred in the shadow of
the referendum. This input amounted to securing small
tweaks and concessions, but the overarching contours
of the map were already fixed and did not change.
Fudge stated that she had no input in the drawing of
her district’s lines prior to the legislative unveiling and
that she was quite displeased with the shape of the

App. 309
district and the way that it reached down into Summit
County.826
Finally, we do not find that Defendants’ argument
that declining population in Northeastern Ohio
necessitated stretching District 11 southward
adequately explains the shape of District 11. There
were myriad ways that these population constraints
could have been handled. It is no coincidence that the
way chosen by Republican map drawers resulted in
packing Democratic voters in District 11 and cracking
Democratic support for Representative Sutton in the
new District 16. Mr. Cooper’s alternative hypothetical
maps also dealt with the population shifts in Ohio but
managed to produce two different equipopulous
versions of District 11 that do not extend the district

826

This contradicts the testimony of DiRossi, who stated that prior
to the introduction of H.B. 319 “it had been relayed to [him] by a
number of people that she did not want to be paired with Dennis
Kucinich in a district” and therefore that she elected to have
District 11 drawn dropping south into Summit County rather than
be paired against Representative Kucinich in a district entirely
contained within Cuyahoga County. Dkt. 230-12 (DiRossi Dep. at
186–87). DiRossi, however, admitted that he never spoke to
Congresswoman Fudge himself. Explaining the source of this
information, he stated: “I was working with Bob Bennett and I
know that other members, I believe Speaker Batchelder—or I
know Speaker Batchelder was talking to a number of folks and
contacts that he had in Northern Ohio about what Congresswoman
Fudge wanted.” Id. at 187. To the extent that Defendants offer
DiRossi’s testimony about what Congresswoman Fudge wanted for
the truth—to prove that she actually desired that District 11 drop
down into Summit County or that she did not want to be paired
with Representative Kucinich—we find that it is inadmissible
multi-layer hearsay.

App. 310
south into Summit County.827 Having considered
Defendants’ alternative explanations for the shape of
District 11, we conclude that the predominant intent
that motivated the drawing of the district in its current
form was the desire to pack Democratic voters in
District 11 and crack Democratic voters elsewhere.
We also conclude that the 2012 map had the effect
of packing Democratic voters into District 11 in a
dramatic fashion. Historical election results provide
some proof of this packing. See Benisek, 348 F. Supp.
3d at 519–20 (finding proof of partisan effect in “the
fact that the Democratic candidate was elected in the
three elections following the 2011 redistricting”). In
2012, Democratic Representative Marcia Fudge was
elected to Congress with 100% of the vote. In 2014, she
won with 79.45% of the vote. In 2016, she won with
80.25% of the vote. In 2018, she won with 82.24% of the
vote. None of these elections were even close to
competitive—Representative Fudge, when challenged,
consistently won with around 30% more of the vote
than would have been actually needed to carry the
district. The extreme margins by which Fudge won her
seat provide some evidence of packing in District 11.
Dr. Niven’s report helps illustrate why the addition
of portions of Summit County to District 11 facilitated
its packing. In the 2008 election 75.70% of the voters in
Summit County who were included in District 11 voted
for President Obama.828 This means that the sections of

827

Trial Ex. P093 (Cooper Second Suppl. Del. at 4, 12).

828

Trial Ex. P524 (Niven Rep. at 31).

App. 311
Summit County that the map drawers chose to include
in District 11 were overwhelmingly Democratic.
Allotting these Democratic Summit County voters to
District 11, which was already destined to deliver a
Democratic representative, meant that there were
fewer Democratic voters in the area of Summit County
that could potentially be assigned to neighboring
Districts such as District 16, which were intended to
deliver Republican victories. The subsequent election
results, in which Representative Fudge repeatedly won
District 11 by a landslide and Republican candidates
consistently won District 16, are clear evidence of a
packing effect in District 11.
Finally, Dr. Cho’s simulated maps provide further
evidence of packing in District 11. In 0% of the
simulated non-partisan maps would Plaintiff Harris,
who lives in current District 11, have a better chance of
electing a Democratic candidate.829 The fact that the
pro-Democratic outcome in District 11 is so extreme
compared to the outcomes in a non-partisan map
supports the conclusion that the partisan design of the
2012 map impacted the composition of District 11,
packing in Democratic voters and thereby diluting
their votes.
xii.

District 12

District 12 includes all of Morrow, Delaware, and
Licking Counties. It also includes the southern half of
Muskingum County, the southeastern corner of Marion
County, and the southern half of Richland County.

829

Trial Ex. P087 (Cho Rep. at 24).

App. 312
Finally, District 12 includes irregularly shaped and
noncontiguous portions of Franklin County, which jut
into the City of Columbus.830 It is involved in the threeway split of Franklin County and the City of
Columbus.831

The statewide evidence of partisan intent in the
map-drawing process, discussed above, supports a
finding of predominant partisan intent to crack District
12. Additionally, the evidence of partisan intent in
creating the “Franklin County Sinkhole” in District 3
is also evidence of partisan intent to crack District 12
because District 12 benefitted from the high

830

831

Dkt. 241 (Cooper Trial Test. at 146).
Trial Ex. P090 (Cooper Decl. at 12, fig. 5).

App. 313
concentration of Democratic voters in District 3. See
Benson, 2019 WL 1856625, at *57 n.39. Kincaid’s
statements immediately after the redistricting are
further evidence of partisan intent in drawing District
12. Kincaid expressed his belief that, under the 2012
map, District 12 had moved nine PVI points in favor of
Republicans and had thus been taken “out of play.”832
Designing a district to take it “out of play,” resulting in
the consistent election of a member of one party rather
than true competition between the parties, shows
partisan intent.
We also conclude that the 2012 map had the effect
of cracking Democratic voters in District 12. Historical
election results under the 2012 map support this
conclusion. See Benisek, 348 F. Supp. 3d at 519–20
(finding proof of partisan effect in “the fact that the
Democratic candidate was elected in the three elections
following the 2011 redistricting”). In 2012, Republican
Representative Pat Tiberi was elected to Congress with
63.47% of the vote. In 2014, he won with 68.11% of the
vote. In 2016, he won with 66.55% of the vote. In 2018,
Troy Balderson replaced Representative Tiberi as the
Republican candidate. He won the election with 51.42%
of the vote, defeating Democratic candidate Danny
O’Connor. Only one of these elections in District 12 was
competitive—the last. District 12 had been drawn to be
sufficiently pro-Republican, however, such that
Balderson, was able to defeat O’Connor even in a

832

Trial Ex. P310 (NRCC Presentation at 5); Dkt. 230-27 (Kincaid
Dep. at 115–16).

App. 314
Democratic swing year.833 This result is particularly
impressive considering the fact that O’Connor spent
$8,452,028.09 on his campaign while Balderson spent
only $2,496,185.71.834
Dr. Niven’s report provides further proof that the
2012 map shored up District 12 as a Republican seat.
Under the pre-redistricting map, District 12 supported
President Obama in the 2008 election with 55.03% of
the vote. Had the District taken the form that it does
under the current map, President Obama would have
lost the district with only 45.43% of the vote.835 The
increased Republican leaning of the new District 12 is
evidence of the effect of the cracking of Democratic
voters in that district. See Benisek, 348 F. Supp. 3d at
519 (finding partisan effect where the design of the
district resulted in a large swing in PVI).
Finally, Dr. Cho’s simulated maps also lend support
to the conclusion that Democratic voters in District 12
were cracked. In 100% of Dr. Cho’s simulated nonpartisan maps, Plaintiff Dagres, who resides in current
District 12, would have a better chance of electing a
Democratic representative.836 This fact supports the
conclusion that the pro-Republican cracking of District
12 diminished the ability of Democratic voters in that
district to elect their candidate of choice.
833

Trial Ex. P426 (Cho Rep. at 6).

834

Id.

835

Trial Ex. P524 (Niven Rep. at 25).

836

Trial Ex. P087 (Cho Rep. at 25).

App. 315
xiii.

District 13

District 13 includes the southern half of Trumbull
County, the northern half of Mahoning County, and
highly irregularly shaped portions of Portage and
Summit Counties. In Summit County, the district
includes much of the City of Akron. District 13 does not
encompass the entirety of any one County. It is
involved in the four-way split of Summit County and
the three-way splits of Stark County and Portage
County.

The statewide evidence of partisan intent in the
map-drawing process, discussed above, supports a
finding of predominant partisan intent to crack District
13. Further, the strange shape of District 13 under the
2012 map and the manner in which it splits many
counties and the City of Akron support an inference of

App. 316
partisan intent.837 See Benson, 2019 WL 1856625, at
*57 n.39.
We also conclude that the 2012 map had the effect
of packing Democratic voters into District 13.
Historical election results provide some evidence of the
packing. See Benisek, 348 F. Supp. 3d at 519–20
(finding proof of partisan effect in “the fact that the
Democratic candidate was elected in the three elections
following the 2011 redistricting”). In 2012, Democratic
Representative Tim Ryan was elected to Congress with
72.77% of the vote. In 2014, he won with 68.49% of the
vote. In 2016, he won with 67.73% of the vote. In 2018,
he won with 60.99% of the vote. None of these elections
were even close to competitive; the huge margins are
some evidence of packing.
Finally, Dr. Cho’s simulated maps provide
additional evidence of the packing of District 13. In 0%
of Dr. Cho’s simulated non-partisan maps would
Plaintiff Myer, who lives in current District 13, have a
better chance of electing a Democratic
representative.838 The fact that the pro-Democratic
leaning of District 13 is so extreme compared to the
simulated maps supports the conclusion that the
current map has a partisan effect that packs
Democratic voters into the district and thereby dilutes
the power of their votes for Democratic candidates.

837

See Dkt. 241 (Cooper Trial Test. at 155–56).

838

Trial Ex. P087 (Cho Rep. at 26).

App. 317
xiv. District 14
District 14 lies in the northeastern corner of Ohio.
It includes the entirety of Ashtabula, Lake, and
Geauga Counties. It also includes the northern portions
of Trumbull and Portage Counties, the northeastern
corner of Summit County, and an irregularly shaped
section jutting into Cuyahoga County. It is involved in
the three-way split of Portage County and the four-way
splits of Summit and Cuyahoga Counties.839

The statewide evidence of partisan intent in the
map-drawing process, discussed above, supports a

839

Trial Ex. P090 (Cooper Decl. at 12, fig. 5).

App. 318
finding of predominant partisan intent to crack District
14.
We also conclude that the 2012 map had the effect
of cracking Democratic voters in District 14. Historical
election results provide some proof of the cracking. See
Benisek, 348 F. Supp. 3d at 519–20 (finding proof of
partisan effect in “the fact that the Democratic
candidate was elected in the three elections following
the 2011 redistricting”). In 2012, Republican
Representative David Joyce was elected to Congress
with 54.03% of the vote. In 2014, he won with 63.26%
of the vote. In 2016, he won with 62.58% of the vote. In
2018, he won with 55.25% of the vote. Only one of these
elections was competitive—the first, which was Joyce’s
first congressional campaign. The consistent election of
the Republican candidate in District 14 is evidence of
the durability of the 2012 map’s partisan effects and its
entrenchment of Republican representatives in office.
Finally, Dr. Cho’s simulated maps provide further
evidence that Democratic voters were cracked in
District 14. In 100% of her simulated non-partisan
maps, Plaintiff Hutton, who lives in current District 14,
would have a better chance to elect a Democratic
representative.840 The fact that the current District 14
is extremely pro-Republican compared to the nonpartisan simulated maps supports the conclusion that
it had the effect of cracking Democratic voters and
weakening their ability to elect Democratic candidates
in the district.

840

Trial Ex. P087 (Cho Rep. at 27).

App. 319
xv.

District 15

District 15 includes all of Morgan, Perry, Hocking,
Vinton, Fairfield, Pickaway, Madison, and Clinton
Counties, as well as the southern half of Fayette
County, the northern half of Ross County, and most of
Athens County. It also includes a highly irregularlyshaped portion of Franklin County, part of which
includes pieces of the City of Columbus.841 It is involved
in the three-way splits of Franklin County and the City
of Columbus.842

The statewide evidence of partisan intent in the
map-drawing process, discussed above, supports a
finding of partisan intent to crack District 15.
Additionally, the evidence of partisan intent specific to
841

Dkt. 241 (Cooper Trial Test. at 146).

842

Trial Ex. P090 (Cooper Decl. at 12, fig. 5).

App. 320
District 3 is also suggestive of partisan intent in the
creation of District 15. District 3 was designed to
efficiently pack voters to enable the reliable election of
Republican representatives in Districts 12 and 15. See
Benson, 2019 WL 1856625, at *57 n.39. Finally,
Kincaid’s comments about the 2012 map following its
enactment are further proof of partisan intent in
drawing District 15. Kincaid expressed his belief that
District 15 had moved seven PVI points in favor of
Republicans and had thus been taken “out of play.”843
These comments are evidence of the map drawers’
intent to crack Democratic voters in District 15 by
drawing the District to lean so strongly Republican
that Democratic voters would have little chance of
electing a Democratic candidate to represent them.
We also conclude that the 2012 map had the effect
of cracking Democratic voters in District 15. Historical
election results provide some proof of their cracking.
See Benisek, 348 F. Supp. 3d at 519–20 (finding proof
of partisan effect in “the fact that the Democratic
candidate was elected in the three elections following
the 2011 redistricting”). In 2012, Republican
Representative Steve Stivers was elected to Congress
with 61.56% of the vote. In 2014, he won with 66.02%
of the vote. In 2016, he won with 66.16% of the vote. In
2018, he won with 58.33% of the vote. None of these
elections were competitive. The consistent election of
the Republican candidate in District 15 in non-

843

Trial Ex. P310 (NRCC Presentation at 5); Dkt. 230-27 (Kincaid
Dep. at 115–16); see also Trial Ex. P556 (Stivers Email at
STIVERS_007519); Dkt. 230-46 (Stivers Dep. at 77–78); supra
Section I.A.8.

App. 321
competitive elections is evidence of the durability of the
2012 map’s pro-Republican effects. It is also evidence
of the 2012 map’s entrenchment of Republican
representatives in office by creating a “safe” proRepublican District 15 by cracking Democratic voters.
This consistent, strong pro-Republican lean of the
district contrasts with its pre-redistricting leanings,
evidence that the 2012 map altered the configuration
of District 15, making it more pro-Republican. Dr.
Niven’s report demonstrates that President Obama
won the 2008 election in District 15 with 54.61% of the
vote. Had that election occurred with the new
composition of District 15, however, President Obama
would have lost the district with only 46.85% of the
vote.844 The pieces of Franklin County that map
drawers included in the new District 15 were
considerably more pro-Republican than the pieces of
those counties that were allocated to other districts in
the scheme.845 Democratic voters in Franklin County
appear to have been specifically targeted to be removed
from District 15 while Republican voters in Franklin
County were intentionally added to District 15.846 This
allowed District 15 to shift to be more solidly proRepublican with the help of a packed District 3. See
Benisek, 348 F. Supp. 3d at 519 (finding partisan effect
where the design of the district resulted in a large
swing in PVI).

844

Trial Ex. P524 (Niven Rep. at 22).

845

Id. at 22–23.

846

Id. at 24.

App. 322
Finally, Dr. Cho’s simulated maps provide further
proof of the cracking effect. In 79.28% of Dr. Cho’s nonpartisan simulated maps, Plaintiff Thobaben, who lives
in current District 15, would have a better chance of
electing a Democratic representative. This supports the
conclusion that the partisan design of the 2012 map
resulted in her decreased ability to elect a Democratic
candidate.
xvi.

District 16

District 16 includes all of Wayne County as well as
irregularly shaped portions of Cuyahoga, Medina,
Summit, and Portage Counties. It is involved in the
four-way split of Summit County, the four-way split of
Cuyahoga County, and the three-way splits of Stark
County and Portage County.847

847

Trial Ex. P090 (Cooper Decl. at 12, fig. 5).

App. 323
The statewide evidence of partisan intent in the
map-drawing process, discussed above, supports a
finding of predominant partisan intent to crack District
16. Furthermore, District 16 intentionally cracked
Democratic voters from Akron in order to enable
Republican incumbent Representative Renacci to win
his pairing against Democratic incumbent
Representative Sutton in the 2012 election. See Benson,
2019 WL 1856625, at *57 n.39.
We conclude that the 2012 map had the effect of
cracking Democratic voters in District 16. Historical
election results support this conclusion. In 2012,
Republican Representative Jim Renacci defeated
Democratic Representative Betty Sutton, winning a
close race with 52.05% of the vote. In 2014, he won
with 63.74% of the vote. In 2016, he won with 65.33%
of the vote. In 2018, Anthony Gonzalez was the
Republican candidate for Congress in District 16; he
won with 56.73% of the vote. The only competitive
election in this set of four elections following the 2012
redistricting was the first—in which two incumbents
were paired. The uncompetitive elections and
consistent election of the Republican candidate are also
evidence of the durability of the 2012 map’s partisan
effects and its effectiveness in entrenching Republican
representatives in office.
Furthermore, the Republican map drawers
succeeded in their efforts to “eliminat[e] Ms. Sutton’s
seat”848 by drawing a new Republican-leaning District

848

Trial Ex. P414 (State-by-State Redistricting Summary at
REV_00000001); Dkt. 230-28 (Kincaid Dep. at 519).

App. 324
16 that they understood to include only 25.79% of her
former district.849 The new District 16 then elected
Representative Renacci by significant margins in the
two elections that followed and was sufficiently proRepublican to elect non-incumbent Gonzalez in a
Democratic swing year, albeit by a much tighter
margin.
Finally, Dr. Cho’s simulated maps provide
additional proof that the design of the 2012 map
cracked Democratic voters in District 16. In 100% of
Dr. Cho’s simulated non-partisan maps Plaintiff Rubin,
who lives in current District 16, would have a better
opportunity to elect a Democratic representative.850 The
pro-Republican skew of the current District 16
compared to the non-partisan simulated maps supports
the conclusion that the 2012 map design cracked
Democratic voters in District 16, negatively impacting
their ability to elect Democratic representatives.
d. Justification
Defendants tell an entirely different tale of the
redistricting process, offering several justifications for
the 2012 map, none of which includes the intent to lock
in Republican advantage or dilute the voting power of
Democratic voters through packing and cracking.
Defendants argue that incumbent protection,
bipartisan negotiations and input, Voting Rights Act
compliance and advancing minority representation,
and natural political geography explain the design and
849

Trial Ex. P130 (Sept. 14, 2011 email at LWVOH_00018321).

850

Trial Ex. P087 (Cho Rep. at 29).

App. 325
partisan effects of the 2012 map. We address and reject
each justification in turn.
i. Incumbent protection and Gaffney v.
Cummings
Defendants’ arguments on their incumbentprotection and “bipartisanship” justifications seem to
blend together at times. They contend that these
arguments “find[] dispositive support in Gaffney v.
Cummings, 412 U.S. 735 (1973).” See Dkt. 252 (Defs.’
& Intervenors’ Post-Trial Br. at 1). As a legal matter,
we disagree. Factually, as we will explain, the
“bipartisanship” justification simply does not hold up.
Because Defendants rely so heavily on Gaffney, we
start with what that case actually concerned—a socalled bipartisan gerrymander, or “sweetheart
gerrymander.” See Samuel Issacharoff,
Gerrymandering and Political Cartels, 116 HARV. L.
REV. 593, 628 (2002). In Gaffney, “[r]ather than
focusing on party membership in the respective
districts, the [State Apportionment] Board took into
account the party voting results in the preceding three
statewide elections, and, on that basis, created what
was thought to be a proportionate number of
Republican and Democratic legislative seats.” 412 U.S.
at 738. Put another way, the State “attempted to reflect
the relative strength of the parties in locating and
defining election districts.” Id. at 752. Therefore,
although the Constitution may not require proportional
representation, the proportional representation of
political parties is a permissible State interest. See
Vieth, 541 U.S. at 338 (Stevens, J., dissenting);
Gaffney, 412 U.S. at 754 (“[The] judicial interest should

App. 326
be at its lowest ebb when a State purports fairly to
allocate political power to the parties in accordance
with their voting strength and, within quite tolerable
limits, succeeds in doing so.”).
The Supreme Court, however, also reasoned that
“[w]hat is done . . . to achieve political ends or allocate
political power[] is not wholly exempt from judicial
scrutiny under the Fourteenth Amendment.” Gaffney,
412 U.S. at 754. Accordingly, we will examine whether,
in fact, the State fairly “allocate[d] political power to
the parties in accordance with their voting strength
. . . .” It is clear that the State of Ohio did not do so.
To be sure, in 2010 the Republicans experienced a
wave election and gained a thirteen-to-five advantage
in the Ohio congressional delegation, but Democratic
candidates still received approximately 42% of the vote.
That was the Democrats’ worst year in congressional
elections in the prior decade. Even taking note of the
strong Republican performance that year, the
argument that allocating 25% of the congressional
seats to Democrats fairly allocates political power in
accordance with that Party’s voting strength falls
apart. Thus, Gaffney is far from dispositive, and we
find it completely distinguishable from this case.
In fact, even despite their argument that Gaffney is
dispositive, Defendants also admit that the State
“focused on preserving the status quo incumbencyconstituent relationship rather than on creating the
‘proportional representation’ sought in Gaffney.” See
Dkt. 252 (Defs.’ & Intervenors’ Post-Trial Br. at 6).
First, this argument seems to contradict their initial
argument about Gaffney. Second, Defendants basically

App. 327
admit that their goal was a 12-4 map. See id. at 8
(“Because of the pre-reapportionment 13–5 partisan
split, divvying up the lost seats [after the census] fairly
meant a 12–4 split.”). They say that “Gaffney ratifies
the legislature’s choice . . . .” Id. at 7. For the reasons
articulated above, we disagree.
At bottom, Defendants’ arguments on this score are
aimed at trying to justify entrenchment and incumbent
insulation from political challenges, not incumbent
protection as understood by Supreme Court precedent.
See infra (collecting cases in which the Supreme Court
has been skeptical of the argument of preserving the
status quo for incumbents). Finally, we note that this
present line of defense—that the primary goal of the
map was to preserve the status quo for all
incumbents—contradicts statements made by the
redistricting plan’s sponsor in the Ohio State House.
Representative Huffman clearly described incumbent
protection as “a subservient [goal] to the other ones
that [he] listed” and further explained that, “[n]obody
has a district. . . . There’s nobody that owns a piece of
land in Congress. People elect them.”851 See Benisek,
348 F. Supp. 3d at 518 (considering notes prepared for
the Senate President’s “remarks to the State House
and Senate Democratic Caucuses about the
redistricting plan” as evidence establishing intent); see
also Arlington Heights, 429 U.S. at 268 (“The
legislative or administrative history may be highly
relevant, especially where there are contemporary

851

Trial Ex. J01 (House Session, Sept. 15, 2011 at 19, 21)
(statement of Rep. Huffman).

App. 328
statements by members of the decision-making body,
minutes of its meetings, or reports.”).
Legal arguments about Gaffney aside, by
Defendants’ account, protecting incumbents was the
sine qua non of the map-drawing process, and the
incumbent-protection concern was bipartisan in nature.
Defendants’ argument goes like this: the 2010
congressional election left Ohio with 13 Republican
representatives and 5 Democratic Representatives. The
decision to pair one set of Republican incumbents and
one set of Democratic incumbents, a politically fair
decision, would lead to a 12-4 map. The enacted map is
a 12-4 map; ergo the redistricting process was fair. But
this argument obscures complexities and nuances that
significantly undermine Defendants’ version of events.
First, to say that the redistricting process simply
transformed a 13-5 map into a 12-4 map ignores two
key considerations, which are intimately related with
one another: competitiveness and responsiveness. Yes,
the pre-redistricting map was a 13-5 map in that 13
Republican representatives and 5 Democratic
representatives had been elected under it in 2010. But
it had not consistently been a 13-5 map over the course
of its life. It contained competitive districts and was
responsive to shifts in voter preference and turnout
over the years. In contrast, the 12-4 map created in the
redistricting process is a 12-4 map through and
through. It minimized competitive districts and
responsiveness to changes in voter preferences. It is no
coincidence that correspondence between the insiders
crafting the map refer to “lock[ing] in” the 12-4 division
and ensuring “safe seats.” See Benisek, 348 F. Supp. 3d

App. 329
at 518 (finding unconstitutional partisan
gerrymandering where “Democratic officials . . . worked
to craft a map that would specifically transform the
Sixth District into one that would predictably elect a
Democrat by removing Republicans from the District
and adding Democrats in their place”). The
redistricting meant that the parties suffered an equal
reduction in seats between the 2010 election and the
2012 election, as Defendants emphasize. However,
Defendants minimize the fact that the redistricting
also effectively guaranteed that the most seats that
Democratic voters could secure for their party in any
future election under that map was four, and the
fewest seats that Republican voters could secure for
their party in any future election was twelve.
Second, the map drawers paired more sets of
incumbents than Ohio’s population stagnation
required.852 Not only did the map drawers pair a set of
Republican incumbents and a set of Democratic
incumbents, they also paired an extra set: one
Democratic incumbent, Betty Sutton, against one
Republican incumbent, Jim Renacci. They then drew
the district in which Sutton and Renacci were paired,
the new District 16, to include far more of Renacci’s
former constituents than Sutton’s, which gave him a

852

Defendants’ own expert, Dr. Hood, admitted that “if the
legislature wanted to pair the fewest number of incumbents in
enacting the 2012 plan, that would have been two sets of
incumbents for four total congressional representatives.” Dkt. 247
(Hood. Trial Test. at 192).

App. 330
considerable advantage in the race that ensued.853 This
undermines Defendants’ claim that a bipartisan desire
for incumbent protection dominated the map-drawing
process.
Third, Defendants repeatedly emphasize that the
reason that incumbent protection is a legitimate
motivation in redistricting is because incumbents,
particularly those with considerable experience serving
in their elected office, wield that seniority for the
benefit of their constituents. Yet, the map drawers
chose to pair two senior Republican incumbents,
Representatives Turner and Austria, after considering
and rejecting the possibility of pairing two freshmen
Republican incumbents, Representatives Gibbs and
Johnson.854 Evidence demonstrates that partisan intent

853

Dr. Hood also acknowledged that “someone that retained more
of their . . . constituents from their previous district probably had
an advantage over the other incumbent,” and “the incumbent who
retained more of their constituents,” Representative Renacci, was
“favored by the map.” Dkt. 247 (Hood Trial Test. at 194–95). On
September 14, 2011, Mann emailed Congressman Renacci
responding to his request to see “the population numbers and
percentages of Congresswoman Sutton’s current district that
would be contained in the proposed districts.” It stated that “New
CD 16 (Renacci)” would include only 25.79% of Congresswoman
Sutton’s former district. Trial Ex. P130 (Sept. 14, 2011 email at
LWVOH_00018321).
854

Dkt. 230-52 (Whatman Dep. at 34–35) (“There were early
discussions, given the fact that we had two freshmen members of
the delegation at that time, whether based on seniority it made
sense that the two freshmen would have to run against each other,
or whether some other consideration would come into play.”).

App. 331
motivated that decision. In “talking points” that
Whatman sent to President Niehaus, Whatman wrote:
A Gibbs/Johnson map results in 3 districts with
a base Republican vote under 50 percent. A
Turner/Austria map only has one district under
50. . . . Putting two members together in another
region of the state merely because they are
freshmen that results in an overall worse map
for republicans in the state is simply not the
right thing to do. Boehner is not happy about
this but it is the tough decision that is the right
thing for Republicans for the next decade.855
This correspondence demonstrates that when the mapdrawing process pitted the competing concerns of
incumbent-advantage protection against partisanadvantage protection, partisan-advantage protection
dominated. The decision to pair senior Republican
incumbents thus undermines the credibility of
Defendants’ assertion that incumbent protection was
the primary consideration in the redistricting.
Fourth, Ohio Republican map drawers themselves
claimed at the time that incumbent protection was not
their primary concern. When presenting the bill in the
Ohio House of Representatives, Representative
Huffman detailed the competing concerns that the
creators of the bill had considered when drafting the
H.B. 319 map. He characterized equipopulation as “the
lodestone,” called VRA compliance an “important
precept[],” and then listed “several other traditional

855

Trial Ex. P407 (Sept. 07, 2011 email at LWVOH_0052431).

App. 332
redistricting principles . . .: compactness, contiguity,
preservation of political subdivisions, preservation of
communities of interest, preservation of cores of prior
districts, and protection of incumbents.” He then made
a point of stating that protection of incumbents was
“subservient . . . to the other ones that I listed.”856
Representative Huffman went on:
You know, we talked—a year ago someone came
up to me and said, “Are we going to get rid of
Kucinich’s district?” And I said, “Look, Kucinich
doesn’t have a district. Nobody has a district.
Every two years, there’s an election, and that’s
how it works. That’s how the system works.
There’s nobody that owns a piece of land in
Congress. People elected them.”857
We acknowledge that politicians may make
representations on the floor of the House that diverge
from the true account of their priorities in creating a
bill. We must, however, note the tension between the
post-hoc justification that Defendants offer for the
bill—incumbent protection as the primary
motivation—and Representative Huffman’s express
minimization of the incumbent-protection concern on
the floor of the House.
Additionally, Defendants’ portrayal of the
incumbent-protection goal as bipartisan
mischaracterizes the facts. Only hazy, inadmissible
856

Trial Ex. J01 (Ohio House Session, Sept. 15, 2011 at 16–19)
(statement of Rep. Huffman).
857

Id. at 21.

App. 333
multi-level hearsay testimony was offered to support
their claim that Democratic leaders wanted Kucinich
and Kaptur to be the paired Democratic incumbents.
The evidence indicates that the Republican and
Democratic Caucuses did their map drawing entirely
separately, particularly in the early stages when major
decisions such as the pairing of incumbents were being
made. Both Congresswoman Kaptur and
Congresswoman Fudge insisted that they had no say
whatsoever in the design of the map prior to its
introduction as H.B. 319, and the incumbent pairings
were not altered between H.B. 319 and the passage of
H.B. 369.
Finally, we reject what seems to be Defendants’
argument that because the Supreme Court has
sanctioned incumbent protection as a legitimate
concern in the redistricting process in some instances,
any kind of incumbent-protecting behavior is legitimate
and may be used to justify the drawing of district lines.
The Supreme Court has expressed its acceptance of
districting “that minimizes the number of contests
between present incumbents,” which in its view “does
not in and of itself establish invidiousness.” Burns v.
Richardson, 384 U.S. 73, 89 n.16 (1966); see also White
v. Weiser, 412 U.S. 783, 791 (1973) (quoting Burns and
expressing tolerance for districting plans that
“maintain[] existing relationships between incumbent
congress[people] and their constituents and preserv[e]
the seniority the members of the State’s delegation
have achieved in the United States House of
Representatives”). In Gaffney, the Supreme Court
accepted a politically conscious bipartisan
gerrymander, noting that “[r]edistricting may pit

App. 334
incumbents against one another or make very difficult
the election of the most experienced legislator.” 412
U.S. at 753. In Karcher, the incumbent protection that
the Supreme Court endorsed as legitimate was simply
“avoiding contests between incumbent
Representatives.” 462 U.S. at 740. These cases
uniformly identify one legitimate form of incumbent
protection—avoiding a districting scheme that pairs
two current incumbents and forces them to face one
another in an election. They offer no endorsement of
incumbent protection in the form of a districting
scheme that insulates incumbents from any future
challenge.
We conclude that the incumbent protection
effectuated by the 2012 map is of the latter,
unprotected kind. The map drawers drew one more
incumbent pairing than the bare minimum in a state
that had its congressional delegation reduced by two.
But the majority of its line-drawing decisions were
motivated not by the legitimate incumbent-protection
goal of “avoiding contests between incumbent
Representatives,” but rather by the goal of avoiding
contests between Democrats and Republicans in
general. The Republican map drawers drew
noncompetitive, nonresponsive districts by grouping
bodies of voters who would elect a Democrat—any
Democrat—or a Republican—any Republican. This is
not the incumbent protection that the Supreme Court
has endorsed. In fact, the Supreme Court has
repeatedly cast aspersions on this type of incumbent
insulation. See Randall v. Sorrell, 548 U.S. 230, 248
(2006) (holding that, when assessing contribution
limits on political donations, courts must determine

App. 335
“whether [the contribution limits] magnify the
advantages of incumbency to the point where they put
challengers to a significant disadvantage”); McConnell
v. Fed. Election Comm’n, 540 U.S. 93, 306 (2003)
(Kennedy, J., concurring in part and dissenting in part)
(finding a campaign finance provision problematic
because it “look[ed] very much like an incumbency
protection plan.”); id. at 263 (Scalia, J., concurring in
part and dissenting in part) (arguing that a portion of
the Bipartisan Campaign Reform Act was an attempt
by Members of Congress “to mute criticism of their
records and facilitate reelection.”); see also Elrod v.
Burns, 427 U.S. 347, 356 (1976) (plurality) (“Patronage
thus tips the electoral process in favor of the incumbent
party, and where the practice’s scope is substantial
relative to the size of the electorate, the impact on the
process can be significant.”); Jenness, 403 U.S. at 439
(concluding that an election law was constitutional in
part because the State “in no way freezes the status
quo, but implicitly recognizes the potential fluidity of
American political life.”). The incumbent-protection
justification does not encompass incumbent insulation
through the drawing of favorable districts. Rather, it
only allows the prevention of excessive incumbentversus-incumbent pairings.
Furthermore, even if this kind of incumbentinsulation strategy were sanctioned by the Supreme
Court’s cases, the Republican map drawers did not
create four Democratic districts because they had
united in a bipartisan anti-competitive scheme with
Democratic legislators. Rather, they created four
Democratic districts because Ohio has Democratic
voters and the map drawers had to allocate them in

App. 336
some fashion. The map drawers contemplated packing
Democratic voters into three districts and cracking
them among the remaining thirteen. The map drawers,
however, did not feel that that strategy would
guarantee sufficiently predictable pro-Republican
outcomes; it allowed for too much competition and
responsiveness. They decided twelve Republican seats
in the hand was better than thirteen in the bush, and
so four Democratic districts were born. This behavior
constitutes invidious partisan gerrymandering and is
unconstitutional as proved district by district.
ii. Bipartisan negotiations and input
Defendants also argue that some of the lines of the
2012 map resulted from honoring requests from
Democratic representatives and operatives. We
conclude that the Democrats had no role in the drawing
of H.B. 319 and were able to secure only minor
concessions from the Republicans in the passage of
H.B. 369, none of which significantly changed the
earlier version of the map. These findings do not
undermine our conclusion that invidious partisan
intent predominated in the creation of the 2012 map.
See Rucho, 318 F. Supp. 3d at 868–69 (finding partisan
intent where “Republicans had exclusive control over
the drawing and enactment of the 2016 plan” and “with
the exception of one small change to prevent the
pairing of Democratic incumbents, [the expert map
drawer] finished drawing the 2016 plan before
Democrats had an opportunity to participate in the
legislative process”).
First, we assess Defendants’ assertion that the map
drawers were taking and incorporating requests from

App. 337
Democratic legislators prior to the introduction of H.B.
319. We do not credit this assertion. The map drawers
themselves testified that they did not share draft maps
of H.B. 319 with Democratic legislators or staffers until
very close to its introduction in the General Assembly.
Both Representatives Kaptur and Fudge testified that
they did not have input into the design of H.B. 319.
Finally, all Defendant testimony offered to prove that
that Democratic leaders themselves actually wanted
particular map designs was vague, unconvincing, and
most importantly, hearsay. There is no evidence to
support Defendants’ assertions that, prior to the
introduction of H.B. 319, certain Democrats actually
made the requests that the map drawers say they
eventually accommodated.
Second, we assess Defendants’ assertion that the
map drawers took and incorporated requests from
Democratic legislators after the introduction of H.B.
319 and prior to the final enactment of H.B. 369. We
credit this assertion, but it is not determinative. The
changes made between H.B. 319 and the enacted H.B.
369 were de minimis. See Benisek, 348 F. Supp. 3d at
520 (concluding that “while there may have been other
causes that could have marginally altered the
[challenged] district, the striking actions complained of
are not explained by the State’s proffers”). They reflect
small concessions made by the Republican legislators
when faced with a voter referendum to challenge H.B.
319. None of these concessions meaningfully impacted
the central intent of H.B. 319—the enactment of a map
that was nearly certain to allow for the election of
twelve Republican congressional representatives and

App. 338
four Democratic congressional representatives.858
Speaker Batchelder himself testified that while some
negotiations occurred, there was never a chance that
the Republicans in the majority would permit a map
that altered the partisan balance of H.B. 369.859 The
testimony offered by Defendants’ witnesses to prove
that that Democratic leaders themselves actually
wanted particular map designs was vague, speculative,
not credible, and most importantly, hearsay.
Next, Defendants assert that partisan intent to
discriminate against Democratic voters could not have
motivated the enactment of the 2012 map because
Democratic members of the Ohio House of
Representatives and State Senate voted in support of
it. The argument is that Democratic legislators would
not intend to electorally disadvantage their own party,
and a bill enacted with their partial support could
therefore not have been motivated by invidious
partisan intent.
We do not find this argument convincing as it fails
to acknowledge the reality of legislative politics. The
Republicans commanded majorities in the Ohio House
of Representatives and the State Senate, and they held
the governorship. They could force through a bill that
Democratic legislators did not support. Speaker
Batchelder himself acknowledged this, commenting
858

Dkt. 241 (Cooper Trial Test. at 179) (“If you look at the election
data in terms of partisan performance, there’s really not very
much different in the two plans.”); see also Trial Ex. P090 (Cooper
Decl. at 22, fig. 9); Trial Ex. P454 (Cooper Decl. Apps. at Ex. I).
859

Dkt. 230-3 (Batchelder Dep. at 130–31).

App. 339
that the Republicans “could have simply done what
[they] wanted to,” in the redistricting process.860 The
fact that some Democratic legislators voted in support
of H.B. 369, perhaps to secure the small concessions
that were made between H.B. 319 and H.B. 369 or to
avoid the costly split primary, therefore is not evidence
of a lack of partisan intent behind the enacted map. Of
course, this does not mean that proof that one party
controlled both legislative houses and the governorship
is sufficient to demonstrate partisan intent. However,
we are unconvinced by the Defendants’ argument that
some Democratic votes neutralize pro-Republican
partisan intent.
Finally, Defendants’ argument that the Republican
map drawers could have drawn a 13-3 map but did not,
and therefore that they did not have a partisan intent
is unconvincing. Drawing a 13-3 map would have been
a riskier choice because it would have required
Republican support to be spread more thinly
throughout the Republican-leaning districts. Such a
map would have been more vulnerable in Democratic
swing years; more seats could have potentially fallen
into Democratic hands. The map drawers prioritized
maximizing safe seats for their candidates throughout
the decade over maximizing the number of seats in a
single election, some of which would have then been
vulnerable in Democratic swing years. Thus, rather
than cut against partisan intent, this strategic choice
is further evidence of the predominantly partisan
intent. The Republicans successfully avoided the
purported self-limitation on partisan gerrymandering—
860

Id. at 25.

App. 340
“an over ambitious gerrymander . . . .” See Bandemer,
478 U.S. at 152 (O’Connor, J., concurring in the
judgment); see also id. (“[A]n overambitious
gerrymander can lead to disaster for the legislative
majority: because it has created more seats in which it
hopes to win relatively narrow victories, the same
swing in overall voting strength will tend to cost the
legislative majority more and more seats as the
gerrymander becomes more ambitious.”).
iii.

Voting Rights Act compliance and
advancing minority representation

Defendants assert that one “principal goal” was “to
preserve and advance minority electoral prospects both
in northeast Ohio and in Franklin County,” Dkt. 252
(Defs.’ & Intervenors’ Post-Trial Br. at 20), and that
“the alleged [partisan] bias is justified by the Voting
Rights Act and minority-protection goals . . . .” Id. at
30; see also id. at 20–27, 38–40. This proffered
justification applies specifically to Districts 3 and 11.
Normally, invoking VRA compliance as a state
interest in redistricting arises in the racialgerrymandering context. See, e.g., Cooper v. Harris, 137
S. Ct. 1455, 1465 (2017); Ala. Legislative Black Caucus,
135 S. Ct. at 1274. As the Supreme Court recently
explained:
When a State invokes the VRA to justify
race-based districting, it must show (to meet the
“narrow tailoring” requirement) that it had “a
strong basis in evidence” for concluding that the
statute required its action. Or said otherwise,
the State must establish that it had “good

App. 341
reasons” to think that it would transgress the
Act if it did not draw race-based district lines.
That “strong basis” (or “good reasons”) standard
gives States “breathing room” to adopt
reasonable compliance measures that may
prove, in perfect hindsight, not to have been
needed.
Cooper, 137 S. Ct. at 1464 (internal citations omitted).
This case, however, does not involve a racialgerrymandering claim; this is, of course, a partisangerrymandering case. In this context, we will still
assume that compliance with the VRA can serve as a
legitimate state justification. See Bethune-Hill, 137 S.
Ct. at 801 (“As in previous cases, . . . the Court
assumes, without deciding, that the State’s interest in
complying with the Voting Rights Act [is] compelling.”).
In addition, when the State seeks to use the VRA as a
shield to justify an alleged partisan-gerrymandered
district, the State must still establish that it had a
basis in evidence for concluding that the VRA required
the sort of district that it drew. We will not accept a
blanket assertion that the State sought to comply with
the VRA in cases where the State misinterpreted the
law and did no work to show that it had some reason to
believe that a particular percentage of minority voters
was required for a district.
To establish a vote-dilution claim under § 2, a party
must satisfy three threshold conditions, known as the
Gingles preconditions.861 See Gingles, 478 U.S. at

861

As Ohio was never a covered jurisdiction under § 5 of the VRA,
only § 2 compliance could be at issue for the State.

App. 342
50–51. These preconditions are: (1) the minority group
must be large enough and geographically compact to
constitute a majority in a single-member district;
(2) the minority group must be politically cohesive; and
(3) there must be evidence of racial bloc voting such
that a white majority could usually defeat the
minority’s preferred candidate. See id. “If a State has
good reason to think that all the ‘Gingles preconditions’
are met, then so too it has good reason to believe that
§ 2 requires drawing a majority-minority district.”
Cooper, 137 S. Ct. at 1470 (emphasis added).
Although we do not find that racial considerations
predominated, we nonetheless see it as entirely
appropriate to put the burden on the State to show that
it had good reasons for believing § 2 required drawing
District 11 as a majority-minority district. As an initial
matter, we would not engage in this inquiry if Plaintiffs
had failed to carry their burden on partisan intent and
effect, but Plaintiffs have carried that burden.
Furthermore, Defendants’ argument here essentially
amounts to: “we interpreted the VRA and properly
considered race (instead of partisanship); even if we
were mistaken in our interpretation or mistaken about
what BVAP was appropriate, a goal to aid minority
electoral opportunities is still a legitimate justification
for the design of District 11.” For the reasons explained
below, we do not find Defendants’ argument
persuasive. Moreover, although we acknowledge that
some evidence suggests that the State had a good-faith
belief that it drew districts in a way to comply with the
VRA, other evidence cuts against finding a good-faith
belief, and no evidence suggests that this belief was an

App. 343
informed one. First, we will address District 11, and
then we will turn to District 3.
For District 11 (which was unchanged between H.B.
319 and H.B. 369), statements from the legislative
record illuminate the General Assembly’s thinking and
its “legal mistake.” See Cooper, 137 S. Ct. at 1472.
Representative Huffman, H.B. 319’s sponsor in the
State House, said:
The significant application [of the VRA] in
this particular case is that . . . we are required to
draw a majority/minority district in the State of
Ohio when that can be done. And in fact, the
map that you see before you today in this
legislation . . . does that. So that’s one of the
significant requirements by federal law that we
have met when we’ve drawn this map.862
Likewise, in the State Senate, Senator Faber (the bill’s
sponsor in that chamber) stated that District 11 “was
also going to be required to comply with the Voting
Rights Act. And the Voting Rights Act says, essentially,
where you can draw a continuity [sic] of interest
minority district you need to do that.”863 Senator Faber
further cited Bartlett v. Strickland, 556 U.S. 1 (2009),
to support how District 11 was drawn.864 Other
862

Trial Ex. J01 (Ohio House Session, Sept. 15, 2011 at 17–18)
(statement of Rep. Huffman).
863

Trial Ex. J03 (Ohio Senate Session, Sept. 21 2011 at 10)
(statement of Sen. Faber).
864

Id. at 44 (statement of Sen. Faber) (“[T]he Supreme Court held
that a majority-minority district that is drawn to remedy a [VRA

App. 344
legislators echoed this view.865 In short, legislators
articulated concern about a VRA § 2 violation, and they
thought that “whenever a legislature can draw a
majority-minority district, it must do so . . . .” See
Cooper, 137 S. Ct. at 1472.
As the Supreme Court explained, “[t]hat idea,
though, is at war with our § 2 jurisprudence—
Strickland included.” Id. Instead, Strickland “turn[ed]
on whether the first Gingles requirement can be
satisfied when the minority group makes up less than
50 percent of the voting-age population in the potential
election district.” 556 U.S. at 12. The Court answered
no. See id. at 26 (“Only when a geographically compact
group of minority voters could form a majority in a
§ 2 violation], must be made up of a numerical majority of the
voting age population in the district. . . . Minority population totals
that are less than 50 percent of the district’s voting age population
do not fulfill the mandate of the Voting Rights Act.”).
865

See id. at 58 (statement of Sen. Coley); id. at 60 (statement of
Sen. Tavares); Trial Ex. J01 (Ohio House Session, Sept. 15, 2011
at 39) (statement of Rep. Gerberry). Defendants cite statements
from some members on the Democratic side of the aisle who also
referenced the VRA. True enough, however, even though some
referenced the VRA, not all agreed with how the Act was used in
this case. See, e.g., Trial Ex. J01 (Ohio House Session, Sept. 15,
2011 at 40) (statement of Rep. Gerberry) (“[L]et’s be honest. If you
look at that map, this isn’t about fairness. This is about finding a
way to get the most Republican districts with the most
Republicans so they’re noncontestable in general elections.”); id. at
59–60 (statement of Rep. Yuko) (“We now have Marcia Fudge
representing us and [District 11 has not] missed a beat. This map
puts it all at risk.”). To the extent that Defendants rely on
bipartisanship in this context, we address that justification
elsewhere. See supra Section V.A.2.d.ii.

App. 345
single-member district has the first Gingles
requirement been met.”). Strickland also clarified that,
“[m]ajority-minority districts are only required if all
three Gingles factors are met and if § 2 applies based on
a totality of circumstances. In areas with substantial
crossover voting it is unlikely that the plaintiffs would
be able to establish the third Gingles
precondition—bloc voting by majority [white] voters.”
Id. at 24 (emphasis added). In this case, no credible
evidence suggests that this third requirement (racial
bloc voting in congressional elections) was present,
which could trigger § 2 concerns. “Thus, [Ohio’s] belief
that it was compelled to []draw District [11] . . . as a
majority-minority district rested not on a ‘strong basis
in evidence,’ but instead on a pure error of law.” See
Cooper, 137 S. Ct. at 1472 (citation omitted).
In response, Defendants note that “[t]he legislature
had good reasons to fear Voting Rights Act liability in
northeast Ohio because the City of Euclid was the
subject of successful Section 2 claims immediately prior
to the redistricting, due to polarized voting in the city
and its history of racial discrimination and animus.”
Dkt. 252 (Defs.’ & Intervenors’ Post-Trial Br. at 38); see
also, e.g., City of Euclid, 580 F. Supp. 2d 584. This
argument is not credible.
The cases concerning Euclid involved nonpartisan,
local elections and do not support any suggestion that
District 11’s partisan, federal congressional elections
were polarized. In fact, District 11 included the City of
Euclid under the 2002 plan, and in the closest election
under that plan (the 2002 election), thenRepresentative Stephanie Tubbs Jones won by a

App. 346
margin of about 76% to 24%, or 116,590 votes to
36,146.866 In the prior decade, the State drew District
11 with a BVAP at 52.3%, and the District was an
extraordinarily safe district for African-American
candidates (including Congresswoman Fudge); under
the current plan, the BVAP is 52.4%.867 Put simply, the
“electoral history provided no evidence that a § 2
plaintiff could demonstrate the third Gingles
prerequisite—effective white bloc-voting, . . . [s]o
experience gave the State no reason to think that the
VRA required it to” maintain District 11 as a district
with a BVAP of just over 52%. See Cooper, 137 S. Ct. at
1470.
Plaintiffs present Dr. Handley’s report as evidence
affirmatively to rebut the contention that the third
Gingles precondition could be met, and her analysis
provides some further evidence against finding that the
State had a good-faith belief that the VRA required
District 11 to be drawn as it was. Dr. Handley’s finding
that a 45% BVAP would be sufficient to elect the Blackpreferred candidate by a comfortable margin is merely
additional evidence to support the conclusion that
District 11 did not need to be drawn as a majorityminority district. (Dr. Handley even suggests a 40%
866

See OHIO SEC’Y OF STATE, 2002 ELECTION RESULTS,
https://www.sos.state.oh.us/elections/election-results-anddata/2002-elections-results/u.s.-representative/; see supra Section
II.C.4 (discussing Dr. Handley’s testimony and report).
867

District 11’s BVAP increased over the course of the decade to
about 57%, but this does not alter the analysis. Again, the closest
election was the 2002 election—which Stephanie Tubbs Jones won
by over 50%—and the BVAP in that year was 52.3%.

App. 347
BVAP may be sufficient, though the elections would be
tighter.) We need not, however, rely on Dr. Handley.
The real problem for the State is, again, that it drew
District 11 based on a pure misinterpretation of the
VRA. This means that it had neither “good reasons” nor
any “basis in evidence” to draw District 11 as a
majority-minority district. Cooper, 137 S. Ct. at 1464.
To be sure, as with § 5 of the VRA, “[t]he law cannot
insist that a state legislature, when redistricting,
determine precisely what percent minority population
§ [2] demands.” See Ala. Legislative Black Caucus, 135
S. Ct. at 1273; see also Cooper, 137 S. Ct. at 1472. But
the State needs to show its work, so to speak, and if the
State happens to be wrong, it enjoys some leeway.
Defendants assert that legislators here “conducted a
functional analysis of [District 11] to conclude that a
50% target was appropriate.” See Dkt. 252 (Defs.’ &
Intervenors’ Post-Trial Br. at 38–39). This assertion is
surprising, given that such a “functional analysis” is
completely absent from this record. This is not a case
where the State “relied on data from its statisticians
and Voting Rights Act expert to create districts tailored
to achieve” VRA compliance. See Harris, 136 S. Ct. at
1310. (This lack of analysis also cuts against finding a
good-faith belief that the VRA required District 11 to
be drawn as such.) For these reasons, the leeway given
to States that have done their homework in this
context cannot rescue District 11. See Cooper, 137 S.
Ct. at 1472.
A question then arises as to whether a state’s
mistake of law on the VRA, even if in good faith, can
serve as a legitimate justification for a partisan

App. 348
gerrymander. In the context of District 11, the
argument essentially amounts to: The State can draw
a majority-minority district if it wants, even if the
State was mistaken in its belief that the VRA required
such a district. Accepting such a justification could be
constitutionally problematic. See Strickland, 556 U.S.
at 23–24 (“Our holding also should not be interpreted
to entrench majority-minority districts by statutory
command, for that, too, could pose constitutional
concerns.”). Accordingly, we decline to accept this
argument here.
Importantly, we also conclude that Plaintiffs carried
their burden in proving partisan intent, not a desire to
comply with the VRA (even if based on an entirely
mistaken interpretation of the VRA), predominantly
influenced District 11. In Harris, the Supreme Court
explained that the appellants in that case did not show
that the districts “result[ed] from the predominance of
. . . illegitimate factors . . . .” 136 S. Ct. at 1310. The
opposite is true here. As discussed above, the reason for
dropping District 11 down into Summit County was to
carve voting territory away from then-Representative
Betty Sutton to disadvantage her in her race against
Representative Renacci—a partisan motivation. See
Benson, 2019 WL 1856625, at *57 n.39. To the extent
that the State legitimately wanted to maintain District
11 as a majority-minority district, it sought to
accomplish that goal in a way that would achieve an
ultimately partisan aim—to lock in a 12-4 map. That is,
even if the goal of advancing minority interests in
District 11 was a secondary goal, it was just that:
secondary. At bottom, partisanship was the
predominant and controlling intent behind the district.

App. 349
The argument for District 3 is slightly different, but
the difference is important. In District 3, the argument
goes, the State sought to advance minority electoral
prospects in Franklin County. Defendants rely on
Strickland’s statement about “the permissibility of
[crossover districts that enhance a minority’s electoral
opportunities] as a matter of legislative choice or
discretion.” Strickland, 556 U.S. at 23. In the next
sentence, the Supreme Court explained that
“[a]ssuming a majority-minority district with a
substantial minority population, a legislative
determination, based on proper factors, to create two
crossover districts may serve to diminish the
significance and influence of race by encouraging
minority and majority voters to work together toward
a common goal.” Id. There is no evidence to suggest
that this specific situation applied to Franklin
County—i.e., that it contained a possible majorityminority district that could be split into two minorityinfluence or crossover districts. The Court continued
that “States can—and in proper cases should—defend
against alleged § 2 violations by pointing to crossover
voting patterns and to effective crossover districts.” Id.
at 24. This scenario is also not at play in this case. In
other words, Defendants place too much weight on
Strickland. That said, we will accept that a state may,
as a matter of legislative discretion, rely on creating
minority-opportunity or crossover districts as a
legitimate justification. The problem for this
justification here is that there is a competing narrative
for District 3.
The competing narrative, and the one that we
consider more credible, is that Franklin County served

App. 350
as the center piece to help secure a 12-4 map in that
Democratic voters could be packed into District 3 in
order to shore up other neighboring districts for
Republicans. Although some feedback throughout the
map-drawing process included a desire for a minorityopportunity district in Franklin County,868 the actual
map-drawing process focused on only partisan factors
and political data. As we detailed previously, for
example, the map drawers considered splitting
Franklin County into four districts, but then they
realized that split would result in more competitive
elections for Republican candidates; only then did the
map drawers decide to draw what is now District 3.
That the Democratic voters in this district were
referred to by Hofeller as “dog meat” and that
downtown Columbus was referred to as “awful voting
territory” for Republicans (and thus needed to be
removed from District 15) bolsters this finding.
Therefore, disentangling the purported racial
considerations from the political ones, we find that
political considerations predominantly motivated the
drawing of District 3. As explained, when partisanship
predominates, partisan considerations are not a
legitimate redistricting factor.

868

Trial Ex. P070 (Testimony of Ray Miller to the Senate Select
Committee on Redistricting). Notably, this request for a minorityopportunity district seems premised on a mistaken view of the
VRA, too (i.e., that the VRA required such a district). Moreover,
Miller’s definition of a “minority opportunity district,” included
both a majority-minority district and a crossover district. See id.

App. 351
We also note that District 3 could still have been
drawn with a nearly identical BVAP,869 but with a more
regular shape, fewer county splits,870 and with
considerably less partisan bias.871 It was not, and
consequently we infer that the map drawers intended
District 3’s design to result in the partisan bias we
have seen.
Finally, although District 1 in Hamilton County is
not central to the dispute of whether the map drawers
were motivated by an intent to advance minority
electoral opportunity in Districts 3 and 11, we find the
treatment of that district instructive in evaluating
claims about the map drawers’ commitment to
advancing minority representation. In evaluating a
justification, we may look to see “the consistency with
which the plan as a whole reflects [that] interest[].”
Karcher, 462 U.S. at 740–41. The Supreme Court has
also instructed that in determining whether invidious
intent was present “[s]ubstantive departures [from
normal procedure] may be relevant, particularly if the
factors [purportedly] considered important by the
decisionmaker strongly favor a decision contrary to the
one reached.” Arlington Heights, 429 U.S. at 267. Here,
we find that the motivation offered for the shape of
Districts 3 and 11 was dishonored in the creation of
Districts 1 and 2, which work together to crack the City
of Cincinnati. Cincinnati in Hamilton County also has

869

Dkt. 241(Cooper Trial Test. at 161).

870

Trial Ex. P093 (Cooper Second Suppl. Decl. at 10, 17).

871

Trial Ex. P476 (Warshaw Rep. at 14–15).

App. 352
a considerable African-American population. The map
drawers’ decision to carve the City of Cincinnati in two
resulted in a District 1 with a 21.30% BVAP.872 In
contrast, when Mr. Cooper left Cincinnati intact in his
Proposed Remedial Plan, it maintained a BVAP of
26.74%.873 When he did so in his hypothetical maps,
drawn to demonstrate the possibilities when
contemplating the incumbents in 2011, he maintained
this same higher BVAP in each.874 When Cincinnati
could be cracked, the map drawers’ asserted concern for
advancing minority voting interests seems to have
fallen to the wayside. This gives us further reason to
doubt the veracity of their assertion that this concern
drove the creation of Districts 3 and 11.
iv.

Natural political geography

Defendants also argue that some of the partisan
effects that have resulted under the 2012 map are due
to natural political geography—the way that the
supporters of the two parties are distributed and
clustered throughout the State. While we acknowledge
that some credible evidence was presented at trial of
partisan clustering in Ohio and a natural political
geography that gives a slight advantage to the
Republican Party, we find that Ohio’s natural political

872

Trial Ex. P454 (Cooper Decl. Apps. at D-2); Dkt. 241 (Cooper
Trial Test. at 160).
873

Dkt. 241 (Cooper Trial Test. at 161); Trial Ex. P454 (Cooper
Decl. Apps. at E-2).
874

Trial Ex. P093 (Cooper Second Suppl. Decl. at 10 & n.8, 17 &
n.16).

App. 353
geography in no way accounts for the extreme
Republican advantage observed in the 2012 map. We
therefore conclude that this justification fails as a
neutral explanation for the 2012 map’s partisan effects.
Dr. Hood’s report and analysis demonstrated that in
Ohio Democratic voters tend to cluster near other
Democratic voters, and Republican voters tend to
cluster near other Republican voters.875 However, it did
not show that Democratic voters do so at higher rates
than Republican voters—the key comparison that
might help explain why the 2012 map favors the
election of Republican representatives over Democratic
representatives.876
Dr. Hood’s analysis also showed that in Ohio
Democratic voters are more likely to be located in
urban areas than Republican voters are.877 The
concentration of Democratic voters in cities could
support a finding of natural packing in those cities if
the boundaries of those cities were respected and they
were allowed to remain intact within districts. That is
not the case here. Under the 2012 plan, Democratic
cities were routinely split in order to facilitate the
packing and cracking of districts. For example,
Cincinnati in Hamilton County was dramatically and
nonsensically divided to produce Republican Districts
1 and 2, Akron was divided to facilitate the packing of
District 11 and the cracking of District 16, and Toledo
875

Dkt. 247 (Hood Trial Test. at 155).

876

Id. at 199–200.

877

Id. at 156.

App. 354
was divided between Districts 5 and 9. We cannot take
seriously the argument that Democratic voters’
tendency to cluster in cities supports a finding of
natural packing when under this map those cities were
often cracked rather than packed.
Evidence presented at trial demonstrated that
Ohio’s natural political geography slightly favors the
election of Republican representatives. Dr. Warshaw
stated that “[p]artisan bias usually is caused by
gerrymandering, but it could be caused by other factors
as well.”878 For example, Dr. Warshaw’s analysis of the
partisan-bias metrics of the Proposed Remedial Plan
indicated that that plan, which was drawn by Mr.
Cooper with no partisan intent, had a slight bias
toward Republicans.879 Likewise, Dr. Cho’s simulated
maps, which were all drawn in accordance with only
traditional redistricting principles and no partisan
intent, also showed a natural slight Republican
advantage, most often resulting in a 9-7 map.880 At
least a handful of the races under the simulated maps
are competitive, with each party winning some of those
competitive races—this data is in stark contrast with
elections under the current map.881 Thus, when only
natural political geography serves as the baseline, we
find that H.B. 369 significantly deviates from that
baseline.
878

Dkt. 240 (Warshaw Trial Test. at 196).

879

Trial Ex. P571 (Warshaw Rep. at 32).

880

See Trial Ex. P426 (Cho Supp. Rep. at 3).

881

Id. at 4.

App. 355
Dr. Warshaw expressed considerable doubt that the
partisan bias observed in the 2012 map was the result
of natural political geography or non-political factors,
however. First, “the sharpness of the change in the
efficiency gap between 2010 and 2012 makes it unlikely
to have been caused by geographic changes or nonpolitical factors.”882 In order to believe that the strong
partisan bias observed under the 2012 map was caused
by natural political geography, we would need some
evidence to explain why that same natural political
geography did not cause such extreme partisan bias
figures under the previous plan.883 The sudden uptick
in partisan bias after the implementation of the 2012
map belies the claim that Ohio’s natural political
geography accounts for the pro-Republican results,
particularly without any proof that the political
geography changed between 2010 and 2012. The
independent variable was the map; the dependent
variable was the partisan effect. This analysis supports
the conclusion that Ohio’s natural political geography
is not responsible for the considerable partisan effect
observed since the implementation of the 2012 map.
Although Dr. Cho did not consider incumbent
protection, Mr. Cooper created hypothetical alternative
maps that did, and those maps score better on various
traditional redistricting principles and result in a more
responsive and competitive map. Mr. Cooper’s

882

883

Trial Ex. P571 (Warshaw Rep. at 21).

“From about 2002 through 2010 Republicans had a modest
advantage in the efficiency gap in Ohio, perhaps because they
controlled the redistricting in 2001.” Id. at 22.

App. 356
hypothetical alternative maps pair the same number of
incumbents as the current map, score higher on
compactness, are equal to the current map on core
retention, and split fewer municipalities and
counties.884 Importantly, these hypothetical alternative
maps also satisfy the equal-population requirement.885
As for advancing minority opportunity, these maps
contain a District 11 with a BVAP of over 47%, a
district in Franklin County with a BVAP of just above
30%, and a Cincinnati-based district with a BVAP of
26.74%.886 Accordingly, these maps take into account
Ohio’s natural political geography as well as all of
Defendants’ purported main goals in redistricting, and
they still produce more responsive and competitive
elections than H.B. 369. This is strong evidence that
Ohio’s natural political geography does not explain the
extreme partisan effects of the 2012 map.
***
In sum, we conclude that (1) partisan
discrimination against Democratic voters was the
predominant intent in the creation of each
congressional district in the 2012 map as well as the
map as a whole, (2) the partisan effect of this
discrimination was a dilution of Democratic votes,
impinging on Democratic voters’ Fourteenth
Amendment rights, and (3) no legitimate justification
884

See generally Trial Ex. P093 (Cooper Second Suppl. Decl. at
4–18); see also Ex. P598 (Cooper Third Suppl. Decl. at 5–6).
885

Trial Ex. P093 (Cooper Second Suppl. Decl. at 7, 15).

886

Id. at 10, 17.

App. 357
offered by Defendants to explain either the intent
behind the map or its partisan effects undermines our
conclusion that invidious partisanship dominated the
process and the result. We therefore conclude that
Plaintiffs have proved their Fourteenth Amendment
vote-dilution claims.
B. First Amendment Vote-Dilution Claim
Plaintiffs may prove their First Amendment votedilution claim by showing:
(1) that the challenged districting plan was
intended to burden individuals or entities that
support a disfavored candidate or political party,
(2) that the districting plan in fact burdened the
political speech or associational rights of such
individuals or entities, and (3) that a causal
relationship existed between the governmental
actor’s discriminatory motivation and the First
Amendment burdens imposed by the districting
plan.
Rucho, 318 F. Supp. 3d at 929, see also Benson, 2019
WL 1856625, at *28.
This test essentially mirrors the intent, effect, and
lack-of-justification test that applies to the equalprotection claim analyzed above. The similarity
between the elements of the two claims makes sense
because the claims are theoretically and analytically
linked—when the government purposefully dilutes an
individual’s vote (by packing or cracking voters into
particular districts) in the partisan-gerrymandering
context, it does so “because of the political views”
expressed by voters. See Shapiro, 203 F. Supp. 3d at

App. 358
595 (citing Vieth, 541 U.S. at 314–15 (Kennedy, J.,
concurring in the judgment)). In the partisangerrymandering context, the Equal Protection Clause’s
concern about vote dilution is related to the First
Amendment concerns about viewpoint discrimination,
“laws that disfavor a particular group or class of
speakers[,]” and retaliation. See Rucho, 318 F. Supp. 3d
at 924–26; see also Benisek, 348 F. Supp. 3d at 514
(concluding that citizens “have a right under the First
Amendment not to have the value of their vote
diminished because of the political views they have
expressed through their party affiliation and voting
history. Put simply, partisan vote dilution, when
intentionally imposed, involves the State penalizing
voters for expressing a viewpoint while, at the same
time, rewarding voters for expressing the opposite
viewpoint.”). Accordingly, Plaintiffs call upon the same
evidence to prove the elements of this claim as the
elements of the Fourteenth Amendment claim.
For the reasons we outlined previously, we conclude
that Plaintiffs have proved this vote-dilution claim. See
supra Section V.A.2. The State relied predominantly on
partisanship in drawing the current map and penalized
Democratic voters because of their political viewpoint.
In brief, the map drawers’ controlling intent was to lock
in a 12-4 map in favor of Republicans, that goal was
accomplished, and no other causes or justifications
explain the extreme partisan effects exhibited by the
current map. Therefore, in the context of partisan vote
dilution under the First Amendment, the analysis is no
different than vote dilution under the Equal Protection
Clause.

App. 359
The “associational harm of a partisan
gerrymander,” however, “is distinct from vote dilution.”
See Gill, 138 S. Ct. at 1938 (Kagan, J., concurring). We
now turn to this separate analysis.
C. Associational Claim
1. Legal standard
a. Background legal principles
The First Amendment protects the associational
choices of voters. See Calif. Democratic Party, 530 U.S.
at 574 (“[T]he First Amendment protects ‘the freedom
to join together in furtherance of common political
beliefs,’” (quoting Tashjian, 479 U.S. at 214–15));
Anderson v. Celebrezze, 460 U.S. 780, 793–94 (1983);
Williams, 393 U.S. at 30–31. This associational right is
linked with the right to vote. See Williams, 393 U.S. at
30. Accordingly, state laws can “place burdens on
[these] two different, although overlapping, kinds of
rights—the right of individuals to associate for the
advancement of political beliefs, and the right of
qualified voters, regardless of their political persuasion,
to cast their votes effectively.” Id. Undoubtedly, these
rights are fundamental and “rank among our most
precious freedoms.” Id.; see also Anderson, 460 U.S. at
788.
The associational rights of parties and their voters
have been rightly recognized and protected by the
courts, even though the Framers tried to design the
Constitution against political parties. See Levinson &
Pildes, supra at 2320. As the Supreme Court has
acknowledged, “[r]epresentative democracy in any
populous unit of governance is unimaginable without

App. 360
the ability of citizens to band together in promoting
among the electorate candidates who espouse their
political views.” Calif. Democratic Party, 530 U.S. at
574. Moreover, as Defendants repeatedly note, the
Framers gave to states general authority to prescribe
“The Times, Places and Manner of holding Elections”
and to Congress the power to “make or alter” such
laws. U.S. CONST. Art. I, § 4. But neither the State’s
authority nor Congress’s power under the Elections
Clause “extinguish[es] the State’s responsibility to
observe the limits established by the First Amendment
rights of the State’s citizens,” or the courts’ ability to
vindicate constitutional rights. See Tashjian, 479 U.S.
at 217. “The power to regulate the time, place, and
manner of elections does not justify, without more, the
abridgment of fundamental rights, such as the right to
vote, or . . . the freedom of political association.” Id.
(citing Wesberry, 376 U.S. at 6–7).
“Although these rights of voters are fundamental,
not all” state election laws “impose constitutionally
suspect burdens on voters’ rights to associate or to
choose among candidates.” Anderson, 460 U.S. at 788.
Every election law, “whether it governs the registration
and qualifications of voters, the selection and eligibility
of candidates, or the voting process itself, inevitably
affects—at least to some degree—the individual’s right
to vote and his right to associate with others for
political ends.” Id. As the Supreme Court explained in
Burdick v. Takushi,
A court considering a challenge to a state
election law must weigh “the character and
magnitude of the asserted injury to the rights

App. 361
protected by the First and Fourteenth
Amendments that the plaintiff seeks to
vindicate” against “the precise interests put
forward by the State as justifications for the
burden imposed by its rule,” taking into
consideration “the extent to which those
interests make it necessary to burden the
plaintiff’s rights.”
504 U.S. 428, 434 (1992) (quoting Anderson, 460 U.S.
at 789). The Supreme Court has employed this
Anderson-Burdick balancing standard and found it
workable in evaluating a variety of election laws. See,
e.g., Crawford v. Marion Cty. Election Bd., 553 U.S. 181
(2008) (upholding a voter ID law); Wash. State Grange
v. Wash. State Republican Party, 552 U.S. 442 (2008)
(upholding Washington’s blanket primary law); Calif.
Democratic Party, 530 U.S. 567 (striking down
California’s blanket primary law); Timmons v. Twin
Cities Area New Party, 520 U.S. 351 (1997) (upholding
a ban on “fusion” candidates); Burdick, 504 U.S. at
434–38 (upholding a prohibition on write-in voting);
Anderson, 460 U.S. at 788–90 (striking down an early
filing deadline for independent candidates); cf. Doe v.
Reed, 561 U.S. 186, 197–202 (2010) (weighing the
State’s interests against the alleged First Amendment
burdens and upholding a state law that made
referendum petitions, which include the names and
addresses of the signers, available in response to a
public-records request by a private party).

App. 362
b. Partisan gerrymandering burdens
associational and representational
rights
In the context of partisan-gerrymandering cases,
Justice Kennedy first recognized that the “allegations
involve the First Amendment interest of not burdening
or penalizing citizens because of their participation in
the electoral process, their voting history, their
association with a political party, or their expression of
political views.” Vieth, 541 U.S. at 314 (Kennedy, J.,
concurring in the judgment) (citing Elrod, 427 U.S. 347
(plurality)). Justice Kennedy further reasoned that
Supreme Court precedents showed that “First
Amendment concerns arise where a State enacts a law
that has the purpose and effect of subjecting a group of
voters or their party to disfavored treatment by reason
of their views.” Id. Specifically, the disfavored
treatment results in a burden on “voters’
representational rights.” See id. Later, the Supreme
Court, “[w]ithout expressing any view on the merits,”
reversed the dismissal of a case in which the plaintiffs
pursued a First Amendment theory on the narrow
ground that the “plea for relief [was] based on a legal
theory put forward by a Justice of this Court and
uncontradicted by the majority in any of our cases.” See
Shapiro v. McManus, 136 S. Ct. 450, 456 (2015).
In Gill, four justices framed the associational harm
as a burden on “the ability of like-minded people across
the State to affiliate in a political party and carry out
that organization’s activities and objects.” See Gill, 138
S. Ct. at 1939 (Kagan, J., concurring). “By placing a
state party at an enduring electoral disadvantage, the

App. 363
gerrymander weakens its capacity to perform all its
functions.” Id. at 1938. Thus, five justices have
expressed support for applying First Amendment
association principles in the partisan-gerrymandering
context, but, like other theories, the associationalrights framework has not been adopted as a majority
opinion of the Supreme Court. At the same time, the
Supreme Court has not foreclosed this framework, and
other three-judge district courts have found it helpful
to address partisan-gerrymandering claims. See, e.g.,
Rucho, 318 F. Supp. 3d at 926–927; Whitford, 218 F.
Supp. 3d at 880–83; Shapiro, 203 F. Supp. 3d at
594–95.
If the whole point of partisan gerrymandering is to
subordinate a disfavored group of voters and entrench
the dominant party, then it is sensible to assess an
alleged partisan gerrymander under an associationalrights framework and look at the plan as a whole. The
ability of the people to associate through parties is
critical to our representative democracy, Calif.
Democratic Party, 530 U.S. at 574, and “[t]he
revolutionary intent of the First Amendment is . . . to
deny [the government] authority to abridge the
freedom of the electoral power of the people.” See
Alexander Meiklejohn, The First Amendment is an
Absolute, 1961 SUP. CT. REV. 245, 254 (1961). In
extreme cases, a party in power may “freeze[] the
status quo” in a redistricting law and render districts
impervious to “the potential fluidity of American
political life.” See Jenness, 403 U.S. at 439. Indeed, the
Supreme Court has already acknowledged the link
between associational rights and the functioning of the
democratic process. See Elrod, 427 U.S. at 356–57

App. 364
(1976) (plurality) (“It is not only belief and association
which are restricted where political patronage is the
practice. The free functioning of the electoral process
also suffers. . . . Patronage thus tips the electoral
process in favor of the incumbent party, and where the
practice’s scope is substantial relative to the size of the
electorate, the impact on the process can be
significant.”). The Supreme Court extended Elrod’s
concerns about the right to association and the
electoral process in the patronage context to the right
to vote in Williams v. Rhodes. There, the Court
explained that the law at issue “place[d] substantially
unequal burdens on both the right to vote and the right
to associate.” Williams, 393 U.S. at 31; see also
Tashjian, 479 U.S. at 216 (“The State thus limits the
Party’s associational opportunities at the crucial
juncture at which the appeal to common principles may
be translated into concerted action, and hence to
political power in the community.”) (emphasis added).
These same concerns apply to partisan
gerrymandering. See Ariz. State Legislature, 135 S. Ct.
at 2658 (defining partisan gerrymandering as “the
drawing of legislative district lines to subordinate
adherents of one political party and entrench a rival
party in power.”).
The First Amendment and the Anderson-Burdick
standard are well suited to address these concerns in
the partisan-gerrymandering context. This framework
sensibly places the focus on a law’s alleged
“substantially unequal burdens” and effects, see
Williams, 393 U.S. at 31, rather than partisan intent,
see Crawford, 553 U.S. at 203–04 (“[I]f a
nondiscriminatory law is supported by valid neutral

App. 365
justifications, those justifications should not be
disregarded simply because partisan interests may
have provided one motivation for the votes of individual
legislators.”). On the one hand, “[a]s long as
redistricting is done by a legislature, it should not be
very difficult to prove that the likely political
consequences of the reapportionment were intended.”
Bandemer, 478 U.S. at 129. On the other hand, if
courts determine that some plans are unconstitutional
partisan gerrymanders, then we would expect
legislators to act like normal people and, therefore, not
express their pure partisan intentions; that is, there
will be less clear, direct evidence of map drawers’
partisan intent. The evidence of effects, then, becomes
the most important consideration because evidence of
sufficiently extreme partisan effects will support the
assertion that a state was motivated by partisanship,
at the expense of all other purported justifications, in
drawing a map. If such evidence exists, then a
reasonable inference would be that partisanship was
the controlling justification for a map, and any other
legitimate purported justifications would not hold up
against the severe burdens placed on a disfavored
party’s voters. Conversely, if the evidence of partisan
effect is lacking or does not reveal a sufficiently
significant burden, then it becomes more likely that
other legitimate justifications can explain the map,
even though “partisan interests may have provided one
motivation for the votes of individual legislators.” See
Crawford, 553 U.S. at 204.
Of course, to some extent, to the victor of an election
go the spoils. But “[t]o the victor belong only those
spoils that may be constitutionally obtained.” Rutan v.

App. 366
Republican Party of Ill., 497 U.S. 62, 64 (1990). “The
[First Amendment] analysis allows a pragmatic or
functional assessment that accords some latitude to
the States,” Vieth, 541 U.S. at 315 (Kennedy, J.,
concurring in the judgment), and, consequently,
latitude for some partisan effects. At the same time, a
map that “freezes the status quo” for the incumbent
party despite fluctuating vote totals, Jenness, 403 U.S.
at 439, substantially “tips the electoral process in favor
of the incumbent party,” Elrod, 427 U.S. at 356
(plurality), or “unfairly or unnecessarily burdens the
availability of political opportunity,” for the disfavored
party, Anderson, 460 U.S. at 793 (citations and internal
quotation marks omitted), should be subject to judicial
scrutiny and, depending on the evidence, struck down
as unconstitutional. In other settings, courts have thus
employed the Anderson-Burdick standard to pick out
the worst of the worst—cases in which legitimate state
justifications and the states’ general power to regulate
elections simply do not outweigh the burdens placed on
individuals’ right to associate and right to vote.
Likewise, reining in the worst-of-the-worst
gerrymanders is the courts’ task in this setting.
***
We conclude that the associational-rights
framework provides a workable standard to evaluate
an alleged partisan gerrymander. See Benson, 2019 WL
1856625, at *48–50, 65–66 (concluding that the
plaintiffs could pursue this claim and that the
challenged map burdened associational rights). First,
no matter how relevant partisan intent is to this
particular analysis, Plaintiffs have proven intent under

App. 367
the predominant-factor standard. See supra Sections
V.A.1.a., V.A.2.a. More importantly for purposes of the
associational claim, courts must weigh the burden
imposed on a group of voters’ associational rights
against the precise interests put forward by the State
as justifications for the burden imposed by the
challenged map. See Gill, 138 S. Ct. at 1938–39
(Kagan, J., concurring); Vieth, 541 U.S. at 314
(Kennedy, J., concurring in the judgment); Burdick,
504 U.S. at 434 (quoting Anderson, 460 U.S. at 789).
2. Application
For the following reasons, we find that Plaintiffs
have proved their associational-rights claim. Many of
these facts overlap with our discussion of the votedilution claim. See, e.g., supra Section V.A.2.b.
(discussing statewide evidence of effect). This makes
sense given the overlap between individuals’ right “to
associate for the advancement of political beliefs” and
their right “to cast their votes effectively.” See
Williams, 393 U.S. at 30. In this sense, partisan
gerrymandering is a double-barreled constitutional
issue. We will first discuss the burden that the
redistricting plan imposes on Democratic voters’ and
organizations’ right to associate and then weigh that
burden against the State’s interests that it proffers as
justifications.
a. Burden
For a group of voters to associate effectively for the
advancement of their political beliefs, the group must
be able to mobilize in the electorate to have a real
chance at translating their votes into electoral success.

App. 368
If a disfavored party’s voters in the electorate are
“deprived of their natural political strength by a
partisan gerrymander” drawn by the dominant party in
government, then the disfavored party may be sapped
of its ability to mobilize effectively, win elections, and
thereby accomplish its policy objectives. See Gill, 138 S.
Ct. at 1938 (Kagan, J., concurring). Here, several pieces
of evidence reveal that the redistricting plan enacted in
H.B. 369 attempts to “freeze[] the status quo” in favor
of the incumbent Republican Party, Jenness, 403 U.S.
at 439, substantially “tips the electoral process in favor
of” the Republican Party, Elrod, 427 U.S. at 356
(plurality), and “unfairly or unnecessarily burdens the
availability of political opportunity,” for the Democratic
Party and the individuals and organizations that
support the Party, Anderson, 460 U.S. at 793 (citations
and internal quotation marks omitted).
The partisan-bias metrics employed by Plaintiffs
show that the Democratic Party is placed “at an
enduring electoral disadvantage,” and the simulated
maps indicate that Democratic voters are indeed
“deprived of the[] natural political strength” that they
otherwise would have based on political geography. See
Gill, 138 S. Ct. at 1938 (Kagan, J., concurring). As
detailed previously, by almost any measure, H.B. 369
is more extremely partisan and more pro-Republican
than over 90% (and under several metrics over 95%) of
previous comparable elections throughout the country.
This was true in 2012, the first election held under the
current map, and in the most recent 2018 election
cycle. Indeed, these findings should not be surprising
given the fact that, although the Republican statewide
vote share in congressional elections has fluctuated

App. 369
between 51% and 59%, Republican candidates have
nonetheless won the same twelve seats (75% of the
seats) in every election. The Democratic vote share in
that same time has ranged from 41% to 47%, but
Democratic candidates have won the same four seats in
every election—and by considerably large margins
(again, in the closest election for the four seats, the
Democratic candidate still won 61% of the vote). The
data support Dr. Warshaw’s conclusion that “Ohio’s
2011 redistricting plan had one of the largest proRepublican biases in history.”887 The simulated maps,
which integrate only neutral redistricting criteria,
reveal what the typical outcomes would be based on the
natural political geography of the State. Over the
course of this decade, by far the most expected outcome
would be a 9-7 map.888 As a whole, this evidence shows
that the current redistricting plan contains a
substantial amount of bias against Democratic voters
as compared to a neutral baseline (or, in fact, millions
of neutral baselines) based on natural political
geography, as well as historical baselines. Indeed, we
can comfortably say that the current redistricting plan
is an outlier. But this evidence is only part of the story.
The lack of competitive elections supports the
conclusion that Democratic voters’ electoral
opportunities are unfairly burdened. See Anderson, 460
U.S. at 793. The simulated maps typically produced at

887

888

Trial Ex. P571 (Warshaw Rep. at 42).

See Trial Ex. P426 (Cho Suppl. Rep. at 3). An 8-8 map was also
rather common, though by 2018, an 8-8 map occurred at about an
equal rate as a 10-6 map. See id.

App. 370
least a handful of competitive races. Democratic and
Republican candidates win roughly an equal number of
those competitive elections, but Democratic candidates
tend to have a slight edge in competitive elections
under the simulated maps.889 Combined with the data
on the typical seat shares, this evidence shows that by
2018, a 9-7 map in favor of Republicans was common
and that Democratic candidates would win three or
four of their seats in competitive elections.890 These
findings stand in stark contrast to the current 12-4
map, in which a winning Democratic candidate has
never come close to facing a competitive election. The
logical conclusion is that the map drawers fenced in
Democratic voters in significant numbers into four
districts and, conversely, fenced out Democratic voters
from the other districts in order to “freeze[] the status
quo” from the 2010 elections, which favored
Republicans. Jenness, 403 U.S. at 439. The result is a
burden on Democratic voters’ overall electoral
opportunity.
Of course, this is not to say that competitive
elections must be maximized at the expense of other
legitimate goals. The point is that the evidence
indicates that in a State as competitive as Ohio, and
considering its natural political geography, one would
expect more competitive elections—some won by
Democratic candidates, and others won by Republican
candidates. The absence of competitive elections raises
concerns that the dominant party in government,
889

See generally id. at 4.

890

Id. at 3–4.

App. 371
through partisan manipulation, is seeking to “dictate
electoral outcomes” and “disfavor a class of candidates”
and the voters who support them. See Thornton, 514
U.S. at 833–34. In a similar vein, as Justice Scalia
noted, “[t]he first instinct of power is the retention of
power, and, under a Constitution that requires periodic
elections, that is best achieved by the suppression of
election-time speech.” See McConnell, 540 U.S. at 263
(Scalia, J., concurring in part and dissenting in part).
Both restrictions on election-time speech and partisan
gerrymandering aim to suppress electoral competition,
and both are partly rooted in viewpoint discrimination.
See Benson, 2019 WL 1856625, at *66; Rucho, 318 F.
Supp. 3d at 841, 924–25. And some degree of
competition is healthy because it “support[s] in the
members [of Congress] an habitual recollection of their
dependence on the people.” See THE FEDERALIST NO. 57,
at 511 (James Madison), reprinted in THE
CONSTITUTION OF THE UNITED STATES OF AMERICA AND
SELECTED WRITINGS OF THE FOUNDING FATHERS (2012).
The evidence of extreme partisan bias and lack of
competitive elections are consistent with the intentions
of the map drawers. As detailed previously, for a time,
the map drawers considered splitting Franklin County
into four districts, which might have secured a 13-3
map in favor of Republicans. See supra Section I.A.4.
They abandoned this option because the margins of
victory would have been tighter and thus exposed
Republican incumbents to the risk of losing competitive
elections. See supra Section I.A.4. Importantly,
according to talking points in an email from Heather
Mann to Michael Lenzo, the 12-4 map “put the most
number of seats in the safety zone given the political

App. 372
geography of the state, [the] media markets, and how
to best allocate caucus resources.”891 By the
Republicans’ own admission, then, the number of safe
seats, and thus the number of competitive elections,
influence how the parties and campaigns expend their
resources. In other words, how district lines are drawn
affects “the ability of citizens to band together in
promoting among the electorate candidates who
espouse their political views.” Calif. Democratic Party,
530 U.S. at 574.
When a partisan gerrymander maximizes the
number of safe seats for the dominant party in
government and, relatedly, packs as many of the
disfavored party’s voters into an optimal number of
districts so that the dominant party’s overall advantage
is not at risk, there are consequences beyond
entrenchment. An efficient partisan gerrymander can
reduce campaign activity and expenditures and thereby
inhibit “the constitutional interest of like-minded
voters to gather in pursuit of common political ends
. . . .” See Norman, 502 U.S. at 288. The evidence
surveyed thus far supports the conclusion that H.B.
369 is, in fact, an efficient partisan gerrymander that
exhibits substantial and extreme bias against
Democratic voters, while optimizing the advantage in
favor of the party in power.
Other evidence further demonstrates that the
current redistricting plan limits Democratic voters’ and
organizations’ “associational opportunities at the

891

Trial Ex. P385 (Congressional Redistricting Talking Points at
LWVOH_0052438).

App. 373
crucial juncture at which the appeal to common
principles may be translated into concerted action, and
hence to political power in the community.” See
Tashjian, 479 U.S. at 216. Here, that critical juncture
is the general election. In his report and trial
testimony, Dr. Niven spoke to the political science
literature that shows how the splitting of
neighborhoods, cities, and counties makes campaigning
more difficult in those areas and therefore results in a
demobilizing effect. See supra Section II.C.3. As we
explained previously, he found that splits of localities
affected Democratic voters more than Republican
voters. Dr. Niven also elaborated on how Democratic
voters were shuffled between districts and how that
shuffling would have altered the political makeup of
districts and the outcomes of prior elections in those
districts. Supra Section II.C.3. Of course, the lines
must be drawn somewhere, but it is suspect when
considering the findings that the divisions affected
Democratic voters more than Republicans alongside
the findings of the extreme partisan effects exhibited in
this map. Dr. Niven’s analysis focused on Hamilton
County, District 9, Franklin County, and Summit
County, which all together covers ten of the sixteen
congressional districts. Cf. Benson, 2019 WL 1856625,
at *57 n.39 (“One cannot fully grasp the partisan
implications of the design of an individual district in
each group without simultaneously evaluating the
partisanship of the other districts in that group.”).
The evidence presented by the individual and
organizational Plaintiffs is consistent with the notion
that a partisan gerrymander can have a demobilizing
effect. A core concern with gerrymandering is that the

App. 374
party in power manipulates district lines to choose
their preferred partisans and thereby render election
results a foregone conclusion. Plaintiffs testified that
they themselves have felt like election results were
indeed preordained, that their candidate recruitment
efforts have been hindered, and that they have
experienced fundraising difficulties. See supra Sections
II.A.1.–2. In Hamilton County and on The Ohio State
University’s campus in particular, the HCYD’s and
OSU College Democrats’ representatives testified that
they have seen campaign signs for certain candidates
in the wrong district and that people have been
mistaken as to which district they should be voting in.
See supra Section II.A.2. Dr. Niven also found that in
Franklin County, the lines even caused problems for
the professional election administrators keeping track
of which voters should be assigned to which districts.
See supra Section II.C.3.c. These mobilization
difficulties are consistent with the social-science data
outlined above that demonstrate an asymmetric burden
in translating votes into seats. The actual election
results compared to the statewide congressional vote
share, the partisan-bias metrics, and the simulated
maps all support a reasonable inference that
Democratic voters and organizations, such as Plaintiffs
in this case, would feel that they do not have a real
chance at similar electoral success, even if their Party
received a higher percentage of the vote. Even when
the Democratic Party as a whole did better, the
Republican advantage remained.892 The current
892

See, e.g., Trial Ex. P426 (Cho Suppl. Rep. at 6) (comparing the
fundraising numbers of Democratic candidates in Districts 1 and
12 in the 2018 elections to the Republican incumbents).

App. 375
redistricting plan distributes voters in such a way that,
even though the Democratic and Republican Parties
are running in the same races, Democratic candidates
must run a significantly longer distance to get to the
same finish line. Thus, Democratic voters and
supporters are burdened by this demobilizing effect
and are limited in their opportunities to translate their
efforts in the electorate into “political power in the
community.” See Tashjian, 479 U.S. at 216.
The remaining question is how much more
successful the Democratic Party would need to be to
turn the electoral tides in their favor. Again, Dr.
Warshaw’s initial findings were that, even with 55% of
the statewide vote, Democratic candidates would win
only 6 out of 16 seats.893 Updating his analysis with the
2018 data slightly modified this finding; Democratic
candidates would win half the seats with 55% of the
vote.894 The asymmetry is stark. Republican candidates
comfortably won twelve seats with a similar percentage
of the vote, and at 51% of the vote, they still
comfortably won twelve seats. Again, this bears out
what the map drawers themselves recognized: the way
that they drew the map allowed for the best allocation
of Republican resources.895 On the other hand,
Democratic campaigners and organizations need to
expend more resources to garner more votes, but even

893

Trial Ex. P571 (Warshaw Rep. at 15).

894

Trial Ex. P476 (Warshaw 2018 Update at 12–13).

895

Trial Ex. P385 (Congressional Redistricting Talking Points at
LWVOH_0052438).

App. 376
if they were successful in that effort, Democratic
candidates still win fewer elections. Such use of State
“power to starve political opposition” is generally
disfavored in First Amendment jurisprudence. See
Elrod, 427 U.S. at 356 (plurality); see also Kang, supra
at 376–83.
The ultimate result of this substantial asymmetry
is that Plaintiffs are hindered in their ability to
mobilize effectively, win elections, and accomplish their
policy objectives. These results come with
representational costs. Dr. Warshaw’s analysis
demonstrates the growing polarization among Ohio’s
Republican and Democratic Members of Congress.896
Accordingly, given the large asymmetry in elections
and polarization in Congress, it is less likely that the
Ohio congressional delegation fairly reflects voters in
congressional elections across the State. As Dr.
Warshaw concludes, “[t]he pro-Republican advantage
in congressional elections in Ohio causes Democratic
voters to be effectively shut out of the political process

896

Trial Ex. P571 (Warshaw Rep. at 36–37). This finding is
consistent with what scholars and commentators started observing
decades ago. See, e.g., Elena Kagan, Presidential Administration,
114 HARV. L. REV. 2245, 2311–12 & n.262 (2001) (observing that
although bipartisan cooperation remains possible, “the difficulty
of the task has increased because congressional parties have grown
more ideologically coherent and partisan as legislative districts
have become more homogeneous and primaries have become the
dominant means of candidate selection.”) (collecting sources). To
be clear, we do not find or conclude that partisan gerrymandering
causes this polarization.

App. 377
in Congress.”897 Partisan gerrymandering, therefore,
cuts against “the basic aim of legislative
reapportionment” to “achiev[e] fair and effective
representation for all citizens . . . .” See Reynolds, 377
U.S. at 565–66.
In sum, the redistricting plan enacted in H.B. 369
burdens Plaintiffs’ ability “to associate for the
advancement of [their] political beliefs . . . [and] to cast
their votes effectively,” Williams, 393 U.S. at 30, such
that Plaintiffs’ associational and representational
rights are burdened. All the evidence points to the
same conclusion that Democratic voters and
organizations are significantly disadvantaged, and we
can comfortably call H.B. 369 an outlier. We therefore
conclude that this burden is of a substantial
magnitude.
b. State interests and justifications
To be sure, every redistricting law will have some
effect on “the individual’s right to vote and his right to
associate with others for political ends.” See Anderson,
460 U.S. at 788. As we have explained, “[t]he [First
Amendment] analysis allows a pragmatic or functional
897

Trial Ex. P571 (Warshaw Rep. at 43); see also id. at 39–41; cf.
41 CONG. GLOBE, 41st Cong., 2d Sess., 4737 (June 23, 1870)
(statement of Rep. James A. Garfield) (then-Representative
Garfield speaking out against malapportionment in Ohio, stating,
“There are about ten thousand Democratic voters in my district,
and they have been voting there . . . without any more hope of
having a Representative on this floor than of having one in the
Commons of Great Britain. . . . The Democratic voters in the
nineteenth district of Ohio ought not by any system to be
absolutely and permanently disenfranchised.”); supra Section IV.C.

App. 378
assessment that accords some latitude to the States,”
Vieth, 541 U.S. at 315 (Kennedy, J., concurring in the
judgment), and thus some latitude for partisan effects.
We now turn to weighing the substantial burden on
Plaintiffs’ associational rights against “the precise
interests put forward by the State as justifications for
the burden imposed” by the redistricting plan. See
Burdick, 504 U.S. at 434 (quoting Anderson, 460 U.S.
at 789).
Because the burden on Plaintiffs’ First and
Fourteenth Amendment rights is substantial, the
corresponding justifications must be “sufficiently
weighty” to explain the burden. See Norman, 502 U.S.
at 288–89. A court “must not only determine the
legitimacy and strength of each [justification]; it also
must consider the extent to which those interests make
it necessary to burden the plaintiff’s rights.” Anderson,
460 U.S. at 789. If the burden on Plaintiffs’ rights were
not so severe, or if the partisan effects did not indicate
that a challenged map was an outlier, we would not
“require elaborate, empirical verification of the
weightiness of the State’s asserted justifications.” See
Timmons, 520 U.S. at 364. In this case, however,
Plaintiffs have put forward a substantial amount of
evidence demonstrating an extreme degree of partisan
bias. Consequently, we will not accept Defendants’
justifications at face value. Instead, we will seriously
test the “legitimacy and strength” of the proffered
justifications, Anderson, 460 U.S. 789, and decide
whether they are “narrowly tailored to serve a
compelling state interest.” See Calif. Democratic Party,
530 U.S. at 582.

App. 379
We addressed Defendants’ justifications above and
explained that they simply do not hold water in the
case before us. See supra Section V.A.2.d. We will
nonetheless review these asserted State interests
briefly.
i. I n c u m b e n t
bipartisanship

protection

and

There is a line between “avoiding contests between
incumbent Representatives,” Karcher, 462 U.S. at 740
(emphasis added), and drawing district lines to
insulate incumbents from competition. See also Burns,
384 U.S. at 89 n.16 (framing incumbent protection as
“minimiz[ing] the number of contests between present
incumbents”) (emphasis added). The former is a
legitimate interest, and the latter is not. The insulation
of incumbents from political competition raises
entrenchment concerns. As detailed above, we find that
the current map’s purpose and effect was to entrench
the 12-4 Republican majority and subordinate
disfavored Democratic voters. For example, the
decisions to split Franklin County three ways instead
of four (thus creating the “Franklin County Sinkhole”)
and the general checking of political indices when
various changes were proposed were all done with an
eye toward putting as many Republican incumbents in
the safety zone as possible. See supra Sections I.A.4,
V.A.2.a.ii. This manipulation of the lines, in turn,
allowed for a more efficient use of Republican Caucus
resources. H.B. 369 falls on the incumbent-insulation
and entrenchment side of the line.
Neither Article I nor Gaffney v. Cummings can save
Defendants’ arguments. First, the Elections Clause

App. 380
“act[s] as a safeguard against manipulation of electoral
rules by politicians and factions in the States to
entrench themselves or place their interests over those
of the electorate.” Ariz. State Legislature, 135 S. Ct. at
2672. As explained, the Supreme Court has also
expressed skepticism about attempts to insulate
incumbents from political competition in other areas of
First Amendment law. See, e.g., Randall, 548 U.S. at
248; McConnell, 540 U.S. at 263 (Scalia, J., concurring
in part and dissenting in part); id. at 306 (Kennedy, J.,
concurring in part and dissenting in part); Elrod, 427
U.S. at 356; see also Jenness, 403 U.S. at 439. Second,
for the reasons we articulated before, Gaffney is
entirely distinguishable, mainly because there is no
serious argument that H.B. 369 fairly “allocate[s]
political power to the parties in accordance with their
voting strength . . . .” Gaffney, 412 U.S. at 754.
Even if we viewed this incumbent-protection
argument in the light most favorable to the State—that
the State truly needed to draw the map the way it did
to avoid contests between existing incumbents—we
would not conclude that this justification holds up to
scrutiny. Again, the sponsor of the initial H.B. 319 (to
which H.B. 369 is materially identical) clearly
described incumbent protection as “subservient” to
other redistricting goals.898 And the instance in which
incumbent protection was not pursued, i.e., the pairing
of Representative Renacci with Representative Sutton,
the map drawers drew the district to advantage the
incumbent Republican over the Democratic incumbent.
898

Trial Ex. J01 (Ohio House Session, Sept. 15, 2011 at 19)
(statement of Rep. Huffman).

App. 381
Lastly, if incumbent protection, properly understood, is
meant to maintain Representative-constituent
relationships and seniority in Congress, it makes little
sense to pair the most senior member of the State’s
congressional delegation against another incumbent, as
was done in H.B. 369. As one of Mr. Cooper’s
hypothetical alternative maps demonstrates,
Representative Kaptur did not need to be paired;
instead, Representatives Sutton and Kucinich (who
were each paired anyway) could have been drawn
against one another.899
The argument that the current map resulted from
bipartisan input and negotiations, which at times
blends with Defendants’ arguments about incumbent
protection and Gaffney, is also unpersuasive. See supra
Section V.A.2.d.ii. The partisan outcomes of this map
were locked in once the General Assembly passed H.B.
319, which was the work product of only Republicans.
The General Assembly incorporated some minor
Democratic requests into H.B. 369; however, Speaker
Batchelder himself acknowledged that the partisan
balance of the map was non-negotiable. See supra
Section V.A.2.d.ii. Although Democratic legislators
secured some small geographic concessions, the
Republicans also secured their large 12-4 partisan
advantage in H.B. 369. The material terms of
negotiation were ultimately dictated by the fact that
the Republican Party controlled both the General
Assembly and the governorship. See, e.g., Dkt. 230-3
(Batchelder Dep. at 25) (stating that the Republicans
“could have simply done what [they] wanted to” in the
899

See Trial Ex. P093 (Cooper Second Suppl. Decl. at 12–18).

App. 382
redistricting process). As a practical matter,
Democratic legislators could not alter the expected
partisan outcomes of this map, and, therefore, this
justification does not cure the substantial burdens on
Plaintiffs’ rights.
ii. Voting Rights Act compliance and
advancing representation
We accept that compliance with the VRA is a
compelling State interest. See Bethune-Hill, 137 S. Ct.
at 801. If the State properly considered the VRA, then
this interest may well justify the drawing of District
11. A proper consideration of the VRA would involve
having some basis in evidence or good reasons to
believe that § 2 requires a particular district.
Statements from legislators that the VRA was an
important consideration, without more, will not
suffice—especially when the State is mistaken on the
law.
The problem with this justification in this case is
that the State had no basis in evidence to believe that
District 11 needed to be drawn as it was. See supra
Section V.A.2.d.iii. Instead, Ohio’s belief that it was
compelled to draw District 11 as a majority-minority
district rested “on a pure error of law.” See Cooper, 137
S. Ct. at 1472. Furthermore, the State’s argument that
it can draw a majority-minority district, even if it
mistakenly interpreted the VRA, could be problematic.
See Strickland, 556 U.S. at 23–24. Again, no evidence
suggests that the State conducted any analysis that the
VRA required the current District 11 to have a nearly
identical BVAP as the prior District 11. We therefore
cannot say that the State had “good reason to believe

App. 383
that § 2 requires drawing a majority-minority district.”
See Cooper, 137 S. Ct. at 1470. In fact, based on the
prior success of African-American candidates in
District 11 (none of whom faced a competitive election
in the prior decade), nothing supports this belief. See
supra Section V.A.2.d.iii. Moreover, even if the State
wanted to advance minority electoral opportunities in
District 11, we nonetheless find that such a goal was
secondary to the predominant and controlling partisan
intent.
Again, Defendants’ asserted interest for District 3
is slightly distinct. For the sake of argument, we accept
that the State may, as a matter of legislative
discretion, rely on creating minority-opportunity or
crossover districts as a legitimate justification. As
explained previously, however, based on the evidence
in this case, we credit the competing narrative for
District 3: map drawers carefully packed Franklin
County Democrats into District 3, facilitating the
creation of two solidly Republican seats in Districts 12
and 15. This constellation of districts was key in their
efforts to lock in a 12-4 map.
iii.

Natural political geography

Finally, we also accept that a state’s natural
political geography could potentially explain partisan
effects, but again, this justification does not hold up
against the evidence in this case. See supra Section
V.A.2.d.iv. Although Plaintiffs’ experts acknowledge
that Ohio’s political geography provides a slight
advantage to Republicans, the advantage is far from
12-4. First, the same geography did not cause such
extreme bias under the prior redistricting plan, and

App. 384
under that plan, the State’s congressional delegation
majority shifted between Democrats and Republicans.
See supra Section V.A.2.d.iv. Second, as mentioned
above, the simulated maps provide a baseline to
compare maps that incorporate only neutral districting
criteria to H.B. 369. Dr. Cho’s seat-share analysis
demonstrates that a 9-7 map in favor of Republicans is
the most common outcome, and one would expect at
least a handful of competitive races. The current map
has produced a combined total of only four competitive
races across all four election cycles. When Dr. Cho
incorporated 2018 data into her analysis, only 0.046%
of over 3-million simulated maps produced a 12-4
outcome. If someone stated that they were flipping a
fair coin but then that coin turned up tails in only
0.046% of 100,000 coin tosses, one would start to
suspect that the coin was not, in fact, fair—here we
have over 3 million coin tosses. Either the Republicans
were exceedingly lucky, or their map drawers made
exceedingly expert use of political data to manipulate
district lines to secure the most seats and the least
amount of competition possible. The evidence in this
case points to the latter conclusion. Third, Mr. Cooper’s
hypothetical alternative maps pair the same number of
incumbents as the current map, score higher on
compactness, are equal to the current map on core
retention, split fewer municipalities and counties, and
produce more responsive and competitive elections.900
900

See generally Trial Ex. P093 (Cooper Second Suppl. Decl. at
4–18); Trial Ex. P598 (Cooper Third Suppl. Decl. at 5–6). For
example, the second hypothetical alternative map produces the
following outcomes for 2012-2018, respectively: 10-6, 11-5, 11-5,
and 8-8, and the number of competitive races range from three to

App. 385
As we outlined previously, these maps also satisfy the
equal-population requirement, and they advance
minority electoral opportunities more than H.B. 369.
See supra Section V.A.2.d.iv. The upshot is that natural
political geography cannot explain away the extreme
partisan effects of the current redistricting plan, even
when other factors that were supposedly important to
the State are also considered.
***
We conclude that the burdens H.B. 369 imposes on
Plaintiffs’ associational rights are not outweighed by
any of the asserted justifications. This redistricting
plan substantially burdens the overlapping “right of
individuals to associate for the advancement of their
political beliefs[] and the right of qualified voters . . . to
cast their votes effectively.” Williams, 393 U.S. at 30.
Critically, our primary concern is not the interests of
Democratic candidates, but rather, the interests of the
voters and organizations who choose to associate
together, express their support for, and cast their votes
for those candidates. See Anderson, 460 U.S. at 806. In
this case, the bottom line is that the dominant party in
State government manipulated district lines in an
attempt to control electoral outcomes and thus direct
the political ideology of the State’s congressional
delegation. “In a free society the State is directed by
political doctrine, not the other way around.” Calif.
Democratic Party, 530 U.S. at 590 (Kennedy, J.,
concurring).

five. See Trial Ex. P093 (Cooper Second Suppl. Decl. at 18); Trial
Ex. P598 (Cooper Third Suppl. Decl. at 6).

App. 386
For these reasons, H.B. 369 is an unconstitutional
partisan gerrymander.
D. Article I Claim
Two provisions of Article I of the United States
Constitution are relevant to this case—Article I, § 4
and Article I, § 2. As explained by the three-judge panel
in Rucho, “the two provisions are closely intertwined.”
318 F. Supp. 3d at 936; see also id. at 935–41. Plaintiffs
claim that the State has exceeded its powers under
Article I because the alleged partisan gerrymander is
a non-neutral regulation that constrains the free choice
of the people to elect their representatives.
Again, under Article I, § 4, states generally have the
authority to draw district lines. U.S. CONST. art. I, § 4
(“The Times, Places and Manner of holding Elections
. . . shall be prescribed in each State by the Legislature
thereof; but the Congress may at any time by Law
make or alter such Regulations . . . .”). And again,
Defendants place too much weight on their argument
that this clause immunizes the State’s redistricting law
from judicial scrutiny. “The power to regulate the time,
place, and manner of elections does not justify, without
more, the abridgment of fundamental rights, such as
the right to vote, or . . . the freedom of political
association.” Tashjian, 479 U.S. at 217 (citing
Wesberry, 376 U.S. at 6–7); see also Thornton, 514 U.S.
at 834. In Thornton, the Supreme Court further
explained that, at the Founding, “proponents of the
Constitution noted: ‘[T]he power over the manner only
enables them to determine how these electors shall
elect . . . .’” and that “[t]he constitution expressly
provides that the choice shall be by the people, which

App. 387
cuts off both from the general and state Legislatures
the power of so regulating the mode of election, as to
deprive the people of a fair choice.” Thornton, 514 U.S.
at 833 & n.47 (citations omitted) (first alteration in
original). The Elections Clause in Article I, § 4,
therefore, does not hinder the people’s ability to ensure
that they “choose their representatives, not the other
way around,” Ariz. State Legislature, 135 S. Ct. at 2677
(citation omitted), and neither does it hinder the courts’
ability to police the states’ power to regulate elections
under Article I, see, e.g., Thornton, 514 U.S. at 828–29.
Article I, § 2 provides: “The House of
Representatives shall be composed of Members chosen
every second Year by the People of the several States
. . . .” In the original text of the Constitution, Article I,
§ 2 provided the people’s sole right to choose directly
their elected representatives; the electoral college
elects the president, U.S. CONST. art. II, § 1, and, at
that time, the state legislatures chose senators, U.S.
CONST. art. I, § 3, amended by U.S. CONST. amend.
XVII (providing the people with the right directly to
elect their senators, as the people do today).
Accordingly, in the original text of the Constitution, the
members of the House of Representatives were the only
elected federal officials directly responsive to the
people. As James Madison emphasized, “the House of
Representatives is so constituted as to support in the
members an habitual recollection of their dependence
on the people.” THE FEDERALIST NO. 57, at 511 (James
Madison), reprinted in THE CONSTITUTION OF THE
UNITED STATES OF AMERICA AND SELECTED WRITINGS
OF THE FOUNDING FATHERS (2012).

App. 388
This provision is referred to as “the Great
Compromise,” and the Supreme Court has held that
“principle solemnly embodied in” that compromise—the
one-person, one-vote equal-population requirement—
would be defeated if “within the States, legislatures
may draw the lines of congressional districts in such a
way as to give some voters a greater voice in choosing
a Congressman [or Congresswoman] than others.”
Wesberry, 376 U.S. at 14. As the Supreme Court has
recognized, “[a] fundamental principle of our
representative democracy is, in Hamilton’s words, ‘that
the people should choose whom they please to govern
them.’” Powell, 395 U.S. at 547 (citation omitted). In
the partisan-gerrymandering cases, “[t]he problem . . .
is that the will of the cartographers rather than the
will of the people will govern.” Vieth, 541 U.S. at 331
(Stevens, J., dissenting). More specifically, the map
drawers “give [the dominant party’s] voters a greater
voice in choosing a Congressman [or Congresswoman]
than [the disfavored party’s voters].” See Wesberry, 376
U.S. at 14.
“To be sure, the Elections Clause grants to the
States ‘broad power’ to prescribe the procedural
mechanisms for holding congressional elections.” Cook
v. Gralike, 531 U.S. 510, 523 (2001) (citation omitted).
But the Supreme Court “made clear” in Thornton that
“the Framers understood the Elections Clause as a
grant of authority to issue procedural regulations, and
not as a source of power to dictate electoral outcomes,
to favor or disfavor a class of candidates, or to evade
important constitutional restraints.” Id. (quoting
Thornton, 514 U.S. at 833–34). Using this line of
reasoning, the three-judge panel in Rucho concluded

App. 389
that the redistricting plan at issue exceeded the State’s
authority under the Elections Clause for three reasons:
“(1) the Elections Clause did not empower State
legislatures to disfavor the interests of supporters of a
particular candidate or party in drawing congressional
districts”; (2) the plan violated the First Amendment,
the Fourteenth Amendment Equal Protection Clause,
and Article I, § 2; and (3) the plan “represents an
impermissible effort to ‘dictate electoral outcomes’ and
‘disfavor a class of candidates.’” Rucho, 318 F. Supp. 3d
at 937 (quoting Thornton, 514 U.S. at 833–34).
We conclude that a state necessarily exceeds its
authority under the Elections Clause if the State
violates the First and/or Fourteenth Amendments, see
Tashjian, 479 U.S. at 217, and we find that the State
did so here, see supra Sections V.A.–C. Simply put, the
Elections Clause does not give the states a license to
engage in unconstitutional partisan gerrymandering.
The Elections Clause and Article I, § 2, taken together,
“act as a safeguard against manipulation of electoral
rules by politicians and factions in the States to
entrench themselves or place their interests over those
of the electorate.” See Ariz. State Legislature, 135 S. Ct.
at 2672. Article I § 2 contains the principle that
representatives should be dependent on and responsive
to the will of the voters—rather than dependent on and
responsive to state legislators and their map drawers
(some of whom may even include agents of the
representatives themselves). We further agree that a
redistricting law may, in certain circumstances, be so
extreme that it “amounts to a successful effort by the
[State] to ‘disfavor a class of candidates’ and ‘dictate

App. 390
electoral outcomes.’” See Rucho, 318 F. Supp. 3d at 940
(quoting Thornton, 514 U.S. at 833–34).
As a general matter, then, Article I provides useful
background principles for evaluating the problem of
partisan gerrymandering. As a functional matter,
however, the analysis under this claim is the same as
the analysis under the First and Fourteenth
Amendments. If a redistricting plan violates Article I,
it does so because the plan unconstitutionally dilutes
votes because of partisan affiliation or because the plan
impermissibly infringes on the associational rights of
voters. The one key caveat is that Article I, § 2 applies
only to congressional elections. See U.S. CONST. art. I,
§ 2 (“The House of Representatives shall be composed of
Members chosen every second Year by the People of the
several States . . . .”) (emphasis added). That specific
section, therefore, would be inapplicable if a challenge
to state legislative districts were before us (and there
is no such challenge here).
For the reasons we have already articulated, see
supra Sections V.A.–C., we find that H.B. 369 exceeds
the State’s powers under Article I.
VI. LACHES
The doctrine of laches “is rooted in the notion that
those who sleep on their rights lose them.” Libertarian
Party of Ohio v. Husted, No. 2:13-cv-953, 2014 WL
12647018, at *1 (S.D. Ohio Sept. 24, 2014) (citations
and internal quotation marks omitted). “Where a
plaintiff seeks solely equitable relief, his action may be
barred by the equitable defense of laches if (1) the
plaintiff delayed unreasonably in asserting his rights

App. 391
and (2) the defendant was prejudiced by this delay.”
ACLU of Ohio, Inc. v. Taft, 385 F.3d 641, 647 (6th Cir.
2004). Defendants argue that laches bars Plaintiffs’
claims because Plaintiffs’ seven-year delay in bringing
this action is unjustified and has prejudiced
Defendants. Dkt. 252 (Defs.’ & Intervenors’ Post-Trial
Br. at 72–75). We disagree.901
As a preliminary point, we note that the nature of
Plaintiffs’ rights has been uncertain since the Vieth
case. See Gill, 138 S. Ct. at 1933–34 (declining to follow
the normal procedure of dismissing the plaintiffs’ claim
for lack of standing, explaining that “[t]his is not the
usual case,” and that partisan gerrymandering
“concerns an unsettled kind of claim this Court has not
agreed upon, the contours and justiciability of which
are unresolved.”). Indeed, whether Plaintiffs’ case
remained viable was an open question prior to Gill, and
Plaintiffs filed their initial complaint in this case before
the Supreme Court decided that case. As we explain
further below, rather than “sleeping on their rights,”
Plaintiffs’ course of action was not unjustified given the
state of the law and the high bar for proving partisan
effect.

901

Our analysis largely tracks that of the three-judge district court
in League of Women Voters of Michigan v. Benson, --- F. Supp. 3d
---, 2019 WL 1856625, at *24–26 (E.D Mich. Apr. 25, 2019). See
also id. at *24 (holding that “that laches does not apply to
Plaintiffs’ partisan gerrymandering claims as a matter of law,” and
alternatively holding “that even if laches applies to these types of
claims, Intervenors have failed to establish that laches bars
Plaintiffs claims in this case.”).

App. 392
Defendants contend that Plaintiffs’ claims were ripe
“shortly after” the State enacted the current plan. Dkt.
252 (Defs.’ & Intervenors’ Post-Trial Br. at 72). In
Bandemer, however, the plurality found that “the
plaintiffs had failed to make a sufficient showing on
[partisan effect] because their evidence of unfavorable
election results for Democrats was limited to a single
election cycle.” See Gill, 138 S. Ct. at 1927 (citing
Bandemer, 478 U.S. at 135). At the very least, then, it
would have been unwise for Plaintiffs to bring this
action prior to the 2014 elections. Plaintiffs filed this
lawsuit after three elections, and a fourth (the 2018
elections) occurred during the litigation, and evidence
related to the 2018 elections is in this record. The
Supreme Court has not set “clear landmarks,” Gill, 138
S. Ct. at 1926, but there is a high bar for proving
partisan effects, and actual election results are
preferred over hypotheticals, id. at 1928 (citing
LULAC, 548 U.S. at 419–20 (opinion of Kennedy, J.).
Consequently, we conclude that Plaintiffs were
reasonable in waiting three election cycles before
bringing this action.
Further, one clear concern in these cases is that
judges should not undertake the “unwelcome
obligation” of overseeing the redrawing of district lines
unless it is necessary. See Connor, 431 U.S. at 415.
When confronted with an extreme partisan
gerrymander, it becomes necessary. As we have
explained, factors such as whether the plan is an
outlier, whether the plan is a durable gerrymander
that persists across election cycles, and whether
districts have frozen the status quo despite fluctuating
vote totals between the parties help us to make this

App. 393
determination. If we had to make this determination
after just one election, then we would essentially be
“adopting a constitutional standard that invalidates a
map based on unfair results that would occur in a
hypothetical state of affairs.” See LULAC, 548 U.S. at
420 (opinion of Kennedy, J.). In this case, more data,
which reveals durability and entrenchment despite
fluctuating vote totals across election cycles, give us
greater confidence in our findings. We are not
suggesting a bright-line rule for how many elections
are necessary; the point is that allowing for a few
elections could reveal that a plan does not, in fact,
place significant burdens on a supposedly disfavored
party. In a similar vein, we cannot say that there has
been an unreasonable delay.
Defendants also rely on Benisek v. Lamone, 138 S.
Ct. 1942 (2018), which does not address laches.
Although Benisek v. Lamone may be instructive, it
ultimately does not militate in favor of Defendants. The
Supreme Court first noted that the plaintiffs filed their
complaint in 2013 but “fail[ed] to plead the claims
giving rise to their request for preliminary injunctive
relief until 2016.” Id. at 1944. In contrast, Plaintiffs
before us sought injunctive relief with the filing of their
initial complaint. Dkt. 1 (First Compl. at 41–42).
Moreover, as in many election-law cases, “a due regard
for the public interest in orderly elections” may counsel
against granting relief. Benisek v. Lamone, 138 S. Ct.
at 1944–45; see also Purcell v. Gonzalez, 549 U.S. 1, 4–5
(2006) (“Court orders affecting elections . . . can
themselves result in voter confusion and consequent
incentive to remain away from the polls. As an election
draws closer, that risk will increase.”). In Benisek v.

App. 394
Lamone, the plaintiffs “represented to the District
Court that any injunctive relief would have to be
granted by August 18, 2017, to ensure the timely
completion of a new districting scheme in advance of
the 2018 election season,” but “that date had ‘already
come and gone’ by the time the court ruled on plaintiffs’
motion.” Benisek v. Lamone, 138 S. Ct. at 1945 (citation
omitted). That is not this case. In their motion to stay
the trial in this case, Defendants represented to this
Court that a new congressional map would need to be
submitted by September 20, 2019 “to fulfill the
administrative duties and obligations associated with
preparing for the 2020 congressional election.” See Dkt.
185-1 (Wolfe Decl. at 2). That deadline is over four
months away. Accordingly, there is enough time to
implement a remedy on Defendants’ own timetable,
hence negating the risk of voter confusion.
In sum, we conclude that Plaintiffs’ delay in this
case was not unjustified or unreasonable. This alone
disposes of Defendants’ laches defense. Also important,
the concerns present in Benisek v. Lamone are not
present here.
We will nonetheless address Defendants’ remaining
arguments on prejudice, none of which we find
persuasive. First, the “[u]navailability of important
witnesses, dulling of memories of witnesses, and loss or
destruction of relevant evidence all constitute
prejudice.” See Nartron Corp. v. STMicroelectronics,
Inc., 305 F.3d 397, 412 (6th Cir. 2002). Defendants
point to several potential fact witnesses who have since
died, and these witnesses primarily go to the purported
“bipartisan negotiations” that Defendants say justify

App. 395
the map. See Dkt. 252 (Defs.’ & Intervenors’ Post-Trial
Br. at 73). We have already explained the problems
with this justification; in brief, even if there were
negotiations, the desire to achieve a 12-4 map was not
negotiable. Additionally, none of the deceased
individuals were members of the Ohio General
Assembly at the time the current plan was enacted and
many of the main map drawers were still witnesses in
this case.
Second, Defendants argue that “[v]oters are
acclimated to the 2011 plan, and members of Congress
have invested deeply in their districts.” Id. at 74. The
first point is unpersuasive because the map also
imposes serious burdens on individuals’ rights to vote
and to associate. Similarly, for the second point,
congressional representatives may have invested
deeply in their districts, but they have no right to
choose their voters, and representatives’ interests are
not implicated in this case—representatives answer to
the voters, whose interests are implicated in this case.
Thus, the fact that they have invested deeply in their
districts is not a reason to find that laches applies.
Third, Defendants argue that the State has been
forced “to litigate on an accelerated basis near the end
of a redistricting cycle,” which runs afoul of the “heavy
presumption against last-minute changes to the
electoral system.” Id. Defendants again cite Benisek v.
Lamone, which we addressed above, as well as Service
Employees International Union Local 1 v. Husted
(“SEIU Local 1”), 698 F.3d 341 (6th Cir. 2012). To be
sure, “last-minute injunctions changing election
procedures are strongly disfavored.” Id. at 345. In

App. 396
SEIU Local 1, however, the Sixth Circuit addressed a
motion for preliminary injunction filed in the district
court on October 17, 2012, just three weeks out from
the November 6, 2012 election. Id. at 343. Here, again,
the deadline for new maps is over four months away,
and the 2020 election will not be held for over one year
after that.
Lastly, even if a prima facie case for laches could be
established, Plaintiffs can rebut a presumption that
laches bars their claims by “establish[ing] that there
was a good excuse for [the] delay . . . .” Nartron, 305
F.3d at 409. We observe, as in Gill, that “[t]his is not
the usual case.” 138 S. Ct. at 1933–34. As stated, the
unsettled nature of partisan-gerrymandering claims
and the high bar for proving partisan effect provides
good cause for any delay. Cf. Benson, 2019 WL
1856625, at *26 (reasoning that “it was not
unreasonable for Plaintiffs to wait to sue until the law
in this area had developed sufficiently to allow
Plaintiffs to articulate and support their partisan
gerrymandering claims.”).
For these reasons, we reject Defendants’ laches
defense.902

902

Whether laches even applies to injunctive relief, which Plaintiffs
seek, seems to be an open question. In Kay v. Austin, an electionlaw case, the Sixth Circuit held that the plaintiff was “not entitled
to equitable relief in this instance as a result of laches.” 621 F.2d
809, 813 (6th Cir. 1980). In a more recent election-law case, the
Sixth Circuit also considered, though ultimately rejected, a laches
defense to a plaintiff’s claims for declaratory and injunctive relief.
See Taft, 385 F.3d at 647. Conversely, the Sixth Circuit has also
held that “[l]aches only bars damages that occurred before the

App. 397
VII. REMEDY AND ORDER
In their complaint, Plaintiffs request that we
declare H.B. 369 unconstitutional, enjoin any future
elections under the plan enacted in H.B. 369, and
“[e]stablish a congressional districting plan that
complies with the United States Constitution and all
federal and state legal requirements, if the Ohio
Legislature and/or Governor fail to enact a new and
constitutional plan in a timely manner.” See Dkt. 37
(Second Am. Compl. at 51–52). We have concluded that
H.B. 369 is unconstitutional. Now we turn to the
remedy.
Unless “an impending election is imminent and a
State’s election machinery is already in progress,” a
court should “tak[e] appropriate action to insure that
no further elections are conducted under the invalid
plan.” See Reynolds, 377 U.S. at 585. No impending

filing date of the lawsuit. It does not prevent [a] plaintiff from
obtaining injunctive relief or post-filing damages.” Nartron, 305
F.3d at 412 (internal citations omitted); see also Kellogg Co. v.
Exxon Corp., 209 F.3d 562, 568 (6th Cir. 2000) (same); TWM Mfg.
Co. v. Dura Corp., 592 F.2d 346, 349–50 (6th Cir. 1979) (same). In
this latter set of cases, the Sixth Circuit has reasoned that “[o]nly
by proving the elements of estoppel may a defendant defeat such
prospective relief.” TWM Mfg., 592 F.2d at 350; see also, e.g.,
Nartron, 305 F.3d at 412–13 (also noting that estoppel “requires
more than a showing of mere silence on the part of a plaintiff”).
(Defendants have not asserted an estoppel defense here.) Of
course, the TWM Manufacturing, Kellogg, and Nartron line of
cases, if applicable, would render Defendants’ laches defense
completely inapplicable. See Benson, 2019 WL 1856625, at *25
(holding “that laches does not bar [partisan-gerrymandering]
claims as a matter of law” and citing Nartron and Kellogg).

App. 398
election is imminent in this case. Furthermore,
Defendants have represented to this Court that a new
congressional districting plan would need to be adopted
by September 20, 2019 “to fulfill the administrative
duties and obligations associated with preparing for the
2020 congressional election.” See Dkt. 185-1 (Wolfe
Decl. at 2). We are committed to working with that
timeline for establishing a remedial plan. We also
observe that former Governor Kasich signed H.B. 319
into law on September 26, 2011, and then he signed
H.B. 369, the actual plan that was used in the 2012
elections, into law on December 15, 2011. See Dkt. 234
(Final Pretrial Order at App. A., 2–4). Even though the
current plan was enacted in December, the State still
prepared adequately for the 2012 congressional
elections on that slightly shorter timeline. Accordingly,
we hereby enjoin the State from conducting any
elections using the plan enacted in H.B. 369 in any
future congressional elections.
The parties have not yet fully briefed the issue of a
remedial plan. As a general rule, however, when a
federal court declares a redistricting plan
unconstitutional, “it is . . . appropriate, whenever
practicable, to afford a reasonable opportunity for the
legislature to meet constitutional requirements by
adopting a substitute measure rather than for the
federal court to devise and order into effect its own
plan.” See Wise v. Lipscomb, 437 U.S. 535, 540 (1978).
At this time, we see no reason to deviate from this
general rule. Plaintiffs’ requested relief also seems to
assume this general rule, as their complaint asks this
Court to establish a new plan, “if the Ohio Legislature
and/or Governor fail to enact a new and constitutional

App. 399
plan in a timely manner.” See Dkt. 37 (Second Am.
Compl. at 51–52). We therefore hope that the Ohio
General Assembly “will perform that duty and enact a
constitutionally acceptable plan.” Chapman v. Meier,
420 U.S. 1, 27 (1975).
We advise that Defendants and Plaintiffs must be
prepared to move forward on a remedial plan pursuant
to the following timeline and conditions:
1. The State should enact forthwith its own
remedial plan consistent with this opinion no later
than June 14, 2019. No continuances will be
granted. The date of enactment shall be the date on
which the Governor signs the proposed remedial
plan into law; or, if the Governor vetoes the
proposed remedial plan, the date of enactment shall
be the date on which the General Assembly
overrides the Governor’s veto.
2. On the same day that the State enacts its own
remedial plan, Defendants shall provide notice of
the plan’s enactment to this Court and to Plaintiffs.
No later than seven days from the date on which
the State enacts its own remedial plan (assuming it
enacts such a plan by the June 14 deadline),
Defendants shall file the enacted remedial plan
with this Court.
3. When Defendants file the State-enacted remedial
plan with this Court, they shall also include:
(A) All transcripts of committee hearings and floor
debates related to the State-enacted remedial plan;

App. 400
(B) A description of the process that the General
Assembly, and any constituent committees or
members thereof, followed in drawing the Stateenacted remedial plan, and Defendants shall
disclose the identity of all participants involved in
the process and map drawing;
(C) Data on the remedial plan’s population
deviation, compactness, municipality and county
splits, and any incumbent pairings;
(D) Any alternative plans considered by the General
Assembly or any constituent committee;
(E) All criteria, formal or informal, that were
applied in drawing the State-enacted remedial plan,
including, without limitation, any criteria related to
race, partisanship, the use of political data, or the
protection of incumbents, and a description of how
the map drawers used any such criteria. If any of
the criteria just listed were not used, Defendants
shall so state.
4. If Plaintiffs believe that the State-enacted
remedial map that the Defendants file is still
unconstitutional, they must file their specific
objections to it no later than seven days from the
date on which Defendants file the State-enacted
remedial plan with this Court.
We will then assess whether the State-enacted
remedial plan is constitutionally permissible.
If the State fails in its task to enact a remedial plan,
we have our “own duty to cure illegally gerrymandered
districts through an orderly process in advance of

App. 401
elections.” See Covington, 138 S. Ct. at 2553–54 (citing
Purcell, 549 U.S. at 4–5). In the appropriate
circumstance, we may in our discretion not give the
State “a second bite at the apple.” See id. at 2554
(citation omitted) (holding that the District Court did
not abuse its discretion in appointing a Special Master
when the State failed to enact a permissible remedial
plan). This situation may arise if the State does not
enact its own remedial plan by the June 14 deadline or
if the State-enacted remedial plan is not “a
constitutionally acceptable plan.” Chapman, 420 U.S.
at 27. If this Court must step into the role of putting in
place a new plan, several options are available. We will
address each.
First, we may appoint a Special Master pursuant to
Federal Rule of Civil Procedure 53 to assist the Court
in drawing a remedial plan. To that end, we hereby
order the parties to confer and file no later than June
3, 2019 at 5 P.M., a list of no more than three qualified
and mutually acceptable candidates to serve as a
Special Master. We may then select a Special Master
from that list and issue an order outlining the timeline
and requirements that apply to the Special Master’s
submission of a proposed remedial plan. The parties
would be allowed to comment on any proposal from a
Special Master. In the event that the parties cannot
agree on any candidates for Special Master, we may
identify a Special Master without input from the
parties.
Second, a situation could arise in which the State
enacts a remedial plan, but we nonetheless find it
constitutionally unacceptable. In this situation, the

App. 402
same procedures regarding the appointment of a
Special Master would apply. If the State enacts a
remedial plan that we reject, we will include in our
opinion and order on that plan a timeline for the
Special Master’s submission of a remedial plan.
Finally, Mr. Cooper has submitted a Proposed
Remedial Plan (and a corrected version thereof), as
well as two hypothetical alternative plans that
addressed the pairing of incumbents. Whether or not
the State enacts a remedial plan that we consider,
we hereby order the parties to brief whether one of
Mr. Cooper’s plans could or should be adopted as a
remedial plan. The parties shall file these briefs
simultaneously on June 3, 2019 at 5 P.M., along with
the parties’ list of mutually acceptable candidates for
Special Master (if the parties have not yet filed that list
by that date).
***
In conclusion, we GRANT Plaintiffs’ request to
declare the redistricting plan enacted in H.B. 369
unconstitutional. Moreover, we GRANT Plaintiffs’
request for injunctive relief, and we hereby enjoin
the State from conducting any elections using the plan
enacted in H.B. 369 in any future congressional
elections. Finally, we ORDER that the parties proceed
according to the remedial schedule outlined above.
IT IS SO ORDERED.
ENTERED: May 3, 2019

App. 403
s/ Karen Nelson Moore
HONORABLE KAREN NELSON MOORE
United States Circuit Judge
s/ Timothy S. Black
HONORABLE TIMOTHY S. BLACK
United States District Judge
s/ Michael H. Watson
HONORABLE MICHAEL H. WATSON
United States District Judge

App. 404
APPENDIX A

App. 405
APPENDIX B

App. 406
APPENDIX C

App. 407
AO 450 (Rev. 11/11) Judgment in a Civil Action
UNITED STATES DISTRICT COURT
for the
Southern District of Ohio
Civil Action No. 1:18-cv-357
[Filed May 3, 2019]
________________________________
OHIO A. PHILIP RANDOLPH
)
INSTITUTE, et al.
)
Plaintiff
)
)
v.
)
)
LARRY HOUSEHOLDER, et al.
)
Defendant
)
________________________________ )
JUDGMENT IN A CIVIL ACTION
The court has ordered that (check one):
G the plaintiff (name) _______________ recover from the
defendant (name) ________________the amount of
______________ dollars ($_______), which includes
prejudgment interest at the rate of _____ %, plus post
judgment interest at the rate of _____ % per annum,
along with costs.
G the plaintiff recover nothing, the action be dismissed
on the merits, and the defendant (name)
______________ recover costs from the plaintiff (name)
______________.

App. 408
U other: Plaintiffs are granted judgment against
G
Defendants as expressed in the Order and
Opinion of today's date of the three-judge
panel of Circuit Judge Moore and District
Judges Black and Watson.
This action was (check one):
G tried by a jury with Judge _______________ presiding,
and the jury has rendered a verdict.
G tried by Judge three-judge panel without a jury and
U
the above decision was reached.
G decided by Judge ______________ on a motion for

Date: 5/3/2019
CLERK OF COURT
/s/
Signature of Clerk or Deputy Clerk

App. 409

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Case No.: 1:18-cv-00357-TSB
[Filed May 6, 2019]
__________________________
Ohio A. Philip Randolph
)
Institute, et al.,
)
)
Plaintiffs,
)
)
vs.
)
)
Larry Householder, Speaker )
of the Ohio House of
)
Representatives, et al.,
)
)
Defendants.
)
__________________________ )
Judge Timothy S. Black
Judge Karen Nelson Moore
Judge Michael H. Watson
Magistrate Judge Karen L. Litkovitz
INTERVENORS’ NOTICE OF APPEAL
Intervenors Steve Chabot, Brad Wenstrup, Jim
Jordan, Bob Latta, Bill Johnson, Bob Gibbs, Warren

App. 410
Davidson, Michael Turner, Dave Joyce, Steve Stivers,
the Republican Party of Cuyahoga County, the
Franklin County Republican Party, Robert F. Bodi,
Charles Drake, Roy Palmer III, and Nathan Aichele
hereby give notice of their appeal to the Supreme Court
of the Untied States from the Opinion and Order (ECF
No. 262) and Final Judgment (ECF No. 263) entered by
the Court on May 3, 2019, and all orders relating to or
forming the bases of those items. This appeal is taken
under 28 U.S.C. § 1253.
Respectfully submitted,
BAKER & HOSTETLER LLP
/s/ Patrick T. Lewis
Patrick T. Lewis (0078314)
Trial Attorney
Email: plewis@bakerlaw.com
127 Public Square, Suite 2000
Cleveland, OH 44114-1214
(216) 621-0200 / Fax (216) 696-0740
Robert J. Tucker (0082205)
Email: rtucker@bakerlaw.com
Erika Dackin Prouty (0095821)
Email: eprouty@bakerlaw.com
200 Civic Center Drive, Suite 1200
Columbus, OH 43215-4138
(614) 228-1541 / Fax (614) 462-2616
E. Mark Braden(*)
Email: mbraden@bakerlaw.com
Katherine L. McKnight(*)
Email: kmcknight@bakerlaw.com

App. 411
Richard B. Raile(*)
Email: rraile@bakerlaw.com
Washington Square, Suite 1100
1050 Connecticut Avenue, N.W.
Washington, DC 20036-5403
(202) 861-1500 / Fax (202) 861-1783
(*) admitted pro hac vice
Counsel for Intervenors
***
[Certificate of Service Omitted in the
Printing of this Appendix]

App. 412

APPENDIX C
U.S. Const. art. I
***
Section 2.
The House of Representatives shall be composed of
Members chosen every second Year by the People of the
several States, and the Electors in each State shall
have the Qualifications requisite for Electors of the
most numerous Branch of the State Legislature.
***
Section 4.
The Times, Places and Manner of holding Elections for
Senators and Representatives, shall be prescribed in
each State by the Legislature thereof; but the Congress
may at any time by Law make or alter such
Regulations, except as to the Places of chusing
Senators.
The Congress shall assemble at least once in every
Year, and such Meeting shall be on the first Monday in
December, unless they shall by Law appoint a different
Day.
***

App. 413

APPENDIX D
U.S. Const. amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or
of the press; or the right of the people peaceably to
assemble, and to petition the government for a redress
of grievances.

App. 414

APPENDIX E
U.S. Const. amend. XIV
Amendment XIV. Citizenship; Privileges and
Immunities; Due Process; Equal Protection;
Appointment of Representation; Disqualification of
Officers; Public Debt; Enforcement
Section 1. All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Section 2. Representatives shall be apportioned among
the several States according to their respective
numbers, counting the whole number of persons in
each State, excluding Indians not taxed. But when the
right to vote at any election for the choice of electors for
President and Vice President of the United States,
Representatives in Congress, the Executive and
Judicial officers of a State, or the members of the
Legislature thereof, is denied to any of the male
inhabitants of such State, being twenty-one years of
age, and citizens of the United States, or in any way
abridged, except for participation in rebellion, or other
crime, the basis of representation therein shall be
reduced in the proportion which the number of such

App. 415
male citizens shall bear to the whole number of male
citizens twenty-one years of age in such State.
Section 3. No person shall be a Senator or
Representative in Congress, or elector of President and
Vice President, or hold any office, civil or military,
under the United States, or under any State, who,
having previously taken an oath, as a member of
Congress, or as an officer of the United States, or as a
member of any State legislature, or as an executive or
judicial officer of any State, to support the Constitution
of the United States, shall have engaged in
insurrection or rebellion against the same, or given aid
or comfort to the enemies thereof. But Congress may by
a vote of two-thirds of each House, remove such
disability.
Section 4. The validity of the public debt of the United
States, authorized by law, including debts incurred for
payment of pensions and bounties for services in
suppressing insurrection or rebellion, shall not be
questioned. But neither the United States nor any
State shall assume or pay any debt or obligation
incurred in aid of insurrection or rebellion against the
United States, or any claim for the loss or
emancipation of any slave; but all such debts,
obligations and claims shall be held illegal and void.
Section 5. The Congress shall have power to enforce, by
appropriate legislation, the provisions of this article.

